No. 21-____

In the Supreme Court of the United States
THE STATE OF TEXAS, PETITIONER
v.
DEB HAALAND, SECRETARY OF THE U.S. DEPARTMENT OF
THE INTERIOR, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION APPENDIX
VOLUME I
KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant Attorney
General

JUDD E. STONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Principal Deputy Solicitor
General
MICHAEL R. ABRAMS
BETH KLUSMANN
Assistant Solicitors General
OFFICE OF THE
ATTORNEY GENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Judd.Stone@oag.texas.gov
(512) 936-1700

TA BLE O F C O NTE N TS – V O LU ME I

Appendix A — En Banc Opinion, Brackeen v.
Haaland, No. 18-11479 (5th Cir. Apr. 6, 2021) ....... 1a
TA BLE O F C O NTE N TS – V O LU ME II

Appendix A (cont’d) — En Banc Opinion,
Brackeen v. Haaland, No. 18-11479
(5th Cir. Apr. 6, 2021) ........................................... 344a
Appendix B — Order on Petitions for Rehearing
En Banc, Brackeen v. Bernhardt, No. 18-11479
(5th Cir. Nov. 7, 2019) ........................................... 397a
Appendix C — Opinion, Brackeen v. Bernhardt,
No. 18-11479 (5th Cir. Aug. 9, 2019, as modified
Aug. 16, 2019) ........................................................ 400a
Appendix D — Order on Motions for Summary
Judgment, Brackeen v. Zinke,
No. 4:17-cv-00868-O (N.D. Tex. Oct. 4, 2018) ...... 468a
Appendix E — Final Judgment, Brackeen v.
Zinke, No. 4:17-cv-00868-O (N.D. Tex.
Oct. 4, 2018) ........................................................... 528a
Appendix F — Order on Motions to Dismiss,
Brackeen v. Zinke, No. 4:17-cv-00868-O
(N.D. Tex. July 24, 2018) ...................................... 530a
Appendix G — Relevant Constitutional
Provisions .............................................................. 580a
Appendix H — Relevant Portions of the Indian
Child Welfare Act of 1978, 25 U.S.C. ................... 581a
Appendix I — Relevant Portions of the Final
Rule, 25 C.F.R. ...................................................... 600a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit
FILED
April 6, 2021
Lyle W. Cayce
Clerk
No. 18-11479
CHAD EVERET BRACKEEN; JENNIFER KAY BRACKEEN;
STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ;
STATE OF INDIANA; JASON CLIFFORD; FRANK
NICHOLAS LIBRETTI; STATE OF LOUISIANA; HEATHER
LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs — Appellees,
versus
DEB HAALAND, Secretary, United States Department of
the Interior; DARRYL LACOUNTE, Acting Assistant
Secretary for Indian Affairs; BUREAU OF INDIAN
AFFAIRS; UNITED STATES OF AMERICA; XAVIER
BECERRA, Secretary, United States Department of
Health and Human Services; UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Defendants — Appellants,
CHEROKEE NATION; ONEIDA NATION; QUIANULT
INDIAN NATION; MORONGO BAND OF MISSION INDIANS,
Intervenor Defendants — Appellants.

(1a)

2a
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:17-CV-868
Before OWEN, Chief Judge, and JONES, SMITH, WIENER,
STEWART, DENNIS, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, DUNCAN,
ENGELHARDT, and OLDHAM, Circuit Judges. *
PER CURIAM:
This en banc matter considers the constitutionality of
the Indian Child Welfare Act (ICWA), 25 U.S.C. § 1901
et seq., and the validity of implementing regulations
promulgated by the Bureau of Indian Affairs (BIA) in its
2016 Final Rule (Final Rule). Plaintiffs are several
couples who seek to adopt or foster Indian children, a
woman who wishes for her Indian biological child to be
adopted by non-Indians, and the States of Texas,
Louisiana, and Indiana. Defendants are the United
States, federal agencies and officials charged with
administering ICWA and the Final Rule, as well as
several Indian tribes that intervened in support of
ICWA. The district court granted Plaintiffs summary
judgment in part, declaring that ICWA and the Final
Rule contravene multiple constitutional provisions and
the Administrative Procedure Act (APA). Defendants
appealed. A panel of this court reversed and rendered
judgment for the Defendants. See Brackeen v.
Bernhardt, 937 F.3d 406, 414 (5th Cir. 2019). One panel
member partially dissented, concluding that several
provisions of ICWA violated the Tenth Amendment’s
JUDGE HO was recused and did not participate. JUDGE
WILSON joined the court after the case was submitted and did not
participate.
*

3a
anticommandeering doctrine. See id. at 441–46 (OWEN,
J., concurring in part and dissenting in part). This case
was then reconsidered en banc.
Neither JUDGE DENNIS’s nor JUDGE DUNCAN’s
principal opinion nor any of the other writings in this
complex case garnered an en banc majority on all issues.
We therefore provide the following issue-by-issue
summary of the en banc court’s holdings, which does not
override or amend the en banc opinions themselves.
First is the issue of standing. The en banc court
unanimously holds that at least one Plaintiff has standing
to challenge Congress’s authority under Article I of the
Constitution to enact ICWA and to press
anticommandeering and nondelegation challenges to
specific ICWA provisions. The en banc court also
unanimously holds that Plaintiffs have standing to
challenge the Final Rule as unlawful under the APA. The
en banc court is equally divided as to whether Plaintiffs
have standing to challenge two provisions of ICWA, 25
U.S.C. §§ 1913 and 1914, on equal protection grounds,
and the district court’s conclusion that Plaintiffs can
assert this claim is therefore affirmed without a
precedential opinion. 1 An en banc majority also holds
that Plaintiffs have standing to assert their equal
protection challenges to other provisions of ICWA.
On the merits, an en banc majority agrees that, as a
general proposition, Congress had the authority to enact

See United States v. Garcia, 604 F.3d 186, 190 n.2 (5th Cir.
2010) (“Decisions by an equally divided en banc court are not
binding precedent but only affirm the judgment by operation of
law.”).
1

4a
ICWA under Article I of the Constitution. 2 An en banc
majority also holds that ICWA’s “Indian child”
classification does not violate equal protection. 3 The
district court’s ruling to the contrary on those two issues
is therefore reversed. The en banc court is equally
divided, however, as to whether Plaintiffs prevail on
their equal protection challenge to ICWA’s adoptive
placement preference for “other Indian families,” 25
U.S.C. § 1915(a)(3), and its foster care placement
preference for a licensed “Indian foster home,”
§ 1915(b)(iii). 4 The district court’s ruling that provisions
of ICWA and the Final Rule are unconstitutional
because they incorporate the “Indian child” classification
is therefore reversed, but its ruling that § 1915(a)(3) and
(b)(iii) violate equal protection is affirmed without a
precedential opinion.
The court’s holdings on Plaintiffs’ various
anticommandeering claims are more intricate. An en
banc majority holds that ICWA’s “active efforts,”
§ 1912(d), expert witness, § 1912(e) and (f), and
recordkeeping
requirements,
§ 1915(e),
unconstitutionally commandeer state actors. 5 The
district court’s judgment declaring those sections
See Part II(A)(1) of JUDGE DENNIS’s opinion and Part II of
JUDGE COSTA’s opinion.
3
Part II(B) of JUDGE DENNIS’s opinion is the en banc majority
opinion on this issue, except as to the constitutionality of “other
Indian families” in § 1915(a)(3) and “Indian foster home” in
§ 1915(b)(iii).
4
Compare Part II(B) of JUDGE DENNIS’s opinion with Part
III(A)(3) of JUDGE DUNCAN’s opinion.
5
Parts III(B)(1)(a)(i), (ii), (iv); III(B)(1)(b); and III(B)(2)(b)
(insofar as it addresses §§ 1912(d)–(f) and 1915(e)) of JUDGE
DUNCAN’s opinion are the en banc majority opinion on these issues.
2

5a
unconstitutional under the anticommandeering doctrine
is therefore affirmed. However, the en banc court is
equally divided on whether the placement preferences,
§ 1915(a)–(b), violate anticommandeering to the extent
they direct action by state agencies and officials 6; on
whether
the
notice
provision,
§ 1912(a),
unconstitutionally commandeers state agencies 7; and on
whether the placement record provision, § 1951(a),
unconstitutionally commandeers state courts. 8 To that
extent, the district court’s judgment declaring those
sections unconstitutional under the anticommandeering
doctrine is affirmed without precedential opinion.
Furthermore, an en banc majority holds that several
challenged ICWA provisions validly preempt state law
and so do not commandeer states. Those are provisions
granting certain private rights in state child custody
proceedings—namely, the right to intervene, § 1911(c),
to appointed counsel, § 1912(b), to examine documents,
§ 1912(c), to explanation of consent, § 1913(a), to
withdraw consent, § 1913(b), (c), and (d), to seek
invalidation, § 1914, to seek return of custody, § 1916(a),
and to obtain tribal information, § 1917. 9 In addition, an
en banc majority holds that the following provisions
validly preempt contrary state law to the extent they
apply to state courts (as opposed to state agencies): the
Compare Part II(A)(2)(a)(i) of JUDGE DENNIS’s opinion with
Part III(B)(1)(a)(iii) of JUDGE DUNCAN’s opinion.
7
Compare Part II(A)(2)(b) of JUDGE DENNIS’s opinion with
Part III(B)(1)(a)(v) of JUDGE DUNCAN’s opinion.
8
Compare Parts II(A)(2)(a)(ii) of JUDGE DENNIS’s opinion with
Part III(B)(2)(c) of JUDGE DUNCAN’s opinion.
9
Part III(B)(2)(a) of JUDGE DUNCAN’s opinion is the en banc
majority opinion on this issue, except as to the appointed counsel
provision in § 1912(b).
6

6a
placement preferences, § 1915(a) and (b), and the
placement and termination standards, § 1912(e) and (f). 10
The district court’s rulings to the contrary are therefore
reversed.
Next, an en banc majority holds that § 1915(c), which
permits Indian tribes to establish an order of adoptive
and foster preferences that is different from the order
set forth in § 1915(a) and (b), does not violate the nondelegation doctrine. 11 The district court’s ruling to the
contrary is therefore reversed.
Last are Plaintiffs’ claims that the Final Rule violates
the APA. An en banc majority holds that the BIA did not
violate the APA by concluding in the Final Rule that it
may issue regulations binding on state courts. 12 But an
en banc majority also holds that—consistently with the
en banc court’s holding that §§ 1912(d), 1912(e), and
1915(e) commandeer states—the Final Rule violated the
APA to the extent it implemented these unconstitutional
provisions. 13 Finally, an en banc majority determines
that 25 C.F.R. § 23.132(b)—the part of the Final Rule
interpreting § 1915’s “good cause” standard to require
proof by clear and convincing evidence—violated the

Part III(B)(2)(c) of JUDGE DUNCAN’s opinion is the en banc
majority opinion on this issue, except as to the placement record
requirement in § 1951(a).
11
Part II(C) of JUDGE DENNIS’s opinion is the en banc majority
opinion on this issue.
12
Part II(D)(2) of JUDGE DENNIS’s opinion is the en banc
majority opinion on this issue.
13
Part III(D)(1) of JUDGE DUNCAN’s opinion is the en banc
majority opinion on this issue, insofar as it applies to §§ 1912(d)–(e)
and 1915(e).
10

7a
APA. 14 An en banc majority holds that the Final Rule did
not violate the APA in any other respect. The district
court’s grant of relief under the APA is affirmed to the
extent it is consistent with these holdings and reversed
to the extent it is inconsistent with these holdings.
The judgment of the district court is therefore
AFFIRMED in part and REVERSED in part, and
judgment is accordingly RENDERED.
DENNIS, J., delivered the opinion of the en banc court
with respect to Parts II(B), II(C), and II(D)(2) of his
opinion (except as otherwise noted in the PER CURIAM
opinion, supra).
DUNCAN, J., delivered the opinion of the en banc
court with respect to Parts III(B)(1)(a)(i)–(ii),
III(B)(1)(a)(iv), III(B)(2)(a)–(c), III(D)(1), and III(D)(3)
of his opinion (except as otherwise noted in the PER
CURIAM opinion, supra).

Part III(D)(3) of JUDGE DUNCAN’s opinion is the en banc
majority opinion on this issue.
14

8a
JAMES L. DENNIS, Circuit Judge: †
The Indian Child Welfare Act (ICWA) of 1978 is a
federal law that regulates the removal and out-of-home
placement of American Indian children. The Act
establishes minimum federal standards that must be met
in any legal proceeding to place an Indian child in a foster
or adoptive home, and it ensures that Indian tribes and
families are allowed to participate in such Indian child
welfare cases. See 25 U.S.C. § 1901 et seq. Congress
enacted ICWA after finding “that an alarmingly high
percentage of Indian families are broken up by the
removal, often unwarranted, of their children from them
by nontribal public and private agencies and that an
alarmingly high percentage of such children are placed
in non-Indian foster and adoptive homes and
† JUDGES STEWART and GRAVES join this opinion in full.
JUDGES WIENER, HIGGINSON, AND COSTA join all except Discussion
Part I.A.2 (standing to bring equal protection claims other than the
challenges to 25 U.S.C. §§ 1913-14).
CHIEF JUDGE OWEN joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), I.C (standing to bring anticommandeering
claims), II.A.2.a.1 (anticommandeering challenge to §§ 1912(e)-(f)
and 1915(a)-(b) as they pertain to state courts), and II.C
(nondelegation). She further joins Discussion Part I.D (standing to
bring nondelegation claim) except as to the final sentence. See infra
OWEN, CHIEF JUDGE, OP.
JUDGE SOUTHWICK joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), II.A.1 (Congress’s Article I authority), II.B
(equal protection), and II.C (nondelegation). He further joinss inpart Discussion Parts II.A.2 (anticommandeering) and II.D (APA
challenge to the Final Rule), disagreeing to the extent the analyses
pertains to § 1912(d)-(f) and the regulations that implement those
provisions.
JUDGE HAYNES has expressed her partial concurrence in her
separate opinion. See infra HAYNES, CIRCUIT JUDGE, OP.

9a
institutions”; “that the States, exercising their
recognized jurisdiction over Indian child custody
proceedings through administrative and judicial bodies,
have often failed to recognize the essential tribal
relations of Indian people and the cultural and social
standards prevailing in Indian communities and
families”; and “that there is no resource that is more vital
to the continued existence and integrity of Indian tribes
than their children and that the United States has a
direct interest, as trustee, in protecting Indian children
who are members of or are eligible for membership in an
Indian tribe.” Id.
Plaintiffs, consisting of the States of Texas,
Louisiana, and Indiana, and seven individuals, challenge
the facial constitutionality of ICWA as well as the
statutory and constitutional validity of the Department
of Interior’s 2016 administrative rule implementing
ICWA (the “Final Rule”). Combined, Texas, Louisiana,
Indiana, and Ohio (which filed an amicus brief in support
of Plaintiffs) are home to only about 1% of the total
number of federally recognized Indian tribes and less
than 4% of the national American Indian and Alaska
Native population. See NAT’L CONF. OF STATE LEGIS.,
FEDERAL AND STATE RECOGNIZED TRIBES (March
2020),
https://www.ncsl.org/research/state-tribalinstitute/list-of-federal-and-state-recognizedtribes.aspx; CENTERS FOR DISEASE CONTROL AND
PREVENTION,
Tribal
Population
https://www.cdc.gov/tribal/tribes-organizationshealth/tribes/state-population.html (last viewed Mar. 29,
2021). On the other hand, twenty-six other states and the
District of Columbia have filed amicus briefs asking us to
uphold ICWA and the Final Rule. Those states are

10a
California, Alaska, Arizona, Colorado, Connecticut,
Idaho, Illinois, Iowa, Maine, Massachusetts, Michigan,
Minnesota, Mississippi, Montana, Nevada, New Jersey,
New Mexico, New York, Oklahoma, Oregon,
Pennsylvania,
Rhode
Island,
Utah,
Virginia,
Washington, and Wisconsin, which are collectively home
to 94% of federally recognized Indian tribes and 69% of
the national American Indian and Alaska Native
population.
We do not decide cases by a show of hands of states’
votes, of course, but we cannot ignore the irony of the
situation with which we are faced. Twenty-six states and
the District of Columbia, which are home to a large
majority of federally recognized tribes and the nation’s
overall indigenous population, do not view ICWA as any
sort of burden on their child welfare systems. They
strongly contend that ICWA is constitutional and have
no problem applying it in their state court systems;
indeed, they view ICWA as the “gold standard” for child
welfare practices and a “critical tool” in managing their
relationships with the Indian tribes within their borders.
Conversely, only four states with relatively few tribes
and Indians regard ICWA as offensive to their
sovereignty and seek to have the law struck down
completely because it intrudes upon their otherwise
unimpeded discretion to manage child custody
proceedings involving Indian children. Further, these
State Plaintiffs and their amicus wrongly assert
repeatedly that ICWA regulates all of their child
custody and adoption proceedings. This is simply not
true. Congress drew ICWA narrowly to provide
minimum protections only to qualified Indian children—
safeguards that Congress found necessary and proper to

11a
stop the abusive practices that had removed nearly a
generation of Indian children from their families and
tribes and that threatened the very existence of the
Indian nations. See generally MARGARET JACOBS, A
GENERATION REMOVED: THE FOSTERING AND
ADOPTION OF INDIGENOUS CHILDREN IN THE POSTWAR
WORLD (2014) [hereinafter JACOBS, A GENERATION
REMOVED]. The vast majority of child custody
proceedings in Texas, Louisiana, and Indiana do not
involve Indian children; therefore, ICWA does not apply
in the vast majority of such proceedings in those states
or, for that matter, in any other state.
Defendants are the United States of America, several
federal agencies and officials in their official capacities,
and five intervening Indian tribes. Defendants moved to
dismiss the complaint for lack of subject matter
jurisdiction, but the district court denied the motion,
concluding, as relevant to this appeal, that Plaintiffs had
Article III standing. The district court then granted
summary judgment in favor of Plaintiffs, ruling that
provisions of ICWA and the Final Rule violated equal
protection, the anticommandeering doctrine, the
nondelegation doctrine, and the Administrative
Procedure Act (the “APA”). Defendants appealed.
Although we would affirm most aspects of the district
court’s ruling that Plaintiffs have standing, we would
conclude that Plaintiffs’ challenges to ICWA lack merit
and uphold the statute in its entirety. We would
therefore reverse the district court’s grant of summary
judgment to Plaintiffs and render judgment in favor of
Defendants.

12a
BACKGROUND
Before the establishment of the United States, the
North American landmass was “owned and governed by
hundreds of Indian tribes.” COHEN’S HANDBOOK OF
FEDERAL INDIAN LAW § 1.01 (Nell Jessup Newton ed.,
2012.) [hereinafter COHEN’S]. These tribes, sovereigns
under international law, came under the jurisdiction of
the United States “through a colonial process that was
partly negotiated and partly imposed.” Id. The
Constitution recognizes the existence of Indian tribes
and, in many respects, treats them as sovereigns in the
same manner as the states and foreign nations. See U.S.
CONST. art. I, § 8, cl. 3 (empowering Congress “[t]o
regulate Commerce with foreign Nations, and among the
several States, and with the Indian Tribes”); Holden v.
Joy, 84 U.S. 211, 242 (1872) (holding that the President’s
Article II, Section 2 power to make treaties with the
Indian tribes is coextensive with the power to make
treaties with foreign nations). But a long line of judicial
opinions confirms that, under U.S. law, Indian tribes
occupy a unique position: they are “domestic, dependent
nations.” Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1,
17 (1831). That is, tribes reside within the United States
and are subject to federal power, but they retain
sovereign authority over a range of matters relevant to
their self-government. COHEN’S, supra § 1.01.
Three key principles underpin the field of federal
Indian law. First, Indian tribes possess “inherent powers
of a limited sovereignty that has never been
extinguished.” Id. Because of tribes’ retained
sovereignty, they have a government-to-government
relationship with the United States. Id. Second, the
federal government has expansive and exclusive powers

13a
in Indian affairs, and, relatedly, an ongoing obligation to
use those powers to promote the well-being of the tribes
in what is commonly referred to as a trust relationship.
Id. Third, as a corollary to the federal government’s
broad power in Indian affairs, the supremacy of federal
law, and the need for the nation to speak with one voice
in its government-to-government relations, state
authority in this field is very limited. Id.
In addition to these precepts, we are mindful of the
uniquely crucial importance of historical perspective in
federal Indian law. See, e.g., CHARLES A. MILLER, THE
SUPREME COURT AND THE USES OF HISTORY 24 (1969)
(“[I]n disputes concerning American Indian tribes the
courts have also considered and often decided cases
principally on the basis of historical materials[.]”). As
Justice Holmes said about a different issue: “Upon this
point a page of history is worth a volume of logic.” New
York Trust Co. v. Eisner, 256 U.S. 345, 349 (1921); see
also N.L.R.B. v. Noel Canning, 573 U.S. 513, 524 (2014)
(“[L]ong settled and established practice is a
consideration of great weight in a proper interpretation
of constitutional provisions[.]” (quoting The Pocket Veto
Case, 279 U.S. 655, 689 (1929)). Particularly significant
to our analysis is the contemporary understanding of the
Constitution’s treatment of Indian Affairs at the time of
its adoption. See, e.g., District of Columbia v. Heller, 554
U.S. 570, 605-10 (2008) (canvassing Founding-era
historical sources to synthesize the original
understanding of the Constitution). We therefore survey
the interrelated history of Indian affairs and the
adoption of the Constitution.

14a
I. A Brief History of the American Indians and the
United States Constitution
In holding key provisions of ICWA unconstitutional,
the district court disregarded two centuries of precedent
and omitted any discussion of the history of the federal
constitutional power to enter treaties or legislate with
respect to the Indian tribes. Seeking to make up for the
district court’s errors and omissions, the Plaintiffs now
cite to several historical texts. The authorities they cite,
however, mainly support a broad understanding of the
federal government’s exclusive power over Indian
affairs, which includes the authority to prevent states
from exercising their sovereignty in ways that interfere
with federal policy toward the Indians. Careful study of
their references and other scholarly resources reveals
the lack of foundation for the district court’s more
limited conception of federal authority.
Following the American Revolution, the new United
States government supplanted the British Crown as the
self-appointed ruler of most of North America, thereby
inviting expansive white settlement of the continent. See
COHEN’S, supra § 1.02. Americans, then, were optimistic
in 1783; their victory over the British had rendered the
nation, as George Washington put it, “the sole Lord[] and
Proprietor[] of a vast tract of continent.” Gregory
Ablavsky, The Savage Constitution, 63 DUKE L.J. 999,
1009 (2014) [hereinafter Ablavsky, Savage Constitution]
(quoting George Washington, THE LAST OFFICIAL
ADDRESS,
OF
HIS
EXCELLENCY
GENERAL
WASHINGTON, TO THE LEGISLATURES OF THE UNITED
STATES 4 (1783)). But only four years later, that
optimism “turned to despondence, as the Continental
Congress, with an empty treasury and a barely extant

15a
military, confronted looming wars against powerful
Indian confederacies on the northern and southern
borderlands.” Id. Unrest between the tribes, the states,
squatters, and settlers was largely to blame for this
dramatic shift in national mood—hallmarks of the failure
of the central government’s Indian policy under the
Articles of Confederation. Id. at 1006.
The insolvent Continental Congress desperately
desired both peace with the Indians and annexation of
the western land they inhabited in order to repay the
debt it had incurred during the Revolutionary War. Id.
To accomplish these goals, the new nation followed the
practice of the British, who had treated Indian tribes as
“quasi-foreign nations” and used negotiation, treaties,
and war-making as the primary tools for managing
relations. Br. of Prof. Ablavsky at 5. In other words, the
United States structured its relations with tribes akin to
its regulation of foreign affairs. See id. The Articles of
Confederation accordingly provided that the national
government was to have authority over “managing all
affairs with the Indians.” ARTICLES OF CONFEDERATION
OF 1781, art. IX. As the Continental Congress’s
Committee on Southern Indians explained, this
authority comprehended a number of interrelated
powers: “making war and peace, purchasing certain
tracts of [tribal] lands, fixing the boundaries between
[Indians] and our people, and preventing the latter
settling on lands left in possession of the former.” 33
Journals of the Continental Congress, 1774-1789, 457
(Roscoe R. Hill ed., 1936). These interconnected powers
were, in the Southern Indians Committee’s view,
“indivisible.” Id. This is to say that, under the Articles of
Confederation, the Continental Congress was intended

16a
to possess Indian affairs powers like those that any
sovereign would hold in conducting affairs with other
sovereigns. See id. (noting that “before the revolution”
these powers “were possessed by the King”). In practice,
however, it was not clear whether, under the Articles, the
states also retained the sovereign power to deal with the
Indian tribes in their own right. See THE FEDERALIST
NO. 42 at 217 (James Madison) (describing the
delineation of authority as “ambiguous”).
Exercising its federal authority, the Continental
Congress appointed commissioners to secure peace
treaties with tribes throughout the nation. COHEN’S,
supra at 1.02[3]. These treaties serve as some of the
earliest documentary bases for the nation’s continuing
trust relationship with the tribes. For example, in return
for peace and other guarantees, the United States
promised the Cherokees that the tribe would be
“received” into “the favour and protection of the United
States of America.” Treaty with the Cherokees,
preamble, 1785, 7 Stat. 18. Similar language was included
in a treaty with the Six Nations tribes at Fort Stanwix in
New York. TREATY WITH THE SIX NATIONS, 1784, 7 Stat.
15 (Treaty at Fort Stanwix).
While the national government worked to secure
treaties with the tribes, some states resisted—or
outright defied—these efforts, viewing them as
infringements on their sovereignty. COHEN’S, supra at
1.02[3]. New York, for instance, protested the asserted
national “incursion” into its powers posed by the Treaty
of Fort Stanwix. Robert N. Clinton, The Dormant
Indian Commerce Clause, 27 CONN. L. REV. 1055, 1147
(1995). Other states went further. Georgia and North
Carolina seized on ambiguous clauses in the Articles

17a
concerning the scope of federal power over Indian
affairs, construing them in a manner that “le[ft] the
federal powers . . . a mere nullity.” 33 Journals of the
Continental Congress at 457. Indeed, Georgia outright
ignored federal treaties and attempted to form its own
compacts with the Creek Indians, see id., “reportedly
resort[ing] to death threats to compel agreement” and
expropriate tribal lands. Ablavsky, The Savage
Constitution, supra at 1028; see also Report of the
Secretary of War on the Southern Indians (July 18,
1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS:
TREATIES AND LAWS, 1607-1789: REVOLUTION AND
CONFEDERATION 449, 450 (Alden T. Vaughan et al. eds.,
1994)
[hereinafter
EARLY AMERICAN INDIAN
DOCUMENTS].
In a memorandum drafted on the eve of the
Constitutional Convention, James Madison described
Georgia’s “wars and Treaties . . . with the Indians,” as
emblematic of the “vices” inherent in the division of
federal and state power under the Articles. JAMES
MADISON, VICES OF THE POLITICAL SYSTEM OF THE
UNITED STATES, in 9 THE PAPERS OF JAMES MADISON
345, 348 (Robert A. Rutland et al. eds., 1975). And in a
letter sent to Congress in the midst of the Convention,
Secretary at War Henry Knox worried that the United
States could not “effectual[y] interfere[]” in the many
skirmishes that pitted states and settlers against Indians
and, he predicted that a “general [I]ndian war may be
expected.” 1 H. Knox, Report of the Secretary at War on
Knox’s position was labeled “Secretary at War” under the
Articles. See 19 Journals of the Continental Congress, 1774-1789, at
126 (Worthington Chauncey Ford ed., 1912) (establishing under the
Articles of Confederation the position of “Secretary at War”). He
1

18a
the Southern Indians (July 18, 1787), in 18 EARLY
AMERICAN INDIAN DOCUMENTS 450. Thus, nationalists
like Madison and Alexander Hamilton “agreed on the
problem”: the new nation was “too weak to exercise the
authority it enjoyed on paper” under the Articles of
Confederation, and a stronger federal government was
needed. Ablavsky, Savage Constitution, supra at 999.
“Indian affairs thus propelled the creation of a more
powerful national state—one that, in Madison’s words,
would possess the “ability to effect what it is proper [it]
should do.’” Id. (alterations in original) (quoting Letter
from James Madison to George Nicholas (May 17, 1788),
in 18 THE DOCUMENTARY HISTORY OF THE
RATIFICATION OF THE CONSTITUTION: COMMENTARIES
ON THE CONSTITUTION PUBLIC AND PRIVATE 24, 28
(John P. Kaminski et al. eds., 1995)). The supporters of a
stronger national authority envisioned a central
government that could “govern not merely in principle
but ‘in reality,’” as Secretary Knox wrote about Indian
affairs. Id. (quoting Report of the Secretary at War on
the Southern Indians (July 18, 1787), in 18 EARLY
AMERICAN INDIAN DOCUMENTS 449, 450).
At the Constitutional Convention, Madison
attributed the failings of Indian policy to state
interference with the Confederation’s authority,
especially its treatymaking power. Id. at 1006. His
solution to Indian affairs was to revise “federalism to
was appointed to the new position of “Secretary of War” in
September 1789. See Harry M. Ward, The Department of War,
1781-1795, at 101-02 (1962); see also Act of Aug. 7, 1789, ch. 7, 1 Stat.
49, 50 (establishing the Department of War and the office of
Secretary of War, a position invested with “such duties as shall be
enjoined on, or entrusted to him by the President of the United
States . . . relative to Indian Affairs”).

19a
ensure federal supremacy—partly through the Indian
Commerce Clause, but more significantly through the
Treaty, Compact, Supremacy, and Property Clauses.”
Ablavsky, Savage Constitution, supra at 1006-07. At its
heart, Madison’s solution to Indian affairs “envisioned a
strengthened federal government that would protect and
restrain Indians and states alike.” Id. at 1007.
Hamilton and other Federalists took a different but
complementary view; their “concern over external
threats dovetailed with the views of many on the frontier,
who blamed the Articles’ failure on national military
weakness against Native power.” 2 Id. The approach of
2
Though the writings and speeches of Madison have
traditionally been regarded as the authoritative encapsulation of the
Federalist case for the Constitution, contemporary research has
upset the assumption that Madison’s views were representative of
the Federalist camp generally. In particular, historians have
harnessed The Documentary History of the Ratification, a rich
source of primary material concerning the Constitutional
Convention and the ratification debates that includes documents
such as letters, petitions, and records of convention debates. See
MAX M. EDLING, A REVOLUTION IN FAVOR OF GOVERNMENT:
ORIGINS OF THE U.S. CONSTITUTION AND THE MAKING OF THE
AMERICAN STATE 18-21 (2003) at 29 [hereinafter Edling, A
REVOLUTION IN FAVOR OF GOVERNMENT] (citing THE
DOCUMENTARY HISTORY OF THE RATIFICATION OF THE
CONSTITUTION: COMMENTARIES ON THE CONSTITUTION PUBLIC
AND PRIVATE 24, 28 (John P. Kaminski et al. eds., 1995)). In addition
to the obvious import of the proceedings during the Constitutional
Convention at which the charter was framed, documentation from
the subsequent ratification debates offers significant insight into
how the Constitution should be interpreted. The Constitution rooted
its legitimacy in the consent of those whom it would come to govern,
declaring that the system it outlined was “ordained and established”
by “We the people,” U.S. CONST. PREAMBLE. To turn the promise
of self-rule into a reality, ratification was conducted through a series
of state conventions with delegates chosen by the voters of each

20a
state. Ratification thus was itself an act of popular sovereignty and
representative democracy that required the public and its chosen
delegates to be educated and deliberate on the meaning of the
Constitution. See id. at 29-31. These ratification debates provided
the “first widely shared” exposition of important constitutional
provisions, and the discussions that took place therein were the
starting point for constitutional interpretation during the early
republic. Id. Thus, the contemporaneous writings that circulated
among the public and within the state ratification conventions are
as important as the records of the Constitutional Convention itself
in determining the charter’s original public meaning. See id.
Mining this trove, historians have concluded that the issues that
motivated Madison were not emphasized by all Federalists. Many
Federalists did not echo Madison’s prototypical liberal “call for
minority rights and limited government,” but rather argued for the
formation of a strong national state. Id. at 14-15. While Madison was
concerned primarily with creating a constitutional structure that
would protect liberty by restraining concentrations of power and
safeguarding the rights of minorities, Hamilton and others sought
to establish a robust “national government with the ability to act.”
Id.
This latter group of Federalists, having witnessed the failings
of the weak and insolvent nation under the Articles of
Confederation, were fierce advocates for the Constitution’s grant of
unlimited fiscal and military power to the central government,
arguing that centralizing such authority was necessary to defend
against foreign and domestic aggressors and competitors. Id. Chief
among the adversaries they sought to protect against were the
Indian tribes. Indians presented immediate dangers in the
borderlands, and these Federalists feared the tribes would form
confederations with each other, the British to the north, or the
Spanish to the south, creating strong rival powers for control of the
continent. Id. These Federalists also perceived a need to remove the
tribes, by force or by treaties, as obstacles to the new nation’s
capitalization of the interior lands and their resources. See
Ablavsky, Savage Constitution at 1037-38, 1063-67. Countering the
tribes, they believed, would require a strong central government
with unlimited taxing, borrowing, and military powers. In sum, the
need for a strong national government with robust powers to

21a
Hamilton and likeminded Federalists to Indian affairs,
then, was to create a muscular “fiscal-military state that
would possess the means to dominate the borderlands at
Indians’ expense.” Id. (citing Max M. Edling, A
REVOLUTION IN FAVOR OF GOVERNMENT ORIGINS OF
THE U.S. CONSTITUTION AND THE MAKING OF THE
AMERICAN STATE 47-49 (2003)). The Indians thus served
as “both impetus and justification for the creation of a
federal standing army” supportable through direct
taxation. Id.
Ultimately, these arguments in favor of restraining
states and centralizing authority over Indian affairs
resulted in a significant enhancement of the federal
government’s power. Id. at 999. New constitutional
provisions were added declaring the federal constitution,
laws, and treaties the supreme law of the land; barring
state treatymaking; and providing “exclusive federal
power over western territories.” Id. Added, too, was the
Indian Commerce Clause, but the foregoing more
general provisions ensuring supreme federal power over
the states with respect to foreign affairs and the western
territories were of much greater importance, as they
collectively authorized the “fiscal-military state
committed to western expansion” that the Federalists
had envisioned. Id.
During the ratification of the Constitution, the
constant potential for Indian alliances with other tribes
or European nations also influenced the public
manage relations with the Indians played a crucial role in the
Federalist case for the Constitution, and recognizing this motivation
is key to understanding the wide breadth of the Indian affairs power
the Constitution confers on the federal government. See id. at 105867.

22a
understanding of the Constitution. See id. at 1058-67.
Indeed, “many Federalists repeatedly invoked the
specter of threats posed by the ‘savages’ to justify”
states’ ratifying a stronger federal government and a
standing army. Id. at 1000, 1069. This unifying strategy
worked well: Georgia, for example, ratified the new
Constitution after only three days of debate so that it
could secure federal aid in its ongoing war with the
Creek Indians. Id.
Proponents of the new charter also expressly
contended that its consolidation of power over Indian
affairs in the national government would rectify the
problems that had resulted from the split authority
between the states and Congress under the Articles of
Confederation. Writing in the Federalist Papers,
Madison described the Indian Commerce Clause as
“very properly unfettered” by the ambiguous limits
Article XI of the Articles of Confederation had placed on
state power. THE FEDERALIST NO. 42 at 217 (James
Madison); see also Ablavsky, The Savage Constitution,
supra at 1053-54. The Constitution’s opponents
recognized, too, the import of this redistribution of
power in Indian affairs; Abraham Yates, a leading AntiFederalist, warned that “adopting the new government[]
will enervate” states’ “legislative rights, and totally
surrender into the hands of Congress the management
and regulation of the Indian affairs.” Abraham Yates,
Documentary History of the Ratification of the
Constitution, Vol. XX, p. 1158; see also Ablavsky, The
Savage Constitution, supra at 1053-54. Yet the
Constitution was ratified despite these concerns,
indicating that early Americans viewed the benefits of

23a
centralizing power over Indian affairs to be worth the
surrender of state authority.
The post-ratification history further confirms that
the Constitution created a fiscal-military government
possessing broad, exclusive federal powers over Indian
affairs. The Washington Administration likened federal
authority over Indian affairs to its foreign affairs power.
For instance, Secretary Knox wrote to President George
Washington that “[t]he independent nations and tribes
of Indians ought to be considered as foreign nations, not
as the subjects of any particular state.” Letter from
Henry Knox to George Washington (July 7, 1789), in 3
PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL
SERIES 134, 138 (Dorothy Twohig ed., 1989).
Accordingly, as Knox explained in another letter, the
federal government had supreme authority to regulate
in this field: “[T]he United States have, under the
constitution, the sole regulation of Indian affairs, in all
matters whatsoever.” Letter from Henry Knox to Israel
Chapin (Apr. 28, 1792), in 1 AMERICAN STATE PAPERS:
INDIAN AFFAIRS 231-32 (Walter Lowrie et al. eds., 1832).
State officials also acknowledged the federal
government’s plenary authority over Indian affairs
under the new constitution. Soon after ratification, for
example, South Carolina Governor Charles Pinckney
wrote to President Washington requesting aid from “the
general Government, to whom with great propriety the
sole management of India[n] affairs is now committed.”
Letter from Charles Pinckney to George Washington
(Dec. 14, 1789), in 4 PAPERS OF GEORGE WASHINGTON:
PRESIDENTIAL SERIES 401, 404 (Dorothy Twohig ed.,
1993); see also Gregory Ablavsky, Beyond the Indian
Commerce Clause, 124 YALE L.J. 1012, 1043 (2015)

24a
[hereinafter Ablavsky, Beyond the Indian Commerce
Clause] (citing similar acknowledgments of federal
supremacy in Indian affairs by the legislatures of
Georgia and Virginia).
Early congressional enactments demonstrate the
Founding-era view that the federal government was
supreme in regulating Indian affairs. Ablavsky, Savage
Constitution, supra at 999. Particularly significant is the
First Congress’s passage of the Indian Intercourse Act
(also referred to as the “Non-Intercourse Act” or “Trade
and Intercourse Act”). Act of July 22, 1790, 1 Cong. ch.
33, 1 Stat. 137. The statute limited trade with Indians to
persons licensed by the federal government and
criminalized offenses by U.S. citizens against Indians in
Indian country, including within states’ borders.
Successor versions were enacted throughout the 18th
and 19th centuries, further expanding the scope of the
law by, for instance, “authorizing federal military force
to arrest violators of the Act found within Indian country
anywhere in the United States.” See Br. of Prof.
Ablavsky at 11. 3
That the Constitution was intended to confer on the
federal government unimpeded authority vis-à-vis
Indian relations is evidenced further in how the
government deployed its new fiscal-military power
against the tribes in service of the nation’s westward
expansion. 4 The military’s initial western expeditions in
See also Act of May 19, 1796, 4 Cong. ch. 30, § 3, 1 Stat. 469,
470; Act of June 30, 1834, ch. 161, 4 Stat. 729; Act of Mar. 30, 1802,
ch. 13, 2 Stat. 139; Act of Mar. 3, 1799, ch. 46, 1 Stat. 743; Act of Mar.
1, 1793, ch. 19, 1 Stat. 329.
4
“The army had been brought into existence to deal with
western expansion and to coerce the Indians.” EDLING, A
REVOLUTION IN FAVOR OF GOVERNMENT, supra at 140. Indeed, in
3

25a
the early 1790s resulted in gross failure, as an Indian
confederacy handed the American forces the U.S.
Army’s worst defeat by Indians in its entire history.
Ablavsky, Savage Constitution, supra at 1077-78. The
Indians’ routing of American troops underscored their
martial strength and the threat that they posed to the
nation’s ambitions to conquer the western lands. In
response, the government ramped up spending on the
Army over the next few years, swelling its size
severalfold. In subsequent battles with the Indians, the
newly strengthened Army “prevailed, seizing most of
present-day Ohio.” Id. at 1078. The government’s
bellicose stance toward the tribes persisted, and, over
the next century, wars between the Indians and the
United States “remained a near constant” as the
government continued to facilitate westward expansion. 5
the Antebellum era alone, the U.S. Army fought at least ten wars
against the Indians. Ablavsky, Savage Constitution, supra at 1080
& n.483.
5
The history of the dispossession of the Indians continued apace
throughout the nineteenth and well into the twentieth centuries. In
the early years of the nineteenth century, for example, the United
States negotiated treaties that resulted in the nation acquiring
millions of acres, “often paying pennines on the acre for lands worth
many times more.” COHEN’S, supra § 1.03. Later, during the
“allotment” era of 1887 until 1934, Indians’ land holdings plunged
from 138 million acres to only 48 million acres of land due to the
federal government’s policy of splitting tribal members’ undivided
interests in reservation lands into individually-owned lots and then
selling off “surplus” reservation land to non-Indians. Id. § 1.04. By
the measure of some scholars of the Indian history, “the United
States seized some 1.5 billion acres from North America’s native
peoples” in total since the nation’s founding. Claudio Saunt, The
(Jan.
7,
2015),
Invasion
of
America,
AEON
https://aeon.co/essays/how-were-1-5-billion-acres-of-land-sorapidly-stolen. Professor Saunt has authored several books

26a
Id. at 1078. In this way, the Constitution operated as the
Federalists had predicted: the nation developed a strong
military able to quell any threat posed by Indians and,
consequently, to open up the west to Anglo settlement.
Id. at 1077-78.
Finally, early Supreme Court decisions confirm that
the Constitution was understood to place the reins of
authority over Indian affairs squarely and solely in the
hands of the federal government. In Worcester v.
Georgia, 31 U.S. (6 Pet.) 515, 559 (1832), Chief Justice
John Marshall explained that the Constitution
confers on congress the powers of war and peace; of
making treaties, and of regulating commerce with
foreign nations, and among the several states, and
with the Indian tribes. These powers comprehend all
that is required for the regulation of our intercourse
with the Indians. They are not limited by any
restrictions on their free actions. The shackles
imposed on this power, in the confederation, are
discarded.
The Court’s holistic reading of the Constitution
exemplifies how the Founding Generation understood
federal Indian authority: as a bundle of interrelated
powers that functioned synergistically to give the federal
government supreme authority over Indian affairs. See
id. at 519 (“The treaties and laws of the United States
documenting the lengthy history of injustices that befell the Indians
as their lands were taken by non-Indians throughout the eighteenth
and nineteenth centuries, often by the federal government or with
its backing. See, e.g., CLAUDIO SAUNT, WEST OF THE REVOLUTION:
AN UNCOMMON HISTORY OF 1776 (2014); CLAUDIO SAUNT,
UNWORTHY REPUBLIC: THE DISPOSSESSION OF NATIVE
AMERICANS AND THE ROAD TO INDIAN TERRITORY (2020).

27a
contemplate the Indian territory as completely
separated from that of the states; and provide that all
intercourse with them shall be carried on exclusively by
the government of the union.”); see also Ablavsky,
Beyond the Indian Commerce Clause, supra at 1040; cf.
McGirt v. Oklahoma, 140 S. Ct. 2452, 2463 (2020) (“The
policy of leaving Indians free from state jurisdiction and
control is deeply rooted in this Nation’s history.”
(internal quotation marks omitted)).
In sum, the historical evidence powerfully
demonstrates that the Framers intended the
Constitution, through an array of provisions, to entrust
to the federal government exclusive and supreme
authority in Indian affairs, including the power to
prevent states from interfering with federal policy
toward the Indians. It also reveals that the Founding
Generation, both at the federal and state levels, held this
same understanding regarding the Constitution’s
consolidation of authority in Indian affairs. Wielding its
interconnected, symbiotic powers in this area, the early
federal government at times regulated to encourage
national expansion at the expense of the Indians’
sovereignty and thereby to entrench tribes’ dependency
on the federal government of the United States.
II. The Special Federal Tribal Trust Relationship
As a result of the federal government’s forcible
annexation of the western lands and envelopment of the
Indian nations, the United States developed a special
obligation with respect to the Indian tribes, with the two
sharing what modern courts generally describe as a
unique “trust relationship.” Matthew L.M. Fletcher,
PRINCIPLES OF FEDERAL INDIAN LAW § 5.2 (1st ed.
2017) [hereinafter Fletcher, FEDERAL INDIAN LAW]. In

28a
essence, the trust relationship obligates the federal
government to preserve tribal self-governance, promote
tribal welfare, and uphold its fiduciary duty in managing
tribal assets. See id.
The contemporary understanding of the trust
relationship has roots in the centuries-old “doctrine of
the law of nations.” Worcester, 31 U.S. at 520. That
doctrine holds that “when a stronger sovereign assumes
authority over a weaker sovereign, the stronger one
assumes a duty of protection for the weaker one, which
does not surrender its right to self-government.”
Fletcher, FEDERAL INDIAN LAW, supra § 5.2; see
Worcester, 31 U.S. at 552, 555 (“Th[e] relation [between
the United States and the tribes] was that of a nation
claiming and receiving the protection of one more
powerful: not that of individuals abandoning their
national character, and submitting as subjects to the
laws of a master . . . Protection does not imply the
destruction of the protected.”). Of course, the Indian
Nations were originally self-governing sovereigns and
independent from any outside rulers. See McClanahan
v. State Tax Comm’n of Az., 411 U.S. 164, 172 (1973). But
vested with plenary authority over Indian affairs, the
federal government from its founding asserted a degree
of ultimate sovereignty over the tribes. See Ablavsky,
Beyond the Indian Commerce Clause, supra at 1012. In
particular, the United States insisted that it had the
authority under the law of nations to control the tribes’
external relations with other sovereigns. See Fletcher,
FEDERAL INDIAN LAW, supra § 5.2. Under the same law
of nations, then, the United States naturally assumed a
duty of protection to the tribes. See id. And as the nation
expanded westward, an increasing number of Indian

29a
nations, whether through treaty or military conquest,
fell under the authority of the United States and
therefore under its duty of protection. COHEN’S, supra
§ 1.03.
In addition to demonstrating the early federal
government’s view that it held exclusive plenary power
over Indian affairs, the First Congress’s enactment of
the Indian Intercourse Act reveals that the young nation
understood itself to owe a special duty of protection to
the Indian tribes within its borders. Act of July 22, 1790,
1 Cong. ch. 33, 1 Stat. 137. The legislation sought to
prevent abuses against Indians by non-Indians and
states. Specifically, it permitted only federal agents to
purchase Indian lands and provided for criminal
sanctions for offenses by non-Indians against Indians.
See COHEN’S, supra § 1.03. Federal legislation protective
of Indians was crucial because, as the Court later
explained, the tribes “owe no allegiance to the states, and
receive from them no protection. Because of the local ill
feeling, the people of the states where they are found are
often their deadliest enemies.” United States v. Kagama,
118 U.S. 375, 384 (1886).
The government’s acknowledgement and assumption
of a special duty of protection is further reflected in
countless treaties between the United States and the
tribes. See, e.g., Worcester, 31 U.S. at 519 (noting that the
United States “assum[ed] the duty of protection” toward
the Cherokee Nation under the Treaty of Holston, July
2, 1791, 7 Stat. 39, 40). Like the Indian Intercourse Act,
these treaties committed the government to protecting
the tribes from a sometimes-hostile non-Indian populace.
See, e.g., Treaty with the Northern Cheyenne and
Northern Arapahoe, art. I, May 10, 1868, 15 Stat. 655,

30a
655 (“If bad men among the whites, or among other
people subject to the authority of the United States, shall
commit any wrong upon the person or property of the
Indians, the United States will . . . cause the offender to
be arrested and punished according to the laws of the
United States, and also reimburse the injured person for
the loss sustained.”); see also Mary Christina Wood,
Indian Land and the Promise of Native Sovereignty:
The Trust Doctrine Revisited, 1994 UTAH L. REV. 1471,
1496-97 (1994). The Supreme Court itself has repeatedly
recognized the duty of protection the treaties
memorialized. See, e.g., Kagama, 118 U.S. at 384 (“From
the[ tribes’] very weakness and helplessness, so largely
due to the course of dealing of the federal government
with them, and the treaties in which it has been
promised, there arises the duty of protection, and with it
the power.”); Worcester, 31 U.S. at 519.
Regrettably, the federal government’s involvement
in Indian affairs has also often been far from benign.
During the late nineteenth to early twentieth centuries,
Congress interfered in internal tribal affairs and
property interests extensively. Fletcher, FEDERAL
INDIAN LAW, supra § 5.2; see also McGirt, 140 S. Ct. at
2463 (discussing Congress’s policy in the late 1800’s of
“pressur[ing] many tribes to abandon their communal
lifestyles and parcel their land into smaller lots owned by
individual tribe members,” in order to assimilate Native
Americans and give white settlers “more space of their
own” (citing General Allotment Act of 1887, ch. 119, 24
Stat. 388-90)). The Court, however, held that such
congressional enactments—even when they resulted in
takings of tribal property—were immune from judicial
review as long as Congress acted in “good faith.” Lone

31a
Wolf v. Hitchcock, 187 U.S. 553, 565-66 (1903)). In taking
a hands-off, deferential approach to Congress’s
management of Indian affairs, the Court analogized the
federal-tribal relationship as akin to that of a guardian to
its ward. See, e.g., id. at 565 (stating that “Congress
possess[es] paramount power over the property of the
Indians, by reason of its exercise of guardianship over
their interests”); Kagama, 118 U.S. at 384 (“These
Indian tribes are the wards of the nation. They are
communities dependent on the United States[.]”).
Though intended to suggest that the government played
a salutary role in tribal affairs, the guardianship
metaphor instead underscores a prevailing view of
Indians—both wrongheaded and deeply repugnant—as
primitive people, “untutored and improvident, and still
requiring the protection and supervision of the general
government.” Heckman v. United States, 224 U.S. 413,
417 (1912); see also, e.g., Beecher v. Wetherby, 95 U.S. (5
Otto) 517, 525 (1877) (describing the Indians as “an
ignorant and dependent race” subject to the “control [of]
a Christian people”).
In 1934, Congress began a “slow retreat” from this
problematic guardianship model when it enacted the
Indian Reorganization Act. Fletcher, FEDERAL INDIAN
LAW, supra § 5.2 (citing Act of June 18, 1934, 48 Stat.
984, codified as amended at 25 U.S.C. §§ 5101 et seq.).
The Act, for the first time in the history of the
government’s intervention in Indian affairs, required
tribal consent to the statute’s operative provisions. 25
U.S.C. § 5123(a)(1). This trend continued into the latter
half of the twentieth century, and the guardianship
metaphor has now given way completely, with Congress
and the modern Court both explicitly acknowledging

32a
that the government’s relationship with and obligations
to the tribes is instead that of a trustee to a beneficiary.
See, e.g., 25 U.S.C. §§ 5601–02 (recognizing and
reaffirming the federal trust responsibility); 25 U.S.C.
§ 3101 (finding that “the United States has a trust
responsibility toward Indian forest lands”); United
States v. Mitchell, 463 U.S. 206, 225 (1983) (affirming the
“undisputed existence of a general trust relationship
between the United States and the Indian people”); see
also Fletcher, FEDERAL INDIAN LAW, supra § 5.2.
Rather than reflecting and justifying a paternalistic
approach that subordinated tribal sovereignty—as the
guardianship model did—the trust relationship commits
the federal government to preserving tribal selfgovernance. 6 It also obligates and authorizes Congress
This duty to maintain tribal self-governance is embodied in the
congressional statement of policy in the Indian Self-Determination
and Education Assistance Act of 1975:
6

The Congress declares its commitment to the maintenance
of the Federal Government’s unique and continuing
relationship with, and responsibility to, individual Indian
tribes and to the Indian people as a whole through the
establishment of a meaningful Indian self-determination
policy that will permit an orderly transition from the
Federal domination of programs for, and services to,
Indians to effective and meaningful participation by the
Indian people in the planning, conduct, and administration
of those programs and services. In accordance with this
policy, the United States is committed to supporting and
assisting Indian tribes in the development of strong and
stable governments, capable of administering quality
programs and developing the economies of their respective
communities.
25 U.S.C. § 5301.

33a
to enact statutes that promote the general well-being of
tribes by providing them with governmental services,
including education, health care, housing, and public
safety. Fletcher, FEDERAL INDIAN LAW, supra § 5.3; see
also Seminole Nation v. United States, 316 U.S. 286
(1942) (imposing “the most exacting fiduciary standards”
on the government in administering tribal assets). In
fact, “[n]early every piece of modern legislation dealing
with Indian tribes contains a statement reaffirming the
trust relationship between tribes and the federal
government.” 7 COHEN’S, supra § 5.04.
In short, the present-day trust relationship between
the United States and Indian nations is an outgrowth of
a complex, centuries-old nation-to-nation political
relationship between the two, and it expresses both the
7
See, e.g., Indian Trust Asset Reform Act, 25 U.S.C. §§ 5601–
5602 (recognizing and reaffirming the federal trust responsibility);
National Indian Forest Resources Management Act, 25 U.S.C.
§ 3101 (finding that “the United States has a trust responsibility
toward forest lands”); American Indian Agricultural Resources
Management Act, 25 U.S.C. § 3701 (finding that “the United States
has a trust responsibility to protect, conserve, utilize, and manage
Indian agricultural lands consistent with its fiduciary obligation and
its unique relationship with Indian tribes”); American Indian Trust
Fund Management Reform Act of 1994, 25 U.S.C. § 4043 (Special
Trustee for American Indians must prepare comprehensive
strategic plan to “ensure proper and efficient discharge of the
Secretary’s trust responsibilities to Indian tribes and individual
Indians”); Native American Housing Assistance and SelfDetermination Act, 25 U.S.C. § 4101(2)–(4) (“[T]here exists a unique
relationship between the Government of the United States and the
governments of Indian tribes and a unique Federal responsibility to
Indian people[.]”); 20 U.S.C. § 7401 (“It is the policy of the United
States to fulfill the Federal Government’s unique and continuing
trust relationship with and responsibility to the Indian people for
the education of Indian children.”).

34a
enduring obligations the federal government owes to the
Indians and its power to discharge this duty.
III. Federal Regulation of Indian Children Before
ICWA
Even before the dawn of the American nation,
Congress had concerned itself with the rearing of Indian
youths. As JUDGE COSTA relates, in 1775 the Continental
Congress appropriated funds ostensibly to educate
Indians at Dartmouth College but with the ulterior aim
of using the Indian pupils as shields to ward off potential
attacks by the British or their Indian allies. See COSTA,
CIRCUIT JUDGE, OP. at 15. In the earliest years of the
Constitutional era, the federal government took a
number of actions to regulate Indian children. For
example, starting in 1794, the federal government
entered into over one hundred treaties with Indian tribes
that obligated the federal government to provide for
Indian education. And stemming from a misguided
paternalistic stance toward the tribes, President
Washington directed American treaty commissioners
dealing with Indian tribes to “endeavor to obtain a
stipulation for certain missionaries . . . to reside in the
nation” in order to “civilize” the population. Matthew
L.M. Fletcher & Wenona T. Singel, Indian Children and
the Federal-Tribal Trust Relationship, 95 NEB. L. REV.
885, 912 (2017) (quoting Letter from George
Washington, President of the United States, to Benjamin
Lincoln, Cyrus Griffin, and David Humphreys, (August
29, 1789), reprinted in 4 AMERICAN STATE PAPERS 65, 66
(Walter Lowrie & Matthew St. Clair Clarke eds., 1832)).
During the late eighteen century the federal
government even expressly involved itself in the transfer
of American Indian children from their families and

35a
tribal communities to non-native homes. Fletcher,
FEDERAL INDIAN LAW, supra § 3.6. Under the
Washington Administration, for instance, federal monies
financed the rearing of Indian children in Quaker homes.
Br. of Prof. Ablavsky at 20. Though springing from an
intention to do good, like much of the government’s past
Indian policy, the Indian removal efforts wrought
monumental and lasting damage on the lives of individual
Indians and tribes. See Fletcher, FEDERAL INDIAN LAW,
supra § 3.6.
The campaign to “Christianize” the supposedly
heathen Native peoples greatly expanded in the late
nineteenth century, with the removal of Indian children
constituting the single most important aspect of the
government’s “civilization” policy. See Fletcher,
FEDERAL INDIAN LAW, supra § 3.6. Government officials
took Indian children from their homes and tribal lands,
at times by force, and enrolled them at coercive, offreservation Indian boarding schools. Id. These federally
run or financed schools sought to stamp out all vestiges
of Indian culture. As the Commissioner of Indian Affairs
wrote in 1896, the purportedly humanitarian course was
“for the strong arm of the nation to reach out, take
[Indian children] in their infancy and place them in its
fostering schools, surrounding them with an atmosphere
of civilization, . . . instead of allowing them to grow up as
barbarians and savages.” T.J. Morgan, A Plea for the
Papoose, 18 Baptist Home Mission Monthly 402, 404
(1896). The headmaster of the notorious Carlisle School
explained the policy even more bluntly in his infamous
credo, stating that the schools were meant to take an
Indian child and “Kill the Indian in him, to save the man.”
Fletcher, FEDERAL INDIAN LAW, supra § 3.6 (quoting

36a
Richard H. Pratt, THE ADVANTAGES OF MINGLING
INDIANS WITH WHITES (1892), reprinted in
AMERICANIZING THE AMERICAN INDIANS: WRITINGS BY
THE “FRIENDS OF THE INDIAN” 1880–1900 260–61
(Francis Paul Prucha ed. 1973)).
Although the total number of children enrolled in the
boarding schools is unknown, in 1895 alone 157 boarding
schools housed more than 15,000 Indian children. Andrea
C. Curcio, Civil Claims for Uncivilized Acts: Filing Suit
Against the Government for American Indian Boarding
School Abuses, 4 HASTINGS RACE & POVERTY L.J. 45, 57
(2006). Many were run directly by the Bureau of Indian
Affairs (“BIA”). Others were operated by Christian
groups that received federal funds. Schooling was left to
Christian groups because Christianity, and particularly
Protestantism, was seen, at the time, as essential to a
“civilized” life. See Fletcher, FEDERAL INDIAN LAW,
supra § 3.6. The government thus hoped to eradicate the
American Indians’ native religions by converting young
Indians to Christianity.
The use of government-backed force was central to
the creation of these boarding schools. “Indian parents
who opposed the taking of their children to these schools
faced criminal prosecution and possible incarceration.”
Id. Children were “literally kidnap[ped]” so they could
be shipped off to the Indian schools. For example, one
federal agent described hunting down Hopi “Indian
children who had escaped to caves or cellars, sometimes
defended by their parents, who would have to be
restrained by force to prevent the kidnapping of their
children.” Id.
Life at the schools themselves was pervaded by a
strict regimen of military-style discipline meant to

37a
reform Indian children and assimilate them into Anglo
society. Id. Children were forbidden to speak their native
languages and were punished, including through
beatings, if they lapsed into their native tongues.
COHEN’S, supra § 1.04. And the goal of permanently
severing Indian children’s connections with tribal life did
not stop at the end of the school year. Under an “outing
system,” Indian children were placed in non-Indian
homes far from their reservations during the summer,
ensuring that they never returned to their communities
during their tenure at the boarding schools. Fletcher,
FEDERAL INDIAN LAW, supra § 3.6.
In 1928, a devastating federally commissioned report
produced by the Brookings Institution laid bare the
problems in Indian boarding schools, concluding that
they were “grossly inadequate.” See Lewis Meriam, THE
PROBLEM OF INDIAN ADMINISTRATION 11 (1928). The
report detailed life at the schools, citing “deplorable
health conditions,” including fire risks, “serious
malnutrition, and high-rates of communicable diseases.”
Id. at 192, 318-19. More generally, the report observed
that the “official government attitude” toward Indian
education had been premised “on the theory that it is
necessary to remove the Indian child[ren] as far as
possible from [their] environment” so as to prepare them
for “life among the whites.” Id. at 346, 618. This way of
thinking, the report explained, was fundamentally
flawed and at odds with the “modern point of view in
education,” which favored rearing the child “in the
natural setting of home and family life.” Id. at 346. The
result of the government’s boarding school policy had
been to “largely disintegrate[] the [Indian] family.” Id.
at 15.

38a
By the time of the report, Indian boarding schools
had begun to decline as the BIA charged state public
schools with assuming more responsibility for Indian
education. COHEN’S, supra § 1.04. But the boarding
schools did not vanish; as late as the 1970s, thousands of
Indian children were still being educated at federal
boarding schools. See Indian Child Welfare Act of 1977:
Hearing on S. 1214 Before the Select Comm. on Indian
Affairs, 95th Cong. 603 (1977).
In establishing Indian schools, “the intent of
American policymakers and educators may not have
been to harm Indian people,” but the “end result was the
near-destruction of tribal culture and religion across the
United States.” Fletcher, FEDERAL INDIAN LAW, supra
§ 3.6. The federal government itself has acknowledged
its tragic role in decimating Indian tribes and families by
separating them from their children. In 2000, the
Assistant Secretary of the BIA offered a formal apology
to the Indian tribes:
[The BIA] set out to destroy all things Indian.
This agency forbade the speaking of Indian
languages, prohibited the conduct of
traditional religious activities, outlawed
traditional government, and made Indian
people ashamed of who they were. Worst of all,
the [BIA] committed these acts against the
children entrusted to its boarding schools,
brutalizing them emotionally, psychologically,
physically, and spiritually . . . Never again will
we seize your children, nor teach them to be
ashamed of who they are. Never again.

39a
146 CONG. REC. E1453 (Sept. 12, 2000) (quoting apology
of Assistant Secretary for Indian Affairs, Department of
the Interior remarks on Sept. 8, 2000).
IV. State Abuses Leading to ICWA
Though federal Indian boarding schools eventually
declined, massive numbers of Indian children continued
to be permanently removed from their families, tribes,
and cultures through the 1970s. Replacing offreservation boarding schools, state courts and child
welfare agencies became the primary vehicle for
severing Indian youth—the lifeblood of tribes—from
their communities. See COHEN’S, supra § 11.02. Surveys
of states with large Indian populations during the 1960s
and 1970s showed that between twenty-five to thirty-five
percent of all Indian children were removed from their
families. See Indian Child Welfare Program: Hearings
before the Subcommittee on Indian Affairs of the Senate
Committee on Interior and Insular Affairs, 93rd CONG.
REC. 3 (April 8–9, 1974) (statement of William Byler,
Executive Director, Association of American Indian
Affairs); H.R. Rep. No. 95-1386, at 9 (1978). “In 16 states
surveyed in 1969, approximately 85% percent of all
Indian children in foster care were living in non-Indian
homes,” while in Minnesota in the early 1970s “90
percent of the adopted Indian children [were] in nonIndian homes.” H.R. Rep. No. 95-1386, at 9 (1978); see
also Indian Child Welfare Program: Hearings before the
Subcommittee on Indian Affairs of the Senate
Committee on Interior and Insular Affairs, 93rd CONG.
REC. 5 (April 8–9, 1974) (statement of William Byler,
Executive Director, Association of American Indian
Affairs); Miss. Band of Choctaw Indians v. Holyfield,
490 U.S. 30, 32 (1989); COHEN’S, supra § 11.01. And in

40a
jurisdictions with significant Indian populations, Indian
children were uprooted by states’ child welfare
machinery at rates far exceeding those for non-Indians.
See Indian Child Welfare Act of 1977: Hearing on S.
1214 Before the Select Comm. on Indian Affairs, 95th
Cong. 539-40 (1977). For example, in North Dakota and
South Dakota, Indian children were over twenty times as
likely to be placed in foster care than non-Indians. Id. at
540. In Minnesota, Maine, and Utah, the relative foster
care rate for Indian children was, respectively, nineteen,
sixteen, and fifteen times greater than that for nonIndians. Id. at 540. And in Washington, the combined
rate of foster care and adoptive placements for Indian
children in 1973 was nearly fourteen times greater than
that of non-Indians. Id. at 599.
This nationwide crisis aroused the attention and
indignation of Congress in the mid-1970s. Over the
course of four years, Congress held hearings on,
deliberated on, and debated how to remedy the problem.
Fletcher, FEDERAL INDIAN LAW, supra § 8.8. Congress
heard “testimony taken from Indian Country . . . that
many state and county social service agencies and
workers, with the approval and backing of many state
courts and some federal B[IA] officials, had engaged in
the systematic, automatic, and across-the-board removal
of Indian children from Indian families and into nonIndian families and communities.” Id.
State officials attempted to justify these large-scale
removals by invoking Anglo norms that favored rearing
children within a nuclear family structure. See Holyfield,
490 U.S. at 35-36 (quoting 25 U.S.C. § 1901). This
approach often reflected the officials’ profound
ignorance of or hostility to tribes’ traditional values and

41a
community-oriented approach to child raising. In Indian
communities, for example, it is common for extended
family to play key roles in raising Indian children. See
JACOBS, A GENERATION REMOVED, supra at 24-25; see
also Supreme Court Br. of Indian Law Professors in
Adoptive Couple v. Baby Girl, No. 12–399, at 5. NonIndian child welfare agents, however, interpreted this
practice of extended family care as parental neglect and
cited it as a reason for removing Indian children from
their parents and putting them up for adoption. See
Supreme Court Br. of Indian Law Professors in
Adoptive Couple v. Baby Girl, No. 12–399. In total, this
and similar uninformed and abusive practices resulted in
the removal, as noted, of over a quarter of all Indian
children from their homes in states with large Indian
populations. See H.R. Rep. No. 95-1386, at 9 (1978). Thus,
even though the widespread transfer of Indian children
to non-Indians may not have been specifically intended
as an assimilation project, it nonetheless had that effect.
The mass removal of Indian children had profoundly
adverse effects on the children themselves, who suffered
trauma from being separated from their families and
“problems of adjusting to a social and cultural
environment much different than their own.” Id.; see also
Indian Child Welfare Act of 1977: Hearing Before the S.
Select Committee on Indian Affs., 95th Cong. 114 (1977)
(statement of Carl E. Mindell, M.D., & Alan Gurwitt,
M.D., American Academy of Child Psychiatry) (stating
that “[t]here is much clinical evidence to suggest that
these Native American children placed in off-reservation
non-Indian homes are at risk in their later development”
and that “they are subject to ethnic confusion and a
pervasive sense of abandonment”). Indian parents

42a
suffered greatly, too, of course. The evil of mass removal,
however, was systemic, threatening not only children
and families but the tribes themselves. As Calvin Isaac,
the Chief of the Mississippi Band of Choctaw Indians,
explained to Congress, the aggregate effect of the
removal of Indian children threatened the tribes’
existence:
Culturally, the chances of Indian survival are
significantly reduced if our children, the only
real means for the transmission of the tribal
heritage, are to be raised in non-Indian homes
and denied exposure to the ways of their
People.
Furthermore,
these
practices
seriously undercut the tribes’ ability to
continue as self-governing communities.
Probably in no area is it more important that
tribal sovereignty be respected than in an area
as socially and culturally determinative as
family relationships.
Holyfield, 490 U.S. at 34. 8
V. Congress’s Findings and Aims in Enacting ICWA
In view of the alarming abuses perpetrated through
state Indian child custody proceedings, Congress
enacted ICWA in 1978. Recognizing that a “special
As the Supreme Court noted in Holyfield, 490 U.S. 34 n.3 ,
“[t]hese sentiments were shared by the ICWA’s principal sponsor
in the House, Rep. Morris Udall, see 124 CONG. REC. 38102 (1978)
(“Indian tribes and Indian people are being drained of their children
and, as a result, their future as a tribe and a people is being placed
in jeopardy”), and its minority sponsor, Rep. Robert Lagomarsino,
id. (“This bill is directed at conditions which . . . threaten . . . the
future of American Indian tribes [.]” (cleaned up)).
8

43a
relationship” exists between the United States and
Indian tribes, Congress made the following findings:
Congress has plenary power over Indian affairs.
25 U.S.C. § 1901(1) (citing U.S. CONST. art. I,
§ 8, cl. 3 (“The Congress shall have Power . . . To
regulate Commerce . . . with the Indian
Tribes.”)).
“[T]here is no resource that is more vital to the
continued existence and integrity of Indian
tribes than their children.” Id. § 1901(3).
“[A]n alarmingly high percentage of Indian
families are broken up by the removal, often
unwarranted, of their children from them by
nontribal public and private agencies and . . . an
alarmingly high percentage of such children are
placed in non-Indian foster and adoptive homes
and institutions.” Id. § 1901(4).
“States exercising their recognized jurisdiction
over Indian child custody proceedings through
administrative and judicial bodies, have often
failed to recognize the essential tribal relations
of Indian people and the cultural and social
standards prevailing in Indian communities and
families.” Id. § 1901(5).
Based on its findings, Congress declared that it was the
policy of the United States
to protect the best interests of Indian children
and to promote the stability and security of
Indian tribes and families by the establishment
of minimum Federal standards for the removal
of Indian children from their families and the

44a
placement of such children in foster or adoptive
homes which will reflect the unique values of
Indian culture, and by providing for assistance
to Indian tribes in the operation of child and
family service programs.
Id. § 1902.
VI. ICWA’s Provisions
ICWA’s substantive and procedural safeguards apply
in any child custody proceeding involving an “Indian
child,” defined as “any unmarried person who is under
age eighteen and is either (a) a member of an Indian tribe
or (b) is eligible for membership in an Indian tribe and is
the biological child of a member of an Indian tribe.” Id.
§ 1903(4). In proceedings for the foster care placement
or termination of parental rights, ICWA gives “the
Indian custodian of the child and the Indian child’s tribe
. . . a right to intervene at any point in the proceeding.”
Id. § 1911(c). “In any involuntary proceeding . . . where
the court knows or has reason to know that an Indian
child is involved,” ICWA requires that the parent, the
Indian custodian, the child’s tribe, or the Secretary of the
United States Department of the Interior (“Secretary”
or “Secretary of the Interior”) be notified of pending
proceedings and of their right to intervene. Id. § 1912(a).
In voluntary proceedings for the termination of parental
rights or adoptive placement of an Indian child, ICWA
ensures that the parent can withdraw consent for any
reason prior to entry of a final decree of adoption or
termination, at which point the child must be returned to
the parent. Id. § 1913(c). If consent was obtained through
fraud or duress, a parent may petition to withdraw
consent within two years after the final decree of

45a
adoption and, upon a showing of fraud or duress, the
court must vacate the decree and return the child to the
parent. Id. § 1913(d). An Indian child, a parent or Indian
custodian from whose custody the child was removed, or
the child’s tribe may file a petition in any court of
competent jurisdiction to invalidate an action in state
court for foster care placement or termination of
parental rights if the action violated any provision of
§§ 1911 to 1913. Id. § 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings
involving Indian children. Section 1915 requires:
In any adoptive placement of an Indian child
under State law, a preference shall be given, in
the absence of good cause to the contrary, to a
placement with (1) a member of the child’s
extended family; (2) other members of the
Indian child’s tribe; or (3) other Indian families.
Id. § 1915(a). Similar requirements are set for foster care
or preadoptive placements. Id. § 1915(b). If a tribe
establishes by resolution a different order of
preferences, the state court or agency effecting the
placement “shall follow [the tribe’s] order so long as the
placement is the least restrictive setting appropriate to
the particular needs of the child.” Id. § 1915(c).
The state in which an Indian child’s placement was
made shall maintain records of the placement, which
shall be made available at any time upon request by the
Secretary or the child’s tribe. Id. § 1915(e). An Indian
adoptee who attains the age of majority may request that
the court which entered the adoption order provide her
with information “as may be necessary to protect any
rights flowing from the . . . tribal relationship.” Id. § 1917.

46a
And a state court entering a final decree in an adoptive
placement “shall provide the Secretary with a copy of
such decree or order” and information as necessary
regarding “(1) the name and tribal affiliation of the child;
(2) the names and addresses of the biological parents; (3)
the names and addresses of the adoptive parents; and (4)
the identity of any agency having files or information
relating to such adoptive placement.” Id. § 1951(a).
ICWA’s severability clause provides that “[i]f any
provision of this chapter or the applicability thereof is
held invalid, the remaining provisions of this chapter
shall not be affected thereby.” Id. § 1963.
VII. The Final Rule
ICWA provides that “the Secretary [of the Interior]
shall promulgate such rules and regulations as may be
necessary to carry out [its] provisions.” 25 U.S.C. § 1952.
In 1979, the BIA promulgated guidelines (the “1979
Guidelines”) intended to assist state courts in
implementing ICWA but that lacked “binding legislative
effect.” Guidelines for State Courts; Indian Child
Custody Proceedings, 44 Fed. Reg. 67,584, 67,584 (Nov.
26, 1979). The 1979 Guidelines left the “[p]rimary
responsibility” of interpreting certain language in ICWA
“with the [state] courts that decide Indian child custody
cases.” Id. However, in June 2016, the BIA promulgated
the Final Rule to “clarify the minimum Federal
standards governing implementation of [ICWA]” and to
ensure that it “is applied in all States consistent with the
Act’s express language, Congress’s intent in enacting the
statute, and to promote the stability and security of
Indian tribes and families.” 25 C.F.R. § 23.101; Indian
Child Welfare Act Proceedings, 81 Fed. Reg. 38,778,
38,868 (June 14, 2016). The Final Rule explained that

47a
while the BIA “initially hoped that binding regulations
would not be necessary to carry out [ICWA], a third of a
century of experience has confirmed the need for more
uniformity in the interpretation and application of this
important Federal law.” 81 Fed. Reg. at 38,782 (internal
citation and quotation marks omitted).
The Final Rule provides that state courts have the
responsibility of determining whether a child is an
“Indian child” subject to ICWA’s requirements. 25
C.F.R. §§ 23.107; 81 Fed. Reg. at 38,778, 38,869-73. The
Final Rule also sets forth notice and recordkeeping
requirements for states, see 25 C.F.R. §§ 23.140-41; 81
Fed. Reg. at 38,778, 38,875-76, and requirements for
states and individuals regarding voluntary proceedings
and parental withdrawal of consent, see 25 C.F.R.
§§ 23.124-28; 81 Fed. Reg. at 38,778, 38,873-74. The Final
Rule also restates ICWA’s placement preferences and
clarifies when they apply and when states may depart
from them. See 25 C.F.R. §§ 23.129-32; 81 Fed. Reg. at
38,778, 38,874-75.
VIII.

The Instant Action

A. Parties
1. Plaintiffs
Plaintiffs in this action are the states of Texas,
Louisiana, and Indiana, 9 (collectively, “State Plaintiffs”),
There are three federally recognized tribes in Texas: the
Yselta del Sur Pueblo, the Kickapoo Tribe, and the AlabamaCoushatta Tribe. There are four federally recognized tribes in
Louisiana: the Chitimacha Tribe, the Coushatta Tribe, the TunicaBiloxi Tribe, and the Jena Band of Choctaw Indians. There is one
federally recognized tribe in Indiana: the Pokagon Band of
Potawatomi Indians.
9

48a
and seven individual Plaintiffs—Chad and Jennifer
Brackeen (“the Brackeens”), Nick and Heather Libretti
(“the Librettis”), Altagracia Socorro Hernandez
(“Hernandez”), and Jason and Danielle Clifford (“the
Cliffords”)
(collectively,
“Individual
Plaintiffs”)
(together with State Plaintiffs, “Plaintiffs”).
a. The Brackeens & A.L.M.
At the time their initial complaint was filed in the
district court, the Brackeens sought to adopt A.L.M.,
who falls within ICWA’s definition of an “Indian Child.”
His biological mother is an enrolled member of the
Navajo Nation and his biological father is an enrolled
member of the Cherokee Nation. When A.L.M. was ten
months old, Texas’s Child Protective Services (“CPS”)
removed him from his paternal grandmother’s custody
and placed him in foster care with the Brackeens. Both
the Navajo Nation and the Cherokee Nation were
notified pursuant to ICWA and the Final Rule. A.L.M.
lived with the Brackeens for more than sixteen months
before they sought to adopt him with the support of his
biological parents and paternal grandmother. In May
2017, a Texas court, in voluntary proceedings,
terminated the parental rights of A.L.M.’s biological
parents, making him eligible for adoption under Texas
law. Shortly thereafter, the Navajo Nation notified the
state court that it had located a potential alternative
placement for A.L.M. with non-relatives in New Mexico,
though this placement ultimately failed to materialize. In
July 2017, the Brackeens filed an original petition for
adoption, and the Cherokee Nation and Navajo Nation
were notified. The Navajo Nation and the Cherokee
Nation reached an agreement whereby the Navajo
Nation was designated as A.L.M.’s tribe for purposes of

49a
ICWA’s application in the state proceedings. No one
intervened in the Texas adoption proceeding or
otherwise formally sought to adopt A.L.M. The
Brackeens entered into a settlement with the Texas state
agency and A.L.M.’s guardian ad litem specifying that,
because no one else sought to adopt A.L.M., ICWA’s
placement preferences did not apply. In January 2018,
the Brackeens successfully petitioned to adopt A.L.M.
The Brackeens initially alleged in their complaint that
they would like to continue to provide foster care for and
possibly adopt additional children in need, but their
experience adopting A.L.M. made them reluctant to
provide foster care for other Indian children in the
future. Since their complaint was filed, the Brackeens
have sought to adopt A.L.M.’s sister, Y.R.J. in Texas
state court. Y.R.J., like her brother, is an Indian Child
for purposes of ICWA. The Navajo Nation contests the
adoption. On February 2, 2019, the Texas court granted
the Brackeens’ motion to declare ICWA inapplicable as
a violation of the Texas constitution, but “conscientiously
refrain[ed]” from ruling on the Brackeens’ claims under
the United States Constitution pending our resolution of
the instant appeal.
b. The Librettis & Baby O.
The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby O.
for adoption at her birth, though Hernandez has
continued to be a part of Baby O.’s life and she and the
Librettis visit each other regularly. Baby O.’s biological
father, E.R.G., descends from members of the Ysleta del
sur Pueblo Tribe (the “Pueblo Tribe”), located in El
Paso, Texas, and was a registered member of that tribe

50a
at the time Baby O. was born. The Pueblo Tribe
intervened in the Nevada custody proceedings seeking
to remove Baby O. from the Librettis. Once the Librettis
joined the challenge to the constitutionality of ICWA and
the Final Rule, the Pueblo Tribe indicated that it was
willing to settle. The Librettis agreed to a settlement
with the Pueblo Tribe that would permit them to petition
for adoption of Baby O. The Pueblo Tribe agreed not to
contest the Librettis’ adoption of Baby O., and on
December 19, 2018, the Nevada state court issued a
decree of adoption, declaring that the Librettis were
Baby O.’s lawful parents. Like the Brackeens, the
Librettis alleged that they intend to provide foster care
for and possibly adopt additional children in need but are
reluctant to foster Indian children after this experience.
c. The Cliffords & Child P.
The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Child P. is a member of the White
Earth Band for purposes of ICWA’s application in the
Minnesota state court proceedings. Pursuant to § 1915’s
placement preferences, county officials removed Child P.
from the Cliffords’ custody and, in January 2018, placed
her in the care of her maternal grandmother, whose
foster license had been revoked. Child P.’s guardian ad
litem supports the Cliffords’ efforts to adopt her and
agrees that the adoption is in Child P.’s best interest. The
Cliffords and Child P. remain separated, and the
Cliffords face heightened legal barriers to adopting her.
On January 17, 2019, the Minnesota court denied the
Cliffords’ motion for adoptive placement.

51a
2. Defendants
Defendants are the United States of America; the
United States Department of the Interior and its
Secretary Deb Haaland, in her official capacity; the BIA
and its Director Darryl La Counte, in his official
capacity; and the Department of Health and Human
Services and its Secretary Xavier Becerra, in his official
capacity (collectively, the “Federal Defendants”).
Shortly after this case was filed in the district court, the
Cherokee Nation, Oneida Nation, Quinalt Indian Nation,
and Morengo Band of Mission Indians (collectively, the
“Tribal Defendants”) moved to intervene, and the
district court granted the motion. On appeal, we granted
the Navajo Nation’s motion to intervene as a defendant10
(together with Federal and Tribal Defendants,
“Defendants”).
B. Procedural History
Plaintiffs filed the instant action against the Federal
Defendants in October 2017, alleging that the Final Rule
and certain provisions of ICWA are unconstitutional and
seeking injunctive and declaratory relief. Plaintiffs
argued that ICWA and the Final Rule violate equal
protection and substantive due process under the Fifth
Amendment and the anticommandeering doctrine that
arises from the Tenth Amendment. Plaintiffs
The Navajo Nation had previously moved to intervene twice
in the district court. The first motion was for the limited purpose of
seeking dismissal pursuant to Rule 19, which the district court
denied. The Navajo Nation filed a second motion to intervene for
purposes of appeal after the district court’s summary judgment
order. The district court deferred decision on the motion pending
further action by this court, at which time the Navajo Nation filed
the motion directly with this court.
10

52a
additionally sought a declaration that provisions of
ICWA and the Final Rule violate the nondelegation
doctrine and the APA. Defendants moved to dismiss,
alleging that Plaintiffs lacked standing. The district
court denied the motion. All parties filed cross-motions
for summary judgment. The district court granted
Plaintiffs’ motion for summary judgment in part,
declaring that ICWA and the Final Rule violated equal
protection, the Tenth Amendment, and the
nondelegation doctrine, and that the challenged portions
of the Final Rule were invalid under the APA. 11
Defendants appealed. A panel of this court affirmed in
part the district court’s rulings on standing but reversed
and rendered judgment on the merits, with one judge
concurring in part and dissenting in part. The court then
granted en banc review. In total, fourteen amicus briefs
have been filed in this case.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. See Texas v. United States, 497 F.3d
491, 495 (5th Cir. 2007). Summary judgment is
appropriate when the movant has demonstrated “that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
FED. R. CIV. P. 56(a). A genuine dispute of material fact
exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986).

The district court denied Plaintiffs’ substantive due process
claim, which Plaintiffs do not appeal.
11

53a
DISCUSSION
I. Article III Standing
Defendants first contend that Plaintiffs lack standing
to challenge ICWA and the Final Rule. The district court
denied Defendants’ motion to dismiss on this basis,
concluding that Individual Plaintiffs have standing to
bring an equal protection claim; State Plaintiffs have
standing to challenge provisions of ICWA and the Final
Rule on the ground that they violate the Tenth
Amendment and the nondelegation doctrine; and all
Plaintiffs have standing to bring an APA claim
challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016) (citing U.S. CONST. art. III,
§ 2). “Standing to sue is a doctrine rooted in the
traditional understanding of a case or controversy.” Id.
To meet the Article III standing requirement, plaintiffs
must demonstrate (1) “an injury in fact” that is (2) “fairly
traceable to the challenged action of the defendant,” and
that is (3) likely to be “redressed by a favorable
decision.” Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61
(1992) (internal quotation marks, citations, and
alterations omitted). A plaintiff seeking equitable relief
must demonstrate a likelihood of future injury in
addition to past harm. See City of Los Angeles v. Lyons,
461 U.S. 95, 105 (1983). This injury must be “concrete
and particularized” and “actual or imminent, not
conjectural or hypothetical.” See Lujan, 504 U.S. at 560
(internal quotation marks and citations omitted).
“[S]tanding is not dispensed in gross,” and “a plaintiff
must demonstrate standing for each claim he seeks to
press and for each form of relief that is sought.” Town of

54a
Chester v. Laroe Estates, Inc., 137 S. Ct. 1645, 1650
(2017) (quoting Davis v. Fed. Election Comm’n, 554 U.S.
724, 734 (2008)). Nevertheless, “the presence of one
party with standing is sufficient to satisfy Article III’s
case-or-controversy requirement,” and we therefore
need conclude only that one plaintiff in the present case
satisfies standing with respect to each claim. Rumsfeld
v. Forum for Acad. & Institutional Rights, Inc., 547 U.S.
47, 52 n.2 (2006). “This court reviews questions of
standing de novo.” Nat’l Rifle Ass’n of Am., Inc. v.
McCraw, 719 F.3d 338, 343 (5th Cir. 2013).
A. Standing to Bring Equal Protection Claim
Plaintiffs challenged 25 U.S.C. §§ 1913(d), 1914,
1915(a), and 1915(b), and Final Rule § 23.129 to 23.132 on
equal protection grounds, alleging that these provisions
impose regulatory burdens on non-Indian families
seeking to adopt Indian children that are not similarly
imposed on Indian families who seek to adopt Indian
children. The district court concluded that Individual
Plaintiffs suffered and continue to suffer injuries when
their efforts to adopt Indian children are burdened by
ICWA and the Final Rule; that their injuries are fairly
traceable to the actions of Defendants because ICWA
and the Final Rule mandate state compliance; and that
these injuries are redressable because if ICWA and the
Final Rule were invalidated, then state courts would no
longer be required to follow them. Defendants disagree,
arguing that the Individual Plaintiffs cannot
demonstrate an injury in fact or redressability and thus
lack standing to bring an equal protection claim. We will
consider Plaintiffs’ standing to assert challenges to each
of the provisions at issue in turn.

55a
1. The Challenge to §§ 1913 and 1914
We first conclude that none of the Plaintiffs have
standing to assert an equal protection challenge to
§§ 1913 and 1914. The district court concluded that
§ 1913(d), which allows a parent to petition the court to
vacate a final decree of adoption on the ground that
consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years following the final judgment.
Defendants argue that § 1914, 12 and not § 1913(d), applies
to the Brackeens’ state court proceedings and that, in
any event, any injury premised on potential future
collateral attack under either provision is too
speculative.
We need not decide which provision applies here, as
none of the Individual Plaintiffs have suffered an injury
under either provision. 13 Plaintiffs do not assert that the
biological parents of any Indian child, any tribe, or any
other party are currently seeking or intend in the future
to invalidate the adoption of any of their adopted children
“Any Indian child who is the subject of any action for foster
care placement or termination of parental rights under State law,
any parent or Indian custodian from whose custody such child was
removed, and the Indian child’s tribe may petition any court of
competent jurisdiction to invalidate such action upon a showing that
such action violated any provision of sections 1911, 1912, and 1913
of this title.” 25 U.S.C. § 1914.
13
State Plaintiffs argue that they have standing to bring an
equal protection challenge in parens patriae on behalf of citizens
other than the Individual Plaintiffs. We disagree. See South
Carolina v. Katzenbach, 383 U.S. 301, 324 (1966) (“[A] State [does
not] have standing as the parent of its citizens to invoke [the Fifth
Amendment Due Process Clause] against the Federal Government,
the ultimate parens patriae of every American citizen.”).
12

56a
under either provision. Plaintiffs’ proffered injury under
§ 1913(d) or § 1914 is therefore too speculative to support
standing. See Lujan, 504 U.S. at 560; see also Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 409, 414 n. 5 (2013)
(“[T]hreatened injury must be certainly impending to
constitute injury in fact, and . . . allegations of possible
future injury are not sufficient. . . . . Plaintiffs cannot rely
on speculation about the unfettered choices made by
independent actors not before the court.” (internal
quotation marks, citations, and alterations omitted)).
Plaintiffs and JUDGE DUNCAN cite Time Warner
Cable, Inc. v. Hudson for the proposition that “unequal
positioning” before the law is sufficient to constitute an
injury. 667 F.3d 630 (5th Cir. 2012) (internal quotation
marks and citation omitted); see DUNCAN, CIRCUIT
JUDGE, OP. at 19-20 & n.30. But that case is inapposite.
In Time Warner, this court considered whether
standing was satisfied when incumbent Texas cable
operators that had franchise agreements to provide
services to municipalities across the state brought an
equal protection challenge to a Texas law that excluded
them from a benefit afforded to other similarly situated
cable operators. 667 F.3d at 633-34. The Texas
legislature had concluded that the cost of negotiating
separate municipal franchise agreements posed a barrier
for new companies seeking to enter the cable services
market. Id. The Texas legislature responded by passing
a law that permitted new entrants to the market and
“overbuilders”—companies that build their own cable
systems in areas already served by a cable operator—to
obtain statewide franchises immediately. Id. Incumbent
cable providers, however, were ineligible for statewide

57a
franchises until after the expiration of their existing
municipal licenses. Id. at 634.
This court concluded that the incumbent operators
had alleged a sufficiently actual or imminent injury
because the statute was presently preventing incumbent
cable providers from competing for the statewide
franchises on equal footing with other market
participants. Id. at 636. The incumbent cable providers
would have been denied statewide licenses under the law
if they had applied for them prior to the expiration of
their existing municipal licenses, and submitting an
application for a state-issued franchise license was
wholly within the incumbent providers’ power. In this
way, the incumbent providers’ claim satisfied Article III
requirements, as the law erected an actual barrier to
companies already providing cable services that
otherwise would be immediately free to seek a statewide
franchise. Id.; see also Northeastern Florida Chapter of
Assoc. Gen. Contractors of America v. City of
Jacksonville, 508 U.S. 656, 666 (1993) (in challenging a
governmental program setting aside a certain
percentage of contracts for minority-owned businesses,
plaintiff must “demonstrate that it is able and ready to
bid on contracts and that a discriminatory policy
prevents it from doing so on an equal basis” (emphasis
added)).
By contrast, Plaintiffs’ challenges here to §§ 1913(d)
and 1914 rest on the purely theoretical actions of
potential third parties who may (or may not) invoke
these provisions. Cf. Clapper, 568 U.S. at 414 n. 5. This
case is not like Time Warner, but rather Barber v.
Bryant, in which a group of LGBT individuals and
advocacy organizations brought an equal protection

58a
challenge to a Mississippi statute that permitted parties
accused of LGBT discrimination to assert their sincerely
held religious opposition as a defense. 860 F.3d 345, 351
(5th Cir. 2017). This court found that, like in the present
case, the Barber plaintiffs lacked standing to bring their
equal protection challenge because any hypothetical
future injury they would suffer under the statute was
entirely dependent on unknown third-parties choosing to
undertake a course of conduct purportedly authorized by
the statute—there, discrimination against the plaintiffs.
Id. at 357. Judge Duncan selectively quotes from Barber
to argue that the court based its decision only on the fact
that the plaintiffs had not alleged that they intended to
engage in the activities in relation to which the
Mississippi statute provided a discrimination defense.
DUNCAN, CIRCUIT JUDGE, OP. at 19 n.30. But the Barber
court plainly stated that, “[a]t a minimum, the
challengers would have to allege plans to engage in [the]
conduct in Mississippi for which they would be subject to
a denial of service and would be stripped of a preexisting
remedy for that denial.” Barber, 860 F.3d at 358
(emphasis added). In the absence of allegations that a
third party would take advantage of the statute to act in
a way that would harm the plaintiffs, the plaintiffs failed
to assert the type of imminent injury necessary to
support standing on their equal protection claim. 14
The Barber plaintiffs also raised an Establishment Clause
challenge to the statute, a separate issue not presented here and
about which we express no opinion. See Barber, 860 F.3d at 356
(“The Equal Protection and Establishment Clause cases call for
different injury-in-fact analyses because the injuries protected
against under the Clauses are different.” (internal quotations and
citations omitted)).
14

59a
In much the same way, the Plaintiffs here allege only
that a third party could come along and challenge their
adoptions under the statute, but they make no
allegations that any party has in fact done so or intends
to do so in the future. In other words, these provisions
have yet to place any Plaintiff on unequal footing. No
harm under the statute has materialized and no certain
injury is imminent, as is required for standing to
challenge the provision. Clapper, 568 U.S. at 409. And, to
the extent Plaintiffs argue that an injury arises from
their attempts to avoid collateral attack under § 1914 by
complying with §§ 1911 to 1913, costs incurred to avoid
injury are “insufficient to create standing” where the
injury is not certainly impending. See id. at 416-17.
Accordingly, Plaintiffs lack standing to challenge
§§ 1913(d) and 1914.
2. The Remaining Equal Protection Claims
Turning to the Plaintiffs’ remaining claims, we
conclude that the Brackeens have standing to assert an
equal protection claim as to 25 U.S.C. § 1915(a) and Final
Rule §§ 23.129, 23.130, and 23.132, and that the Cliffords
have standing to press this claim as to § 1915(b) and
Final Rule § 23.131. Because at least one Plaintiff has
standing to assert each of these remaining claims, the
“case-or-controversy requirement” is satisfied, and we
do not analyze whether any other Individual Plaintiff has
standing to raise it. See Rumsfeld, 547 U.S. at 52 n.2.
First, the Brackeens have standing to challenge
§ 1915(a), ICWA’s adoption placement preferences
provision. As Plaintiffs argue, § 1915’s placement
preferences impose on them the ongoing injury of
increased regulatory burdens in their proceedings to
adopt A.L.M.’s sister, Y.R.J., which the Navajo Nation

60a
currently opposes in Texas state court. “An increased
regulatory burden typically satisfies the injury in fact
requirement.” Contender Farms, L.L.P. v. U.S. Dep’t of
Agric., 779 F.3d 258, 266 (5th Cir. 2015). However, we
must also consider whether causation and redressability
are met here. See Lujan, 504 U.S. at 560-61. The
Brackeens’ alleged injury is fairly traceable to the
actions of at least some of the Federal Defendants, who
bear some responsibility for the regulatory burdens
imposed by ICWA and the Final Rule. See Contender
Farms, L.L.P., 779 F.3d at 266 (noting that causation
“flow[s] naturally from” a regulatory injury).
Additionally, the Brackeens have demonstrated a
likelihood that their injury will be redressed by a
favorable ruling of this court. In the Brackeens’ ongoing
proceedings to adopt Y.R.J., the Texas trial court has
indicated that it will refrain from ruling on the
Brackeens’ federal constitutional claims pending a ruling
from this court. 15
We also conclude that the Brackeens have maintained
standing throughout the course of the litigation. The Brackeen’s
initial complaint, filed in October 2017, alleged that they intended to
adopt A.L.M. In January 2018, the Brackeens completed their
adoption of A.L.M. in state court. In March 2018, they filed a second
amended complaint wherein they alleged that they “intend[ed] to
provide foster care for, and possibly adopt, additional children in
need.” Several months later, in September 2018, the Brackeens
undertook efforts to adopt Y.R.J, and they supplemented the
district court record in October 2018 with exhibits evidencing these
efforts. The injury alleged in the Brackeens’ second amended
complaint was sufficiently imminent to support standing, in part,
because the regulatory burdens they claimed ICWA imposed on
their first adoption constitute “evidence bearing on whether” they
faced “a real and immediate threat of repeated injury.” City of Los
Angeles v. Lyons, 461 U.S. 95, 102 (1983) (internal quotation marks
15

61a
Our esteemed colleague JUDGE COSTA disagrees that
the likelihood that the Texas trial court will follow our
interpretation of ICWA is sufficient to satisfy Article
III’s redressability requirements and asserts that we are
rendering an advisory opinion on this issue. COSTA,
CIRCUIT JUDGE, OP. at 2-4. But “Article III does not
demand a demonstration that victory in court will
without doubt cure the identified injury.” Teton Historic
Aviation Found. v. DOD, 785 F.3d 719, 727 (D.C. Cir.
2015). The plaintiff must show only that its injury is
“likely to be redressed by a favorable decision.” Vill. of
Arlington Heights, v. Metro. Hous. Dev. Corp., 429 U.S.
252, 262 (1977). By stating that it will defer to our ruling,
the Texas court has removed any need “to engage in
undue speculation as a predicate for finding that the
plaintiff has the requisite personal stake in the
omitted). That the Brackeens’ asserted injury was not too
conjectural to support standing is confirmed by their later
attempted adoption of Y.R.J. See Hargrave v. Vermont, 340 F.3d 27,
33034 (2d Cir. 2003) (plaintiff’s claims that she would be subject to
a state law even though a state court had refused to enforce the law
were not speculative in light of state Supreme Court’s ruling
following the filing of plaintiff’s federal complaint that the law could
go into effect). Further, in this case, promoting judicial economy
counsels in favor of construing the Brackeens’ supplemental filing
as correcting any defect in the pleading, permitting both the court
and the parties to “circumvent ‘the needless formality and expense
of instituting a new action when events occurring after the original
filing indicate[] a right to relief.’” Northstar Fin. Advisors Inc. v.
Schwab Investments, 779 F.3d 1036, 1044 (9th Cir. 2015) (quoting
WRIGHT, MILLER, & KANE, FEDERAL PRACTICE AND PROCEDURE:
CIVIL 3D § 1505)). Therefore, even if the Brackeens had lacked
standing at some point during the district court litigation, their
supplementation of the record with information related to their
attempted adoption of Y.R.J. cured any defect. See Mathews v.
Diaz, 426 U.S. 67, 75 (1976).

62a
controversy.” Id. at 261-62. Instead, the Texas court’s
statement has made it all but certain that a decision in
the Brackeens’ favor will redress their purported
injuries. See Evans v. Michigan, 568 U.S. 313, 325-26
(2013) (“We presume here, as in other contexts, that
courts exercise their duties in good faith.”). Article III’s
redressability requirements are met with respect to the
Brackeens’ claim, meaning at least one Plaintiff has
standing to bring an equal protection claim challenging
§ 1915(a) and Final Rule §§ 23.129 to 23.132. See Lujan,
504 U.S. at 560-61; Rumsfeld, 547 U.S. at 52 n.2.
Similarly, the Cliffords have standing to challenge
§ 1915(b), ICWA’s foster care and preadoptive
placement preferences, and Final Rule § 23.131. 16 The
Cliffords have clearly alleged an injury due to this
provision; they fostered Child P., but, pursuant to
§ 1915(b)’s placement preferences, Child. P. was
removed from their custody and placed with her
16
The Cliffords also challenged § 1915(a). We need not address
this challenge, however, as we have already concluded that the
Brackeens—and thus all Plaintiffs—have standing to challenge this
provision. See Rumsfeld, 547 U.S. at 52 n.2 (“[T]he presence of one
party with standing is sufficient to satisfy Article III’s case-orcontroversy requirement.”). In addition, the parties contest
whether the Cliffords’ claim is subject to issue preclusion. Because
issue preclusion is an affirmative defense, it does not implicate our
standing analysis. See, e.g., In re Senior Cottages of Am., LLC, 482
F.3d 997, 1003 (8th Cir. 2007) (“Whether a party has standing to
bring claims and whether a party’s claims are barred by an
equitable defense are two separate questions, to be addressed on
their own terms.” (quoting Official Comm. of Unsecured Creditors
v. R.F. Lafferty & Co., 267 F.3d 340, 346 (3d Cir. 2001))); WRIGHT &
MILLER, 13A FED. PRAC. & PROC. JURIS. § 3531 (3d ed.)
(“Affirmative defenses against the claims of others are not likely to
raise ‘standing’ concerns.”).

63a
maternal grandmother, a member of the White Earth
Band. Like the Brackeens’ alleged injury, the Cliffords’
injury is fairly traceable to some of the Federal
Defendants given their responsibility for the burdens
imposed by § 1915(b). Finally, a declaration by the
district court that § 1915(b) violates equal protection
would redress the Cliffords’ injury. Since Child P. has
not yet been adopted, the Cliffords may still petition for
custody. Though no state court—whether within this
circuit or in the Cliffords’ home state of Minnesota—is
bound by a decree of this court, we conclude that it is
“substantially likely that [a state court] would abide by
an authoritative interpretation” of ICWA by this court,
“even though [it] would not be directly bound by such a
determination.” Franklin v. Massachusetts, 505 U.S.
788, 803 (1992). Thus, a favorable ruling “would at least
make it easier for” the Cliffords to regain custody of
Child P. Duarte ex rel. Duarte v. City of Lewisville, 759
F.3d 514, 521 (5th Cir. 2014). In sum, Plaintiffs have
standing to challenge § 1915(a) and (b) and Final Rule
§§ 23.129 to 23.132.
B. Standing to Bring Administrative Procedure
Act Claim
Plaintiffs also bring APA challenges to the Final Rule
promulgated by the BIA. They assert that the Final Rule
violates the APA because ICWA does not authorize the
Secretary of the Interior to promulgate binding rules
and regulations and also contend that the Final Rule’s
construction of § 1915 is invalid. The district court ruled
that State Plaintiffs had standing to bring APA claims,
determining that the Final Rule injured State Plaintiffs
by intruding upon their interests as quasi-sovereigns to

64a
control the domestic affairs within their states. 17 A state
may be entitled to “special solicitude” in our standing
analysis if the state is vested by statute with a procedural
right to file suit to protect an interest and the state has
suffered an injury to its “quasi-sovereign interests.”
Massachusetts v. EPA, 549 U.S. 497, 518-20 (2007)
(holding that the Clean Air Act provided Massachusetts
a procedural right to challenge the EPA’s rulemaking
and that Massachusetts suffered an injury in its capacity
as a quasi-sovereign landowner due to rising sea levels
associated
with
climate
change).
Applying
Massachusetts, this court in Texas v. United States held
that Texas had standing to challenge the Department of
Homeland Security’s (“DHS”) implementation and
expansion of the Deferred Action for Childhood Arrivals
program under the APA. See 809 F.3d 134, 152 (5th Cir.
2015). This court reasoned that Texas was entitled to
special solicitude on the grounds that the APA created a
procedural right to challenge the DHS’s actions, and
DHS’s actions affected states’ sovereign interest in
creating and enforcing a legal code. See id. at 152-53.
Likewise, here, the APA provides State Plaintiffs a
procedural right to challenge the Final Rule. See id.; 5
U.S.C. § 702. Moreover, State Plaintiffs allege that the
Final Rule affects their sovereign interest in controlling
child custody proceedings in state courts. See Texas, 809
F.3d at 153 (recognizing that, pursuant to a sovereign
The district court also found an injury based on the Social
Security Act’s conditioning of funding on states’ compliance with
ICWA. However, because we find that Plaintiffs have standing on
other grounds, we decline to decide whether they have
demonstrated standing based on an alleged injury caused by the
Social Security Act.
17

65a
interest in creating and enforcing a legal code, states
may have standing based on, inter alia, federal
preemption of state law). Thus, State Plaintiffs are
entitled to special solicitude in our standing inquiry.
With this in mind, we find that the elements of standing
are satisfied. If, as State Plaintiffs alleged, the Secretary
promulgated a rule binding on states without the
authority to do so, then State Plaintiffs have suffered a
concrete injury to their sovereign interest in controlling
child custody proceedings that was caused by the Final
Rule. Additionally, though state courts and agencies are
not bound by this court’s precedent, a favorable ruling
from this court would remedy the alleged injury to states
by making their compliance with ICWA and the Final
Rule
optional rather
than
compulsory. See
Massachusetts, 549 U.S. at 521 (finding redressability
where the requested relief would prompt the agency to
“reduce th[e] risk” of harm to the state).
C. Standing to Bring Tenth Amendment Claims
For similar reasons, the district court found, and we
agree, that State Plaintiffs have standing to challenge
provisions of ICWA and the Final Rule under the Tenth
Amendment. The imposition of regulatory burdens on
State Plaintiffs is sufficient to demonstrate an injury to
their sovereign interest in creating and enforcing a legal
code to govern child custody proceedings in state courts.
See Texas, 809 F.3d at 153. Additionally, the causation
and redressability requirements are satisfied here, as a
favorable ruling would likely redress State Plaintiffs’
asserted injuries by lifting the mandatory burdens
ICWA and the Final Rule impose on states. See Lujan,
504 U.S. at 560-61.

66a
D. Standing to Bring Nondelegation Claim
Plaintiffs also contend that § 1915(c), which allows a
tribe to establish a different order of placement
preferences than the defaults contained in § 1915(a) and
(b), is an impermissible delegation of legislative power
that binds State Plaintiffs. Defendants argue that State
Plaintiffs cannot demonstrate an injury, given the lack of
evidence that a tribe’s reordering of § 1915(a) and (b)’s
placement preferences has affected any children in
Texas, Indiana, or Louisiana or that such impact is “real
and immediate.” State Plaintiffs respond that tribes can
change ICWA’s placement preferences at any time and
that at least one tribe, the Alabama-Coushatta Tribe of
Texas, has already done so. We conclude that State
Plaintiffs have demonstrated injury and causation with
respect to this claim, as State Plaintiffs’ injury from the
Alabama-Coushatta Tribe’s decision to depart from
§ 1915’s default placement preferences is concrete and
particularized and not speculative. See Lujan, 504 U.S.
at 560. And given that the Alabama-Coushatta Tribe has
already filed their reordered placement preferences with
Texas’s Department of Family and Protective Services,
Texas faces a “substantial risk” that its claimed injury
will occur. Susan B. Anthony List v. Driehaus, 573 U.S.
149, 158 (2014) (“An allegation of future injury may
suffice if the threatened injury is ‘certainly impending,’
or there is a ‘substantial risk that the harm will occur.’”
(internal quotation marks omitted) (quoting Clapper, 568
U.S. at 409, 414 n.5)). Moreover, a favorable ruling from
this court would redress State Plaintiffs’ injury by
making a state’s compliance with a tribe’s alternative
order of preferences under § 1915(c) optional rather than
mandatory. See id.

67a
II. Facial Constitutional Challenges to ICWA
Having determined that State Plaintiffs have
standing on the aforementioned claims, we proceed to
the merits of these claims. We note at the outset that
ICWA is entitled to a “presumption of constitutionality”
and “[d]ue respect for the decisions of a coordinate
branch of Government demands that we invalidate a
congressional enactment only upon a plain showing that
Congress has exceeded its constitutional bounds.”
United States v. Morrison, 529 U.S. 598, 607 (2000)
(citing United States v. Harris, 106 U.S. 629, 635 (1883)).
A. Preemption and Anticommandeering
The district court ruled, and Plaintiffs argue on
appeal, that 25 U.S.C. §§ 1901-23 18 and 1951-52 19 exceed
Congress’s constitutional powers by violating the
anticommandeering doctrine and accordingly do not
preempt any conflicting state law. We review de novo the
constitutionality of a federal statute. See United States
v. Perez-Macias, 335 F.3d 421, 425 (5th Cir. 2003).
We start our discussion by explaining the principles
underpinning two intertwined areas of constitutional
law: preemption and anticommandeering. First,
preemption. This concept is derived from the Supremacy
Title 25 U.S.C. §§ 1901-03 sets forth Congress’s findings,
declaration of policy, and definitions. Sections 1911-23 govern child
custody proceedings, including tribal court jurisdiction, notice
requirements in involuntary and voluntary state proceedings,
termination of parental rights, invalidation of state proceedings,
placement preferences, and agreements between states and tribes.
19
Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior
to promulgate rules and regulations that are necessary for ICWA’s
implementation.
18

68a
Clause of the Constitution, which provides that “[t]his
Constitution, and the Laws of the United States which
shall be made in Pursuance thereof[] . . . shall be the
supreme Law of the Land; and the Judges in every State
shall be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.”
U.S. CONST. art. VI, cl. 2; see also Crosby v. Nat’l
Foreign Trade Council, 530 U.S. 363, 372 (2000) (“A
fundamental principle of the Constitution is that
Congress has the power to preempt state law.”).
Therefore, when “Congress enacts a law that imposes
restrictions or confers rights on private actors” and a
“state law confers rights or imposes restrictions that
conflict with the federal law,” under the Supremacy
Clause, “the federal law takes precedence and the state
law is preempted.” Murphy v. NCAA, 138 S. Ct. 1461,
1480 (2018). “Even without an express provision for
preemption . . . state law is naturally preempted to the
extent of any conflict with a federal statute.” Crosby, 530
U.S. at 372.
The anticommandeering doctrine, by contrast, is
rooted in the Tenth Amendment, which states that “[t]he
powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.”
U.S. CONST. amend. X. Congress’s legislative powers are
limited to those enumerated under the Constitution, and
“conspicuously absent from the list of powers given to
Congress is the power to issue direct orders to the
governments of the States.” Murphy, 138 S. Ct. at 1476.
“Where a federal interest is sufficiently strong to cause
Congress to legislate, it must do so directly; it may not

69a
conscript state governments as its agents.” Id. at 1477
(quoting New York v. U.S., 505 U.S. 144, 178 (1992)).
In the present context, these two doctrines—
preemption
and
anticommandeering—represent
opposite sides of the same coin. See New York, 505 U.S.
at 156 (explaining that in cases “involving the division of
authority between federal and state governments,” the
dual inquiries as to whether a congressional enactment
is authorized under Article I or violates the Tenth
Amendment “are mirror images of each other”). This is
because for a federal law to preempt conflicting state
law, two conditions must be satisfied. First, the federal
law “must represent the exercise of a power conferred on
Congress by the Constitution.” Murphy, 138 S. Ct. at
1479. Second, since the Constitution “confers upon
Congress the power to regulate individuals, not States,”
New York, 505 U.S. at 166, the provision at issue must be
a regulation of private actors. Murphy, 138 S. Ct. at 1479.
As discussed in more detail infra, a law does not fail this
second inquiry simply because it also regulates states
that participate in an activity in which private parties
engage. Id. at 1478. Rather, the key question is whether
the law establishes rights enforceable by or against
private parties. See id. at 1480 (citing Morales v. Trans
World Airlines, Inc., 504 U.S. 374, 391 (1992)). When a
federal law fails this second step by directly commanding
the executive or legislative branch of a state government
to act or refrain from acting without commanding private
parties to do the same, it violates the anticommandeering
doctrine. 20 See, e.g., New York, 505 U.S. at 188 (stating
Though Congress is prohibited from commandeering states’
legislatures and executive officers, it can “encourage a State to
regulate in a particular way, or . . . hold out incentives to the States
20

70a
that “[t]he Federal Government may not compel the
States to enact or administer a federal regulatory
program”); Printz v. United States, 521 U.S. 898, 932
(1997). On the other hand, if Congress enacts a statute
pursuant to an enumerated power and the statute does
not violate the anticommandeering doctrine or another
constitutional provision, then the federal law necessarily
has preemptive force. 21
as a method of influencing a State’s policy choices.” New York, 505
U.S. at 166. For example, Congress may condition the receipt of
federal funds under its spending power. See id. at 167. Some of the
Defendants contend that ICWA is authorized under Congress’s
Spending Clause powers because Congress conditioned federal
funding in Title IV-B and E of the Social Security Act on states’
compliance with ICWA. However, because we conclude that ICWA
is constitutionally permissible even if its provisions are construed as
mandatory, we need not reach the question of whether it is justified
as an optional incentive program in which states voluntarily
participate.
21
Of course, like any other unconstitutional law, a federal statute
that violates the anticommandeering doctrine exceeds Congress’s
legislative authority. See New York, 505 U.S. at 155-56. The Court
has stated, however, that a statute is beyond Congress’s Article I
power for purposes of the premption analysis either when the
statute does not “represent the exercise of a power conferred on
Congress by the Constitution,”—that is, when it addresses a subject
matter that is not included in the powers that the Constitution
grants the federal government—or when the statute breaches the
anticommandeering doctrine, regardless of the subject matter
addressed by the legislation. See Murphy, 138 S. Ct. at 1479. These
are two distinct inquires. Otherwise, Congress could never violate
the anticommandeering doctrine when regulating in a field over
which it holds plenary authority. But the Supreme Court has held
that this is not how the Constitution works. See Reno v. Condon, 528
U.S. 141, 142 (2000) (stating that, “in New York [v. United States,
505 U.S. 144 (1992)] and Printz [v. United States, 521 U.S. 898
(1997)], the Court held that federal statutes were invalid, not

71a
1. Article I Authority
We first address whether ICWA represents a valid
exercise of Congress’s Article I power. “Proper respect
for a co-ordinate branch of the government requires the
courts of the United States to give effect to the
presumption that congress will pass no act not within its
constitutional power. This presumption should prevail
unless the lack of constitutional authority to pass an act
in question is clearly demonstrated.” Harris, 106 U.S. at
635.
The district court concluded that Congress
overstepped its powers in enacting ICWA by breaching
the anticommandeering doctrine, but it never addressed
whether the Act fell within Congress’s Article I power
separate
and
apart
from
any
supposed
anticommandeering violation. On appeal, Plaintiffs
squarely argue that Congress exceeded its authority—
without respect to any anticommandeering violation—in

because Congress lacked legislative authority over the subject
matter,
but
because
those
statutes
violated”
the
anticommandeering doctrine); cf., e.g., Seminole Tribe of Florida v.
Florida, 517 U.S. 44 (1996) (explaining that “[e]ven when the
Constitution vests in Congress complete law-making authority over
a particular area,” that authority is subject to other constitutional
constraints); Williams v. Rhodes, 393 U.S. 23, 29 (1968) (“[T]he
Constitution is filled with provisions that grant Congress . . . specific
power[s] to legislate in certain areas; these granted powers are
always subject to the limitation that they may not be exercised in a
way that violates other specific provisions of the Constitution.”). We
therefore address separately whether ICWA is within the range of
subject matter on which Article I authorizes Congress to legislate
and whether the law violates the anticommandeering inquiry.

72a
enacting ICWA. 22 For the reasons that follow, we
disagree.
The historical development of the federal Indian
affairs power is essential to understanding its sources
and scope. See Heller, 554 U.S. at 581. Earlier, we
reviewed the Framers’ dissatisfaction with the untenable
division of authority over Indian affairs between the
states and the national Government under the Articles of
Confederation. We explained how this led the Framers
to endow the national government with exclusive,
plenary power in regulating Indian affairs under the new
Constitution. See supra Background Part I. This intent,
we observed, is revealed through a holistic reading of the
Constitution; the combination of the charter’s Treaty,
Property, Supremacy, Indian Commerce, and Necessary
and Proper Clauses, among other provisions, operate to
bestow upon the federal government supreme power to
deal with the Indian tribes. See Ablavsky, Beyond the
Indian Commerce Clause, supra at 1043-44.
Understandably, then, the Supreme Court has
consistently characterized the federal government’s
Indian affairs power in the broadest possible terms. See,
“[A] court of appeals sits as a court of review, not of first
view.” Montano v. Texas, 867 F.3d 540, 546 (5th Cir. 2017).
Notwithstanding this general rule, “there are circumstances in
which a federal appellate court is justified in resolving an issue not
passed on below, as where the proper resolution is beyond any
doubt, or where injustice might otherwise result.” Singleton v.
Wulff, 428 U.S. 106, 121 (1976) (cleaned up). Given the extensive
litigation and the substantial and exceptional briefing from both the
parties and amici, we conclude that it would work an injustice at
this juncture not to resolve the question of Congress’s authority to
enact ICWA. See id. Moreover, we ultimately conclude that the
proper resolution of the question is beyond any doubt.
22

73a
e.g., United States v. Lara, 541 U.S. 193, 200 (2000)
(noting that the Indian Commerce and Treaty Clauses
are sources of Congress’s “plenary and exclusive”
“powers to legislate in respect to Indian tribes”); Ramah
Navajo Sch. Bd., Inc. v. Bureau of Revenue of N.M., 458
U.S. 832, 837 (1982) (discussing Congress’s “broad power
. . . to regulate tribal affairs under the Indian Commerce
Clause”); White Mountain Apache Tribe v. Bracker, 448
U.S. 136, 142 (1980) (same); Santa Clara Pueblo v.
Martinez, 436 U.S. 49, 72 (1978) (“As we have repeatedly
emphasized, Congress’ authority over Indian matters is
extraordinarily broad . . . .”); Mancari, 417 U.S. at 55152 (noting that “[t]he plenary power of Congress to deal
with the special problems of Indians is drawn both
explicitly and implicitly from the Constitution itself”).
Conversely, the Constitution totally displaced the
states from having any role in these affairs and “divested
[them] of virtually all authority over Indian commerce
and Indian tribes.” Seminole Tribe of Fla. v. Florida, 517
U.S. 44, 62 (1996); see also Ablavsky, Beyond the Indian
Commerce Clause, supra at 1043-44 (noting that the
federal government’s Indian affairs powers collectively
amounted to what present-day doctrine terms field
preemption). Responding to the problem under the
Articles of Confederation of states openly flouting the
federal strategy with respect to the Indians, the
Framers specifically intended that the Constitution
would prevent the states from exercising their
sovereignty in a way that interfered with federal Indian
policy. See William C. Canby, § 2.1 AMERICAN INDIAN
LAW IN A NUTSHELL, (7th Ed.) [hereinafter CANBY,
AMERICAN INDIAN LAW]. As in its dealings with foreign
nations, it was important that the United States speak

74a
with one voice in making peace with or deploying
military force against the Indians without being
undercut by the various contrary policies individual
states might adopt if left to their own devices.
The writings and actions of both the Washington
Administration and the First Congress amply
demonstrate this early conception of the national
Government as having primacy over Indian affairs.
President George Washington himself explained in a
letter to the Governor of Pennsylvania that the federal
Government, under the new Constitution, “possess[ed]
the only authority of regulating an intercourse with [the
Indians], and redressing their grievances.” Letter from
George Washington to Thomas Mifflin (Sept. 4, 1790), in
6 THE PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL
SERIES 188, 189 (Mark A. Mastromarino ed., 1996). And
the First Congress reinforced this exceptionally broad
understanding of federal authority through the adoption
of the Indian Intercourse Act of 1790, Act of July 22,
1790, §§ 1-3, 1 Stat. 137-38. See, e.g., Marsh v. Chambers,
463 U.S. 783, 790 (1983) (“An act ‘passed by the first
Congress assembled under the Constitution, many of
whose members had taken part in framing that
instrument, is contemporaneous and weighty evidence of
its true meaning.’” (alteration omitted) (quoting
Wisconsin v. Pelican Ins. Co., 127 U.S. 265, 297 (1888)).
The legislation provided exclusively for federal
management of essential aspects of Indian affairs: the
regulation of trade with Indians, prohibition on
purchases of Indian land except by federal agents, and
the federalization of crimes committed by non-Indians
against Indians. See COHEN’S, supra, § 1.03[2]. And early
Congresses repeatedly reaffirmed this expansive

75a
understanding of federal power by reenacting the
statute in various forms throughout the late eighteenth
and early nineteenth century. See Act of June 30, 1834,
ch. 161, 4 Stat. 729; Act of Mar. 30, 1802, ch. 13, 2 Stat.
139; Act of Mar. 3, 1799, ch. 46, 1 Stat. 743; Act of May
19, 1796, ch. 30, 1 Stat. 469; Act of Mar. 1, 1793, ch. 19, 1
Stat. 329.
These acts further evince that, from its earliest days,
Congress viewed itself as having an obligation to sustain
the Indians and tribes as a separate people belonging to
separate nations and to protect them from harm by the
states and their inhabitants. See Lummi Indian Tribe v.
Whatcom Cnty., 5 F.3d 1355, 1358 (9th Cir. 1993)
(internal citations omitted) (“Courts considering the
[Indian Intercourse] Act’s purpose have agreed that
Congress intended to protect Indians from the ‘greed of
other races,’ and from ‘being victimized by artful
scoundrels inclined to make a sharp bargain.’” (first
quoting United States v. Candelaria, 271 U.S. 432, 442
(1926); then quoting Tuscarora Nation of Indians v.
Power Auth., 257 F.2d 885, 888 (2d Cir. 1958), vacated as
moot sub nom., McMorran v. Tuscarora Nation of
Indians, 362 U.S. 608 (1960))); STEPHEN L. PEVAR, THE
RIGHTS OF INDIANS AND TRIBES 96 (4th ed. 2012). This
duty has deep historical roots. As related above, the
federal Government engaged with the Indians in the
decades following ratification as part of its westward
expansion project, utilizing not only diplomatic tools like
treaties, but also military might. See supra Background
Part I. By virtue of its manifold and dominant powers
over Indian affairs, the national Government gradually
subjugated the western lands, eventually enveloping the
Indian tribes and extinguishing many aspects of their

76a
external sovereignty, including their ability to deal with
other countries as independent nations.
As a consequence of the Indians’ partial surrender of
sovereign power, the federal Government naturally took
on an attendant duty to protect and provide for the wellbeing of the “domestic dependent [Indian] nations.”
Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 13 (1831)
(stating that Indian tribes “look to our government for
protection; rely upon its kindness and its power; appeal
to it for relief to their wants”); see also Mancari, 417 U.S.
at 552 (“In the exercise of the war and treaty powers, the
United States overcame the Indians and took possession
of their lands, sometimes by force, leaving them . . . [a]
dependent people, needing protection . . . .” (quoting Bd.
of Cnty. Comm’rs v. Seber, 318 U.S. 705, 715 (1943));
supra Background Part II. That is, owing to the federal
Government’s expansive Indian affairs powers and the
way in which it has wielded those powers to divest
Indians of their ancestral lands, the Government bears a
responsibility to protect the tribes from external threats.
Similarly, the Government has an overarching duty to
provide for the welfare of tribes. See CANBY, AMERICAN
INDIAN LAW, supra § 3.1; COHEN’S, supra, § 5.04. 23
Numerous pieces of Indian federal legislation have been
As discussed, this obligation has been characterized as akin to
a guardian-ward relationship, or, in more contemporary parlance, a
trust relationship. See supra Background Part II; compare
Cherokee, 30 U.S. at 13 (referring to the tribes as “domestic
dependent nations” and explaining “[t]heir relation to the United
States resembles that of a ward to his guardian”), with Menominee
Indian Tribe of Wis. v. United States, 136 S. Ct. 750, 757 (2016)
(noting the “general trust relationship between the United States
and the Indian tribes”) (internal quotation marks omitted).
23

77a
passed pursuant to this federal duty. 24 Indeed, we know
of no court that has found Congress’s power wanting
when Congress has invoked its duty to the tribes and
enacted legislation clearly aimed at keeping its enduring
covenant. See, e.g., Mancari, 417 U.S. 551-52 (“Of
necessity the United States assumed the duty of
furnishing . . . protection [to the Indians], and with it the
authority to do all that was required to perform that
obligation . . . .” (quoting Seber, 318 U.S. at 715));
Kagama, 118 U.S. at 383-84 (“Indian tribes are the
wards of the nation. They are communities dependent on
the United States . . . From their very weakness and
helplessness . . . there arises the duty of protection, and
with it the power. This has always been recognized by
the executive, and by congress, and by this court,
whenever the question has arisen.”); Perrin v. United
See, e.g., Indian Health Care Improvement Act, 25 U.S.C.
§ 1602 (explaining that the legislation was passed “in fulfillment of
[the Government’s] special trust responsibilities and legal
obligations to Indians”); Indian Self-Determination and Education
Assistance Act, 25 U.S.C. § 450a(a) (“The Congress hereby
recognizes the obligation of the United States to respond to the
strong expression of the Indian people for self-determination by
assuring maximum Indian participation in the direction of
educational as well as other Federal services to Indian communities
so as to render such services more responsive to the needs and
desires of those communities.”); Elementary and Secondary
Education Act, 20 U.S.C. § 7401 (“It is the policy of the United
States to fulfill the Federal Government’s unique and continuing
trust relationship with and responsibility to the Indian people for
the education of Indian children.”); American Indian Agricultural
Resource Management Act, 25 U.S.C. § 1307 (“[T]he United States
has a trust responsibility to protect, conserve, utilize, and manage
Indian agricultural lands consistent with its fiduciary obligation and
its unique relationship with Indian tribes.”).
24

78a
States, 232 U.S. 478, 486 (1914) (“It must also be
conceded that, in determining what is reasonably
essential to the protection of the Indians, Congress is
invested with a wide discretion, and its action, unless
purely arbitrary, must be accepted and given full effect
by the courts.”); Worcester, 31 U.S. at 556-57 (explaining
that the Constitution vests Congress with broad Indian
affairs powers and that Congress has “[f]rom the
commencement of our government . . . passed acts to
regulate trade and intercourse with the Indians; which
treat the[ tribes] as nations, respect their rights, and
manifest a firm purpose to afford that protection which
treaties stipulate”); Cherokee Nation, 30 U.S. at 13. 25
Chief among the external threats to the Indian tribes
were the states and their inhabitants. See Kagama, 118
U.S. at 384 (The Indian tribes “owe no allegiance to the
states, and receive from them no protection. Because of
the local ill feeling, the people of the states where they
are found are often their deadliest enemies.”); CANBY,
AMERICAN INDIAN LAW, supra § 3.1. And the Supreme
Court has long recognized and repeatedly reaffirmed the
federal Government’s ongoing duty to protect tribes
from the states and vice versa—as well as its power to do
so. See Kagama, 118 U.S. at 384; Cherokee Nation, 30
U.S. at 13; Worcester, 31 U.S. at 556-57; Mancari, 417
U.S. 551-52.

Though some of the cited cases are permeated with
paternalistic overtones and objectionable descriptions of Indians, it
is no less true today than it was centuries ago that the national
Government owes an obligation to provide for the welfare of the
Indians—and that it is armed with the power to do so. See, e.g.,
Mancari, 417 U.S. 551-52.
25

79a
In light of the foregoing, ICWA represents the
convergence of key aspects of federal Indian law. First,
as Congress expressly noted in its congressional
findings, ICWA was enacted pursuant to the “plenary
power over Indian affairs” that the Constitution places
in the federal government. 26 25 U.S.C. § 1901(1). This
authority is exclusive to the federal government, and the
Framers specifically intended to prevent the states from
interfering with its exercise, either by taking their own
disparate stances in dealing with tribal governments or
by otherwise exercising their sovereignty in a manner
contrary to federal Indian policy. See Seminole Tribe of
Fla., 517 U.S. at 62; Ablavsky, Beyond the Indian
Commerce Clause, supra at 1043-44. Just as the
Constitution was meant to preclude the states from
undertaking their own wars or making their own treaties
with the Indian tribes, see James Madison, Vices of the
Political System of the United States, in 9 THE PAPERS
OF JAMES MADISON 345, 348 (Robert A. Rutland et al.
eds., 1975), so too does it empower the federal
government to ensure states do not spoil relations with
the Indian tribes through the unwarranted taking and
We find it notable that, in enacting ICWA, Congress explicitly
contemplated whether it was constitutionally authorized to do so.
See H.R. REP. NO. 95-1386, at 13-15 (discussing the constitutionality
of ICWA, including that ICWA falls within Congress’s plenary
power over Indian affairs); Rostker v. Goldberg, 453 U.S. 57, 64
(1981) (“The customary deference accorded the judgments of
Congress is certainly appropriate when, as here, Congress
specifically considered the question of the Act’s constitutionality.”).
Though this judgment is not dispositive, we grant it due deference.
See Perrin, 232 U.S. at 486 (“[I]n determining what is reasonably
essential to the protection of the Indians, Congress is invested with
a wide discretion[.]”).
26

80a
placement of Indian children in non-Indian foster and
adoptive homes 27 As with the federal government’s
dealings with any other nation, the Constitution dictates
that the government address relations with the Indian
tribes on behalf of the nation as a whole without state
interference, be it with respect to war making, peace
treaties, or child custody practices.
JUDGE DUNCAN contends that the principle that the federal
government may prevent states from interfering with federal policy
toward the tribes does not apply here because ICWA does not
totally exclude states from Indian child custody proceedings. He
contends that ICWA instead “does the opposite of ‘excluding’” by
“leav[ing] many adoptions under state jurisdiction . . . while
imposing ‘Federal standards’ on those state proceedings.” DUNCAN,
CIRCUIT JUDGE, OP. at 48 (citing §§ 1911(b) & 1902). But JUDGE
DUNCAN’s suggestion that ICWA “co-opts” the machinery of state
courts in service to the federal government is highly misleading.
DUNCAN, CIRCUIT JUDGE, OP. at 49. Far from pressing the states
into federal service, ICWA minimizes any intrusion on state
sovereignty by permitting states to exercise some jurisdiction over
Indian Child custody proceedings so long as the state courts respect
the federal rights of Indian children, families, and tribes. Section
“1911(a) establishes exclusive jurisdiction in the tribal courts for
proceedings concerning an Indian child who resides or is domiciled
within the reservation.” Holyfield, 490 U.S. at 36 (internal quotation
marks omitted) (emphasis added). And while Section 1911(b) allows
states to exercise some concurrent jurisdiction over cases involving
“children not domiciled on the reservation,” it establishes that
jurisdiction over such proceedings still “presumptively” lies with
the tribal courts. Id. at 36 (internal quotation marks omitted)
(emphasis added). This means that, except in limited circumstances,
the case may remain in state court only with the consent of the
Indian child’s parents, custodian, and tribe. See § 1911(b). This is all
to say, that the statute allows states to participate in an activity that
is presumptively and could wholly be reserved to the tribes or the
federal government is an indulgence of state interests, not an
invasion thereof.
27

81a
Second, ICWA falls within the federal government’s
continuing trust relationship with the tribes, which
includes a specific obligation to protect the tribes from
the states. We earlier recounted the arbitrary and
abusive child removal and assimilation practices that led
Congress to conclude that it was necessary and proper
for it to enact ICWA. See supra Background Part IV-V;
see also Antoine, 420 U.S. at 203. Briefly stated,
throughout the late nineteenth and well into the
twentieth century, the federal government was
intimately involved in programs ostensibly to “educate”
Indian children at off-reservation schools that sought to
imbue them with white Christian values and
permanently shed them of and sever them from their
tribal heritage. Although the federal Government
eventually discontinued this assimilationist policy,
Congress found that abusive Indian child custody
practices continued at the state level, often leading to the
“wholesale” and unwarranted removal of Indian children
from their homes by state child welfare agencies and
adjudicatory bodies, see H.R. REP. NO. 95-1386, at 9; see
also Indian Child Welfare Act of 1977: Hearing Before
the S. Select Committee on Indian Affs., 95th Cong. 320
(1977) (statement of James Abourezk, Chairman, S.
Select Comm. on Indian Affs.) (describing the massive
removal as resulting in “cultural genocide”). Congress
heard and received extensive evidence on this
plundering of tribal communities’ children, including
testimony that the vast removal of Indian children from
their homes and communities constituted an existential
threat to tribes. See 124 Cong. Rec. 38,103 (1978)
(statement of Minority sponsor Rep. Robert
Lagomarsino) (“For Indians generally and tribes in

82a
particular, the continued wholesale removal of their
children by nontribal government and private agencies
constitutes a serious threat to their existence as ongoing, self-governing communities.”); see also H.R. REP.
NO. 95-1386, at 9-10 (declaring that the removal of Indian
children was a “crisis of massive proportions,”
representing “perhaps the most tragic and destructive
aspect of Indian life”).
After reviewing this testimony and evidence
concerning the massive removal of Indian children from
their tribal communities by the states, Congress found
that “there is no resource that is more vital to the
continued existence and integrity of Indian tribes than
their children”; “that an alarmingly high percentage of
Indian families are broken up by the removal, often
unwarranted, of their children from them by nontribal
public and private agencies”; and “that an alarmingly
high percentage of such children are placed in nonIndian foster and adoptive homes and institutions.” 25
U.S.C. § 1901(3)-(4). And Congress directly attributed
this threat to the states “exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies,” observing
that they had “often failed to recognize the essential
tribal relations of Indian people and the cultural and
social standards prevailing in Indian communities and
families.” Id. § 1901(5).
Thus, ICWA also falls within Congress’s “plenary
powers to legislate on the problems of Indians” in order
to fulfill its enduring trust obligations to the tribes.
Antoine, 420 U.S. at 203. Indeed, the congressional
findings in the statute expressly invoke this
“responsibility for the protection and preservation of

83a
Indian tribes and their resources” and state “that the
United States has a direct interest, as trustee, in
protecting Indian children.” 25 U.S.C. § 1901(2)-(3). The
law was intended to combat an evil threatening the very
existence of tribal communities, and it would be difficult
to conceive of federal legislation that is more clearly
aimed at the Government’s enduring trust obligations to
the tribes. Moreover, it fulfills the government’s duty to
protect the tribes from the states by regulating relations
between the two—a power that the Framers specifically
intended that the Constitution bestow on the federal
government. 28 See CANBY, AMERICAN INDIAN LAW § 2.1
28
The opposing opinion misapprehends the significance to our
analysis of the federal government’s history of removing Indian
children from their families and tribes to place them at offreservation boarding schools. See DUNCAN, CIRCUIT JUDGE, OP. at
50-51. In the view of the opposing opinion, that the boarding school
policy began in the latter half of the nineteenth century, and not the
Founding era, means that the federal government’s assimilation
policy is irrelevant in determining whether Congress was
authorized to enact ICWA. This is squarely contrary to the Supreme
Court’s explicit direction that historical “practice [is] an important
interpretive factor even when the nature or longevity of that
practice is subject to dispute, and even when that practice began
after the founding era.” Noel Canning, 573 U.S. at 525 (emphasis
added). But more importantly, JUDGE DUNCAN’s observation about
the start of the boarding school policy misses the point: Since the
Nation’s founding, the federal government has viewed itself as
owing an affirmative duty to promote tribal welfare generally and
to provide for Indian children specifically, as well as having the
power to do so—obligations that arise under what is now described
as a trust relationship between the tribes and the government. See
Br. of Prof. Ablavsky at 20 (describing federal financing of
placement of Indian children in Quaker homes during the
Washington administration); see also Fletcher, FEDERAL INDIAN
LAW § 5.2. This relationship, at one time, led the federal government
to pursue misguided policies that harmed the tribes, including its

84a
(“The central policy . . . was one of separating Indians
and non-Indians and subjecting nearly all interaction
between the two groups to federal control.”).
Plaintiffs raise several arguments in favor of cabining
Congress’s authority to redress the evils attending state
child welfare proceedings involving Indian children. We
review their contentions and find them wanting.
First, seeking to surmount the mountain of case law
sustaining Congress’s plenary authority to regulate with
respect to Indians, Plaintiffs point out that the Court
remarked that this power is “not absolute” in Delaware
Tribal Business Committee v. Weeks, 430 U.S. 73, 84
(1977). A cursory review of the cited authority reveals
that it affords no support to Plaintiffs’ position. The
above-quoted statement was made with regard to the
justiciability of a challenge to Congress’s “exercise of
efforts at assimilating Indian children through the use of boarding
schools during the nineteenth and twentieth centuries. And decades
after the height of the federal government’s ill-founded promotion
of Indian boarding schools, the states continued to perpetuate the
destruction of tribal culture by removing massive numbers of Indian
children from the custody of their parents. See supra Background
Part IV-V. In the face of these abusive child welfare practices and
pursuant to the government’s trust duty to the tribes—which, again,
is rooted in the Nation’s Founding era—Congress enacted ICWA to
protect the tribes. Stated differently, Founding-era history
confirms Congress’s “plenary power[]” and responsibility “to
legislate on the problems of Indians,” Antoine, 420 U.S. at 203, and
the history of Indian child removal demonstrates that the
unwarranted breakup of Indian families was such a problem.
Congress was effectuating its trust obligations to the tribes when it
acted to halt the wrongful Indian child custody practices that had
once been carried out by the federal government and were
continuing to be practiced by states at the time of ICWA’s
enactment, and this is exactly what the Constitution empowers the
federal government to do.

85a
control over tribal property.” Id. at 83. In other words,
the Court was addressing only whether it in fact had
authority to adjudicate the dispute—not the extent of
Congress’s authority to regulate Indian tribes. In any
event, the Court concluded that the controversy was
justiciable and upheld the challenged enactment. Id. at
90. Delaware Tribal Business Committee in no way
shackles Congress’s authority to regulate Indian tribes.
Plaintiffs next contend that the meaning of commerce
in the Indian and Interstate Commerce Clauses is
equivalent. Plaintiffs thus seek to import Interstate
Commerce Clause jurisprudence into the Indian
Commerce Clause in order to limit Congress’s power
under the latter; they argue that the latter clause does
not authorize ICWA because children are not “persons
. . . in commerce” and child custody cases do not
substantially affect commerce with Indian tribes. We
find Plaintiffs’ construction of the Indian Commerce
Clause unduly cramped, at odds with both the original
understanding of the clause and the Supreme Court’s
more recent instructions. See Printz, 521 U.S. at 905
(looking to “historical understanding and practice” as
well as “the jurisprudence of this Court” to determine
whether a federal enactment was constitutional). More
fundamentally, the history, text, and structure of the
Constitution demonstrate that the federal Government,
including Congress, has plenary authority over all Indian
affairs and that this power is in no way limited to the
regulation of economic activity. And, as stated, Congress
does not derive its plenary power solely from the Indian
Commerce Clause, but rather from the holistic interplay
of the constitutional powers granted to Congress to deal

86a
with the Indian tribes as separate nations. See Ablavsky,
Beyond the Indian Commerce Clause, supra at 1026.
The history refutes Plaintiffs’ attempt to equate the
Interstate and Indian Commerce Clauses. Indeed, since
the framing of the Constitution, “Indian ‘commerce’
[has] mean[t] something different” than “interstate
commerce.” Id. The Framers debated and approved the
Indian Commerce Clause separately from the Interstate
Commerce Clause, and, during ratification, the clauses
were viewed as so distinct in content that “no one during
ratification interpreted the Indian Commerce Clause to
shed light on the Interstate . . . Commerce Clause[], or
vice versa.” Id. at 1027; see also Matthew L.M. Fletcher,
ICWA and the Commerce Clause, in THE INDIAN CHILD
WELFARE ACT AT 30: FACING THE FUTURE 32 (Fletcher
et al. eds., 2009) [hereinafter Fletcher, ICWA and the
Commerce Clause]. Though both provisions use the term
“commerce,” the historical evidence from the time of the
Constitution’s framing indicates that interpreting
“commerce” identically in the Interstate and Indian
Commerce Clauses is a “trap” that “would tend to
obliterate the original meaning and intent of the Indian
Commerce Clause.” Fletcher, ICWA and the Commerce
Clause, supra, at 31. Put simply, “[c]ommerce with
Indian tribes must be interpreted on its own terms
rather than in the shadow of . . . the Interstate
Commerce Clause.” Ablavsky, Beyond the Indian
Commerce Clause, supra, at 1028, 1029 (noting that
eighteenth century references to “commerce” with
Indians included the exchange of religious ideas with
tribes and sexual intercourse with Indians); see also
Fletcher, ICWA and the Commerce Clause, supra at 89.

87a
Legislation from the beginning of the Constitutional
era further demonstrates that the Constitution confers
synergistic and comprehensive powers on the federal
Government to manage relations with Indian tribes,
regardless of whether the regulated activity is economic
in nature. As noted above, the Indian Intercourse Act of
1790 embraced many noneconomic subjects, including
the regulation of criminal conduct by non-Indians
against Indians. In enacting the law, the First Congress
plainly conceived of its power to extend into regulation
of noneconomic activity relating to Indian tribes. See
Jack M. Balkin, Commerce, 109 MICH. L. REV. 1, 24-26
(2010) (discussing the Act and its successors and stating
that “Congress clearly believed that it could reach both
economic and noneconomic activity under the Indian
Commerce Clause,” given that the Act reaches
noneconomic criminal conduct, such as murder); see also
Akhil Reed Amar, America’s Constitution and the Yale
School of Constitutional Interpretation, 115 YALE L.J.
1997, 2004 n.25 (2006). Since then, Congress has
repeatedly exercised its Indian affairs authority for
matters far beyond mere economic exchange. See, e.g.,
Indian Health Care Improvement Act, 25 U.S.C. §§ 1601
et seq.; Tribally Controlled Community College
Assistance Act, 25 U.S.C. § 1801(7)(B).
Furthermore, “[t]he scope of federal power under the
Indian commerce clause has developed under Supreme
Court decisions differently than the powers over foreign
and interstate commerce.” COHEN’S, supra, § 4.01[1][a].
The Court has explicitly underscored the distinction
between the clauses, explaining that “the Indian
Commerce Clause accomplishes a greater transfer of
power from the States to the Federal Government than

88a
does the Interstate Commerce Clause.” Seminole Tribe,
517 U.S. at 62 (observing that, though “the States still
exercise some authority over interstate trade[, they]
have been divested of virtually all authority over Indian
commerce and Indian tribes”). In short, it is “well
established that the Interstate Commerce and Indian
Commerce Clauses have very different applications”;
unlike the former clause, which “is concerned with
maintaining free trade among the States,” “the central
function of the Indian Commerce Clause is to provide
Congress with plenary power to legislate in the field of
Indian affairs.” Cotton Petroleum Corp. v. New Mexico,
490 U.S. 163, 192 (1989) (emphasis added); see also
United States v. Lomayaoma, 86 F.3d 142, 145 (9th Cir.
1996) (noting that the Indian Commerce clause “confers
more extensive power on Congress than does the
Interstate Commerce Clause”). And the Supreme Court
has continually made clear that Congress’s Indian affairs
power is not limited to regulating economic activity. See
Lara, 541 U.S. at 200 (affirming power of tribes to
criminally prosecute nonmembers); United States v.
Holliday, 70 U.S. (3 Wall.) 407, 410-11, 416-17 (1865)
(upholding under the Indian Commerce Clause a federal
statute that criminally sanctioned the sale of liquor to
Indians, reasoning that the law “regulates the
intercourse between the citizens of the United States and
[Indian] tribes, which is another branch of commerce,
and a very important one”); Worcester, 31 U.S. at 559
(explaining that the array of Indian affairs powers
conferred on Congress by the Constitution “comprehend
all that is required for the regulation of our intercourse
with the Indians”). Any contention that ICWA is beyond

89a
Congress’s authority to legislate with regard to Indian
affairs is unfounded.
Alternatively, Plaintiffs argue that, even if the
Constitution grants Congress plenary power with
respect to Indian affairs, ICWA nonetheless exceeds
Congress’s legislative authority because it reaches
Indian children who are not yet enrolled tribal members.
We find no merit in this argument. Pursuant to its Indian
affairs power, Congress has long regulated persons
without any tribal connection when their conduct affects
Indians. See, e.g., Indian Intercourse Act, § 1, 1 Stat. 137
(requiring any person who seeks “to carry on any trade
or intercourse with the Indian tribes” to obtain a license
from the federal government); United States v. Mazurie,
419 U.S. 544, 556-58 (1975) (upholding federal criminal
statute, passed pursuant to the Indian Commerce Clause
and applied to non-Indians for conduct on private, nonIndian land within a reservation). Indeed, “Congress’
plenary powers to legislate on the problems of Indians”
often results in statutes that impact—and are directly
aimed at—non-Indians. Antoine, 420 U.S. at 203; see also
Dick v. United States, 208 U.S. 340, 357 (1908) (“As long
as these Indians remain a distinct people, with an
existing tribal organization, recognized by the political
department of the government, Congress has the power
to say with whom, and on what terms, they shall deal
. . . .”). This type of regulation has been upheld
repeatedly, even when it extends outside the bounds of
the reservation or Indian country. See, e.g., United
States v. Nice, 241 U.S. 591, 597 (1916) (“The power of
Congress to regulate or prohibit traffic in intoxicating
liquor with tribal Indians within a state, whether upon or
off an Indian reservation, is well settled. It has long

90a
been exercised, and has repeatedly been sustained by
this court.”) (emphasis added); United States v. FortyThree Gallons of Whiskey, 93 U.S. (3 Otto) 188, 195
(1876) (sustaining Congress’s power to require forfeiture
of liquor sold outside of Indian country by a non-Indian
to a tribal member); Holliday, 70 U.S. (3 Wall.) at 416-17
(upholding statute that criminally sanctioned sale of
liquor by a non-Indian to an Indian outside of Indian
country); COHEN’S, supra, § 5.01[3] (explaining that the
Indian Commerce Clause comprehends “transactions
outside of Indian country.”). Simply put, Congress’s
Indian affairs power does not hinge on whether an entity
affected by a regulation is a member of an Indian tribe,
and there is no authority in the case law for the novel
constraint on congressional power that Plaintiffs proffer.
JUDGE DUNCAN’s objections to Congress’s power to
enact ICWA center on concerns that the statute
impermissibly interferes with state sovereignty by
legislating federal protections applicable to Indian
children in state child welfare proceedings. He raises
similar contentions when arguing that ICWA
contravenes the anticommandeering principle, which we
address below in our anticommandeering discussion. See
infra Discussion Part II.A.2. But that issue is distinct
from the question of whether Congress under Article I
may legislate on the particular subject matter at issue:
providing minimum protections for Indian children and
families in child custody proceedings in order to prevent
and rectify the massive removal of Indian children from
their communities. 29 See supra note 21. To the extent the
The opposing opinion misreads us as somehow suggesting
that the “Tenth Amendment vanishes” when Congress has plenary
power to legislate in a certain field. SEE DUNCAN, CIRCUIT JUDGE,
29

91a
opposing opinion alleges a Tenth Amendment violation
independent of any anticommandeering problem,
centuries of Supreme Court precedent declaring
Congress’s duty to protect tribes from the states and
Congress’s corresponding “plenary power[] to legislate
on the problems of Indians” compel us to reject JUDGE
DUNCAN’s arguments for imposing new restraints on
this authority. Antoine, 420 U.S. at 203; see also, e.g.,
Mancari, 417 U.S. 551-52; Kagama, 118 U.S. at 383-84.
Indeed, preventing the states from exercising their
sovereign power in a manner that interferes with federal
policy toward the Indian tribes is precisely what the
Constitution was intended to do. See Worcester, 31 U.S.
at 559 (“[The Constitution] confers on congress the
powers of war and peace; of making treaties, and of
regulating commerce with foreign nations, and among
the several states, and with the Indian tribes. These
powers comprehend all that is required for the
regulation of our intercourse with the Indians. They are
not limited by any restrictions on their free actions. The
shackles imposed on this power, in the confederation, are
discarded.”). It was exactly this concern that led the
Framers to confer on the federal government exclusive,
OP. at 28. To the contrary, we have explained that the question of
Congress’s Article I authority to legislate on a given subject matter
is separate from the anticommandeering inquiry and other
federalism concerns—as well as other constitutional constraints on
Congress’s legislative authority. See supra note 21. And our
analysis therefore tracks this basic understanding about the distinct
constitutional inquiries presented: first, we address whether ICWA
is within the range of Congress’s Indian affairs authority, and
second, we consider whether ICWA contravenes the
anticommandeering doctrine. Compare Discussion Part II.A.1 with
Discussion Part.II.A.2.

92a
plenary power over Indian affairs through myriad
interrelated constitutional provisions. See Ablavsky,
Beyond the Indian Commerce Clause at 1043-44.
JUDGE DUNCAN’s argument suffers from another
fundamental defect. His overarching premise is that
ICWA violates the Tenth Amendment—and thus
exceeds Congress’s Article I authority—because it
“encroaches” on an area of “traditional” state regulation,
the field of domestic relations. DUNCAN, CIRCUIT JUDGE,
OP. at 15, 40 n. 58,. Yet, as JUDGE HIGGINSON cogently
explains, this assertion is squarely at odds with the
Supreme Court’s decision in Garcia v. San Antonio
Metropolitan Transit Authority, where the Court
emphatically
rejected
as
unprincipled
and
unadministrable a conception of Tenth Amendment
protections that turns on whether a regulated activity is
one that is traditionally within a state’s purview.
HIGGINSON, CIRCUIT JUDGE, OP. at 1-2; see Garcia, 469
U.S. 528, 546-47 (1985) (“We therefore now reject, as
unsound in principle and unworkable in practice, a rule
of state immunity from federal regulation that turns on
a judicial appraisal of whether a particular governmental
function is ‘integral’ or ’traditional.’”)
First, “[t]here is no ‘general doctrine implied in the
Federal Constitution that the two governments, national
and state, are each to exercise its powers so as not to
interfere with the free and full exercise of the powers of
the other.’” Maryland v. Wirtz, 392 U.S. 183, 195 (1968)
(quoting Case v. Bowles, 327 U.S. 92, 101 (1946)). Rather,
pursuant to the Supremacy Clause, “the Federal
Government, when acting within a delegated power, may
override countervailing state interests,” whether those
interests are labeled traditional, fundamental, or

93a
otherwise. Id. In ratifying the Constitution, the states
consented to the subordination of their interests—even
those interests that are traditional state prerogatives—
to those of the federal government when it acts pursuant
to its constitutional powers. See Garcia, 469 U.S. at 549.
“In the words of James Madison to the Members of the
First Congress: ‘Interference with the power of the
States was no constitutional criterion of the power of
Congress. If the power was not given, Congress could
not exercise it; if given, they might exercise it, although
it should interfere with the laws, or even the Constitution
of the States.’” Id. (quoting 2 Annals of Cong. 1897
(1791)).
Moreover, on a more practical level, requiring courts
to attempt to ascertain whether a given area of
regulation is sufficiently within the historical province of
states to qualify for protection would “result in linedrawing of the most-arbitrary sort.” Id. at 545. “[T]he
genesis of state governmental functions stretches over a
historical continuum from before the Revolution to the
present, and courts would have to decide by fiat precisely
how longstanding a pattern of state involvement had to
be for federal regulatory authority to be defeated.” Id.
And, as the Garcia Court observed, aside from longevity,
there is a total lack “of objective criteria” by which to
identify unenumerated “fundamental’ elements of state
sovereignty.” Id. at 549.
The Garcia Court therefore held that the entirety of
the constitutional protections for states’ retained
sovereignty in the federalist system are found in the
limitations inherent in Congress’s enumerated Article I

94a
powers 30 and “in the structure of the Federal
government itself,” which assigns the states a role in,
among other things, selecting the executive and
legislative branches of the federal government. Id. at
550-51. This structure reflects the Framers’ desire “to
protect the States from overreaching by Congress”
through their participation in the democratic system and
the political process, and not by judicial assessment of
whether a federal practice intrudes on some inviolable
area of state sovereignty that went unmentioned in the
Constitution despite its supposed importance. Id. In
short, Garcia made clear that any “attempt to draw the
boundaries of state regulatory immunity in terms of
‘traditional governmental function’ is not only
unworkable but is also inconsistent with established
principles of federalism.” Id. at 554.
As JUDGE HIGGINSON points out, this is precisely the
type of disfavored line drawing in which JUDGE
DUNCAN’s opinion engages: it erroneously attempts to
shield states from ICWA’s minimum protections on the
ground that the law touches on domestic relations, a
sphere of regulation “traditionally” within the purview of
states. HIGGINSON, CIRCUIT JUDGE, OP. at 1-2. The
The modern anticommandeering doctrine was developed postGarcia, and it is also rooted in the Tenth Amendment’s reservation
of state sovereignty. See, e.g., New York, 505 U.S. at 188; Printz, 521
U.S. at 932. And the Court has of course long recognized that states
retain sovereign immunity from most private suits, including in
post-Garcia decisions. See, e.g., Seminole Tribe, 517 U.S. at 47.
Garcia, nevertheless, remains good law, as evidenced by citations to
it in the Court’s leading anticommandeering cases, see New York,
505 U.S. at 155; Printz, 521 U.S. at 932, meaning the type of
unenumerated spheres of state sovereignty JUDGE DUNCAN relies
upon simply do not exist.
30

95a
opposing opinion thus “risks resuscitating a
misunderstanding of state sovereignty that entangles
judges with the problematic policy task of deciding what
issues are so inherent in the concept and history of state
sovereignty that they fall beyond the reach of Congress.”
HIGGINSON, CIRCUIT JUDGE, OP. at 2.
Recognizing that Garcia’s reasoning dooms its
argument, the opposing opinion attempts to distinguish
that decision based on the fact that the statute at issue in
Garcia was enacted pursuant to Congress’s Interstate
Commerce Clause authority, whereas ICWA stems from
Congress’s power over Indian affairs. See DUNCAN,
CIRCUIT JUDGE, OP. at 40 n.58. However, the Garcia
Court’s reasoning for expressly rejecting a Tenth
Amendment test that looks to whether a federal
regulation encroaches on a ‘traditional governmental
function’ applies with equal force regardless of the
enumerated power pursuant to which Congress acts.
Moreover, it would be nonsensical for the Tenth
Amendment to impose more stringent federalism
limitations on Congress when it regulates under its
Indian affairs authority than under its Interstate
Commerce power. It is well settled that states retain
sovereign authority under the Tenth Amendment “only
to the extent that the Constitution has not divested them
of their original powers and transferred those powers to
the Federal Government,” id. at 549, and “the Indian
Commerce Clause accomplishes a greater transfer of
power from the States to the Federal Government than
does the Interstate Commerce Clause.” Seminole Tribe,
517 U.S. at 62. In other words, if any distinction exists
between the limitations federalism places on Congress’s
Indian affairs power and its Interstate Commerce

96a
power, it would be that Congress has more freedom to
regulate with respect to Indian affairs, not less. See id.;
Cotton Petroleum Corp., 490 U.S. at 192; see also
Lomayaoma, 86 F.3d 145; Ablavsky, Beyond the Indian
Commerce Clause, supra at 1043-44.
The opposing opinion further contends that Garcia is
inapposite because that case “concerned whether
‘incidental application’ of general federal laws
‘excessively interfered with the functioning of state
governments.’” DUNCAN, CIRCUIT JUDGE, OP. at 40 n.58
(quoting Printz, 521 U.S. at 932). But the same is true
with ICWA. Like the provision of the Fair Labor
Standards Act at issue in Garcia that applied to both
public and private employers, ICWA is a generally
applicable law. Under the statute, as explained infra
Discussion Part II.A.2.b, any burdens faced by states are
“nothing more than the same . . . obligations” that
“private [actors] have to meet.” Garcia, 469 U.S. at 554.
Because ICWA’s mandates may be borne either by
private actors or state actors, any burdens on states are
“merely incidental applications” of the statute. Printz,
521 U.S. at 932. JUDGE DUNCAN thus fails to
persuasively distinguish Garcia, confirming that the
opposing opinion’s argument for limiting Congress’s
Indian affairs authority under the Tenth Amendment is
“unsound in principle and unworkable in practice.”
Garcia, 469 U.S. at 546.
The opposing opinion also posits, in essence, that
Congress’s authority to enact ICWA turns on whether
there is either a Supreme Court decision blessing a
statute that operates just like ICWA or a Founding-era
federal law that regulates Indian children and applies
within state child welfare proceedings. See DUNCAN,

97a
CIRCUIT JUDGE, OP. at 29-56. Because neither exist,
ICWA must fall, according to the opposing opinion. Such
reasoning is misguided.
First, it is unsurprising that there is no Founding-era
federal Indian statute conferring rights that apply in
state proceedings. As JUDGE COSTA notes, it would have
been anachronistic and bizarre for the early Congresses
to have passed a law specifically pertaining to child
custody proceedings because it was not until the middle
of the nineteenth century that state adoption law shifted
to allow for the adjudication of child placements in
judicial proceedings. See COSTA, CIRCUIT JUDGE, OP. at
16-17; see also Naomi Cahn, Perfect Substitutes or the
Real Thing?, 52 DUKE L.J. 1077, 1112-17 (2003). And
there was no need during the Founding era for
legislation that operated like ICWA as there was no
massive removal of Indian children from their families at
the hands of state administrative or judicial bodies. It
was only during the 1970s that the scale of the ongoing,
state-driven problem of Indian child removal was
brought to Congress’s attention. See supra Background
Part IV. Over a four-year span, Congress considered
voluminous evidence of the systematic removal of Indian
children from their families and tribes through state
proceedings. Fletcher, FEDERAL INDIAN LAW, supra
§ 8.8. Faced with the unique and alarming nature of this
evil, Congress determined it was necessary to enact
ICWA in order to protect Indian children, families, and
tribes within those state proceedings. Thus, deciding
ICWA’s constitutionality by looking to whether the
Founders enacted a federal law conferring rights to
Indian families and tribes within child custody
proceedings is as nonsensical as deciding that federal

98a
regulation of the internet is unconstitutional because the
early Congresses lacked the prescience to regulate a
non-existent technology.
Second, the absence of a Supreme Court decision
squarely addressing a federal Indian statute that creates
rights applicable in state proceedings does not lend
credence to the opposing opinion’s position. As discussed
infra Discussion Part II.A.2.a.i, the Supreme Court has
repeatedly held that state courts are bound by the
Supremacy Clause to apply validly preemptive federal
law, and there is thus ample Supreme Court precedent
supporting Congress’s authority to enact laws applicable
in state proceedings. See, e.g., McCarty v. McCarty, 453
U.S. 210, 235-36 (1981) (federal military benefits statute
guaranteeing “retired pay” to a retired servicemember
preempted state’s community property law that
otherwise would have provided upon divorce for dividing
the retirement pay between the former spouses);
Hisquierdo v. Hisquierdo, 439 U.S. 572, 590 (1979)
(federal Railroad Retirement Act’s scheme for pension
benefits, which excluded a spouse of a railroad employee
from entitlement to such benefits upon divorce,
preempted state law’s definition of community property
subject to division). That there may be no case affirming
a federal statute that creates rights related to Indians
that apply in state courts evidences only the history just
discussed and the fact that few questioned Congress’s
ability to legislate in this manner given the wealth of
Supreme Court precedents upholding the preemptive
force of federal law. Indeed, ICWA itself has been a part
of the United State Code for over forty years without a
significant Tenth Amendment challenge to the law
reaching the Supreme Court or the courts of our sister

99a
circuits, which would surely be puzzling if the statute
were truly the radical, unprecedented federal overreach
that the opposing opinion contends. Thus, the lack of a
Supreme Court case directly addressing an Indian law
like ICWA that creates rights applicable in state court
proceedings speaks not to the absence of federal
authority to enact such a statute, but instead to historical
circumstance and federal authority that is so well
established as to be unquestionable.
To summarize, ICWA’s constitutionality does not
hinge on JUDGE DUNCAN’s exceptionally pinched
framing that would have the statute rise or fall based on
the historical sanctioning of an exact analogue that
Congress would have had no occasion to enact. Rather,
the salient question is whether the history and text of the
Constitution and congressional practice suggest that
ICWA is within Congress’s plenary Indian affairs
authority. See Noel Canning, 573 U.S. at 533 (“The
Founders knew they were writing a document designed
to apply to ever-changing circumstances over centuries.
After all, a Constitution is ‘intended to endure for ages
to come,’ and must adapt itself to a future that can only
be ‘seen dimly,’ if at all.” (quoting McCulloch v.
Maryland, 17 U.S. (4 Wheat) 316, 415 (1819))); Heller,
554 U.S. at 528. Given the extensive history of federal
government efforts to provide for the welfare of Indian
children and tribes, including legislation specifically
designed to protect Indians from mistreatment by the
states and their citizens, this question can only be
answered in the affirmative.
Searching in vain for case law to support its
unorthodox position, the opposing opinion improvidently
relies on two inapposite Supreme Court decisions,

100a
Seminole Tribe of Florida v. Florida, 517 U.S. 44 (1996),
and United States v. Lara, 541 U.S. 193 (2004). In
Seminole Tribe, the Court considered an issue wholly
absent from the present case: Congress’s power to
abrogate states’ sovereign immunity. 517 U.S. at 47.
That case concerned the Indian Gaming Regulatory Act,
which was passed pursuant to the Indian Commerce
Clause. Id. One provision in the law authorized tribes to
sue states in federal court to compel them to negotiate in
good faith to establish a tribal-state compact governing
gaming activities. Id. The Court nullified that provision;
it reasoned that, although the Constitution vests
Congress with “complete law-making authority” with
respect to Indian affairs, “the Eleventh Amendment
[generally] prevents congressional authorization of suits
by private parties against unconsenting states.” Id. at 72.
JUDGE DUNCAN emphasizes this uncontroversial
statement, but it does not advance his argument.
DUNCAN, CIRCUIT JUDGE, OP. at 35-36. In holding that
Congress could not abrogate a state’s sovereign
immunity pursuant to its Indian affairs power, Seminole
Tribe simply recognized that, even when Congress holds
plenary authority over a field of legislation, that power is
still subject to limitations imposed by other
constitutional provisions. See id.; Williams, 393 U.S. at
29; Condon, 528 U.S. at 149. It is for this reason that, as
explained supra note 21, we first address Congress’s
Article I authority to legislate over ICWA’s subject
matter and then separately consider whether ICWA is
consistent with the anticommandeering doctrine and
other constitutional guarantees.
To the extent JUDGE DUNCAN asserts that Seminole
Tribe prohibits Congress from regulating in state

101a
“sovereign matters like adoption proceedings,” DUNCAN,
CIRCUIT JUDGE, OP. at 36, we disagree. Seminole Tribe
addressed only limitations on Congress’s power to
override states’ sovereign immunity from suit by private
parties. See id. at 47. It has no bearing on the scope of
Congress’s Article I authority when, as here, private
suits against a state are not at issue. Indeed, the Court
carefully noted that its opinion in no way touched upon
other aspects of the Tenth Amendment. See id. at 61 n.10
(expressly declining to opine on whether the statute
contravened the anticommandeering doctrine because
this argument “was not considered below . . . and is not
fairly within the question presented”); see also id. at 183
n.65 (Souter, J., dissenting) (cautioning that the views
expressed in his dissenting opinion on the issue of state
sovereign immunity “should not be understood [as]
tak[ing] a position on” the “scope of the Tenth
Amendment” in other respects). Furthermore, the
Supreme Court has expressly held that even in fields like
domestic relations that are generally the exclusive
territory of state regulation, Congress can enact
legislation that preempts contrary state law. See, e.g.,
McCarty, 453 U.S. at 235-36. In sum, any reliance on
Seminole Tribe as imposing a limit on Congress’s ability
to exercise its Indian affairs authority to create federal
rights that apply within child custody proceedings is
misplaced. 31
We note that JUDGE DUNCAN mischaracterizes the
Defendants as supposedly making the “core” argument that simply
because Congress has plenary authority over Indian affairs it “can
ipso facto” regulate sovereign state affairs. DUNCAN, CIRCUIT
JUDGE, OP. at 33-34, 36 n.52. This contention is not raised in the
Defendants’ briefing nor was it advanced at oral argument.
Defendants’ actual argument is that, as an initial matter, Congress
31

102a
The Supreme Court’s decision and reasoning in Lara,
541 U.S. at 196, also does not apply to the present case.
There, the Court considered the constitutionality of a
statute enacted in response to an earlier Court ruling in
Duro v. Reina, 495 U.S. 676 (1990). In Duro, the Court
held that tribes had been dispossessed of their inherent
authority to prosecute nonmember Indians by virtue of
their status as dependent sovereigns subject to the
authority of the United States. Id. at 679. Congress
promptly passed a law seeking to avoid the Court’s
ruling in Duro by “recogniz[ing] and reaffirm[ing]” that
tribes’ inherent sovereignty includes the power to
exercise criminal jurisdiction over nonmember Indians.
Lara, 541 U.S. at 196; see also United States v. Enas, 255
F.3d 662, 669 (9th Cir. 2001) (citing 25 U.S.C. § 1301(2)).
That statute was challenged in Lara as exceeding
Congress’s authority. See 541 U.S. at 200. The case thus
presented the specific question of whether Congress
could statutorily alter limits that had been placed on
tribes’ inherent sovereign powers as a result of their
dependent status.
The Court answered this question in the affirmative,
reasoning that Congress was in effect “relax[ing]
restrictions that the political branches” had previously
placed on the exercise of inherent tribal authority. Id. at
196. In recognizing Congress’s power to remove such
restrictions, the Court discussed several relevant
considerations. For example, one consideration was that
Congress, with the Court’s approval, had a longestablished practice of adjusting the limits on the
sovereign authority of tribes and other “dependent
has authority to enact ICWA and second that ICWA does not violate
the anticommandeering doctrine.

103a
entities” such as Hawai‘i and Puerto Rico. Id. 203-04.
This history of congressional action was germane to
deciding whether Congress could continue to adjust the
scope of tribal autonomy. However, the Lara Court’s
considerations are of no relevance where, as with ICWA,
Congress is not altering the scope of tribes’ retained
sovereign power.
Instead, in enacting ICWA, Congress simply
employed its power to set policy with respect to the
Indian tribes by conferring minimum federal protections
on Indian children, parents, and tribes in state child
custody
proceeding.
Stated
differently,
the
considerations in Lara are inapplicable because, unlike
the statute at issue in Lara, ICWA affirmatively grants
new rights, protections, and safeguards to individual
Indians and tribes in state proceedings and does not
restore or remove any inherent sovereign authority the
tribes possessed prior to their becoming dependents of
the United States. Take, for instance, § 1911(b), which
permits tribes to intervene in an off-reservation child
custody case and invoke ICWA’s placement preferences.
That this provision cannot be read to restore sovereign
authority to a tribe is clear from the fact that it grants
the very same right to an Indian child’s parents or
relatives; a power cannot be sovereign in nature if it can
just as easily be exercised by individual tribal members
as by tribes themselves. Cf. Lara, 541 U.S. at 200
(upholding tribes’ inherent sovereign power to prosecute
nonmember Indians). Similarly, § 1912(b) provides
indigent Indian parents or custodians a right to
appointed counsel in state child custody proceedings—a
right not conferred on the sovereign tribes at all. These
provisions grant rights to Indian tribes, parents, and

104a
relatives pursuant to Congress’s power to regulate
relations between states, the federal government, and
the tribes, and they simply do not implicate the Indian
tribes’ inherent sovereign power. 32
In sum, Lara’s unique analytical approach cannot be
applied wholesale to assess an enactment like ICWA that
does not restore tribal sovereignty but instead
affirmatively regulates Indian affairs by establishing a
range of federal protections that apply when an Indian
child is involved in a state child custody proceeding.
Lara’s reasoning is therefore far removed from the
Article I issue presented in this case.
Based on the Framers’ intent to confer on the federal
Government exclusive responsibility for Indian affairs,
the centuries-long history of the Government’s exercise
of this power, and the extensive body of binding Supreme
Court decisions affirming and reaffirming this authority,
we conclude that ICWA “represent[s] the exercise of []
power[s] conferred on Congress by the Constitution.”
Murphy, 138 S. Ct. at 1479. At a bare minimum, ICWA
is “necessary and proper,” U.S. CONST. art. I, sec. 8—
that is, “plainly adapted,” McCulloch v. Maryland, 17
U.S. (4 Wheat) 316, 421 (1819)—to solving “the problems
of Indians,” Antoine, 420 U.S. at 203, and thus fulfilling
the federal government’s trust duty to the tribes as it is
JUDGE DUNCAN is correct that in Lara the Court noted that
it was not confronted “with a question dealing with potential
constitutional limitations on efforts to legislate far more radical
changes in tribal status.” Lara, 541 U.S. at 205; DUNCAN, CIRCUIT
JUDGE, OP. at 33-34 n.33. But as explained above, ICWA does not
effect any change whatsoever in tribal sovereignty. JUDGE DUNCAN
is therefore incorrect that the instant challenge to ICWA presents
the question Lara left undecided.
32

105a
squarely targeted at rectifying “perhaps the most tragic
and destructive aspect of Indian life.” H.R. REP. NO. 951386, at 9-10. 33
A contrary holding would render Congress impotent
to remedy and prevent repetition of the depredations
visited upon Indian children, tribes, and families, an
injustice to which the federal Government itself has
contributed and apologized. See 146 CONG. REC. E1453
(Sept. 12, 2000) (quoting apology of Assistant Secretary
for Indian Affairs, Department of the Interior remarks
on Sept. 8, 2000). Such a result would be not only a sad
irony, but a grievous judicial straitjacketing of a
coordinate branch of government. We decline to vitiate
Congress’s authority in a field in which the Supreme
Court has held that it wields plenary power. See Lara,
541 U.S. at 200 (2000); Ramah Navajo Sch. Bd., Inc., 458
U.S. at 837; White Mountain Apache Tribe, 448 U.S. at
142. Instead, we follow the Court’s sustained
admonitions that Congress is empowered fully to make
good on its trust obligations to Indian tribes. See, e.g.,
Mancari, 417 U.S. 551-52; Antoine, 420 U.S. at 203;
Kagama, 118 U.S. at 383-84.
2.

ICWA
Does
Not
Violate
Anticommandeering Principle.

the

We turn to the second prong of the preemption
analysis and consider whether ICWA runs afoul of the
anticommandeering doctrine. Under the Articles of
Confederation, the federal government largely lacked
the power to govern the people directly and instead was
Notably, Plaintiffs do not expressly contend that ICWA
exceeds the auxiliary powers granted to Congress under the
Necessary and Proper Clause.
33

106a
restricted to giving commands to the states that it was
often powerless to enforce. New York, 505 U.S. at 161-62
(citing Lane Cnty. v. Oregon, 74 U.S. (Wall.) 71, 76
(1868)). To rectify this impotency, the Framers inverted
this relationship in the Constitution, empowering
Congress to “exercise its legislative authority directly
over individuals rather than over States.” Id. at 164.
Citing this history, Justice O’Connor inaugurated the
modern anticommandeering doctrine, in New York v.
United States, stating that it represents the Framers’
structural decision to withhold from Congress the power
to directly command state executives and state
legislatures to do its bidding. See id.
The Constitution’s Supremacy Clause, provides,
however, that “the Laws of the United States . . . shall be
the supreme Law of the Land; and the Judges in every
State shall be bound thereby, any Thing in the
Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. CONST. art. VI, cl. 2. Thus, a
distinction exists between a law that unconstitutionally
“conscript[s] state governments as [the federal
government’s] agents,” New York, 505 U.S.at 178, and a
law that establishes federal rights or obligations that the
states must honor despite any conflict with state law. We
consider, then, whether ICWA falls into the former camp
or the latter.
a. In Requiring State Courts to Apply
Preemptive Federal Law, ICWA Does
Not Violate the Anticommandeering
Doctrine.
The district court determined that ICWA
unconstitutionally commandeers the states by requiring
state courts to apply its minimum protections in their

107a
child custody proceedings. However, when considering
whether a federal law violates the anticommandeering
doctrine, the Supreme Court has consistently drawn a
distinction between a state’s courts and its political
branches.
Because the Supremacy Clause obligates state courts
to apply federal law as the “supreme Law of the Land”
and provides that “the Judges in every State shall be
bound thereby,” the anticommandeering principle that
Justice O’Connor formulated in New York does not apply
to properly enacted federal laws that state courts are
bound to enforce. As Justice Scalia made clear in Printz,
“the Constitution was originally understood to permit
imposition of an obligation on state judges to enforce
federal prescriptions, insofar as those prescriptions
related to matters appropriate for the judicial power.”
Printz, 521 U.S. at 907. State courts were viewed as
distinctive because, “unlike [state] legislatures and
executives, they applied the law of other sovereigns all
the time,” including federal law as mandated by the
Supremacy Clause. Id. Thus, it is well-established that
Congress has the power to pass laws enforceable in state
courts. See Palmore v. United States, 411 U.S. 389, 402
(1973); Testa v. Katt, 330 U.S. 386, 394 (1947); see also
Second Employers’ Liability Cases, N.H. & H.R. Co.,
223 U.S. 1, 57 (1912); Claflin v. Houseman, 93 U.S. 130,
136-37 (1876). Although these “[f]ederal statutes
enforceable in state courts do, in a sense, direct state
judges to enforce them, . . . this sort of federal ‘direction’
of state judges is mandated by the text of the Supremacy
Clause.” New York, 505 U.S. at 178-79. In other words, it
is inherent in the Supremacy Clause’s provision that
federal law “shall be the supreme Law of the Land” that

108a
state courts must enforce federal law. U.S. CONST. art.
VI, cl. 2.
In the district court’s erroneous view, ICWA’s
standards do not bind states courts because ICWA itself
does not supply a federal cause of action. Although the
district court noted the settled principle that state courts
must apply federal law to a federal cause of action, it did
not recognize the equally settled obligation on state
courts to honor federal rights when they are implicated
in a case arising out of a state-law cause of action. Failing
to appreciate this duty, the court below thought that
ICWA cannot bind state courts because it “modif[ies]”
the substantive standards applicable to child custody
cases, which arise from state law. Thus, the district court
believed that ICWA improperly commandeers state
courts and therefore cannot preempt conflicting state
law.
There is no support in the Supreme Court’s
precedents for this novel limit on federal preemption.
See, e.g., Haywood v. Drown, 556 U.S. 729, 736 (2009)
(“[A]lthough States retain substantial leeway to
establish the contours of their judicial systems, they lack
authority to nullify a federal right or cause of action they
believe is inconsistent with their local policies.”
(emphasis added)). The Supreme Court has long made
clear that, even in areas of traditional state prerogative,
such as domestic relations, a federal right may preempt
state causes of action “to the extent of any conflict”
between the two. Hillman v. Maretta, 569 U.S. 483, 49091 (2013) (quoting Crosby, 530 U.S. at 372). In other
words, when the standard application of substantive
state family law “clearly conflict[s]” with “federal
enactments” in an area in which Congress may validly

109a
exercise its Article I authority, state law “must give
way.” Id. (quoting Ridgway v. Ridgway, 454 U.S. 46, 55
(1981)) (federal statute requiring that life insurance
benefits be paid according to a specific “order of
precedence” preempted state law directing that
proceeds be paid to a different beneficiary).
More to the point, the Supreme Court has expressly
held that federal law can “modify” the substance of state
law claims. Take, for example, McCarty v. McCarty, 453
U.S. 210 (1981). There, a federal military benefits statute
provided for a different division of retirement benefits
upon divorce than a state’s community property law. Id.
at 235-36. The Court held that the federal law preempted
state law, thereby altering the substantive law applicable
to a state-law cause of action. Id.; see also Egelhoff v.
Egelhoff ex rel. Breiner, 532 U.S. 131, 143 (2001) (holding
that ERISA preempted state law regarding allocation of
certain assets upon divorce during state probate
proceeding); Hisquierdo v. Hisquierdo, 439 U.S. 572, 590
(1979) (holding that federal law preempted state law’s
definition of community property subject to division with
respect to federal pension benefits). And in Jinks v.
Richland County, the Court affirmed that federal law
cannot only “modify” the substance of a state law claim,
but indeed can keep alive a state law cause of action that
would otherwise be time-barred 34 538 U.S. 456, 459
While it is unquestionable that federal law may alter the
“‘substance’ of state-law rights of action,” the Supreme Court has
left unresolved the validity of “federal laws that regulate state-court
‘procedure.’” See Jinks, 538 U.S. at 464. We need not weigh in on
this unsettled question because ICWA’s challenged provisions grant
rights and protections to Indian tribes and families that are
substantive in nature. Cf. id. at 464-65 (tolling of state law
limitations period is substantive).
34

110a
(2003) (upholding the federal supplemental jurisdiction
statute’s provision tolling state law claims while they are
pending in federal court, thus permitting such claims, if
they are dismissed from federal court, to proceed in state
court, though they otherwise may be barred by the
running of a state’s limitations period).
As amici point out, these laws are not unique: a host
of federal statutes change the standards applicable to
state causes of action, including in family law
proceedings. See, e.g., Servicemembers Civil Relief Act,
50 U.S.C. § 3911, et seq.; Parental Kidnapping
Prevention Act, 28 U.S.C. § 1738A; Full Faith and Credit
for Child Support Orders Act, 28 U.S.C. § 1738B;
Foreign Sovereign Immunities Act, 28 U.S.C. § 1330, et
seq.; Intercountry Adoption Act of 2000, 42 U.S.C.
§ 14954. And state courts have long applied these
requirements without ever questioning Congress’s
authority to impose them.
For example, in In re Larson, a California appeals
court held that the federal Soldiers’ and Sailors’ Civil
Relief Act (SSCRA), which affords rights to
servicemembers who are “prejudiced” in state court
proceedings “by reason of [their] military service,”
overrode otherwise applicable state law. 183 P.2d 688,
690 (Cal. Dist. Ct. App. 1st 1947), disapproved of on other
grounds by In re Marriage of Schiffman, 620 P.2d 579
(Cal. 1980) (citing Pub. L. No. 86-721, 54. Stat. 1180, now
titled Servicemembers Civil Relief Act, 50 U.S.C. § 391).
In that case, the state trial court had granted a mother’s
petition to have her child’s last name changed to hers
from that of her former spouse. Id. at 690-91. The father
appealed, averring that, because he was in the armed
forces and detained as a prisoner of war in Germany at

111a
the of time of the mother’s petition, he was entitled to
relief under the SSCRA. Id. at 690. Acknowledging that
the mother had “proceeded in accordance with the
applicable statutes of this state,” the appeals court
nonetheless recognized that the federal statute
superseded state law and vacated the lower court’s order
to permit the father to challenge the petition. Id. at 69091. At no point did the state court suggest that the
SSCRA impinged on state sovereignty. See also, e.g., In
re China Oil & Gas Pipeline Bureau, 94 S.W.3d 50, 59
(Tex. App. 2002) (applying Foreign Sovereign
Immunities Act burden of proof to determine whether
foreign state had waived immunity from state law breach
of contract, breach of fiduciary duty, and fraud claims);
State ex rel. Valles v. Brown, 639 P.2d 1181, 1186 (N.M.
1981) (applying Parental Kidnapping Prevention Act to
determine whether the state court could modify a child
custody decree).
In light of the Supreme Court’s express decisions
upholding federal law’s ability to alter substantive
aspects of state claims and the robust history of federal
statutes that do just that, there can be little doubt that
the district court erred by determining that ICWA’s
provisions preempting state law were instead a violation
of the anticommandeering doctrine. Thus, to the extent
that the rights created by ICWA conflict with states’
child custody laws, the Supremacy Clause requires state
judges to honor ICWA’s substantive provisions. See New
York, 505 U.S. at 178-79 (explaining that state judges are
required under the Supremacy Clause to enforce federal
law).

112a
i. Sections 1912(e)-(f), 1915(a)-(b)
Applying these principles to the case at bar, we
conclude that “to the extent of any conflict” between the
rights created by ICWA and state law, Hillman v.
Maretta, 569 U.S. at 490, state courts are obliged to
honor those rights by applying ICWA’s substantive
evidentiary standards for foster care placement and
parental termination orders, 25 U.S.C. § 1912(e)-(f), as
well as the federal law’s child placement preferences, id.
§ 1915(a)-(b). Each of these provisions creates federal
rights in favor of Indian children, families, and tribes
that potentially alter the substantive standards
applicable in child custody proceedings. We note that
these provisions do in fact conflict with the otherwise
applicable law of the State Plaintiffs. For example, in
furthering its goal of protecting “the best interests of
Indian children,” id. § 1902, ICWA prohibits terminating
the parental rights of an Indian child’s biological parents
absent a determination “beyond a reasonable doubt . . .
that the continued custody of the child by the parent . . .
is likely to result in serious emotional or physical damage
to the child.” Id. § 1912(f). The State Plaintiffs, on the
other hand, generally use the far less stringent “best
interests of the child” analysis and “clear and
convincing” evidentiary standard. 35 Consequently, as
See IND. CODE §§ 31-35-2-4(b)(2) and 31-37-14-2 (2019)
(setting forth a four element test to terminate parental rights,
including that termination is “in the best interests of the child,” and
requiring proof of each element by “clear and convincing” evidence);
LA. CHILD. CODE art. 1015, 1035, 1037 (2019) (stating that in order
to terminate parental rights a court must find by “clear and
convincing evidence” that a parent has committed one of an
enumerated list of offenses and that it is in the “best interests of
the child” to terminate the rights); TEX. FAM. CODE § 161.001 (2019)
35

113a
between these differing standards, state courts are
compelled to employ ICWA’s heightened protections in
proceedings involving Indian children. Indeed, state
courts have not hesitated do so. 36 See, e.g., In re W.D.H.,
43 S.W.3d 30, 37 (Tex. App. 2001) (“We conclude that it
is not possible to comply with both the two-prong test of
the Family Code, which requires a determination of the
best interest of the child under the ‘Anglo’ standard, and
the ICWA, which views the best interest of the Indian
child in the context of maintaining the child’s
relationship with the Indian Tribe, culture, and family.”);
Yavapai–Apache Tribe v. Mejia, 906 S.W.2d 152, 170
(Tex. App. 1995) (stating that ICWA “was specifically
directed at preventing the infiltration of Anglo
standards” in custody proceedings involving Indian
children); In re Adoption of M.T.S., 489 N.W.2d 285, 288
(Minn. Ct. App. 1992) (concluding that ICWA’s
preference for placing an Indian child with an Indian
family member provides a “higher standard of
protection” for an Indian guardian than the state’s best
(requiring a showing by “clear and convincing evidence” “that
termination is in the best interest of the child” and that the parent
committed one of an enumerated list of offenses).
36
Some state courts have determined that certain of ICWA’s
provisions do not conflict with—and therefore do not preempt—
state law but rather mandate additional protections that state
courts must implement. See, e.g., K.E. v. State, 912 P.2d 1002, 1004
(Utah Ct. App. 1996) (holding that ICWA does not preempt the
state’s “statutory grounds for termination of parental rights” but
instead “requires a specific finding for termination proceedings”
that continued custody by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the child “in
addition to those [findings] required by state law and imposes a
separate burden of proof for that finding.” (citing 25 U.S.C.
§ 1912(f)).

114a
interests standard, which would otherwise apply in
determining a child’s custodial placement (citing 25
U.S.C. §§ 1915(a), 1921)). This is “no more than an
application of the Supremacy Clause.” New York, 505
U.S. at 178.
In sum, § 1912(e) and (f)’s evidentiary standards and
§ 1915(a) and (b)’s placement’s preferences simply
supply substantive rules enforceable in state court and
do not violate the Tenth Amendment.
ii. Sections 1915(e), 1917, and 1951(a)
We likewise find no constitutional infirmity in
ICWA’s provisions that require state courts to maintain
and make available certain records pertaining to custody
proceedings involving Indian children. See 25 U.S.C.
§§ 1915(e), 1917, and 1951(a). Section 1915(e) requires
state courts to retain a record “evidencing the efforts to
comply” with ICWA’s placement preferences and
“ma[k]e available” this record, upon request, to the
Secretary or an Indian child’s tribe. Id. § 1915(e). Under
§ 1917, once an adopted Indian child attains majority, the
state court that “entered the final decree” of adoption
“shall,” upon the Indian adoptee’s application, “inform”
her of her biological parents’ tribal affiliation and
provide other information that “may be necessary to
protect any rights from the individual’s tribal
relationship.” Id. § 1917. And § 1951(a) requires state
courts to provide the federal government with a copy of
the adoption decree in any proceeding involving an
Indian child. Id. § 1951(a).
Though these recordkeeping provisions arguably do
not supply rules of decision like those in §§ 1912(e)-(f)
and 1915(a)-(b), the original understanding of the
Supremacy Clause nonetheless compels state courts to

115a
effectuate their mandate. As explained in Printz v.
United States, “the first Congresses required state
courts to record applications for citizenship . . . [and] to
transmit abstracts of citizenship applications and other
naturalization records to the Secretary of State.” 521
U.S. at 905-06 (citing Act of Mar. 26, 1790, ch. 3, § 1, 1
Stat. 103; Act of June 18, 906 1798, ch. 54, § 2, 1 Stat. 567).
From the dawn of the constitutional era, then, federal
law placed specific recordkeeping and sharing
requirements on state courts, and these duties were
viewed as congruent with the state courts’ obligations
under the Supremacy Clause. The history thus makes
clear that this sort of requirement cannot be considered
commandeering in violation of the Tenth Amendment.
See Marsh, 463 U.S. at 790. Plaintiffs have provided no
authority for deviating from this original understanding,
and so we hew to it.
State Plaintiffs contend that, rather than applying to
state courts, §§ 1915(e) and 1951(a) instead impose
obligations on state agencies and thereby violate the
anticommandeering doctrine. We address these
provisions in turn and disagree with the States’
conclusion as to each.
Though § 1915(e) applies to the “State,” it does not
specify whether that term refers to state courts or
agencies. The regulation implementing § 1915(e),
however, expressly permits states to designate either
their courts or agencies as “the repository for th[e]
information” required to be maintained by § 1915(e).” 25
C.F.R. § 23.141 (“The State court or agency should notify
the BIA whether these records are maintained within
the court system or by a State agency.”). Substantively,
the regulation requires only that “court records” be

116a
maintained. 81 Fed. Reg. at 38,849-50. This imposes no
direct burden on states.
State Plaintiffs do not challenge the BIA’s
construction of § 1915(e). 37 Thus, their complaint that
§ 1915(e) and its implementing regulation impermissibly
burdens their agencies rings hollow, given that Plaintiffs
themselves have elected to designate their agencies,
rather than courts, as the entities charged with
complying with these provisions. States are not “pressed
into federal service” when they affirmatively choose to
obligate their executive, rather than judicial, officers to
implement an otherwise valid federal obligation. See
Printz, 521 U.S. at 905. In other words, § 1915(e) and its
implementing regulation are not “direct orders to the
governments of the States” but rather let states exercise
their discretion to require either their courts or child
welfare agencies to maintain and make available the
required records. Murphy, 138 S. Ct. at 1478. The
constitutionality of these provisions does not rise or fall
based on a state’s preference.
For similar reasons, we disagree with JUDGE
DUNCAN’s contention that § 1951(a), which requires state
courts to furnish adoption records to the federal
government, invalidly commandeers state agencies.
Such a challenge would be unavailing in any event. Because
the BIA’s determination that state courts may maintain the records
contemplated by § 1915(e) is at minimum a reasonable
interpretation of an ambiguous statute that the BIA administers,
see Miss. Band Choctaw Indians v. Holyfield, 490 U.S. at 40 n.13
(“Section 1915(e) . . . requires the court to maintain records
‘evidencing the efforts to comply with the order of preference
specified in this section.’” (emphasis added)), it is entitled to
Chevron deference. See Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837 (1984); infra Discussion Part II.D.
37

117a
DUNCAN, CIRCUIT JUDGE, OP. at 104-06 . Notably, no
party takes this position. This is likely because on its face
the provision applies only to state courts. See 25 U.S.C.
§ 1951(a) (requiring “[a]ny State court entering a final
decree or order in any Indian child adoptive placement”
to provide certain records). And the records that must be
furnished by a state court pursuant to this provision are
not the type of records commonly held by state agencies;
instead, the records are naturally produced as part of
state court proceedings, and state courts are therefore in
the best position to maintain and provide the records to
the federal government. 38 Id. That the regulations
implementing § 1951(a) purport to provide states the
flexibility to instead designate an agency to fulfill the
duties it imposes does not change that the law is by
default aimed at state courts. See 25 C.F.R. § 23.140
(specifying that designating an agency relieves state
courts of their obligations under § 1951(a)). And a state’s
wholly voluntary choice to utilize its political branches in
place of its courts cannot, as we have explained,
constitute commandeering of those political branches.
We therefore conclude that state courts are bound by
the Supremacy Clause to apply §§ 1915(e), 1917, and
1951(a). 39
Section 1951(a) specifically requires that the following
information be supplied to the Secretary: (1) the names and tribal
affiliation of the Indian child; (2) the names and addresses of the
child’s biological parents; (3) the names and addresses of the
adoptive parents; and (4) the identity of an agency that has
information relating to the child’s adoptive placement. 25 U.S.C.
§ 1951(a).
39
We also disagree with JUDGE DUNCAN’s asserted distinction
between § 1917 and the other recordkeeping provisions. DUNCAN,
CIRCUIT JUDGE, OP. at 97-98 &-98 n.138. JUDGE DUNCAN maintains
38

118a
b. The Challenged Provisions Do Not
Commandeer Other State Actors.
We next consider whether ICWA commandeers state
actors other than state courts. Our determination that
the preemption and commandeering analyses are mirror
images of one another leads us to the conclusion that if
ICWA regulates private actors—and therefore
preempts conflicting state law—it does not contravene
the anticommandeering doctrine. A survey of the
Supreme Court’s precedents in this area makes clear
that a law meets this requirement so long as it
establishes rights that are legally enforceable by or
against private parties. This test is necessarily satisfied
when Congress enacts a general regulation applicable to
any party who engages in an activity, regardless of
whether that party is a State or private actor. The
Supreme Court has thus stressed in its Tenth
Amendment decisions that “the anticommandeering
doctrine does not apply when Congress evenhandedly
regulates an activity in which both States and private
actors engage.” Murphy, 138 S. Ct. at 1478. It is
that § 1917, which confers upon adult Indian adoptees the right to
obtain from courts information pertaining to their tribal
relationship, is a valid preemption provision because it is “best read”
as regulating private actors, not states. But the same could be said
for § 1915(e), which confers rights upon Indian tribes to obtain
records. And both provisions require state courts to retain records
so that an Indian individual or tribe may later obtain them. Thus, if
§ 1917 is best read as applying to private actors, so too is § 1915(e).
We find it unnecessary to resolve this question, however, because
like §§ 1915(e) and 1951(a), § 1917 places duties on state courts to
maintain records—a special type of obligation that was understood
from the nation’s very beginning to validly bind state courts under
the Supremacy Clause. See Printz, 521 U.S. at 905-06.

119a
unsurprising, then, that in each case in which the Court
has found an anticommandeering violation, the statute at
issue directly and exclusively commanded a state’s
legislature or executive officers to undertake an action
or refrain from acting without mandating that private
actors do the same.
For example, in the first modern anticommandeering
case, New York v. United States, the Supreme Court
held that a federal law impermissibly commandeered
state actors to implement federal legislation when it gave
states “[a] choice between two unconstitutionally
coercive” alternatives: to either dispose of radioactive
waste within their boundaries according to Congress’s
instructions or “take title” to, and assume liabilities for,
the waste. 505 U.S. at 175-76. The Court was clear:
Congress cannot compel “the States to enact or enforce
a federal regulatory program.” Id. at 176 (emphasis
added). Notably, the statute did not place any legally
enforceable rights or restrictions on private parties,
instead operating only upon the states.
Similarly, in Printz v. United States, the Court held
that a provision of the Brady Handgun Violence
Prevention Act requiring state chief law enforcement
officers to conduct background checks on handgun
purchasers “conscript[ed] the State’s officers directly”
and was therefore invalid. 521 U.S. at 935. The Court
explained
that
the
statute
violated
the
anticommandeering principle because it was aimed
solely at state executive officers, requiring them “to
conduct investigation in their official capacity, by
examining databases and records that only state officials
have access to. In other words, the suggestion that
extension of this statute to private citizens would

120a
eliminate the constitutional problem posits the
impossible.” Id. at 932 n.17 (N.B. that “the burden on
police officers [imposed by the Brady Act] would be
permissible [under the Tenth Amendment] if a similar
burden were also imposed on private parties with access
to the relevant data” (first alteration in original)
(emphasis added) (internal quotation marks and citation
omitted)). Accordingly, the Court rejected as irrelevant
the Government’s argument that the Act imposed only a
minimal burden on state executive officers, stating that
it was not “evaluating whether the incidental application
to the States of a federal law of general applicability
excessively interfered with the functioning of state
governments,” but rather a law whose “whole
object…[was] to direct the functioning of the state
executive.” Id. at 931-32. Again, the law did nothing to
alter the rights or obligations of private parties, but
served only to bind the States.
Recently, in Murphy v. NCAA, the Court concluded
that a federal law that prohibited states from authorizing
sports gambling ran afoul of the anticommandeering
doctrine. 138 S. Ct. at 1478. The statute violated state
sovereignty, the Court explained, by “unequivocally
dictat[ing] what a state legislature may and may not do.”
Id. In reaching this conclusion, the Court reviewed its
Tenth Amendment jurisprudence and clarified the
distinction between statutes that impermissibly
commandeer state actors and those that may incidentally
burden the states but, nevertheless, do not offend the
Tenth Amendment. The mediating principle, the Court
announced, is that a regulation is valid so long as it
“evenhandedly regulates an activity in which both States
and private actors engage.” Id. at 1478. This occurs when

121a
a statute confers either legal rights or restrictions on
private parties that participate in the activity, and thus
the law is “best read” as regulating private parties.
A review of two cases cited by Murphy in which the
Court upheld statutes imposing incidental burdens or
obligations on states is instructive as to what
permissible, evenhanded regulation entails. First, in
Reno v. Condon, the Court unanimously upheld the
Driver’s Privacy Protection Act (DPPA), a federal
regulatory scheme that restricted the ability of states
and private parties to disclose a driver’s personal
information without consent. 528 U.S. 141, 151 (2000). In
determining that the anticommandeering doctrine did
not apply, the Court distinguished the law from those
invalidated in New York and Printz:
[T]he DPPA does not require the States in
their sovereign capacity to regulate their
own citizens; rather it regulates the States as
the owners of [Department of Motor Vehicle]
data bases. It does not require the [state]
Legislature to enact any laws or regulations,
and it does not require state officials to assist
in the enforcement of federal statutes
regulating private individuals . . . .
Id. The statute, moreover, “applied equally to state[s]
and private” resellers of motor vehicle information.
Murphy, 138 S. Ct. at 1479; see Condon, 528 U.S. at 151
(explaining that the statute was “generally applicable”).
That compliance with the DPPA’s provisions would
“require time and effort on the part of state employees”
posed no constitutional problem, then, because private
actors engaged in the regulated enterprise were also
subject to the statute’s requirements. Condon, 528 U.S.

122a
at 150. In short, because the law created restrictions
enforceable against private resellers, it satisfied the
“best read” test as articulated in Murphy.
Second, in Baker v. South Carolina, the Court also
rejected a Tenth Amendment challenge to a federal
enactment. 485 U.S. 505, 513-15 (1988). At issue in that
case was a statute that eliminated the federal income tax
exemption for interest earned on certain bonds issued by
state and local governments unless the bonds were
registered. Id. at 507-08. The Court treated the provision
“as if it directly regulated States by prohibiting outright
the issuance of [unregistered] bearer bonds.” Id. at 511.
But critically, the provision applied not only to states but
to any entity issuing the bonds, including “local
governments, the Federal Government, [and] private
corporations.” Id. at 526-27. In upholding the provision,
the Court reasoned that it merely “regulat[ed] a state
activity” and did not “seek to control or influence the
manner in which States regulate private parties.” Id. at
514. “That a State wishing to engage in certain activity
must take administrative and sometimes legislative
action to comply with federal standards regulating that
activity is a commonplace that presents no constitutional
defect.” Id. at 514-15 (requiring “state officials . . . to
devote substantial effort” to comply with the statute is
“an inevitable consequence” of Congress validly
regulating the state’s activity). Such a federal law thus
does not commandeer state actors, but merely
establishes standards applicable to any actor who
chooses to engage in an activity that Congress may
validly regulate through legislation. See id. It creates
legally
enforceable
obligations—in
Baker,
a
prohibition—that affect private parties.

123a
As both a textual and practical matter, the provisions
Plaintiffs challenge apply “evenhandedly” to “an activity
in which both States and private actors engage.”
Murphy, 138 S. Ct. at 1478. Sections 1912(a) and (d), for
example, impose notice and “active efforts”
requirements, respectively, on the “party” seeking the
foster care placement of, or termination of parental
rights to, an Indian child. 40 Because plaintiffs bring a
facial challenge, there is no need to look beyond the
language of these provisions—which plainly is facially
neutral, see Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 449-50 (2008) (“In
determining whether a law is facially invalid, we must be
careful not to go beyond the statute’s facial requirements
and speculate about ‘hypothetical’ or ‘imaginary’
cases.”); see also United States v. Raines, 362 U.S. 17, 22
(1960) (“The delicate power of pronouncing an Act of
Congress unconstitutional is not to be exercised with
reference to hypothetical cases thus imagined.”). 41 The
40
Section 1912(a) requires “the party seeking the foster care
placement of, or termination of parental rights to, an Indian child”
to “notify the parent or Indian custodian and the Indian child’s tribe
. . . of the pending proceedings and of their right to intervention.”
25 U.S.C. § 1912(a) (emphasis added).
Section 1912(d) states that “[a]ny party seeking to effect a
foster care placement of, or termination of parental rights to, an
Indian child” to “satisfy the court that active efforts have been made
to provide remedial services . . . to prevent the breakup of the Indian
family and that these efforts have proved unsuccessful.” Id.
§ 1912(d) (emphasis added).
41
Our court recently reaffirmed this principle. In Freedom
Path, Inc. v. Internal Revenue Service, we examined a facial
challenge to an IRS Revenue Ruling by an organization that had
received a proposed denial from the IRS of its application for taxexempt status. See 913 F.3d 503, 506 (5th Cir. 2019). We explained

124a
statute applies to any party seeking a foster care
placement or the termination of parental rights,
regardless of whether that party is a state agent or
private individual. Id.
Furthermore, even were we to consider how these
provisions are actually applied in child custody
proceedings, it is clear that they do in fact apply to
private parties. ICWA defines “foster care placement” to
embrace “any action removing an Indian child from its
parent or Indian custodian for temporary placement in a
foster home or institution or the home of a guardian or
conservator.” 25 U.S.C. § 1903(1)(i) (emphasis added). As
Defendants observe, actions to appoint guardians or
conservators are often private actions that do not involve
the state as a party. See, e.g., J.W. v. R.J., 951 P.2d 1206,
1212-13 (Alaska 1998) (determining that a custody
dispute between a father and stepfather constituted a
“foster care placement” under ICWA); In re
that “[t]o find the unconstitutionality [the organization] claims
requires that we go beyond the language of the Revenue Ruling and
analyze the way in which the IRS applies it beyond the text. On a
facial challenge, however, we do not look beyond the text . . . [A]
facial challenge to a statute considers only the text of the statute
itself, not its application to the particular circumstances of an
individual.” Id. at 508 (internal quotation marks and citations
omitted) (emphasis added) (quoting Field Day, LLC v. Cnty. of
Suffolk, 463 F.3d 167, 174 (2d Cir. 2006)). And, even if we were to
construe Plaintiffs’ complaint as an as-applied challenge, the proper
remedy would not be the wholesale invalidation of the statutory
provisions that the district court’s order effected and for which
Plaintiffs and JUDGE DUNCAN argue. Rather, demonstrating that
the statute may be applied unconstitutionally warrants only an
injunction against the statute being applied in that unconstitutional
manner. See Citizens United v. Fed. Election Comm’n, 558 U.S. 310,
331 (2010).

125a
Guardianship of J.C.D., 686 N.W.2d 647, 649 (S.D. 2004);
In re Custody of C.C.M., 202 P.3d 971, 977 (Wash. C.t
App. 2009) (holding that grandparents’ petition for
nonparental custody of their Indian grandchild “qualifies
as an action for foster care placement under ICWA”).
Similarly, private parties may bring proceedings to
terminate parental rights. See, e.g., TEX. FAM. CODE.
ANN. § 102.003 (permitting, among others, a “parent,”
“the child through a court-appointed representative,” or
“a guardian” to bring such an action); 33 TEX. PRAC.
HANDBOOK OF TEX. FAMILY LAW § 19:2 (2018); see also
Matter of Adoption of T.A.W., 383 P.3d 492, 496 (Wash.
2016) (holding that ICWA’s “active efforts provision . . .
appl[ies] to privately initiated terminations” and
remanding for trial court to determine whether “active
efforts ha[d] been” made to prevent the breakup of the
Indian family); D.J. v. P.C., 36 P.3d 663, 673 (Alaska
2001) (“[W]e hold that ICWA applies to termination
proceedings when a party other than the state seeks the
termination.”); S.S. v. Stephanie H., 388 P.3d 569, 573–
74 (Ariz. Ct. App. 2017) (“[W]e conclude that ICWA
applies to a private termination proceeding just as it
applies to a proceeding commenced by a state-licensed
private agency or public agency.”); In re N.B., 199 P.3d
16, 19 (Colo. App. 2007) (“ICWA’s plain language is not
limited to action by a social services department.”). Thus,
from both a textual and practical standpoint, it cannot
seriously be disputed that these provisions apply to
private parties. See 25 U.S.C. § 1903(1)(i); J.W., 951 P.2d
at 1212-13.
Similarly, § 1912(e) and (f)—which require qualified
expert witness testimony before, respectively, either the
foster care placement of, or termination of parental

126a
rights to, an Indian child—are also evenhanded
regulations
that do
not effect an
invalid
42
commandeering. Neither provision expressly refers to
state agencies. And when read in conjunction with
§ 1912(d)’s language placing burdens on “[a]ny party”
involved in foster care or parental termination
proceedings relating to Indian children, § 1912(e) and (f)
must also reasonably be understood to apply to “any
party” engaged in
these proceedings. This
understanding, moreover, comports with how state
courts have read and applied these provisions. See, e.g.,
In re Mahaney, 51 P.3d 776, 786 (Wash. 2002) (holding
that § 1912(e)’s expert witness requirement applied to an
action exclusively between private parties—an Indian
mother and her children’s paternal grandmother—
regarding a foster care placement); D.J., 36 P.3d at 673
(holding that § 1912(f) applied to an action between an
Indian child’s maternal grandmother and his biological
father regarding the termination of the father’s parental
rights); Matter of Baby Boy Doe, 902 P.2d 477, 484
(Idaho 1995) (holding that prospective adoptive parents
satisfied “their burden of proof” under § 1912(f) “with
Section 1912(e) provides that no foster care placement may be
ordered in involuntary proceedings in state court absent “a
determination, supported by clear and convincing evidence,
including testimony of qualified expert witnesses, that the continued
custody of the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the child.” 25
U.S.C. § 1912(e).
Section 1912(f) requires that no termination of parental rights
may be ordered in involuntary proceedings in state court absent
“evidence beyond a reasonable doubt, including testimony of
qualified expert witnesses, that the continued custody of the child
by the parent or Indian custodian is likely to result in serious
emotional or physical damage to the child.” Id. § 1912(f).
42

127a
testimony of [a] qualified expert witness[]”). Thus,
§ 1912(e) and (f), like § 1912 (a) and (d), are generally
applicable provisions. See Murphy, 138 S. Ct. at 1478; see
also Condon, 528 U.S. at 151.
State Plaintiffs’ contention that the aforementioned
provisions commandeer state executive officers is
reminiscent of the argument made by South Carolina—
and rejected by the Court—in Condon. There, South
Carolina claimed that the DPPA “thrusts upon the
States all of the day-to-day responsibility for
administering its complex provisions . . . and thereby
makes state officials the unwilling implementors of
federal policy.” 528 U.S. at 149-50 (internal quotation
marks omitted). But ICWA, like the DPPA, does not
require states “to enact any laws or regulations, and it
does not require state officials to assist in the
enforcement of federal statutes regulating private
individuals.” Id. at 151. Unlike the statutes in New York,
Printz, and Murphy, § 1912 does not create obligations
or restrictions enforceable solely against states. See
Murphy, 138 S. Ct. at 1481 (determining that a provision
of the gambling regulation at issue did not constitute a
valid “preemption provision because there is no way in
which [it] c[ould] be understood as a regulation of private
actors”) (emphasis added); Printz, 521 U.S. at 932 n.17
(explaining that extending “to private citizens” the
federal statute’s directives “posits the impossible”); New
York, 505 U.S. at 160 (“[T]his is not a case in which
Congress has subjected a State to the same legislation
applicable to private parties.”). Instead, its provisions
simply impose the same, generally applicable burden on
any party engaged in a custody proceeding involving an
Indian child. Cf. Condon, 528 U.S. at 151 (noting that the

128a
regulation of data bases applied to “private resellers” of
motor vehicle information along with states); Baker, 485
U.S. at 526-27 (stating that the requirement that bearer
bonds be registered in order to be eligible for a federal
income tax exemption applied to “local governments, the
Federal Government, [and] private corporations”). Thus,
§ 1912 (a), (d), (e), and (f) “evenhandedly regulate[] an
activity in which both States and private actors engage,”
and the anticommandeering doctrine does not apply. See
Murphy, 138 S. Ct. at 1478.
JUDGE DUNCAN posits two reasons why the
evenhandedness principle ought not apply to the
challenged provisions. First, he asserts that ICWA
compels states to regulate private individuals. DUNCAN,
CIRCUIT JUDGE, OP. at 89-91. Not so. As discussed,
ICWA is a comprehensive federal regulatory scheme
that regulates private individuals by creating rights and
restrictions in favor of Indian individuals and tribes in
child custody proceedings involving Indian children. In
so doing, ICWA places legal obligations on parties to
these proceedings, whether individuals or state actors.
See Condon, 528 U.S. at 150 (finding no
anticommandeering problem in the fact that compliance
with the DPPA would “require time and effort on the
part of state employees”). Just as the DPPA “regulate[d]
the States as the owners of data bases,” id. at 151, ICWA
regulates the states as participants in Indian child
custody proceedings—placing the same requirements on
states as it does on any private party. This fits the bill of
an evenhanded regulation. 43
JUDGE DUNCAN’s assertion that ICWA imposes “critical
duties” on state actors is irrelevant to determining whether the
statute is consistent with the anticommandeering doctrine.
43

129a
Second, JUDGE DUNCAN asserts that ICWA
regulates states in their sovereign capacity. DUNCAN,
CIRCUIT JUDGE, OP. at 91-92. Whereas Congress
regulated states as participants in the market for bonds
in Baker and the market for driver’s information in
Condon, JUDGE DUNCAN contends that ICWA does not
regulate states as market participants but rather as
sovereigns carrying out their duty to protect children.
But in Condon, the statute at issue “regulate[d] the
disclosure of personal information contained in the
records of state motor vehicle departments.” 528 U.S. at
143. The regulation of motor vehicles, of course, is a
quintessential state function. As explained above, the
provision was nevertheless upheld because it
“regulate[d] the States as the owners of data bases;” that
is, as participants in the market for drivers’ personal
DUNCAN, CIRCUIT JUDGE, OP. at 91. Nowhere in the Court’s
commandeering cases has it made mention of, or found dispositive,
whether the obligations imposed on states by a regulation were
important to the statutory scheme’s success. In Condon, for
example, that the DPPA’s restrictions applied to states was surely
“crucial” to the law’s efficacy. See 528 U.S. at 143-44 (noting that
“Congress found that many States . . . sell driver’s personal
information” and that the statute “establishes a regulatory scheme”
that expressly “restricts the States’ ability to disclose a driver’s
personal information”); id. at 143 (citing 139 CONG. REC. 9468 (Nov.
16, 1993) (explaining that a purpose of “this legislation is to protect
a wide range of individuals, [to] protect them from the State
agencies [that,] often for a price, a profit to the State, [] release
lists”) (statement of Sen. Warner)); see also Baker, 485 U.S. at 51011 (noting that the challenged provision “completes th[e] statutory
scheme” setup by Congress). The evenhandedness inquiry does not
turn on whether the statute imposes “critical” duties—or even
“trivial” duties, for that matter—on states, but rather whether
those duties apply equally to both states and private actors. See
Murphy, 138 S. Ct. at 1478.

130a
information. Id. at 151. The situation is the same here.
Though family law is as a general matter committed to
the states, but see, e.g., McCarty, 453 U.S. at 235-36, the
activity at issue here—child custody proceedings—
involves private parties as litigants. 44 ICWA, then,
“regulates the States as” participants in these
proceedings, and the reasoning of Baker and Condon
applies equally here.
Because § 1912 (a), (d), (e), and (f) are “evenhanded,”
we conclude they are necessarily “best read” as
pertaining to private actors within that phrase’s meaning
44
Citing Printz, JUDGE DUNCAN also asserts that the “salient
question” in determining whether the evenhandedness exception
applies is “whether a federal law requires states officials to act ‘in
their official capacity’ to implement a federal program.” DUNCAN,
CIRCUIT JUDGE, OP. at 93 (quoting Printz, 521 U.S. at 932 n.17).
This test cannot be squared with the Court’s cases. In Condon, for
example, compliance with the DPPA required action by state
officials acting in their official capacity. See 528 U.S. at 150 (“We
agree with South Carolina’s assertion that the DPPA’s provisions
will require time and effort on the part of state employees . . . .”);
see also Baker, 485 U.S. at 514-15 (“That a State wishing to engage
in certain activity must take administrative and sometimes
legislative action to comply with federal standards regulating that
activity is a commonplace that presents no constitutional defect.”).
The salient question, rather, is whether the statute applies equally
to both states and private actors. This is clear from the portion of
Printz JUDGE DUNCAN purports to rely on. As the Court in Printz
explained, the background check requirement at issue
“undoubtedly” would have been consistent with the
anticommandeering doctrine if its burdens could have been
extended equally to both state actors and private actors. 521 U.S. at
932 n.17 (emphasis added). The problem, however, was that the
burden the statute placed on state law enforcement officers by its
very nature could not possibly be borne by private persons. Id.
(“[T]he suggestion that extension of this statute to private persons
would eliminate the constitutional problem posits the impossible.”).

131a
in Murphy. Id. at 1478, 1479. This follows from our
earlier conclusion that a law is “best read” as regulating
private actors—and therefore can be given preemptive
effect—when it creates legal rights and obligations
enforceable by or against private actors. Because an
evenhanded regulation genuinely applies to private
parties (as well as states), it necessarily establishes legal
rights and obligations applicable to private parties (as
well as states).
This is demonstrated by even a cursory review of
§ 1912 (a), (d), (e), and (f). The obligations the provisions
impose are enforceable against any private party
seeking a foster placement for, or the termination of
parental rights to, an Indian child. And, viewed
inversely, these obligations are an array of rights in
favor of and enforceable by private parties. Section
1912(a) grants Indian parents and tribes the right to
notice of pending child custody proceedings. Id.
§ 1912(a). Further, § 1912(d) grants to Indian children,
tribes, and families the right to maintain their tribal and
family unit “subject only to certain (federal)
constraints.” Id. § 1912(d); Murphy, 138 S. Ct. at 1480.
Specifically, the provision confers upon private actors an
enforceable right to demand in custody proceedings that
“active efforts” be made to keep an Indian family intact
before the foster care placement of, or termination of
parental rights to, an Indian child. See D.J., 36 P.3d at
674 (reversing the termination of parental rights to an
Indian child because, inter alia, the trial court failed to
make findings as to whether active efforts had been
made to prevent the breakup of the Indian family).
Sections 1912(e) and (f) similarly provide enforceable
federal rights to Indian parents to maintain their

132a
families absent testimony from qualified expert
witnesses regarding detriment to the child from the
parents’ continued custody. 25 U.S.C. § 1912(e), (f).
Plaintiffs’ argument that ICWA is not evenhanded—
and thus is not best read as applying to private parties—
because state actors are more frequently bound by its
provisions is also misplaced. As an initial matter, a “best
read” inquiry that turns on the factual question of whom
is most likely to engage in the regulated conduct would
demand record evidence that is absent here, and there is
no indication that the Supreme Court has ever
performed such a fact-bound evaluation as part of its
commandeering analyses. More importantly, an
“evenhanded” law is “best read” as regulating private
parties not because its burdens may happen to fall upon
states more or less frequently than private actors as a
factual matter, but instead, as we have explained,
because such a law necessarily establishes rights or
obligations that are legally enforceable by or against
private parties.
The Murphy Court’s discussion of Morales v. Trans
World Airlines, Inc., in which the Court considered
whether the federal Airline Deregulation Act of 1978
(ADA) preempted States from passing their own laws
prohibiting
allegedly
deceptive
airline
fare
advertisements, confirms this conclusion. Id. at 1480
(citing Morales, 504 U.S.at 391). At issue in Morales was
a provision of the ADA that removed earlier federal
airline regulations. 504 U.S. at 378. “To ensure that the
States would not undo federal deregulation with
regulation of their own,” the ADA provided that “no
State or political subdivision thereof . . . shall enact or
enforce any law, rule, regulation, standard or other

133a
provision having the force and effect of law relating to
rates, routes, or services of any [covered] air carrier.”
Murphy, 138 S. Ct. at 1480 (alteration in original)
(quoting 49 U.S.C. § 1305; Morales, 504 U.S. at 378). The
Court held that the provisions validly preempted state
law. Id. at 391. As the Court in Murphy explained:
[t]his language [in the ADA] might appear to
operate directly on the States [and thus
constitute an invalid attempt at preemption],
but it is a mistake to be confused by the way in
which a preemption provision is phrased . . .
[I]f we look beyond the phrasing employed in
the Airline Deregulation Act’s preemption
provision, it is clear that this provision
operates just like any other federal law with
preemptive effect. It confers on private
entities (i.e., covered carriers) a federal right
to engage in certain conduct subject only to
certain (federal) constraints.
Id. at 1480. The Court’s analysis did not turn on the
frequency with which state and private actors engaged
in the regulated conduct; indeed, it is axiomatic that
private actors could not regulate airlines. Rather, as the
Murphy Court made clear, what was dispositive in
determining that the statute was “best read” as
regulating private actors—and thus preempted state law
—was that it created legally enforceable private rights.
Id. at 1480. Accordingly, Plaintiffs’ argument is of no
moment. Sections 1912 (a), (d), (e), and (f) are
evenhanded regulations, and they therefore do not
violate the anticommandeering doctrine and may validly
preempt conflicting state law.

134a
Although Plaintiffs limit their arguments on appeal
primarily to the aforementioned portions of § 1912, the
district court’s ruling that ICWA violates the
anticommandeering doctrine was far more sweeping,
invalidating all portions of the statute that alter the
substantive law applicable in cases arising out of state
causes of action. As discussed, the district court’s theory
that ICWA commandeers state courts in this manner is
based on a flawed premise. See supra Discussion Part
II.A.2.i. ICWA’s provisions beyond those already
discussed in § 1912 also validly preempt conflicting state
law because they are part of a comprehensive statute, the
“whole object of” which, Printz, 521 U.S. at 900, is to
“confer[] on private entities”—namely Indian children,
families, and tribes—“a federal right.” Murphy, 138 S.
Ct. at 1480; see 25 U.S.C. § 1902 (declaring Congress’s
policy in enacting ICWA of “protect[ing] the best
interests of Indian children and promot[ing] the stability
and security of Indian families and tribes”). An inquiry
into ICWA’s individual provisions, moreover, reveals
that they operate to confer rights on private actors. For
instance, § 1911, grants the Indian custodian of an Indian
child and that child’s tribe the right to intervene in child
custody proceedings. 45 Section 1912(b) confers upon
Several jurisdictions have recognized that § 1911(c) creates
federal rights in favor of tribes and therefore have concluded that
the provision preempts otherwise applicable state law permitting
only licensed attorneys to represent parties. See, e.g., In re Elias L.,
767 N.W.2d 98, 104 (Neb. 2009). These courts have explained that
the tribal right to intervene is unfettered and that otherwise
applicable state law would “not only burden the right of tribal
intervention, it will essentially deny that right in many cases.” State
ex rel. Juvenile Dep’t of Lane Cnty. v. Shuey, 850 P.2d 378, 381 (Or.
Ct. App. 1993); see also In re N.N.E., 752 N.W.2d 1, 12 (Iowa 2008);
45

135a
indigent Indian parents “the right to court-appointed
counsel in any removal, placement, or termination
proceeding.” Id. § 1912(b). And § 1913(b) affords Indian
parents the right to withdraw their consent to a foster
care placement at any time. Id. § 1913(b). 46
J.P.H. v. Fla. Dep’t of Children & Families, 39 So. 3d 560 (Fla. Dist.
Ct. App. 2010) (per curiam). In essence, these state courts have
understood that they are bound to permit tribes to intervene
without being represented by licensed counsel because to require
otherwise would “frustrate[] the deliberate purpose of Congress” in
enacting this measure. Hillman, 569 U.S. at 494 (internal quotation
marks and citation omitted).
46
ICWA’s placement preference provisions, § 1915(a) & (b),
likewise create federal rights for Indian children, tribes, and
families that apply in Indian child custody proceedings. Because the
placement preferences are valid premptive federal laws, state
adjudicators are bound under the Supremacy Clause to apply these
provisions. See supra Discussion Part II.A.2.a(i).
Indeed, JUDGE DUNCAN acknowledges that the placement
preferences apply in state court and preempt contrary state law. He
broadly suggests, however, that the placement preferences also
separately “direct action by state agencies and officials.” DUNCAN,
CIRCUIT JUDGE, OP. at 83-84. But reading the placementpreference provisions to require state agencies to perform executive
or legislative tasks is contrary to the statute’s plain text. The
provisions merely require the body adjudicating an Indian child
custody proceeding to apply the preferences contained therein in
deciding contested claims unless there is good cause not to. See 25
U.S.C. § 1915(a) (“In any adoptive placement of an Indian child . . .,
a preference shall be given, in the absence of good cause to the
contrary . . . .); id. § 1915(b) (“In any foster care or preadoptive
placement, a preference shall be given, in the absence of good cause
to the contrary . . . .”).
As JUDGE DUNCAN concedes, this straight-forward
interpretation does not present an anticommandeering problem.
See New York, 505 U.S. at 178-79 (“Federal statutes enforceable in
state courts do, in a sense, direct state judges to enforce them, but
this sort of federal ‘direction’ of state judges is mandated by the text

136a
Given that the entire purpose and effect of the
provisions the district court erroneously invalidated is to
confer rights and protections upon private actors, viz.,
Indian tribes, families, and children, we conclude that
they are “best read” as regulating private parties.
Murphy, 138 S. Ct. at 1479, 1480 (“In sum, regardless of
the language used by Congress . . . , every form of
preemption is based on a federal law that regulates the
conduct of private actors, not the States.”). That the
Supremacy Clause prevents states from interfering with
these federal rights does not transform ICWA into an
unconstitutional command to state actors. See Murphy,
138 S. Ct. at 1480. Rather, such a restriction on states is
inherent to preemption. See id. at 1479. It would thus be
error on multiple levels to conclude that ICWA
unconstitutionally commandeers state actors, and we
decline to do so. 47
of the Supremacy Clause.”); cf. Murphy, 138 S. Ct. at 1480-81
(observing that “every form of preemption is based on a federal law
that regulates the conduct of private actors” and invalidating a
federal statute that barred states from authorizing sports gambling
because the statute did “not confer any federal rights on private
actors” and instead could be understood only as “a direct command
to the States”). JUDGE DUNCAN’s interpretation of § 1915(a) & (b)
as separately directing state administrative action—which he
argues is unconstitutional—is thus not only plainly unreasonable
given the text of the statute, but also contrary to settled canons of
statutory construction. See United States v. Jin Fuey Moy, 241 U.S.
394, 401 (1916) (stating that a statute must be interpreted to avoid
constitutional doubt if reasonably possible).
47
The opposing opinion again makes much of the unremarkable
fact, already discussed above, see supra note 21, that though
Congress may hold plenary authority over a given field of
legislation, any laws passed pursuant to that plenary power must
still be consistent with the anticommandeering doctrine and other
constitutional principles. See DUNCAN, CIRCUIT JUDGE, OP. at 27-

137a
29. In a misguided attempt to illustrate this point, the opposing
opinion conjures up various hypothetical federal laws concerning
subjects on which Congress exercises exclusive legislative authority
that would alter the rules applicable to various state causes of
actions in state proceedings. For example, the opposing opinion
imagines a federal law “mandating different comparative fault rules
in state court suits involving Swedish visa holders,” and appears to
postulate that, notwithstanding Congress’s plenary power in
regulating commerce with foreign nations, see U.S. CONST. art. I,
§ 8, cl. 3, such a law would be beyond Congress’s legislative
authority. DUNCAN, CIRCUIT JUDGE, OP. at 29.
First, these are far-fetched, counterfactual, law-school exam
hypotheticals that are wholly detached from the kind of real and
pressing human problems that ICWA addresses; rational
legislators would neither see the need for such legislation nor enact
such unfair and unworkable laws. As Justice Frankfurter observed,
“[t]he process of Constitutional adjudication does not thrive on
conjuring up horrible possibilities that never happen in the real
world and devising doctrines sufficiently comprehensive in detail to
cover the remotest contingency. Nor do we need go beyond what is
required for a reasoned disposition of the kind of controversy now
before the Court.” Garcia, 469 U.S. 528 (quoting New York v.
United States, 326 U.S. 572, 583 (1946) (Frankfurter, J.)). Though a
ridiculous law can be imagined, it is unnecessary to fence off an
inviolable area of sovereignty reserved to the states in order to
prevent it. And it bears emphasizing that we nowhere contend, as
JUDGE DUNCAN pretends, that Tenth Amendment principles like
the anticommandeering doctrine “vanish” in the face of Congress’s
plenary authority over Indian affairs. DUNCAN, CIRCUIT JUDGE,
OP. at 69. This is a strawman, as evidenced by the fact that we
specifically address Plaintiffs’ anticommandeering contentions after
concluding that ICWA is within the subject matter upon which
Congress is authorized to legislate.
Moreover, it is unclear precisely what point JUDGE DUNCAN is
attempting to make with his parade of supposed horribles. He
appears to consider it obvious that his imagined laws would “of
course” exceed Congress’s power solely because they set standards
applicable to state causes of action in state court proceedings.
DUNCAN, CIRCUIT JUDGE, OP. at 35. But, as JUDGE DUNCAN

138a
To summarize, ICWA is a law of the United States
made in pursuance of the Congress’s constitutional
authority. Further, ICWA does not violate the
anticommandeering doctrine because it does not directly
command state legislatures or executive officials to enact
or administer a federal program. Rather, any burden it
places on state actors is incidental and falls
evenhandedly on private parties participating in the
same regulated activity. Under the Supremacy Clause,
himself fully acknowledges elsewhere in his opinion, it is well
established that Congress can validly set substantive standards in
state court proceedings when acting pursuant to its Article I
powers, including by “altering” the substance of state causes of
action. DUNCAN, CIRCUIT JUDGE, OP. at 102-03 (“The Supreme
Court has ruled that federal standards may supersede state
standards even in realms of traditional state authority such as
family and community property law. . . . [W]henever a federal
standard supersedes a state standard, the federal standard can be
said to ‘modify a state created cause of action.’”); see also Jinks, 538
U.S. at 464-65 (holding that federal laws that “change the
‘substance’ of state-law rights of action” do not violate state
sovereignty). And, while JUDGE DUNCAN expresses some doubt as
to Congress’s authority to regulate the procedure by which state
courts’ handle state-created causes of action, he wholly concedes
that ICWA creates substantive standards, not procedural ones.
DUNCAN, CIRCUIT JUDGE, OP. at 102 (“ICWA enacts substantive
child-custody standards applicable in state child custody
proceedings . . . To the extent those substantive standards compel
state courts . . . we conclude they are valid preemption provisions.”).
Thus, if JUDGE DUNCAN is arguing that his hypothetical laws would
outstrip Congress’s power because they would regulate state court
procedure rather than substance, he has already conceded that
ICWA is not like those laws. And if he is arguing that the laws would
be unconstitutional merely because they apply to state causes of
actions in state court proceedings, his position is squarely
contradicted by on-point Supreme Court precedent and his own
words in this very case.

139a
then, ICWA is the supreme law of the land, and judges
in every state shall be bound thereby. ICWA and the
Final Rule therefore preempt conflicting state law, and
the district court erred by concluding otherwise.
B. Equal Protection
The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any
person within its jurisdiction the equal protection of the
laws.” U.S. CONST. amend. 14, § 1. This clause is
implicitly incorporated into the Fifth Amendment’s
guarantee of due process. See Bolling v. Sharpe, 347 U.S.
497, 499 (1954). We apply the same analysis with respect
to equal protection claims under the Fifth and
Fourteenth Amendments. See Richard v. Hinson, 70
F.3d 415, 417 (5th Cir. 1995). In evaluating an equal
protection claim, strict scrutiny applies to laws that rely
on classifications of persons based on race. See id. But
where the classification is political, rational basis review
applies. See Mancari, 417 U.S. at 555. This means that
the law is strongly presumed to be constitutional, and we
will invalidate it only when the classification bears no
rational connection to any legitimate government
purpose. See F.C.C. v. Beach Commc’ns, Inc., 508 U.S.
307, 314-15 (1993).
The district court granted summary judgment to the
Plaintiffs, concluding that § 1903(4)—setting forth
ICWA’s definition of “Indian child” for purposes of
determining when ICWA applies in state Indian child
custody proceedings—is a racial classification that
cannot withstand strict scrutiny. 48 Because ICWA’s
As described above, we conclude that Plaintiffs have standing
to challenge 25 U.S.C. § 1915(a) to (b) and Final Rule §§ 23.129 to
48

140a
provisions are based on classifications of Indians, such as
“Indian child,” “Indian family,” and “Indian foster
home,” we must first examine whether these are political
or race-based classifications and thus which level of
scrutiny applies. “We review the constitutionality of
federal statutes de novo.” Nat’l Rifle Ass’n of Am., Inc.
v. Bureau of Alcohol, Tobacco, Firearms, & Explosives,
700 F.3d 185, 192 (5th Cir. 2012).
1. Level of Scrutiny
Congress has exercised plenary power “over the
tribal relations of the Indians . . . from the beginning.”
Lone Wolf, 187 U.S. at 565. The Supreme Court’s
decisions “leave no doubt that federal legislation with
respect to Indian tribes . . . is not based upon
impermissible racial classifications.” United States v.
Antelope, 430 U.S. 641, 645 (1977). “Literally every piece
of legislation dealing with Indian tribes and reservations
. . . single[s] out for special treatment a constituency of
tribal Indians living on or near reservations.” Mancari,
417 U.S. at 552. “If these laws, derived from historical
relationships and explicitly designed to help only
Indians, were deemed invidious racial discrimination, an
entire Title of the United States Code (25 U.S.C.) would
be effectively erased and the solemn commitment of the
Government toward the Indians would be jeopardized.”
Id.
In the foundational case of Morton v. Mancari, the
Supreme Court rejected an equal-protection challenge to
23.132 on equal protection grounds. The district court’s analysis of
whether the ICWA classification was political or race-based focused
on § 1903(4), presumably because § 1903(4) provides a threshold
definition of “Indian child” that must be met for any provision of
ICWA to apply in child custody proceedings in state court.

141a
a BIA employment preference for Indians over nonIndians that applied regardless of whether the Indian
beneficiary lived or worked on or near a reservation. Id.
at 539 n.4, 555. The Court began by noting that Congress
has repeatedly enacted preferences for Indians like the
one at issue and that these preferences have several
overarching purposes: “to give Indians a greater
participation in their own self-government; to further the
Government’s trust obligation toward the Indian tribes;
and to reduce the negative effect of having non-Indians
administer matters that affect Indian tribal life.” Id. at
541-42 (footnotes omitted). The Court then stated that
central to the resolution of whether the preference
constituted a political or racial classification was “the
unique legal status of Indian tribes under federal law and
. . . the plenary power of Congress, based on a history of
treaties and the assumption of a ‘guardian-ward’ status,
to legislate on behalf of federally recognized Indian
tribes.” Id. at 551.
In view of this “historical and legal context,” the
Court upheld the preference, determining that it served
a “legitimate, nonracially based goal.” Id. at 553-54.
Specifically, the preference was “reasonably designed to
further the cause of Indian self-government and to make
the BIA more responsive to the needs of its constituent
groups.” Id. at 554. Significantly, the Court observed
that because the preference was limited to members of
federally recognized tribes, it thus was “not directed
towards a ‘racial’ group consisting of ‘Indians’ . . . In this
sense, the preference is political rather than racial in
nature.” Id. at 553 n.24. This was true even though
individuals were also required to possess “one-fourth or
more degree Indian blood” to be eligible for the

142a
preference. Id. The ruling, moreover, was consistent
with “numerous’ Court decisions upholding legislation
that singled out Indians for special treatment. Id. at 55455. The Court concluded its opinion by broadly holding
that “[a]s long as the special treatment can be tied
rationally to the fulfillment of Congress’ unique
obligation toward the Indians, such legislative
judgments will not be disturbed.” Id. at 555.
The district court erroneously construed Mancari
narrowly and sought to distinguish it from ICWA for two
primary reasons. First, the district court read Mancari’s
blessing of special treatment for Indian to be limited to
laws “directed at Indian self-government and affairs on
or near Indian lands.” The district court apparently
concluded that ICWA did not meet either of these
requirements, and reasoned that strict scrutiny
therefore applied. Second, the district court observed
that ICWA’s definition of Indian child—which includes
children under eighteen years of age who are eligible for
membership in a federally recognized tribe and have a
biological parent who is a member of a tribe, 25 U.S.C.
§ 1903(4)(b)—extends beyond members of federally
recognized tribes, whereas the preference in Mancari
was restricted to current tribal members and thus
“operated to exclude many individuals who are racially
to be classified as Indians.” Citing tribal membership
laws that include a requirement of lineal descent, see,
e.g., NAVAJO NATION CODE § 701, the district court
concluded that, since ICWA covers Indian children who
are eligible for membership in a tribe, “[t]his means one
is an Indian child [within the meaning of ICWA] if the
child is related to a tribal ancestor by blood.” In the view
of the district court, ICWA therefore “uses ancestry as a

143a
proxy for race,” and the law is therefore subject to strict
scrutiny.
We disagree with the district court’s reasoning and
conclude that Mancari stands for the broader
proposition that as long as “legislation that singles out
Indians for . . . special treatment can be tied rationally to
the fulfillment of Congress’ unique obligation toward the
Indians,” the statute “will not be disturbed.” Mancari,
417 U.S. at 554-55. In other words, if a statute is
reasonably related to the special government-togovernment political relationship between the United
States and the Indian tribes, it does not violate equal
protection principles. Mancari—and its progeny—
confirm that classifications relating to Indians need not
be specifically directed at Indian self-government to be
considered political classifications for which rational
basis scrutiny applies. Id. at 555 (“As long as the special
treatment can be tied rationally to the fulfillment of
Congress’ unique obligation toward the Indians, such
legislative judgments will not be disturbed.”); see also,
e.g., Washington v. Confederated Bands & Tribes of
Yakima Indian Nation, 439 U.S. 463, 500-01 (1979) (“It
is settled that ‘the unique legal status of Indian tribes
under federal law’ permits the Federal Government to
enact legislation singling out tribal Indians, legislation
that might otherwise be constitutionally offensive.”
(quoting Mancari, 417 U.S. at 551-52)).
In United States v. Antelope, for instance, the Court
expressly recognized that, although some of its earlier
decisions relating to Indians “involved preferences or
disabilities directly promoting Indian interests in selfgovernment,” its precedent “point[s] more broadly to the
conclusion that federal regulation of Indian affairs is not

144a
based upon impermissible classifications.” 430 U.S. 641,
646-47 (1977) (first citing Mancari, 417 U.S. at 553 n.24;
then citing Fisher v. District Court, 424 U.S. 382 (1976)
(per curiam)) (holding that a federal statute subjecting
individual Indians to federal criminal jurisdiction due to
their status as tribal members did not violate equal
protection); see also, e.g., Washington v. Wash. State
Comm. Passenger Fishing Vessel Ass’n, 443 U.S. 658,
673 n.20 (1979) (determining that a treaty granting
Indians certain preferential fishing rights did not violate
equal protection because the Court “has repeatedly held
that the peculiar semisovereign and constitutionally
recognized status of Indians justifies special treatment
on their behalf when rationally related to the
Government’s ‘unique obligation toward the Indians’”
(quoting Mancari, 417 U.S. at 555)); Moe v.
Confederated Salish & Kootenai Tribes, 425 U.S. 463,
479-80 (1976) (sustaining tribal members’ immunity from
state sales tax for cigarettes sold on the reservation and
explaining that “[a]s long as the special treatment can be
tied rationally to the fulfillment of Congress’ unique
obligation toward the Indians, such legislative
judgments will not be disturbed.” (quoting Mancari, 417
U.S. at 555)).
Moreover, even if preferences for Indians were
limited to those directly furthering tribal selfgovernment—a proposition that, as demonstrated, is
unsupportable—it is clear that ICWA is aimed squarely
at this legislative purpose. As discussed, prior to
enacting ICWA, Congress considered testimony about
the devastating impacts of removing Indian children
from tribes and placing them for adoption and foster care
in non-Indian homes. See supra Background Part IV.

145a
The Tribal Chief of the Mississippi Band of Choctaw
Indians, we noted, testified that “the chances of Indian
survival are significantly reduced” by removing Indian
children from their homes and raising them in nonIndian households where they are “denied exposure to
the ways of their People . . . [T]hese practices seriously
undercut the tribes’ ability to continue as self-governing
communities. Probably in no area is it more important
that tribal sovereignty be respected than in an area as
socially and culturally determinative as family
relationships.” Hearing on S. 1214 before the S. Select.
Comm. on Indian Affairs, 95th Cong. 157 (1977).
This testimony undoubtedly informed Congress’s
finding that children are the most vital resource “to the
continued existence and integrity of Indian tribes,”
which itself reflects Congress’s intent to further tribal
self-government. 25 U.S.C. § 1901(3). Moreover, the
Supreme Court has recognized that in enacting ICWA,
“Congress was concerned not solely about the interests
of Indian children and families, but also about the impact
on the tribes themselves of the large numbers of Indian
children adopted by non-Indians. The numerous
prerogatives accorded the tribes through ICWA’s
substantive provisions must, accordingly, be seen as a
means of protecting not only the interests of individual
Indian children and families, but also of the tribes
themselves.” Holyfield, 490 U.S. at 50 (internal citations
omitted)); see also id. (noting evidence before Congress
at the time ICWA was considered that the “[r]emoval of
Indian children from their cultural setting seriously
impacts . . . long-term tribal survival” (quoting S. REP.
NO. 597, 95th Cong., 2d Sess. 52 (1977)). Thus, it is clear
that Congress intended ICWA to further both tribal self-

146a
government and the survival of tribes. See 25 U.S.C.
§ 1901(3); see also COHEN’s, supra § 11.01[2] (“ICWA’s
objective of promoting the stability and security of
Indian tribes and families encompasses the interest of
Indian nations in their survival as peoples and selfgoverning communities . . . .”).
We also are unpersuaded by the district court’s
reasoning that differential treatment for Indians is only
subject to rational basis review when it applies to Indians
living on or near reservations. The Supreme Court has
long recognized Congress’s broad power to regulate
Indians and Indian tribes on and off the reservation. See,
e.g., United States v. McGowan, 302 U.S. 535, 539 (1938)
(“Congress possesses the broad power of legislating for
the protection of the Indians wherever they may be
within the territory of the United States.” (quoting
United States v. Ramsey, 271 U.S. 467, 471 (1926));
Perrin, 232 U.S. at 482 (acknowledging Congress’s
power to regulate Indians “whether upon or off a
reservation and whether within or without the limits of a
state”). And courts have repeatedly upheld government
preferences for Indians, regardless as to whether the
Indians receiving “special treatment” were located on or
near a reservation. See, e.g., Am. Fed’n of Gov’t Emps. v.
United States, 330 F.3d 513, 516, 521 (D.C. Cir. 2003)
(rejecting an equal protection challenge to a federal
defense spending measure that provided a contracting
preference for firms with less than “51 percent Native
American ownership” even though the preference was
“not restricted to Indian activities on or near
reservations or Indian land”). Indeed, the preference in
Mancari itself did not require that the Indians
benefiting from the employment preference live on or

147a
near a reservation, and the non-Indian employees who
challenged the preference averred that “none of them
[were] employed on or near an Indian reservation.”
Mancari, 417 U.S. at 539 n.4.
The district court’s additional rationale for finding an
equal protection violation here—that unlike the statute
in Mancari, ICWA’s definition of Indian child extends to
children who are only eligible for membership but notyet enrolled in a tribe—is also flawed. Though the
district court made much of the fact that a child’s tribal
eligibility generally turns on having a blood relationship
with a tribal ancestor, this does not equate to a proxy for
race, as the district court believed.
Originally, Indian tribes “were self-governing
sovereign political communities.” Wheeler, 435 U.S. at
322-23; see also Sarah Krakoff, Inextricably Political:
Race, Membership, and Tribal Sovereignty, 87 WASH. L.
REV. 1041 (2012) [hereinafter Krakoff]. The
Constitution, moreover, recognizes tribes’ political
status both explicitly and implicitly. See, e.g., U.S.
CONST. art. I, § 8 (empowering Congress “to regulate
commerce with foreign Nations, among the several
States, and with the Indian Tribes”). And as explained,
the history of the post-ratification period demonstrates
that the federal government treated tribes as quasisovereigns from the very start. 49 See Ablavsky, Beyond
To be sure, this course of dealing was not between powers on
equal footing; the Court, as noted, has described the tribes as
“wards of the nation” and “dependent on the United States,” which,
in turn, owes a “duty of protection” to Indian tribes. Kagama, 118
U.S. at 383-84 (emphasis omitted); see also Mancari, 417 U.S. at 551
(characterizing the relationship between the tribes and federal
government as that of “guardian-ward”). But this dependent, quasisovereign status does not change that tribes are fundamentally
49

148a
the Indian Commerce Clause, supra at 1061-67. Though
the relationship between the government and the tribes
has evolved since then, it has always been considered a
relationship between political entities. See Cherokee
Nation v. Georgia, 30 U.S. (5 Pet.) 1, 16 (1831) (Marshall,
C.J.) (describing Indian tribes as “domestic dependent
nations”); Kahawaiolaa v. Norton, 386 F.3d 1271, 1278
(9th Cir. 2004) (“Historically, the formal relationship
between the United States and American Indian tribes
has been political, rather than race-based.”); COHEN’s,
supra § 4.01[1][a]; see generally Krakoff, supra, at 106078.
Beginning in 1934 with passage of the Indian
Reorganization Act, the federal government entered into
a new chapter wherein it officially acknowledged Indian
tribes’ rights of self-governance by authorizing tribes to
apply for federally-recognized status. See Indian
Reorganization Act, 25 U.S.C. §§ 5101 et seq. Official
federal recognition of Indian tribes is “a formal political
act” that “institutionaliz[es] the government-togovernment relationship between the tribe and the
federal government.” Cal. Valley Miwok Tribe v. United
States, 515 F.3d 1262, 1263 (D.C. Cir. 2008) (quoting
COHEN’s, supra § 3.02[3] (2005 ed.)); see also Krakoff,
supra, at 1075. Though inevitably tied in part to
ancestry, tribal recognition and tribal sovereignty center
on a group’s status as a continuation of a historical
political entity. See 25 C.F.R. § 83.11(c), (e) (criteria for
a tribe to receive federal recognition include that the
tribe has “maintained political influence or authority
over its members as an autonomous entity from 1900
political bodies with whom the federal government must manage
relations as with any other nation.

149a
until the present” and that its members “descend from a
historical Indian tribe”); Sarah Krakoff, They Were Here
First: American Indian Tribes, Race, and the
Constitutional Minimum, 69 STAN. L. REV. 491, 538
(2017) (explaining that the descent criterion for federal
recognition is “a proxy for connection[] to a political
entity, specifically a tribe, which existed historically”);
Federal Acknowledgment of American Indian Tribes, 80
Fed. Reg. 37862, 37,867 (2015). In this way, federally
recognized tribal status is an inherently political
classification. See Mancari, 417 U.S. at 553 n.24.
In view of this history, we cannot say that simply
because ICWA’s definition of “Indian child” includes
minors eligible for tribal membership (who have a
biological parent who is a tribal member), the
classification is drawn along racial lines. Tribal eligibility
does not inherently turn on race, but rather on the
criteria set by the tribes, which are present-day political
entities. 50 Just as the United States or any other
As the Tribes explain, under some tribal membership laws,
eligibility extends to children without Indian blood, such as the
descendants of persons formerly enslaved by tribes who became
members after they were freed or the descendants of persons of any
ethnicity who have been adopted into a tribe. See, e.g., Treaty with
the Cherokees, 1866, U.S.—Cherokee Nation of Indians, art. 9, July
19, 1866, 14 Stat. 799 (providing that the Cherokee Nation “further
agree that all freedmen who have been liberated by voluntary act of
their former owners or by law, as well as all free colored persons
who were in the country at the commencement of the rebellion, and
are now residents therein, or who may return within six months, and
their descendants, shall have all the rights of native Cherokees”);
Cherokee Nation v. Nash, 267 F. Supp. 3d 86, 132, 140-41 (D.D.C.
2017) (holding that Cherokee Freedmen enjoy full citizenship rights
as members of the Cherokee Nation because Congress has never
abrogated or amended the relevant treaty terms). Accordingly, a
50

150a
sovereign may choose to whom it extends citizenship, so
too may the Indian tribes. 51 That tribes may use ancestry
child may fall under ICWA’s membership eligibility standard
because his or her biological parent became a member of a tribe,
despite not being racially Indian. Additionally, many racially Indian
children, such as those affiliated with non-federally recognized
tribes, do not fall within ICWA’s definition of “Indian child.” When
it comes to ICWA’s definition of Indian child, race is thus both
underinclusive—because it does not capture these descendants of
freed enslaved persons or other adoptive members who are not
“racially” Indians—and overinclusive—because it embraces
“racially” Indian children who are not enrolled in or eligible for
membership in a recognized tribe or who lack a biological parent
who is a member of a recognized tribe.
51
For illustrative purposes, we note that jus sanguinis, or
citizenship based on descent, is a common feature of the citizenship
laws of foreign nations. See, e.g., Irish Nationality and Citizenship
Act, 2001 (Act. No. 15/2001) (Ir.) (individuals with any direct
ancestor who was an Irish citizen are eligible for Irish ancestry,
provided that the applicant’s parent was recorded in Ireland’s
foreign births register); Kodikas Ellenikes Ithageneias [KEI] [Code
of Greek Citizenship] A:1,10 (Gr.) (establishing that children of
Greek parents are Greek by birth, and providing that aliens of
Greek ethnic origin are eligible to obtain citizenship by
naturalization); The Law of the Republic of Armenia on the
Citizenship of the Republic of Armenia (Nov. 6, 1995), as amended
through Feb. 26, 2017, by RA Law No. 75-N (Arm.) (providing that
a person may be granted Armenian citizenship without residing in
Armenia or speaking Armenian if he or she is of Armenian
ancestry); Law of Return, 5710-1950, SH No. 51 p. 159 (1950) (Isr.)
(extending the right of citizenship to any “Jew” wishing to
immigrate to Israel); Law of Return (Amendment No. 2), 57301970, SH No. 586 p. 34 (1970) (Isr.) (clarifying that “Jew” means any
person born of a Jewish mother or who converted to Judaism, and
vesting the right of citizenship in any child, grandchild, or spouse of
a Jew, as well as any spouse of a child of a Jew or any spouse of a
grandchild of a Jew); Legge 5 febbraio 1992, no. 91, G.U. Feb. 15,
1992, n.38 (It.) (guaranteeing citizenship to any person whose father
or mother are citizens, and providing that Italian citizenship may be

151a
as part of their criteria for determining membership
eligibility does not change that ICWA does not classify
in this way; instead, ICWA’s Indian child designation
classifies on the basis of a child’s connection to a political
entity based on whatever criteria that political entity
may prescribe. 52 See Santa Clara Pueblo v. Martinez,
granted to aliens whose father or mother or whose direct ancestors
to the second degree were citizens by birth); Law of 2 April 2009 on
Polish Citizenship, Dz. U. z. 2012 r. poz. 161 (Feb. 14, 2012) (Pol.)
(stating that individuals within two degrees of Polish ancestry may
be eligible for Polish citizenship). That one may be eligible for
citizenship based on their ancestry does not, of course, alter the fact
that citizenship and eligibility therefor—like actual and potential
membership in a federally recognized tribe—are political matters
concerning the rights and obligations that come from membership
in a polity.
52
Moreover, even if ICWA did classify on the basis of blood
quantum as do some other laws respecting Indian affairs, it does not
necessarily follow that strict scrutiny would apply. See generally
Matthew L.M. Fletcher, Politics, Indian Law, and the
Constitution, 108 CAL. L. REV. 495, 532-46 (2020) (arguing that,
based on the historical understanding of the Indian affairs power,
Congress has complete authority to determine who is an Indian and
it is never a suspect classification); Mancari, 417 U.S. at 552
(applying rational basis review to law that classified on the basis of
blood quantum). Because ICWA simply looks to tribal eligibility and
the tribal membership of a child’s birth parents, we need not decide
what level of scrutiny applies when Congress classifies on the basis
of more remote Indian ancestry. We note, however, that some
scholars have explained that “the appearance of ‘Indian’ within the
[text of the] U.S. Constitution likely dooms [any] equal protection
challenge to Indian classifications.” Gregory Ablavsky, Race,
Citizenship, and Original Constitutional Meanings 70 STAN. L.
REV. 1025, 1074 (2018). Either the use of “‘Indian’ in the
Constitutional is a political classification” and thus “the use of
Indian in ICWA and similar statutes must also be read as a political
classification,” or the references to Indians in the Constitution must
be understood as “bound up with historical conceptions of race” and

152a
436 U.S. 49, 72 n.32 (1978) (“A tribe’s right to define its
own membership for tribal purposes has long been
recognized as central to its existence as an independent
political community.”).
The district court determined, and Plaintiffs now
argue, that ICWA’s definition of “Indian child” “mirrors
the impermissible racial classification in Rice [v.
Cayetano, 528 U.S. 495 (2000)], and is legally and
factually distinguishable from the political classification
in Mancari.” We disagree.
In Rice, the Court held that a provision of the
Hawaiian Constitution that permitted only “Hawaiian”
people to vote in the statewide election for the trustees
of the Office of Hawaiian Affairs (OHA) violated the
Fifteenth Amendment. Id. at 515. “Hawaiian” was
defined by statute as “any descendant of the aboriginal
peoples inhabiting the Hawaiian Islands which exercised
sovereignty and subsisted in the Hawaiian Islands in
1778, and which peoples thereafter have continued to
reside in Hawai[‘]i.” Id. at 509. (citation and internal
quotation marks omitted). The Court emphasized that
the statute classified citizens “solely because of their
ancestry,” determining that the legislature’s purpose in
doing so was to use ancestry as a proxy for race. Id. at
514-17. In reaching its ruling, the Rice Court expressly
reaffirmed Mancari’s central holding that, because
classifications based on Indian tribal membership are
“not directed towards a ‘racial’ group consisting of
‘Indians,’” but instead apply “only to members of
‘federally recognized’ tribes,” they are “political rather

“the Constitution itself” therefore acknowledges and “authorizes
distinctions based on Native ancestry.” Id.

153a
than racial in nature.” Rice, 528 U.S. at 519-20 (quoting
Mancari, 417 U.S. at 553 n.24).
The facts and legal issues in Rice are clearly
distinguishable from the present case. As a threshold
matter, Rice specifically involved voter eligibility in a
state-wide election for a state agency, and the Court
found only that the law at issue violated the Fifteenth
Amendment. As should be obvious, the Fifteenth
Amendment, which deals exclusively with voting rights,
is not implicated in this case. But even assuming Rice’s
holding would apply to an equal protection challenge,
ICWA’s definition of “Indian child” is a fundamentally
different sort of classification than the challenged law in
Rice.
The Court in Rice specifically noted that native
Hawaiians did not enjoy the same status as members of
federally recognized tribes, who are constituents of
quasi-sovereign political communities. Id. at 522.
Instead, ancestry was the sole, directly controlling
criteria for whether or not an individual could vote in the
OHA election. But unlike the ancestral requirement in
Rice, ICWA’s eligibility standard simply recognizes that
some Indian children have an imperfect or inchoate
tribal membership. That is, the standard embraces
Indian children who possess a potential but not-yetformalized affiliation with a current political entity—a
federally recognized tribe. See Mancari, 417 U.S. at 553
n.24.
An appreciation for how tribal membership works
makes this manifest. As Congress understood in
enacting ICWA, tribal membership “typically requires
an affirmative act by the enrollee or her parent,” 81 Fed.
Reg. at 38,782, and a “minor, perhaps infant, Indian does

154a
not have the capacity to initiate the formal, mechanical
procedure necessary to become enrolled in his tribe,”
H.R. REP. NO. 95-1386, at 17 (1978). Thus, Congress was
not drawing a racial classification by including the
eligibility requirement but instead recognizing the
realities of tribal membership and classifying based on a
child’s status as a member or potential member of a
quasi-sovereign political entity, regardless of his or her
ethnicity. And because ICWA does not single out
children “solely because of their ancestry or ethnic
characteristics,” Rice, 528 U.S. at 515, Rice is inapposite.
In short, we find Rice wholly inapplicable except
insofar as it reaffirmed the holdings of Mancari and its
progeny that laws that classify on the basis of Indian
tribal membership are political classifications. It
therefore does not alter our conclusion that ICWA’s
definition of “Indian child” is a political classification
subject to rational basis review. See Mancari, 417 U.S.
at 555.
Plaintiffs also separately contend that ICWA’s
lowest-tiered adoptive placement preference for “other
Indian families” constitutes a racial classification. 53 See
25 U.S.C. § 1915(a)(3). This preference, they argue,
treats Indian tribes as “fungible” and does not account
for the array of differences between tribes, which, in
turn, evinces a desire to keep Indian children within a
53

25 U.S.C. § 1915(a) provides:

In any adoptive placement of an Indian child under State law, a
preference shall be given, in the absence of good cause to the
contrary, to a placement with
(1) a member of the child’s extended family;
(2) other members of the Indian child’s tribe; or
(3) other Indian families.

155a
larger Indian “race.” We disagree for reasons similar to
our holding regarding ICWA’s Indian child designation.
Like the hiring preference in Mancari, this adoption
placement preference—like all of ICWA’s placement
preferences—“applies only to members of federally
recognized tribes.” Mancari, 417 U.S. at 554 n.24
(internal quotation marks omitted); see also 25 U.S.C.
§ 1903(3) (defining “Indian” as encompassing only
members of federally recognized tribes). Because on its
face the provision is limited to “members of federally
recognized tribes,” “the preference is political rather
than racial in nature.” Mancari, 417 U.S. at 554 n.24
(internal quotation marks omitted). Accordingly, it, too,
is subject only to rational basis review. 54
2. Rational Basis Review
Having determined that ICWA’s Indian child and
family designations are political classifications, we need
look no further than Rice to determine their
constitutionality. Even in setting aside the Hawai‘i
election law at issue, the Court stated in no uncertain
terms that statutes that fulfill “Congress’ unique
obligation toward the Indians” are constitutional. Id. at
520 (quoting Mancari, 417 U.S. at 555). “Of course,” the
Rice Court elaborated, “as we have established in a
series of [post-Mancari] cases, Congress may fulfill its
obligations and responsibilities to the Indian tribes by
enacting legislation dedicated to their circumstances and
needs.” Id. at 519 (citing Wash. State Comm. Passenger
Fishing Vessel Ass’n, 443 U.S. at 673 n.20; Antelope, 430
For the same reasons, ICWA’s foster care placement
preferences based on tribal membership trigger only rational basis
review. See 25 U.S.C. 1915(b).
54

156a
U.S. at 645-47; Del. Tribal Bus. Comm. v. Weeks, 430
U.S. 73, 84-85 (1977); Moe, 425 U.S. at 479-80; Fisher,
424 U.S. at 390-91).
This is precisely what ICWA does. We have already
described at length the “circumstances and needs” that
gave rise to ICWA. Id.; see supra Background Part IVV. Suffice it to say that, in enacting the statute, Congress
explicitly found that “an alarmingly high percentage of
Indian families are broken up by the removal, often
unwarranted, of their children from them by nontribal
public and private agencies and that an alarmingly high
percentage of such children are placed in non-Indian
foster and adoptive homes and institutions.” 25 U.S.C.
§ 1901(4). It further concluded “that the States,
exercising their recognized jurisdiction over Indian child
custody proceedings through administrative and judicial
bodies, have often failed to recognize the essential tribal
relations of Indian people and the cultural and social
standards prevailing in Indian communities and
families.” Id. § 1901(5). It therefore enacted ICWA “to
protect the best interests of Indian children and to
promote the stability and security of Indian tribes and
families.” Id. U.S.C. § 1902. By systematically favoring
the placement of Indian children with Indian tribes and
families in child custody proceedings, Congress sought
to ensure that children who are eligible for tribal
membership are raised in environments that engender
respect for the traditions and values of Indian tribes,
thereby increasing the likelihood that the child will
eventually join a tribe and contribute to “the continued
existence and integrity of Indian tribes.” Id. § 1901(3). It
cannot be reasonably gainsaid that these measures have
some rational connection to Congress’s goal of fulfilling

157a
its broad and enduring trust obligations to the Indian
tribes. 55 See Mancari, 417 U.S. at 555. Indeed, JUDGE
DUNCAN does not truly argue to the contrary. Instead,
he raises what amount to two arguments that ICWA uses
impermissible means to further Congress’s obligations
to the Indian tribes.
First, JUDGE DUNCAN argues that ICWA is irrational
because it extends beyond internal tribal affairs and
intrudes into state proceedings. DUNCAN, CIRCUIT
JUDGE, OP. at 65. As we discuss at length when
addressing Plaintiffs’ federalism-based arguments,
ICWA’s creation of federal rights that state courts must
honor is not a violation of state sovereignty. More
fundamentally, however, the degree to which a law
intrudes on state proceedings has no bearing on whether
that law is rationally linked to protecting Indian tribes.
One can imagine any number of overbearing measures
that would advantage Indians at the expense of the
states or other members of society that would
nonetheless promote Indian welfare. A federal law could
simply effectuate a direct transfer of wealth from state
coffers to the Indian tribes, for example, which would
almost certainly run afoul of various constitutional
provisions. But there would be no debate that the law
rationally furthered the well-being of tribes, which is
sufficient to overcome an equal protection challenge
when rational basis review applies. See Nordlinger v.
Hahn, 505 U.S. 1, 10 (1992) (“[U]nless a classification
In addition to the reasons stated above, that ICWA furthers
Congress’s legislative aim of discharging its duties to tribes is
strongly suggested by the fact that 486 federally recognized
tribes—over 80% of all such tribes in this nation—have joined as
amici in support of upholding ICWA’s constitutionality.
55

158a
warrants some form of heightened review because it
jeopardizes exercise of a fundamental right or
categorizes on the basis of an inherently suspect
characteristic, the Equal Protection Clause requires
only that the classification rationally further a legitimate
[government] interest.”).
Though JUDGE DUNCAN couches this objection as an
aspect of rational basis review, he appears to apply a far
more searching standard of scrutiny. 56 For example, he
JUDGE DUNCAN contends that he is “faithfully following the
tailoring analysis for Indian classifications laid out by Mancari,
Rice, and Adoptive Couple.” DUNCAN, CIRCUIT JUDGE, OP. at 64
n.93. But the Supreme Court has expressly stated that
“classifications based on tribal status” are not “suspect,”
Confederated Bands & Tribes of Yakima Indian Nation, 439 U.S.
at 501, and, again, the Court has repeatedly reaffirmed that laws
that neither infringe on a fundamental right nor involve a suspect
classification warrant only rational basis review, which does not
include the type of “tailoring analysis” JUDGE DUNCAN employs.
See, e.g., Beach Commc’ns, Inc., 508 U.S., at 313 (“In areas of social
and economic policy, a statutory classification that neither proceeds
along suspect lines nor infringes fundamental constitutional rights
must be upheld against equal protection challenge if there is any
reasonably conceivable state of facts that could provide a rational
basis for the classification.”). If JUDGE DUNCAN reads the cases he
cites to sub silentio overrule Supreme Court precedent to establish
that Indian classifications are inherently suspect or otherwise
subject to a stricter tailoring requirement than any other nonsuspect classification, his conclusion runs counter to virtually every
federal appeals court to have explicitly considered the issue. See,
e.g., Am. Fed’n of Gov’t Employees, AFL-CIO v. United States, 330
F.3d 513, 520 (D.C. Cir. 2003) (“[O]rdinary rational basis scrutiny
applies to Indian classifications just as it does to other non-suspect
classifications under equal protection analysis.”(citation omitted));
Artichoke Joe’s California Grand Casino v. Norton, 353 F.3d 712,
732 (9th Cir. 2003) (“The [Mancari] Court held that legislative
classifications furthering that same purpose were political and, thus,
56

159a
relies on the Rice Court’s statement that, because the
OHA elections in that case affected the state as a whole,
extending “Mancari to th[at] context would [] permit a
State, by racial classification, to fence out whole classes
of its citizens from decision making in critical state
affairs.” DUNCAN, CIRCUIT JUDGE, OP. at 61-62 (quoting
528 U.S. at 522). As we have stated, though, Rice
centered on the Fifteenth Amendment, and even if the
law were instead examined under the Fourteenth
Amendment, it would be subject to strict scrutiny
because it classified on the basis of race and
discriminated with respect to a fundamental
constitutional right. See Nordlinger, 505 U.S. at 10.
ICWA does neither. See San Antonio Indep. Sch. Dist.
v. Rodriguez, 411 U.S. 1, 33 (1973) (limiting
“fundamental rights” for purposes of equal protection
analysis to those rights protected by the constitution).
Thus, whether ICWA incidentally disadvantages some
groups in state court proceedings is of no moment. See
Romer v. Evans, 517 U.S. 620, 632 (1996) (stating that “a
law will be sustained” on rational basis review “if it can
be said to advance a legitimate government interest,
even if the law seems unwise or works to the
disadvantage of a particular group, or if the rationale for
it seems tenuous” (citing New Orleans v. Dukes, 427 U.S.
297 (1976))).
did not warrant strict scrutiny instead of ordinary, rational-basis
scrutiny[.]”). In other words, it is firmly established that ordinary
rational basis scrutiny applies in an equal protection challenge to an
Indian classification, and under standard rational basis review,
factors like the degree of intrusion on state sovereignty are simply
not relevant to whether one can imagine a legitimate government
interest furthered by the classification.

160a
Moreover, even if such a factor were relevant to
ICWA’s validity, we would disagree that the law’s
purpose or effect is analogous to the Hawai‘i law at issue
in Rice. Unlike the OHA election qualifications, ICWA
regulates relations between states, the federal
government, and the Indian tribes. The law is an
example of congressional control over federal-tribal
affairs—an interest completely absent in Rice. See Rice,
528 U.S. at 518 (noting that to sustain Hawai‘i’s
restriction under Mancari, it would have to “accept some
beginning premises not yet established in [its] case law,”
such as that Congress “has determined that native
Hawaiians have a status like that of Indians in organized
tribes”); see also Kahawaiolaa, 386 F.3d at 1279
(rejecting an equal protection challenge brought by
Native Hawaiians, who were excluded from the U.S.
Department
of
the
Interior’s
formal
tribal
acknowledgement process, and concluding that the
recognition of Indian tribes was political). Thus, there is
no concern that ICWA excludes a class of citizens from
participation in their own self-government; even when
ICWA reaches into state court adoption proceedings,
those proceedings are simultaneously affairs of states,
tribes, and Congress. See 25 U.S.C. § 1901(3) (“[T]here
is no resource that is more vital to the continued
existence and integrity of Indian tribes than their
children.”). The Rice Court’s caution against fencing off
a class of citizens from participation in state affairs thus
does not apply to ICWA for multiple reasons.
What remains of JUDGE DUNCAN’s contentions
amount to objections that ICWA’s Indian child and
family designations are under- and over-inclusive. ICWA
applies to Indian children who are only eligible for tribal

161a
membership and may never join a tribe, he points out, as
well as when an Indian child’s biological parents do not
oppose placement of an Indian child with a non-Indian
family. Based on this, JUDGE DUNCAN argues that the
law could be applied in scenarios where it does not
further Congress’s goals of ensuring the continued
survival of Indian tribes and preventing the unwilling
breakup of Indian families. DUNCAN, CIRCUIT JUDGE,
OP. at 67-71. Similarly, because ICWA in some instances
favors placement of an Indian child with an Indian family
of a different tribe over placement with a non-Indian
family, JUDGE DUNCAN contends that the statute treats
the tribes as fungible and does not always promote
Congress’s goal of linking Indian children with their
particular tribes. DUNCAN, CIRCUIT JUDGE, OP. at 71-73.
But the Supreme Court has clearly stated that these are
not grounds for invalidating a law on rational basis
review.
“Rational-basis review tolerates overinclusive
classifications, underinclusive ones, and other imperfect
means-ends fits.” St. Joan Antida High Sch. Inc. v.
Milwaukee Pub. Sch. Dist., 919 F.3d 1003, 1010 (7th Cir.
2019) (collecting Supreme Court cases). “[L]egislation
‘does not violate the Equal Protection Clause merely
because the classifications [it makes] are imperfect.’”
New York City Transit Auth. v. Beazer, 440 U.S. 568, 592
n.39 (1979) (quoting Dandridge v. Williams, 397 U.S.
471, 485 (1970)). “Even if the classification involved here
is to some extent both underinclusive and overinclusive,
and hence the line drawn by Congress imperfect, it is
nevertheless the rule that in a case like this ‘perfection is
by no means required.’” Id. (quoting Vance v. Bradley,
440 U.S. 93, 108 (1979)). On rational-basis review, a

162a
statutory classification “comes to us bearing a strong
presumption of validity, and those attacking the
rationality of the legislative classification have the
burden to negative every conceivable basis which might
support it.” Beach Commc’ns, Inc., 508 U.S. at 314-15
(emphasis added) (cleaned up). All of this is to say that it
is immaterial whether one can imagine scenarios in
which ICWA’s classifications do not further ICWA’s
goals; that the classifications could further legitimate
goals in some instances is wholly sufficient to sustain the
law’s constitutionality. 57
57
JUDGE DUNCAN contends that his arguments are somehow
different from contentions that ICWA is overinclusive because
“[e]ligibility—one of only two ways to trigger ICWA—makes the
law cover children (like the ones here) with no actual connection to
a tribe” and “allowing ICWA to override birth parents’ wishes to
place their children with non-Indians . . . makes nonsense of ICWA’s
key goal of preventing the break-up of Indian families.” DUNCAN,
CIRCUIT JUDGE, OP. at 68-69 n.95. But a law that employs a
classification that applies to some individuals or in some situations
in which it does not further the legislature’s objectives is the precise
definition of an overinclusive law, and the Supreme Court has
repeatedly reaffirmed that such a statute survives rational basis
review. See, e.g., Burlington N. R. Co. v. Ford, 504 U.S. 648, 653–54
(1992) (upholding against equal protection challenge state’s
differing venue rules for domestically incorporated corporations
because legislature could have rationally concluded that many
corporations are headquartered in their state of incorporation and
venue rule would promote convenient litigation, despite many
corporations not having their principal place of business in their
state of incorporation); Vance v. Bradley, 440 U.S. 93, 106 (1979)
(upholding Foreign Service’s mandatory 60-year retirement age
because Congress could rationally believe that it promoted the
maintenance of “a vigorous and competent” Service,
notwithstanding many people over 60 being more “vigorous and
competent” than many people under 60); Dandridge v. Williams,
397 U.S. 471, 486 (1970) (upholding state’s cap on welfare awarded

163a
to families with dependent children because it was rational to
believe it would encourage families to seek employment, despite the
fact that many such families contain “no person who is employable”).
Thus, even if JUDGE DUNCAN is correct that some Indian children
as classified by ICWA never ultimately join an Indian tribe and that
some Indian birth parents do not object to the placement of their
children with non-Indian families, this does not mean that ICWA
does not pass constitutional muster. It is enough that Congress
could have rationally believed that some Indian children would join
a tribe and some Indian birth parents would object to a non-Indian
family placement.
Perhaps seeking to overcome this clear infirmity in its
reasoning, the opposing opinion makes much of the Supreme
Court’s statement in Adoptive Couple v. Baby Girl that it would
“raise equal protection concerns” to apply ICWA in a manner that
“put certain vulnerable children at a great disadvantage solely
because an ancestor—even a remote one—was an Indian.”
DUNCAN, CIRCUIT JUDGE, OP. at 62, 70 (quoting 570 U.S. at 655).
He contends that ICWA violates equal protection principles because
it allegedly disadvantages Indian children by making it more
difficult for non-Indians to adopt them. But the Court was merely
cautioning in dictum that ICWA may be vulnerable to an as applied
challenge in the rare situation in which applying its classification to
a specific set of facts is wholly irrational. See City of Cleburne, Tex.
v. Cleburne Living Ctr., 473 U.S. 432, 448 (1985) (holding that
applying city ordinance to particular plaintiffs violated equal
protection because classification was irrational in that specific
instance). This is a different matter than Plaintiffs’ facial challenge
to the statute, which requires that the “challenger . . . establish that
no set of circumstances exists under which the Act would be valid.”
United States v. Salerno, 481 U.S. 739, 745 (1987). “The fact that
[ICWA] might operate unconstitutionally under some conceivable
set of circumstances is insufficient to render it wholly invalid[.]” Id.
Lastly, we reject JUDGE DUNCAN’s supposition that the Indian
children whom Plaintiffs seek to adopt would be put at “great
disadvantage” by being placed in the care of an Indian relative or
family pursuant to ICWA’s preferences. DUNCAN, CIRCUIT JUDGE,
OP. at 68-70. That is a value-laden policy determination that courts
are ill-equipped to make, especially without the type of detailed fact-

164a
Further, ICWA is irrational in the scenarios that
JUDGE DUNCAN proposes only if we artificially cabin the
interests that ICWA may serve. But “it is entirely
irrelevant for constitutional purposes whether the
conceived reason for the challenged distinction actually
motivated the legislature.” Id. And “a legislative choice
is not subject to courtroom fact-finding and may be
based on rational speculation unsupported by evidence
or empirical data.” Id. In other words, JUDGE DUNCAN
errs by limiting his analysis to ICWA’s goals as he
narrowly defines them; any conceivable legitimate goal
may be grounds to sustain ICWA’s constitutionality so
long as one can rationally articulate a way in which the
law’s Indian child and family classifications would
theoretically further it.
In this light, it is clear that ICWA’s classifications are
not irrational even in the situations JUDGE DUNCAN
suggests. It is rational to think that ensuring that an
Indian child is raised in a household that respects Indian
values and traditions makes it more likely that the child
will eventually join an Indian tribe—thus “promot[ing]
the stability and security of Indian tribes,” 25 U.S.C.
§ 1902—even when the child’s parents would rather the
child be placed with a non-Indian family. And we reject
the notion that ICWA’s preference for Indian families
treats tribes as fungible. As Defendants point out, many
contemporary tribes descended from larger historical
bands and continue to share close relationships and
linguistic, cultural, and religious traditions, so placing a
child with another Indian family could conceivably
further the interest in maintaining the child’s ties with
finding as to specific home placements that is largely absent from
the record before us.

165a
his or her tribe or culture. See, e.g., Greg O’Brien,
Chickasaws: The Unconquerable People, Mississippi
History Now (September 23, 2020, 9:20 AM),
https://mshistorynow.mdah.state.ms.us/articles/8/chicka
saws-the-unconquerable-people
(noting
that,
“[c]ulturally, the Chickasaws were (and are) similar to
the Choctaws; both groups spoke a nearly identical
language, their societies were organized matrilineally
(meaning that ancestry was traced only through the
mother’s line), political power was decentralized so that
each of their seven or so villages had their own chiefs and
other leaders, and they viewed the sun as the ultimate
expression of spiritual power for its ability to create and
sustain life”). By providing a preference for placing
Indian children with a family that is part of a formally
recognized Indian political community that is
interconnected to the child’s own tribe, ICWA enables
that child to avail herself of the numerous benefits—both
tangible and intangible—that come from being raised
within this context. And even if this were not the case,
Congress could rationally conclude that placing an
Indian child with a different tribe would fortify the ranks
of that other tribe, contributing to the continued
existence of the Indian tribes as a whole. See 25 U.S.C.
§§ 1901(3), 1902; Holyfield, 490 U.S. at 49.
In sum, § 1903(4)’s definition of an “Indian child” and
§ 1915(a)(3)’s Indian family preference can be rationally
linked to the trust relationship between the tribes and
the federal government, as well as to furthering tribal
sovereignty and self-government. They therefore do not
violate constitutional equal protection principles, and the

166a
district court erred by concluding otherwise. 58 See
Mancari, 417 U.S. at 555.
C. Nondelegation Doctrine
We next review Plaintiffs’ challenge to 25 U.S.C.
§ 1915(c) under the nondelegation doctrine. Article I of
the Constitution vests “[a]ll legislative Powers” in
Congress. U.S. CONST. art. 1, § 1, cl. 1. “In a delegation
challenge, the constitutional question is whether the
statute has” impermissibly “delegated legislative
power.” Whitman v. Am. Trucking Ass’ns, 531 U.S. 457,
472 (2001). Section 1915(c) allows Indian tribes to
establish through tribal resolution a different order of
preferred placement than that set forth in § 1915(a) and
(b). 59 Section 23.130 of the Final Rule provides that a
tribe’s established placement preferences apply over
those initially specified in ICWA. 60 The district court
determined that these provisions violated the
nondelegation doctrine, reasoning that § 1915(c) grants
Indian tribes the power to change legislative preferences
with binding effect on the states and that Indian tribes
are not part of the federal government of the United
We similarly conclude that ICWA’s foster care preferences
survive rational basis review and thus do not violate equal
protection.
59
The provision states: “In the case of a placement under
subsection (a) or (b) of this section, if the Indian child’s tribe shall
establish a different order of preference by resolution, the agency
or court effecting the placement shall follow such order so long as
the placement is the least restrictive setting appropriate to the
particular needs of the child, as provided in subsection (b) of this
section.” 25 U.S.C. § 1915(c).
60
“If the Indian child’s Tribe has established by resolution a
different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply.” 25 C.F.R. § 23.130.
58

167a
States and therefore cannot exercise federal legislative
or executive regulatory power over non-Indians on nontribal lands.
As an initial matter, Defendants argue that the
district court’s analysis of the constitutionality of these
provisions ignores the inherent sovereign authority of
tribes. They contend that § 1915(c) merely recognizes
and incorporates a tribe’s exercise of its inherent
sovereignty over Indian children and therefore is not a
delegation of authority from Congress. Ultimately,
however, we need not decide whether the Indian tribes’
inherent sovereign authority extends to establishing
rights that can be conferred on its potential members in
state court proceedings because Congress can extend
tribal jurisdiction by delegating its power through an
“express authorization [in a] federal statute.” Strate v.
A-1 Contractors, 520 U.S. 438, 445 (1997); see also
United States v. Enas, 255 F.3d 662, 666-67 (9th Cir.
2001) (en banc) (explaining the “dichotomy between
inherent and delegated power” and that “[w]hen
Congress bestows additional power upon a tribe—
augments its sovereignty, one might say—this additional
grant of power is referred to as ‘delegation’”); cf.
Mazurie, 419 U.S. at 557 (“We need not decide whether
this independent authority is itself sufficient for the
tribes to impose Ordinance No. 26. It is necessary only
to state that the independent tribal authority is quite
sufficient to protect Congress’ decision to vest in tribal
councils this portion of its own authority to ‘regulate
Commerce . . . with the Indian tribes.’”) (alterations in
original).
As we have stated, Congress possesses the authority
to enact ICWA pursuant to its constitutional legislative

168a
power. See supra Discussion Part II.A. And the
limitations on Congress’s ability to delegate its
legislative power are “less stringent in cases where the
entity exercising the delegated authority itself possesses
independent authority over the subject matter.”
Mazurie, 419 U.S. at 556-57.
Such a rule may arguably be justified by the fact that
the Supreme Court has long recognized that Congress
may incorporate the laws of another sovereign into
federal law without violating the nondelegation doctrine.
In United States v. Sharpnack, 355 U.S. 286, 293-94
(1958), for instance, the Supreme Court upheld a federal
statute that prospectively incorporated states’ criminal
law and made it applicable in federal enclaves within
each state, though the states, of course, lacked the power
to legislate in these enclaves. Rather than an
impermissible delegation of Congress’s legislative
power, the Court reasoned that the law was a “deliberate
continuing adoption by Congress” of state law as binding
federal law. Id.; see also Gibbons v. Ogden, 22 U.S. (9
Wheat.) 1, 80 (1824) (“Although Congress cannot enable
a State to legislate, Congress may adopt the provisions
of a State on any subject.”); United States v. Palmer, 465
F.2d 697, 699-700 (6th Cir. 1972) (holding that the
incorporation of state law into 18 U.S.C. § 1955, which
prohibits operating an illegal gambling business and
defines such an illicit business as one that violates state
or local law, does not violate the nondelegation doctrine).
This same reasoning applies to laws enacted by Indian
tribes, for “Indian tribes are unique aggregations
possessing attributes of sovereignty over both their
members and their territory.” Mazurie, 419 U.S. at 557;
see also S. Pac. Transp. Co. v. Watt, 700 F.2d 550, 556

169a
(9th Cir. 1983) (determining that the Secretary of the
Interior did not improperly subdelegate administrative
authority by requiring tribal consent as a condition
precedent to granting a right-of-way across tribal lands
to a railroad because the Secretary simply
“incorporate[d] into the decision-making process the
wishes of a body with independent authority over the
affected lands”).
Section 1915(c) provides that a tribe may pass, by its
own legislative authority, a resolution reordering the
placement preferences set forth by Congress in § 1915(a)
or (b). Pursuant to this section, a tribe may assess, for
example, whether the most appropriate placement for an
Indian child is with members of the child’s extended
family, the child’s tribe, or other Indian families. It is
beyond debate that it would be within Indian tribes’
authority to set these same standards in tribal child
custody proceedings. See, e.g., Fisher, 424 U.S. 390
(upholding exclusive tribal jurisdiction over adoption
proceedings among tribal members located in Indian
country); Montana, 450 U.S. at 564 (noting tribes’
“inherent power to determine tribal membership [and]
regulate domestic relations among members”). And just
as the law at issue in Sharpnack incorporated the laws of
a state on a matter with respect to which the state was
authorized to legislate and applied it in an area in which
the state was not authorized to legislate, so § 1915(c)
incorporates the law of Indian tribes on a matter within
the tribes’ jurisdiction and makes it applicable in an area
that might otherwise be beyond the tribes’ power to
regulate. Thus, § 1915(c) can be characterized as a valid
“deliberate continuing adoption by Congress” of tribal
law as binding federal law. Sharpnack, 355 U.S. at 293-

170a
94; 25 U.S.C. § 1915(c); 81 Fed. Reg. at 38,784 (statement
by the BIA noting that “through numerous statutory
provisions, ICWA helps ensure that State courts
incorporate Indian social and cultural standards into
decision-making that affects Indian children”).
But § 1915(c)’s validity is not dependent solely on this
framing. Courts have frequently upheld delegations of
congressional authority to Indian tribes without
reference to federal incorporation of their law. In United
States v. Mazurie, for example, the Supreme Court
considered a federal law that allowed the tribal council of
the Wind River Tribes, with the approval of the
Secretary of the Interior, to adopt ordinances to control
the introduction of alcoholic beverages by non-Indians
on privately owned land within the boundaries of the
reservation. See 419 U.S. at 547, 557. As the Court later
explained, Congress indicated its intent to delegate
authority to tribes in the statute’s requirement that
liquor transactions conform “‘with an ordinance duly
adopted’ by the governing tribe.” Rice v. Rehner, 463
U.S. 713, 730-31 (1983) (quoting 18 U.S.C. § 1161)
(examining the same statute challenged in Mazurie).
The Court ruled that such a delegation of congressional
power did not violate the nondelegation doctrine.
Mazurie, 419 U.S. at 546, 557. Tribes possess “a certain
degree of independent authority over matters” relating
to their “internal and social relations,” the Court
reasoned, including the “distribution and use of
intoxicants” within the reservation’s bounds. Id. And this
independent tribal authority provided Congress with a
sufficient basis for vesting in tribes Congress’s own
power to regulate Indian affairs. Id.

171a
Similarly, in Bugenig v. Hoopa Valley Tribe, the
Ninth Circuit, sitting en banc, determined that Congress
had expressly delegated authority to the Hoopa Valley
Tribe to regulate conduct by nonmembers. See 266 F.3d
1201, 1223 (9th Cir. 2001) (en banc). In that case, the
Hoopa Tribe had ratified a constitution in 1972 stating
that the Tribe’s jurisdiction “extend[s] to all lands within
the confines of the” reservation and that the Tribe could
regulate “the use and disposition of property upon the
reservation,” including by non-members. Id. at 1212.
Later, Congress passed a statute stating that “existing
gove[r]ning documents of the Hoopa Valley Tribe and
the governing body established and elected thereunder
. . . are hereby ratified and confirmed.” Id. at 1207-08
(quoting 25 U.S.C. § 1300i-7). The Tribe then passed a
resolution prohibiting harvesting timber within a certain
zone on the reservation. Id. at 1208. Shortly after the
resolution’s adoption, a non-member purchased property
in this zone and began clearing its timber. Id. The Tribe
attempted to enjoin her timber removal, arguing that
Congress had vested in it the authority to regulate within
the reservation, regardless of ownership. Id. at 1209. The
Ninth Circuit agreed. Reading together the tribal
constitution and the congressional enactment that
“ratified and confirmed” the Tribe’s governing
documents, the court found that Congress had
“delegated authority to regulate all the lands within the”
reservation, including those owned by non-Indians. Id. at
1216. The court also determined that the delegation was
valid because “Congress can delegate to Indian tribes
those powers that are within the sphere of the Indian
Commerce Clause.” Id. at 1223 n.12.

172a
Like the statutes in Mazurie and Bugenig, § 1915(c)
contains an express delegation to tribes. See 25 U.S.C.
§ 1915(c) (permitting “the Indian child’s tribe” to alter
the order of placement preferences). And because the
authority to alter placement preferences with respect to
specific tribes is within Congress’s power, Congress can
validly delegate this authority to Indian tribes. See
Buenig, 266 F.3d at 1223 n.12. Thus, Congress has
validly “augment[ed]” tribal power by delegating
additional authority via § 1915(c). Enas, 255 F.3d at 667.
JUDGE DUNCAN presents two arguments as to why
§ 1915(c) violates nondelegation principles. First, he
contends that the provision delegates Congress’s core
legislative power and thereby violates the bicameralism
and presentment requirements that Congress must
adhere to when enacting law. DUNCAN, CIRCUIT JUDGE,
OP. at 110-11. Second, he argues that, even if § 1915(c) is
construed as a delegation of regulatory authority, it
violates nondelegation principles because it entrusts the
authority to a party outside the federal government.
DUNCAN, CIRCUIT JUDGE, OP. at 112. Neither contention
is ultimately persuasive. . At the threshold, we note that
JUDGE DUNCAN takes up the contention that § 1915(c)
specifically violates bicameralism and presentment
wholly sua sponte; no party or amicus raised it in the
district court, before the panel, or in en banc briefing. 61
The district court also did not raise or pass on this issue. We
ordinarily do not consider issues in this posture. See Burell v.
Prudential Ins. Co. of Am., 820 F.3d 132, 140 (5th Cir. 2016) (“To
preserve an argument, it must be raised to such a degree that the
district court has an opportunity to rule on it.” (cleaned up));
Firefighters’ Ret. Sys. v. EisnerAmper, L.L.P., 898 F.3d 553, 561
(5th Cir. 2018) (“It is the general rule, of course, that a federal
appellate court does not consider an issue not passed upon below.”
61

173a
This is likely because the nondelegation doctrine already
provides that Congress may not delegate to other actors
the core legislative power that would be subject to the
bicameralism and presentment requirements, see
Loving v. United States, 517 U.S. 748, 758 (1996), and
thus the nondelegation inquiry, already accounts for
bicameralism and presentment. See John F. Manning,
The Nondelegation Doctrine as a Canon of Avoidance,
2000 SUP. CT. REV. 223, 240 (2000) (“The nondelegation
doctrine protects [important] interests by forcing
specific policies through the process of bicameralism and
presentment[.]”); see also Jackson v. Stinnett, 102 F.3d
132, 135 n.3 (5th Cir. 1996) (rejecting a reading of a
statute that would “approach[] a violation of the
Presentment Clause and the nondelegation doctrine”
(emphasis added)). In a nondelegation challenge, the
nondelegation question both subsumes and precedes the
presentment and bicameralism questions, rending those
latter inquiries superfluous.
Bicameralism and presentment are only separately
implicated—to the exclusion of nondelegation—when
Congress devises a scheme by which it (or its legislative
agent) purports to enact law through a process other
than that prescribed by Article I, Section 7 of the
Constitution. “Absent retained congressional veto power
or other such retained authority . . . which is ‘legislative
in its character and effect,’ the presentment clauses are
(internal quotation marks omitted)). Moreover, “[i]n our adversarial
system of adjudication, we follow the principle of party presentation
. . . ‘[I]n the first instance and on appeal . . ., we rely on the parties
to frame the issues for decision and assign to courts the role of
neutral arbiter of matters the parties present.’” United States v.
Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020) (third set of alterations
in original) (quoting Greenlaw v. United States, 554 U.S. 237 (2008)).

174a
not [separately] implicated and the only question is one
involving the delegation doctrine.” United States v.
Scampini, 911 F.2d 350, 352 (9th Cir. 1990) (quoting INS
v. Chadha, 462 U.S. 919, 952 (1983)) (internal citation
omitted); see also Metro. Washington Airports Auth. v.
Citizens for Abatement of Aircraft Noise, Inc., 501 U.S.
252, 276 (1991) (“Congress cannot exercise its legislative
power to enact laws without following the bicameral and
presentment procedures specified in Article I.”
(emphasis added)). An arrangement in which specifically
Congress or its agents attempt to enact legislation
through an unconstitutional process is the only situation
that can give rise to a procedural violation of
bicameralism or presentment without also implicating
nondelegation; it is still Congress that is purporting to
enact law but doing so without complying with
constitutionally mandated procedures. In light of this
framing, it makes sense that the Supreme Court has
consistently performed only a nondelegation analysis
when examining challenges to the vesting of power in
parties other than Congress or its agents. See, e.g.,
Mazurie, 419 U.S. at 556-58; Loving, 517 U.S. at 758;
Am. Trucking Ass’ns, 531 U.S. at 472-76; Mistretta v.
United States, 488 U.S. 361, 371-79 (1989). Neither
Congress nor its agents are involved in the tribal
resolution contemplated by § 1915(c). The cases JUDGE
DUNCAN relies upon addressing the procedures
Congress must use when enacting legislation are
therefore of little relevance to the present case. E.g.,
Chadha, 462 U.S. at 959, Clinton v. City of New York, 524
U.S. 417, 447–48 (1998); Metro. Washington Airports
Auth. 501 U.S. at 276.

175a
Evaluated under the proper rubric, § 1915(c) does not
represent an invalid delegation. As to JUDGE DUNCAN’s
first contention, he appears to argue that § 1915(c)
implicates the core legislative power because Congress,
in setting a default rule that tribes may alter under
congressionally-defined circumstances, has effectively
permitted the tribes to “change specifically enacted
Congressional priorities.” DUNCAN, CIRCUIT JUDGE, OP.
at 109. We note the counterintuitive nature of the
opposing opinion’s proposed holding that Congress
delegates too much discretion when it provides some
guidance and exercises some control over an issue by
setting a default standard rather than leaving the
implementation of a statute entirely to the delegee’s
discretion. Moreover, countless other federal statutes
set a default standard that applies unless another party
chooses to act, and these laws often grant the delegee far
more power to negate the normal functioning of federal
law than does § 1915(c). See, e.g., 16 U.S.C. § 1536
(permitting an Endangered Species Committee made up
of high-ranking executive branch officials to suspend the
otherwise applicable requirements of the Endangered
Species Act for particular projects); 7 U.S.C. § 136p
(allowing the Environmental Protection Agency (EPA)
to exempt state and federal agencies from the Federal
Insecticide, Fungicide and Rodenticide Act); 43 U.S.C.
§ 652 (permitting the Secretary of the Interior and other
federal officials to “waive any procedural requirements
of law or regulation which they deem desirable to waive
in order to” construct the Trans-Alaska Pipeline); 42
U.S.C. § 1315 (permitting states, with approval from the
Department of Health and Human Services, to customize
their Medicaid programs in ways that would otherwise

176a
violate the Social Security Act). Indeed, many federal
statutes specifically delegate to another, separate
sovereign the authority to alter the federal standard in
matters related to the sovereign’s jurisdiction. See, e.g.,
20 U.S.C. § 1415(b)(6)(B) (providing that the statute of
limitation for bringing an administrative claim under the
Individuals with Disabilities Education Act is two-years
“or, if the State has an explicit time limitation for
presenting such a complaint under this subchapter, in
such time as the State law allows”); 11 U.S.C. § 522
(permitting state law to alter the default property
exemptible from a bankruptcy estate); 12 U.S.C.
§ 2279aa-12(b)(2) (permitting states to enact law
overriding exemption from state registration and
qualification laws for securities guaranteed by the
Federal Agricultural Mortgage Corporation); 42 U.S.C.
§ 14503(a), (e) (exempting nonprofit and governmental
entities from liability for the acts of volunteers but
allowing state law to override exemption in several
specific ways). 62 Courts have repeatedly affirmed
JUDGE DUNCAN attempts to distinguish between laws that
permit another party to waive statutory requirements and those
that permit a party to “re-write enacted statutes.” DUNCAN,
CIRCUIT JUDGE, OP. at 111. n.149. But the opposing opinion offers
no reasoned analysis as to why a waiver, which effectively deletes
text from a statute for specific applications of the law or adds text
establishing specific exceptions to a statutory regime, is less of a
“rewrit[ing of] enacted statutes” than the reordering of the
placement preferences for limited applications of ICWA that the
statute authorizes Indian tribes to bring about. This failing is
particularly apparent in JUDGE DUNCAN’s handling of the cited
federal laws that permit another sovereign to override a statutory
default, just as ICWA does here. DUNCAN, CIRCUIT JUDGE, OP. at
113 n.150. Simply repeating the phrase “alter the text” is no
substitute for meaningfully distinguishing these laws, and the
62

177a
Congress’s authority to allow another party to override
the federal default for specific applications of a law
without violating nondelegation principles. See, e.g., Am.
Fuel & Petrochemical Mfrs. v. EPA, 937 F.3d 559, 578
(D.C. Cir. 2019), cert. denied sub nom. Valero Energy
Corp. v. EPA, 140 S. Ct. 2792 (2020) (mem.) (upholding
against nondelegation challenge law permitting the EPA
to alter otherwise statutorily mandated renewable fuel
quotas); Defs. Of Wildlife v. Chertoff, 527 F. Supp. 2d 119,
124 (D.D.C. 2007) (noting that permitting executive
officials to waive environmental laws for limited
purposes does not violate nondelegation where it did not
“alter the text of any statute, repeal any law, or cancel
any statutory provision” because the statute itself
“retains the same legal force and effect as it had when it
was passed by both houses of Congress and [was]
presented to the President”); In re Border
Infrastructure Envtl. Litig., 284 F. Supp. 3d 1092, 1140
(S.D. Cal. 2018), aff’d, 915 F.3d 1213 (9th Cir. 2019), cert.
denied sub nom. Animal Legal Def. Fund v. Dep’t of
Homeland Sec., 139 S. Ct. 594 (2018) (same). Judge
Duncan’s second contention—that Congress may not
delegate authority of any sort to a party outside the
federal government—is also easily disposed of. Whether
framed as a prospective incorporation of another
sovereign’s law or a delegation of regulatory authority,
the Supreme Court has long approved of federal statutes
that permit another sovereign to supply key aspects of
the law, including an explicit delegation of authority to
opposing opinion does nothing to explain how § 1915(c) authorizes
“alter[ing] the text” of a statute any more than the myriad other
federal laws cited here that permit a party other than Congress to
change a statute’s functioning for certain limited applications.

178a
the Indian tribes. See Mazurie, 419 U.S. at 556-57;
Gibbons, 22 U.S. (9 Wheat.) at 80, Wilkerson v. Rahrer,
140 U.S. 545, 562 (1891) (“[W]hile the legislature cannot
delegate its power to make a law, it can make a law which
leaves it to municipalities or the people to determine
some fact or state of things, upon which the action of the
law may depend.”). But see Knickerbocker Ice Co. v.
Stewart, 253 U.S. 149, 164 (1920) (holding that Congress
may not delegate to the states its exclusive authority
over admiralty and maritime law because the
Constitution specifically entrusts that power to
Congress to maintain nationwide uniformity). Indeed,
the Supreme Court itself routinely looks to the law of
other sovereigns to fill in important aspects of federal
statutes. In the context of a § 1983 claim, for instance,
analogous state personal injury torts supply, inter alia,
the statute of limitations in which the federal claim may
be brought. See Wallace v. Kato, 549 U.S. 384, 387 (2007)
(“Section 1983 provides a federal cause of action, but in
several respects relevant here federal law looks to the
law of the State in which the cause of action arose.”). The
inescapable message of these long-standing statutes and
Supreme Court precedents is clear: Congress does not
invalidly delegate regulatory power simply because it
prospectively incorporates into federal law the decisionmaking of another sovereign on a matter within that
sovereign’s
jurisdiction. 63
Cf.
Kentucky
Div.,
Even if the Indian tribes were not sovereigns in their own
right, it does not necessarily follow that incorporating their
decision-making into federal law would violate the nondelegation
doctrine, as the Supreme Court has historically upheld even
delegations of authority to private entities against such challenges.
See Currin v. Wallace, 306 U.S. 1, 1 (1939); United States. v. Rock
Royal Co-op., 307 U.S. 533, 577–78 (1939).
63

179a
Horsemen’s Benev. & Protective Ass’n, Inc. v. Turfway
Park Racing Ass’n, Inc., 20 F.3d 1406, 1417 (6th Cir.
1994) (“[T]he separation of powers principle and, a
fortiori, the nondelegation doctrine, simply are not
implicated by Congress’ ’delegation’ of power to the
States.”).
It is thus unsurprising that JUDGE DUNCAN offers no
binding precedent to support a rule that regulatory
power cannot be delegated outside the federal
government, relying entirely on concurrences and
secondary sources for his novel approach. See DUNCAN,
CIRCUIT JUDGE, OP. at 112. And, because he offers no
explanation or limiting principle to differentiate the
present case from those cited above, one is struck by the
sheer breadth of the opposing proposed opinion’s
holding, which would likely render myriad federal laws
invalid and conflict with binding Supreme Court
precedents. See, e.g., Mazurie, 419 U.S. at 556-57.
In sum, § 1915(c) validly integrates tribal sovereigns’
decision-making into federal law, regardless of whether
it is characterized as a prospective incorporation of tribal
law or an express delegation by Congress under its
Indian affairs authority. Accordingly, § 1915(c) does not
violate the nondelegation doctrine. 64
Because we would not hold that any provision of ICWA is
unconstitutional, a severability analysis is unnecessary. However,
even if we were to conclude that certain portions of ICWA violate
the Constitution, we would hold that ICWA’s severability clause, 25
U.S.C. § 1963, is fully enforceable, meaning that only those specific
provisions of the law that are unconstitutional are invalid and the
remainder of the statute remains in full effect. See Seila Law LLC
v. Consumer Fin. Protect. Bureau, 140 S. Ct. 2183, 2209 (2020)
(“When Congress has expressly provided a severability clause, our
task is simplified. We will presume that Congress did not intend the
64

180a
D. The Final Rule
The district court held that, to the extent §§ 23.106 to
23.122, 23.124 to 23.132, and 23.140 to 23.141 of the Final
Rule were binding on State Plaintiffs, they violated the
APA for three reasons: the provisions (1) purported to
implement an unconstitutional statute; (2) exceeded the
scope of the Interior Department’s statutory authority
to implement ICWA; and (3) reflected an impermissible
construction of § 1915. Reviewing the district court’s
legal conclusions de novo, we conclude that the Final
Rule does not contravene the APA. Fath v. Texas Dep’t
of Transp., 924 F.3d 132, 136 (5th Cir. 2018).
1. The Constitutionality of ICWA
Because we conclude, for reasons discussed earlier in
this opinion, that the challenged provisions of ICWA are
constitutional, we also determine that the district court
erred by concluding that the Final Rule was invalid
because it implemented an unconstitutional statute.
Thus, the statutory basis for the Final Rule is
constitutionally valid.
2. The Scope of the BIA’s Authority
Congress authorized the Secretary of the Interior to
promulgate “rules and regulations as may be necessary
to carry out the provisions” of ICWA. 25 U.S.C. § 1952.
Pursuant to this provision, the BIA, acting under
authority delegated by the Interior Department, issued
guidelines in 1979 for state courts in Indian child custody
proceedings that were “not intended to have binding
validity of the statute in question to depend on the validity of the
constitutionally offensive provision unless there is strong evidence
that Congress intended otherwise.” (internal quotation and ellipses
omitted)).

181a
legislative effect.” 44 Fed. Reg. at 67,584. The BIA
explained that, generally, “when the Department writes
rules needed to carry out responsibilities Congress has
explicitly imposed on the Department, those rules are
binding.” Id. However, when “the Department writes
rules or guidelines advising some other agency how it
should carry out responsibilities explicitly assigned to it
by Congress, those rules or guidelines are not, by
themselves, binding.” Id. With respect to ICWA, the
1979 BIA did not interpret the language and legislative
history of 25 U.S.C. § 1952 to indicate that Congress
intended the BIA to supervise state judiciaries, and it
noted that enacting federal regulations that were
primarily applicable in state court proceedings would
raise federalism concerns. Id. The agency concluded that
such binding regulations were “not necessary” in any
event because the BIA then believed that state courts
were “fully capable” of honoring the rights created by
ICWA. Id.
In 2016, however, the BIA changed course and issued
the Final Rule, which, in an effort to bring about greater
uniformity in Indian child custody cases, sets binding
standards governing the rights of Indian children,
families, and tribes in such proceedings. See 25 C.F.R.
§§ 23 et seq.; 81 Fed. Reg. at 38,779, 38,785. The BIA
explained that its earlier, nonbinding guidelines were
“insufficient to fully implement Congress’s goal of
nationwide protections for Indian children, parents, and
Tribes.” 81 Fed. Reg. at 38,782. Without the Final Rule,
the BIA stated, state-by-state determinations about how
to implement ICWA would continue to result in widely
differing standards of protection “with potentially

182a
devastating consequences” for the Indian populations
that ICWA was intended to benefit. See id.
Echoing the district court’s reasoning, Plaintiffs
argue that the BIA did not provide a sufficient
explanation for its change in position regarding its
authority to issue binding regulations. It is not clear,
however, whether they also contend that, regardless of
the adequacy of the explanation for the new position, the
BIA simply lacks authority under § 1952 to promulgate
binding regulations. In any event, we assume Plaintiffs
properly present both challenges. As to the latter
argument that the BIA lacks authority under ICWA to
issue binding regulations, we employ the familiar
framework set forth in Chevron, U.S.A., Inc. v. Natural
Res. Def. Council, Inc., 467 U.S. 837, 842-43 (1984).
Under Chevron, we review “an agency’s construction of
the statute which it administers,” by asking “two
questions.” Id. at 842. First, we must examine whether
the statute is ambiguous. Id. “If the intent of Congress
is clear, that is the end of the matter; for the court, as
well as the agency, must give effect to the unambiguously
expressed intent of Congress.” Id. at 842-43. But “if the
statute is silent or ambiguous with respect to the specific
issue, the question for the court is whether the agency’s
answer is based on a permissible construction of the
statute.” Id. at 843. We must uphold an agency’s
reasonable interpretation of an ambiguous statute. Id. at
844.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the
Department authority to promulgate rules and
regulations that implement private rights that state
courts must honor. In stating that “the Secretary shall

183a
promulgate such rules and regulations as may be
necessary to carry out the provisions of this chapter,” the
text of § 1952 confers broad authority on the Department
to promulgate rules and regulations it deems necessary
to carry out ICWA. This language clearly grants the BIA
the authority to promulgate standards that are binding
upon all parties; this is inherent in the statute’s use of the
term “rules,” for a rule is not a rule if it can be
disregarded at will. Still, the Final Rule does place a duty
on state courts to respect the rights it implements, which
we will grant is somewhat unusual in the world of
administrative law. See 81 Fed. Reg. 38,778. Because it
may be arguable that “Congress has not directly
addressed the precise question at issue”—that is,
whether the BIA is authorized to promulgate rules and
regulations that effectively bind state courts—we will
assume arguendo that § 1952 is ambiguous on the
subject. See Chevron, 467 U.S. at 843.
The BIA’s interpretation of § 1952 is valid under the
second Chevron step because it is a reasonable
construction of the statute. See 467 U.S. at 843-44. As
Defendants point out, § 1952’s language is substantively
identical to other statutes conferring broad delegations
of rulemaking authority. Indeed, the Supreme Court has
held that “[w]here the empowering provision of a statute
states simply that the agency may ‘make . . . such rules
and regulations as may be necessary to carry out the
provisions of this Act’ . . . the validity of a regulation
promulgated thereunder will be sustained so long as it is
reasonably related to the purposes of the enabling
legislation.” Mourning v. Family Publ’ns Serv., Inc., 411
U.S. 356, 369 (1973) (quoting 42 U.S.C. § 1408) (cleaned
up); see also City of Arlington v. F.C.C., 569 U.S. 290, 306

184a
(2013) (noting a lack of “case[s] in which a general
conferral of rulemaking or adjudicative authority has
been held insufficient to support Chevron deference for
an exercise of that authority within the agency’s
substantive field”); AT&T Corp. v. Iowa Utils. Bd., 525
U.S. 366, 377-78 (1999) (determining that the Federal
Communications Commission had authority to issue
regulations based on statutory language permitting the
agency to “prescribe such rules and regulations as may
be necessary in the public interest to carry out” the
statute). Here, § 1952’s text is nearly identical to the
statutory language at issue in Mourning, and the Final
Rule’s binding standards for Indian child custody
proceedings are obviously related to ICWA’s purpose of
establishing minimum federal standards in child custody
proceedings involving Indian children. See 25 U.S.C.
§ 1902. Thus, the BIA was reasonable in interpreting
§ 1952 to confer on it the authority to promulgate the
Final Rule.
Neither Plaintiffs nor JUDGE DUNCAN argues that
setting binding standards for child custody proceedings
is unrelated to ICWA’s purpose, for clearly it is not.
Instead, Plaintiffs and JUDGE DUNCAN primarily
contend that the BIA reversed its position without
providing an adequate explanation. 65
Like with Plaintiffs, it is not clear whether JUDGE DUNCAN
separately argues that, regardless of the adequacy of the
explanation given for the change, it is unreasonable in the first
instance for the BIA to interpret § 1952 to authorize the Final Rule
because Congress could not have intended to allow the agency to set
standards applicable in state courts. But any such argument would
simply be inconsistent with the Supreme Court’s holdings in
Mourning and related cases regarding the breadth of authority
delegated by broadly worded rules-enabling statutes. Under these
65

185a
We must note the conceptual difference between the
Chevron inquiry, which asks whether an agency’s
substantive interpretation of a statute is a reasonable
one, and the procedural question of whether an agency
provided an adequate explanation for its decision to
switch from one statutory interpretation to another. See
Nat’l Cable & Telecomms. Ass’n v. Brand X Internet
Servs., 545 U.S. 967, 1001 n.4 (2005) (noting that any
inconsistency in an agency’s explanation for changing
course “bears on whether the [agency] has given a
reasoned explanation for its current position, not on
whether its interpretation is consistent with the
statute”). To be sure, there are situations where the
procedures by which an agency adopts a new statutory
interpretation—including whether the agency provided
a reasoned explanation for changing its position—may
be relevant to whether a court should defer to an
agency’s interpretation of a statute. More specifically,
when it is necessary for a court to interpret a statute
committed to an agency’s implementation, Chevron
deference may be withheld if the agency failed to
adequately explain why it shifted to its current
interpretation. Cf. Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117, 2125 (2016). But the Chevron framework
is inapposite where a plaintiff directly challenges an
precedents, so long as a rule is reasonably related to the statute’s
purpose, it is not unreasonable to interpret the BIA’s delegated
authority to encompass it. See Mourning, 411 U.S. at 369.
Moreover, Congress clearly considered it to be within its power to
set standards applicable in child custody proceedings, as there is no
dispute that many provisions of ICWA do precisely that. There is
thus no reason to presume that Congress would implicitly exclude
such authority from its broad authorization to the BIA to
promulgate rules it deems necessary to ICWA’s implementation.

186a
agency rulemaking as violating the APA—as opposed to
the statute that is being interpreted—because the
agency arbitrarily departed from a prior statutory
interpretation. When a plaintiff merely argues that an
agency violated the APA by not providing sufficient
reasons for its change of position, it is unnecessary for a
court to actually decide whether the new statutory
interpretation is correct to resolve the question; indeed,
an agency can violate the APA by switching to a
statutory interpretation that is wholly reasonable under
Chevron if it does so without providing an adequate
explanation for the change. See Brand X, 545 U.S. at
1001 (stating that an agency “is free within the limits of
reasoned interpretation to change course if it adequately
justifies the change” (emphasis added)); 5 U.S.C.
§ 706(2)(A), (C) (calling for courts to separately evaluate
whether an agency action is arbitrary and capricious and
whether an agency action is in excess of statutory
authority). And because there is no need to interpret the
statute when the challenge is only to the adequacy of an
agency’s explanation for its changed position, there is no
need to determine whether to defer to the agency’s new
interpretation under Chevron. JUDGE DUNCAN therefore
errs by characterizing the question of whether the BIA
provided an adequate explanation for its changed
position as a component of Chevron step two.
Moreover, we disagree that the BIA failed to provide
an adequate explanation for its change of course. “The
mere fact that an agency interpretation contradicts a
prior agency position is not fatal. Sudden and
unexplained change, or change that does not take
account of legitimate reliance on prior interpretation,
may be arbitrary, capricious [or] an abuse of discretion.

187a
But if these pitfalls are avoided, change is not
invalidating, since the whole point of Chevron is to leave
the discretion provided by the ambiguities of a statute
with the implementing agency.” Smiley v. Citibank (S.
Dakota), N.A., 517 U.S. 735, 742 (1996) (internal citations
and quotation marks omitted). The agency must provide
a “reasoned explanation” for its new policy, but “it need
not demonstrate to a court’s satisfaction that the reasons
for the new policy are better than the reasons for the old
one.” F.C.C. v. Fox Television Stations, Inc., 556 U.S.
502, 515 (2009). “[I]t suffices that the new policy is
permissible under the statute, that there are good
reasons for it, and that the agency believes it to be better,
which the conscious change of course adequately
indicates.” Id.
In the preamble to the Final Rule, the BIA directly
addressed its reasons for departing from its earlier
interpretation that it had no authority to promulgate
binding regulations applicable in child custody
proceedings. The agency explained that, contrary to its
previous position that nothing in the text of the statute
indicated a congressional intent to authorize such
binding regulations, Supreme Court precedent
established that the text of § 1952 conferred “a broad and
general grant of rulemaking authority” and
“presumptively authorize[s the] agenc[y] to issue rules
and regulations addressing matters covered by the
statute.” 81 Fed. Reg. at 38,785 (collecting Supreme
Court cases). The BIA also justified its determination
that ICWA granted it the authority to promulgate
binding regulations based on having “carefully
considered public comments on the issue” and, in light of
this commentary, having reconsidered and rejected its

188a
statements in 1979 that it lacked such authority. See id.
at 38,785-86. And the BIA directly responded to the
federalism concerns raised in 1979 and by present-day
commentators. It explained that such concerns were
misplaced because the Constitution conferred upon
Congress plenary power over Indian affairs and that,
when “a power is delegated to Congress in the
Constitution, the Tenth Amendment expressly disclaims
any reservation of that power to the States.” Id. at 38,789
(internal quotation marks omitted) (quoting New York,
505 U.S. at 156). Because Congress’s plenary power
authorized it to enact ICWA and because Congress had
validly delegated authority to the BIA in § 1952 to
implement ICWA, the agency determined that the Final
Rule did not unconstitutionally encroach on state
authority. See id.
Further, the BIA discussed why it now considered
binding regulations necessary to implement ICWA: In
1979, the BIA “had neither the benefit of the Holyfield
Court’s carefully reasoned decision nor the opportunity
to observe how a lack of uniformity in the interpretation
of ICWA by State courts could undermine the statute’s
underlying purposes.” 81 Fed. Reg. at 38,787. In Miss.
Band of Choctaw Indians v. Holyfield, the Supreme
Court considered the meaning of the term “domicile” in
25 U.S.C. § 1911, which ICWA left undefined and the
BIA left open to state interpretation under its 1979
Guidelines. 490 U.S. at 43, 51. “Section 1911 lays out a
dual jurisdictional scheme” in which tribal courts have
exclusive jurisdiction over custody proceedings
concerning an Indian child “who resides or is domiciled
within the reservation of” her tribe, whereas state courts
have concurrent jurisdiction with tribal courts “in the

189a
case of children not domiciled on the reservation.” Id. at
36. The Court held that “it is most improbable that
Congress would have intended to leave the scope of the
statute’s key jurisdictional provision subject to definition
by state courts as a matter of state law,” given that
“Congress was concerned with the rights of Indian
families vis-à-vis state authorities” and considered
“States and their courts as partly responsible for the
problem it intended to correct” through ICWA. Id. at 45.
Because Congress intended for ICWA to address a
nationwide problem, the Court determined that the lack
of nationwide uniformity resulting from varied state-law
definitions of this term frustrated Congress’s intent. Id.
The Court’s reasoning in Holyfield applies with equal
force here. Congress’s concern with safeguarding the
rights of Indian families and communities was not
limited to § 1911 but rather extended to all provisions of
ICWA. Thus, as the BIA explained, the provisions of
ICWA that the statute left open to state interpretation
in 1979, including many that Plaintiffs now challenge,
were subject to the same lack of uniformity the Supreme
Court identified as contrary to Congress’s intent in
Holyfield. 81 Fed. Reg. at 38,779, 38,782 (explaining that
the result of “conflicting State-level” interpretations of
ICWA “is that many of the problems Congress intended
to address by enacting ICWA persist today”). In view of
Holyfield and “37 years of real-world ICWA
application,” id. at 38,786, the BIA concluded that issuing
binding rules for child custody proceedings was
“necessary to carry out the provisions” of ICWA, an
authority that was included in Congress’s broad grant of
rulemaking authority under § 1952. The BIA thus
supplied a “reasoned explanation” for reversing its

190a
earlier position on its need and authority to issue binding
regulations, Fox Television Stations, 556 U.S. at 515.
JUDGE DUNCAN’s belief that ICWA is inconsistent
with principles of federalism suffuses his critique of the
BIA’s explanation for its change of interpretation.
Because the BIA’s prior interpretation was
constitutionally permissible and its new interpretation is
not, he appears to argue, Congress could not have
intended the new interpretation, and whatever
explanation the BIA provided for the change was
therefore inadequate. See DUNCAN, CIRCUIT JUDGE, OP.
at 120-22. For the reasons discussed above with respect
to ICWA’s statutory provisions, we disagree that the
BIA’s new interpretation of its § 1952 authority violates
the Constitution. But more importantly, in judging the
adequacy of the BIA’s explanation, it does not
necessarily matter whether the BIA’s new interpretation
is actually constitutional, nor even whether Congress in
fact intended § 1952 to confer authority to promulgate
rules that would be binding in state court proceedings.
These questions are relevant only to whether the BIA’s
new interpretation of § 1952 is a substantively
reasonable interpretation and a constitutional
application of the statute, which, again, are separate
questions from the procedural matter of whether the
agency gave a sufficient explanation for its decision to
change course.
When specifically examining whether an agency met
the procedural requirement that it provide an adequate
explanation, all that is necessary is a “minimal level of
analysis” from which the agency’s reasoning may be
discerned, Encino Motorcars, 136 S. Ct. at 2125—
regardless of whether the court finds the reasoning fully

191a
persuasive. In other words, the agency decision must
simply be non-arbitrary. When an agency “display[s]
awareness that it is changing position” and provides
coherent reasons for doing so, the test is satisfied. Id. at
2126. Here, it is enough that the BIA “believe[d]” its
prior interpretation of § 1952 to be an incorrect reflection
of Congressional intent and set forth its reasons for
thinking so. Fox Television Stations, 556 U.S. at 515.
The same is true for the BIA’s reasoned determination
that its issuance of binding regulations does not pose
federalism problems. It does not matter to this inquiry
whether a court thinks the agency’s interpretation or
legal analysis is incorrect, nor that a court disagrees with
the agency’s decision as a policy matter. See id.; cf.
DUNCAN, CIRCUIT JUDGE, OP. at 123 (arguing that
conflicting state court decisions were not numerous and
long-standing enough to justify issuing regulations to
enforce uniformity).
Contrary to Plaintiffs’ contentions, the BIA
explained why it changed its interpretation of § 1952 and
why it believed the Final Rule was needed based on its
years of study and public outreach. See 81 Fed. Reg.
38,778-79, 38,784-85. In promulgating the rule, the BIA
relied on Supreme Court precedent, its own expertise in
Indian affairs, its specific experience in administering
ICWA and other Indian child-welfare programs, state
interpretations and best practices, 66 public hearings, and
tribal consultations. See id. Thus, the BIA’s change of
course was not “arbitrary, capricious, [or] an abuse of
Since ICWA’s enactment in 1978, several states have
incorporated the statute’s requirements into their own laws or have
enacted detailed procedures for their state agencies to collaborate
with tribes in child custody proceedings.
66

192a
discretion” because it was not sudden and unexplained.
See Smiley, 517 U.S. at 742; 5 U.S.C. § 706(a)(2). The
district court’s contrary conclusion was error.
3. The BIA’s Construction of § 1915
Title 25 U.S.C. § 1915 sets forth preferences for the
placement of Indian children unless good cause can be
shown to depart from them. 25 U.S.C. § 1915(a)-(b). The
1979 Guidelines advised that the term “good cause” in
§ 1915 “was designed to provide state courts with
flexibility in determining the disposition of a placement
proceeding involving an Indian child.” 44 Fed. Reg. at
67,584. However, § 23.132(b) of the 2016 Final Rule, now
specifies that “[t]he party seeking departure from
[§ 1915’s] placement preferences should bear the burden
of proving by clear and convincing evidence that there is
‘good cause’ to depart from the placement preferences.”
25 C.F.R. § 23.132(b). The district court determined that
Congress unambiguously intended the ordinary
preponderance-of-the-evidence standard to apply and
that the BIA’s imposition of a higher standard was
therefore not entitled to Chevron deference.
Defendants contend that the Final Rule’s
clarification of the meaning of “good cause” and
imposition of a clear-and-convincing-evidence standard
are entitled to Chevron deference. Plaintiffs respond
that the Final Rule’s fixed definition of “good cause” is
contrary to ICWA’s intent to provide state courts with
flexibility.
We conclude that the BIA’s interpretation of § 1915
is entitled to Chevron deference. For purposes of
Chevron step one, the statute is silent with respect to
which evidentiary standard applies. See 25 U.S.C. § 1915;
Chevron, 467 U.S. at 842. The district court relied on the

193a
canon of expressio unius est exclusio alterius (“the
expression of one is the exclusion of others”) in deciding
that Congress unambiguously intended that a
preponderance-of-the-evidence standard was necessary
to show good cause under § 1915. The court reasoned
that, because Congress specified a heightened
evidentiary standard in other provisions of ICWA but
did not do so with respect to § 1915, Congress did not
intend for the heightened clear-and-convincing-evidence
standard to apply. This was error.
“When interpreting statutes that govern agency
action, . . . a congressional mandate in one section and
silence in another often suggests not a prohibition but
simply a decision not to mandate any solution in the
second context, i.e., to leave the question to agency
discretion.” Catawba Cty. v. E.P.A., 571 F.3d 20, 36 (D.C.
Cir. 2009) (internal quotation marks omitted) (quoting
Cheney R.R. Co. v. ICC, 902 F.2d 66, 69 (D.C. Cir. 1990));
accord In Defense of Animals v. United States Dep’t of
the Interior, 751 F.3d 1054, 1066 n.20 (9th Cir. 2014)
(same); see also Texas Office Pub. Util. Counsel v.
F.C.C., 183 F.3d 393, 443 (5th Cir. 1999) (noting that the
expressio unius canon is of “limited usefulness . . . in the
administrative context”). “[T]hat Congress spoke in one
place but remained silent in another, as it did here, rarely
if ever suffices for the direct answer that Chevron step
one requires.” Catawba Cty. v. E.P.A., 571 F.3d at 36
(internal quotation marks and citation omitted); see also
Adriondack Med. Ctr. v. Sebelius, 740 F.3d 692 (D.C.
Cir. 2014) (“The expressio unius canon is a ‘feeble helper
in an administrative setting, where Congress is
presumed to have left to reasonable agency discretion
questions that it has not directly resolved.’” (quoting

194a
Cheney R.R. Co., 902 F.2d at 68-69)); Tex. Rural Legal
Aid, Inc. v. Legal Servs. Corp., 940 F.2d 685, 694 (D.C.
Cir. 1991) (“Under Chevron, we normally withhold
deference from an agency’s interpretation of a statute
only when Congress has directly spoken to the precise
question at issue, and the expressio canon is simply too
thin a reed to support the conclusion that Congress has
clearly resolved this issue.” (internal quotation marks
and citations omitted)).
JUDGE DUNCAN argues that there is no indication
that Congress intended to require a heightened standard
of proof for § 1915. DUNCAN, CIRCUIT JUDGE, OP. at 12526. But this misses the point. The question is not whether
Congress intended to require a heightened standard, but
rather whether it intended to prohibit one. The statute
is silent as to the matter, and when “the statute is silent
. . . with respect to the specific issue,” we assume that
Congress delegated the matter to agency discretion and
proceed to Chevron step two. 67 Chevron, 467 U.S. at 842.
Under Chevron step two, the BIA’s determination as
to the applicable evidentiary standard is reasonable. See
This is why Plaintiffs’ and JUDGED DUNCAN’s references to
Grogan v. Garner, 498 U.S. 279, 286 (1991), are inapposite. Grogan
addressed the standard of proof that applied to exceptions from
dischargability of debt in the Bankruptcy Code, see id., a set of laws
that courts are tasked with interpreting in the first instance.
Congress had not delegated to an agency the authority to issue rules
interpreting the Bankruptcy Code, and the Grogan court was
therefore tasked with determining the best interpretation of the
statutory provision, not simply whether a particular agency
interpretation was reasonable. Thus, the Grogan Court’s ruling
that, under those circumstances, statutory silence suggested that
the preponderance-of-the-evidence standard applied does not
indicate that statutory silence prohibits an agency from applying a
heightened evidentiary standard to the issue.
67

195a
Chevron, 467 U.S. at 844. As stated, the broad grant of
rule-making authority in § 1952 permits the BIA to enact
rules that are not foreclosed by statute “so long as [they
are] reasonably related to the purposes of the enabling
legislation.” Mourning, 411 U.S. at 36. The BIA’s
suggestion that the clear-and-convincing standard
should apply was derived from the best practices of state
courts. 81 Fed. Reg. at 38,843. The preamble to the Final
Rule explains that, since ICWA’s passage, “courts that
have grappled with the issue have almost universally
concluded that application of the clear and convincing
evidence standard is required as it is most consistent
with Congress’s intent in ICWA to maintain Indian
families and Tribes intact.” Id. (citing, inter alia, In re
MKT, 368 P.3d 771, 786 (Okla. 2016); Gila River Indian
Cmty. v. Dep’t. of Child Safety, 363 P.3d 148, 152-53
(Ariz. Ct. App. 2015); In re Alexandria P., 228 Cal. App.
4th 1322, 1340 (Cal. Ct. App. 2014)). Because the BIA’s
interpretation of § 1915 as not prohibiting a heightened
standard of proof is not inconsistent with the statutory
provision, and because § 23.132(b) was based on the
persuasive reasoning in state court decisions and is
designed to further congressional intent, we conclude it
is reasonable and entitled to Chevron deference.
In considering Chevron step two, JUDGE DUNCAN
again blends the question of whether the BIA fulfilled
the APA’s procedural requirement that it provide an
adequate explanation for changing the way it interprets
a statute it administers—a claim the Plaintiffs have not
raised with respect to § 23.132(b)—with the substantive
question of whether it is reasonable to interpret the
BIA’s rulemaking authority to authorize the provision.
DUNCAN, CIRCUIT JUDGE, OP. at 128. Though we

196a
disagree that the BIA failed to provide a reasoned
explanation for its changed position, this is neither here
nor there. Our precedents at most establish that, in a
direct challenge to an agency rulemaking as beyond
statutory authority, the agency’s departure from
longstanding practice justifies a more searching review
at Chevron step two to determine whether the new
position is reasonable. See Chamber of Com. of United
States of Am. v. United States Dep’t of Labor, 885 F.3d
360, 380 (5th Cir. 2018) (stating that we greet sudden
claims that a long-standing statute grants sweeping new
powers with “a measure of skepticism” (quoting Util. Air
Regul. Grp. v. EPA, 573 U.S. 302, 324 (2014))). This is a
different question from whether the agency provided an
adequate explanation for shifting away from a
longstanding interpretation. 68 And even if the BIA’s
explanation for changing course were insufficient, our
caselaw does not indicate that such a deficiency
inherently renders the agency’s new interpretation an
unreasonable construction of the statute. Plaintiffs have
alleged only that § 23.132(b) is prohibited by § 1915.
Thus, the sole issue is whether the regulation is
permissible under ICWA. See Chevron, 467 U.S. at 84243. The adequacy of the explanation for the BIA’s new
position is separate from, and immaterial to, this
question.
To be sure, how long an agency adhered to a prior statutory
interpretation may be a relevant consideration when a plaintiff does
allege a procedural APA violation because an agency’s explanation
for a change of course must account for reliance interests
engendered by its prior policy. See Fox Television Stations, Inc.,
556 U.S. at 515 (citing Smiley, 517 U.S. at 742). But Plaintiffs have
not raised such a challenge to § 23.132(b).
68

197a
JUDGE DUNCAN offers no argument as to why it is
unreasonable to interpret § 1915 to permit the BIA to
require the clear-and-convincing evidence standard
beyond his reference to the expressio unius canon, which
we have already found insufficient to foreclose the BIA’s
application of that standard. And because the BIA was
reasonable in interpreting § 1915 not to prohibit a
heightened standard of proof, we conclude that
§ 23.132(b) did not exceed the BIA’s statutory authority.
See 5 U.S.C. § 706(a)(2).
***
For these reasons, we conclude as follows: First,
Plaintiffs have standing to press their claims except as to
§§ 1913(d) and 1914. Next, the en banc court holds that
Congress was authorized to enact ICWA. We conclude
that this authority derives from Congress’s enduring
obligations to Indian tribes and its plenary authority to
discharge this duty. And, although the en banc majority
decides otherwise as to some provisions and the en banc
court is equally divided as to others, we would hold that
none of ICWA’s provisions violate the Tenth
Amendment’s anticommandeering doctrine. Thus, we
would hold that ICWA validly preempts any conflicting
state law, and we dissent from the en banc majority’s
decision to the extent it differs from this conclusion.
In addition, for the en banc court, we hold that
ICWA’s “Indian Child” designation and the portions of
the Final Rule that implement it do not offend equal
protection principles because they are based on a
political classification and are rationally related to the
fulfillment of Congress’s unique obligation toward
Indians, and we REVERSE the district court’s
determination to the contrary. And, though the en banc

198a
court is equally divided on the matter, we would likewise
determine that ICWA’s adoptive placement preference
for “other Indian families,” and its foster care placement
preference for a licensed “Indian foster home,” and the
regulations implementing these preferences are
consistent with equal protection.
We also hold for the en banc court that § 1915(c) does
not contravene the nondelegation doctrine because the
provision is either a valid prospective incorporation by
Congress of another sovereign’s law or a delegation of
regulatory authority. We therefore REVERSE this
aspect of the district court’s ruling.
Further, we hold for the en banc court that the BIA
acted within its statutory authority in issuing binding
regulations, and we hold for the en banc court that the
agency did not violate the APA when it changed its
position on the scope of its authority because the agency
provided a reasonable explanation for its new stance.
And we hold for the en banc court that the portions of the
Final Rule that implement all parts of ICWA other than
§§ 1912(d)-(f) and 1915(e) do not violate the APA. We
thus REVERSE the district court’s contrary
conclusions.
Although a majority of the en banc court disagrees,
we would also conclude that the portions of the Final
Rule implementing §§ 1912(d)-(f) and 1915(e) are valid
because these statutory provisions are constitutional,
and we would hold that the provision of the Final Rule
implementing § 1915’s “good cause” standard is
reasonable. We thus dissent from the en banc majority’s
decision that these portions of the Final Rule are invalid.
Because we conclude that that the challenged
provisions of ICWA are constitutional in all respects and

199a
that the Final Rule validly implements the statute, we
would reverse the district court in full and render
judgment in favor of Defendants on all claims. We
dissent from those portions of the en banc majority’s
decision that fail to do so.

200a
STUART KYLE DUNCAN, Circuit Judge: †
We consider challenges to the Indian Child Welfare
Act of 1978 (“ICWA”), 92 Stat. 3069, 25 U.S.C. §§ 1901–
1963, and its implementing regulations, 81 Fed. Reg.
38,778 (June 14, 2016) (“The Final Rule”).
ICWA is a federal law that regulates state foster-care
and adoption proceedings involving Indian children. The
law is challenged by three states, which claim it abridges
their sovereignty, and by several couples seeking to
adopt Indian children, who claim it unfairly blocks them
from doing so. The case is one of first impression and
†
JUDGES SMITH, ELROD, WILLETT, ENGELHARDT, and
OLDHAM join JUDGE DUNCAN’s opinion in full. JUDGE JONES joins
all except Parts III(A)(2) (equal protection as to “Indian child”) and
that portion of Part III(B)(2)(a) concerning preemption by the
appointed counsel provision in 25 U.S.C. § 1912(d).
JUDGE
OWEN
joins
Part
III(B)
(antiCHIEF
commandeering/preemption) and Part III(D)(3) (“good cause”
standard in 25 C.F.R. § 23.132(b) violates APA). See infra OWEN,
C.J., concurring in part and dissenting in part.
JUDGE SOUTHWICK joins Parts III(B)(1)(a)(i)–(ii) (anticommandeering as to § 1912(d)–(f)); Part III(B)(2)(a) (preemption);
Part III(B)(2)(b) (in part) (no preemption, only as to § 1912(d)–(f));
Part III(B)(2)(c) (in part) (preemption, except as to the discussion
of § 1951(a)); and Part III(D)(1) (in part) (Final Rule violates APA
to extent it implements § 1912(d)–(f)).
JUDGE HAYNES joins Part I (standing); Part III(A)(3) (equal
protection as to “other Indian families”); Parts III(B)(1)(a)(i),
III(B)(1)(a)(iv), III(B)(1)(a)(ii) (in part), III(B)(1)(b) (in part), and
III(B)(2)(b) (in part) (anti-commandeering/preemption as to
§§ 1912(d)–(e) and 1915(e)); Part III(D)(1) (in part) (Final Rule
violates APA to extent it implements provisions found
unconstitutional in those portions of Parts III(A) and (B) that
JUDGE HAYNES joins); and Part III(D)(3) (“good cause” standard in
25 C.F.R. § 23.132(b) fails at Chevron step one). See infra HAYNES,
J., concurring.

201a
raises many intricate issues. That should come as no
surprise, given that “[t]he condition of the Indians in
relation to the United States is perhaps unlike that of any
other two people in existence . . . . marked by peculiar
and cardinal distinctions which exist no where else.”
Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 16 (1831)
(Marshall, C.J.); see also COHEN’S HANDBOOK OF
FEDERAL INDIAN LAW § 1.01 (2019) [hereinafter
“COHEN’S”] (“The field of Indian law and policy is
extraordinarily complex, rich, controversial, and
diverse.”). To guide the reader through our lengthy
decision, we provide this summary.
First, we conclude ICWA exceeds Congress’s power
to the extent it governs state proceedings. Congress, to
be sure, has “plenary” authority to legislate on Indian
affairs. United States v. Lara, 541 U.S. 193, 200 (2004)
(quoting Cotton Petroleum Corp. v. New Mexico, 490
U.S. 163, 192 (1989)). But ICWA does something that, to
our knowledge, no federal Indian law has ever tried: it
governs states’ own administrative and judicial
proceedings. That is an unheard-of exercise of the Indian
affairs power, and neither Supreme Court precedent nor
founding-era practice justifies it. And ICWA is all the
more jarring because of its subject matter: domestic
relations. That subject “belongs to the laws of the states,
and not to the laws of the United States,” and is “one in
regard to which neither the congress of the United
States, nor any authority of the United States, has any
special jurisdiction.” Ex parte Burrus, 136 U.S. 586, 594
(1890). And yet ICWA co-opts the states to create, in
essence, a federal adoption system for Indian children.
The Constitution does not empower Congress to do that.
To say otherwise would mock “our federal system, [in

202a
which] the National Government possesses only limited
powers [and] the States and the people retain the
remainder.” Bond v. United States, 572 U.S. 844, 854
(2014).
Second, in the alternative, we conclude many parts of
ICWA are unconstitutional or unlawful. ICWA’s unequal
standards for “Indian children” and “Indian families”
violate the Fifth Amendment’s equal protection
guarantee by failing to rationally link children to tribes.
Many provisions commandeer states by conscripting
their agencies, officials, and courts into a federal
regulatory program. Another provision delegates to
Indian tribes the power to change enacted federal law
setting child placement preferences. Declaratory relief is
proper as to those provisions. Finally, a 2016 rule
implementing ICWA violates the Administrative
Procedure Act by exceeding the agency’s authority over
state courts. To that extent, the rule must be declared
unlawful.
Our decision does not affect all of ICWA. Some
provisions do not govern state proceedings—such as
those giving tribes exclusive jurisdiction over onreservation children, those permitting states and tribes
to adjust their jurisdictions, and those granting funds for
tribal programs. These provisions are not challenged
here and do not fall within our decision. With that
qualification, we affirm the district court’s judgment
declaring parts of ICWA and the Final Rule
unconstitutional and unlawful.
TABLE OF CONTENTS

BACKGROUND..................................................................... 4
I. Indian Child Welfare Act........................................ 4
II. Final Rule................................................................ 7

203a
III. Parties.................................................................... 9
IV. District Court Proceedings................................. 11
STANDARD OF REVIEW..................................................... 13
DISCUSSION....................................................................... 13
I. Article III Standing................................................ 13
II. Challenge to Congress’s Power to Enact
ICWA.................................................................... 21
III. Challenges to Specific ICWA Provisions......... 52
A. Fifth Amendment Equal Protection.............. 53
B. Commandeering and Preemption.................. 69
1. Commandeering.................................... 73
2. Preemption............................................ 88
C. Nondelegation................................................ 100
D. Administrative Procedure Act...................... 109
E. Remedy........................................................... 121
BACKGROUND
I. Indian Child Welfare Act
In 1978, Congress enacted ICWA out of concern that
too many Indian children were being unjustifiably
removed from their families and adopted by non-Indians.
Specifically, Congress found that “an alarmingly high
percentage of Indian families [were being] broken up by
the removal, often unwarranted, of their children from
them by nontribal public and private agencies and that
an alarmingly high percentage of such children [were
being] placed in non-Indian foster and adoptive homes
and institutions.” 25 U.S.C. § 1901(4). Congress also
found that “the States, exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies, ha[d] often
failed to recognize the essential tribal relations of Indian
people and the cultural and social standards prevailing in
Indian communities and families.” § 1901(5). ICWA

204a
therefore set “minimum Federal standards” for
removing Indian children and placing them in foster and
adoptive homes “which will reflect the unique values of
Indian culture.” § 1902. These standards sought “to
protect the best interests of Indian children and to
promote the stability and security of Indian tribes and
families.” Id. As authority for the law, Congress invoked
its “plenary power over Indian affairs,” grounded in the
Indian Commerce Clause and “other constitutional
authority.” § 1901(1); see U.S. CONST. art. I, § 8, cl. 3
(vesting Congress with “Power . . . [t]o regulate
Commerce . . . with the Indian Tribes”).
ICWA applies to a “child custody proceeding”
involving an “Indian child.” § 1903(1), (4). 1 Such
proceedings
include
foster
care
placements,
terminations of parental rights, and preadoptive and
adoptive placements. § 1903(1)(i)–(iv). If a proceeding
involves an Indian child living on a tribe’s reservation,
the tribe has exclusive jurisdiction. § 1911(a). For offreservation Indian children, state courts exercise
concurrent jurisdiction with tribal courts, but must
transfer a proceeding to tribal jurisdiction upon request
of either parent or the child’s tribe, absent good cause or
a parent’s objection. § 1911(b); see also Yavapai-Apache
Tribe v. Mejia, 906 S.W.2d 152, 162 (Tex. App.—Houston
[14th Dist.], Aug. 24, 1995, pet. denied) (explaining “state
courts may exercise jurisdiction concurrently with the
tribal courts” in proceedings involving off-reservation
children).
An “Indian child” is defined as “any unmarried person who is
under age eighteen and is either (a) a member of an Indian tribe or
(b) is eligible for membership in an Indian tribe and is the biological
child of a member of an Indian tribe.” § 1903(4).
1

205a
For proceedings remaining under state jurisdiction,
ICWA imposes numerous requirements. For instance, a
party seeking foster placement, or termination of
parental rights, must notify the Indian child’s parent and
tribe of that party’s “right to intervene.” §§ 1911(c),
1912(a). 2 Indigent parents have the “right to courtappointed counsel.” § 1912(b). Any party has “the right
to examine all reports or other documents filed with the
court[.]” § 1912(c). To prevail, the party seeking
placement or termination must prove that “active efforts
have been made to provide remedial services and
rehabilitative programs designed to prevent the breakup
of the Indian family” and “have proved unsuccessful.”
§ 1912(d). The party must also offer evidence, “including
testimony of qualified expert witnesses,” that the
parent’s continued custody will likely cause the child
“serious emotional or physical damage.” § 1912(e)–(f).
Proof must be by “clear and convincing evidence” for
foster placement, § 1912(e), and “beyond a reasonable
doubt” for termination, § 1912(f).
If parents voluntarily consent to a placement or to
termination of rights, they can withdraw consent “at any
time” before the process ends. § 1913(b)–(c). Following
an adoption, the birth parents may withdraw consent
based on fraud or duress for up to two years. § 1913(d).
A child, parent, or tribe may also sue to invalidate the
placement or termination for any violation of §§ 1911,
1912, or 1913. § 1914.
ICWA also dictates where Indian children may be
placed. In adoptions governed by state law, an Indian
child must be placed, absent “good cause,” with “(1) a
The Secretary of the Interior must be notified if the parent or
custodian cannot be found. § 1912(a).
2

206a
member of the child’s extended family; (2) other
members of the Indian child’s tribe; or (3) other Indian
families.” § 1915(a). Similarly, in foster or pre-adoptive
placements, an Indian child must be placed (again,
absent good cause) with: (1) extended family; (2) a foster
home “licensed, approved, or specified” by the tribe; (3)
a licensed “Indian foster home”; or (4) an “institution for
children” either tribe-approved or operated by a suitable
Indian organization. § 1915(b)(i)–(iv). In any case, the
child’s tribe may “establish a different order of
preference by resolution,” which the “agency or court
effecting the placement shall follow,” provided “the
placement is the least restrictive setting appropriate to
the particular needs of the child.” § 1915(c). The “State”
must maintain a record of an Indian child’s placement
that “evidenc[es] the efforts to comply with the order of
preference specified in [§ 1915]” and that “shall be made
available at any time upon request of the Secretary or
the Indian child’s tribe.” § 1915(e).
ICWA also requires state courts to maintain and
transmit various records. For instance, upon request of
an adopted Indian eighteen or older, a court must
provide “the tribal affiliation, if any, of the individual’s
biological parents and . . . such other information as may
be necessary to protect any rights flowing from the
individual’s tribal relationship.” § 1917. Additionally, a
state court must provide the Secretary with a copy of a
final adoption decree “together with such other
information as may be necessary to show” various
matters. § 1951(a). 3
Those matters are: (1) the child’s name and tribal affiliation,
(2) the names and addresses of biological parents, (3) the names and
addresses of adoptive parents, and (4) “the identity of any agency
3

207a
Finally, ICWA contains a severability clause
providing that, “[i]f any provision . . . or the applicability
thereof is held invalid, the remaining provisions . . . shall
not be affected thereby.” § 1963. 4
II. Final Rule
In 1979, the Bureau of Indian Affairs (“BIA”)
promulgated guidelines (the “1979 Guidelines”) to assist
state courts in applying ICWA. See 44 Fed. Reg. 67,584
(Nov. 26, 1979); see also 25 U.S.C. § 1952 (authorizing
Secretary of Interior to “promulgate such rules and
regulations . . . necessary” to implement ICWA). The
1979 Guidelines were “not intended to have binding
legislative effect.” 44 Fed. Reg. at 67,584. BIA found
nothing in ICWA or its legislative history to suggest that
Congress intended the Department to exercise
“supervisory authority” over courts deciding Indian
child-custody matters. Id. Such authority would be “so at
odds with concepts of both federalism and separation of
powers that it should not be imputed to Congress in the
absence of an express declaration of Congressional
intent to that effect.” Id. Rather, “[p]rimary
responsibility” for interpreting ICWA “rests with the
courts that decide Indian child custody cases.” Id. In
having files or information relating to such adoptive placement.”
§ 1951(a)(1)–(4); see also 25 C.F.R. §§ 23.140–141 (additional
recordkeeping requirements applicable to both courts and
agencies).
4
ICWA contains other provisions unrelated to state childcustody proceedings, such as provisions permitting jurisdictional
agreements between states and Indian tribes (§ 1919); provisions
addressing the Secretary’s approval of tribal re-assumption of
jurisdiction (§ 1918); and provisions concerning grants and funding
for tribal child and family programs (§§ 1931–1933). As explained
infra III(E), our decision does not affect these provisions.

208a
particular, the Guidelines mentioned the “good cause”
standard, which was “designed to provide state courts
with flexibility in determining the disposition of a
placement proceeding involving an Indian child.” Id.; see
§ 1915(a)–(b).
In 2016, BIA changed course and promulgated new
regulations (the “Final Rule”) that “set binding
standards for Indian child-custody proceedings in State
courts.” 81 Fed. Reg. 38,778, 38,785 (June 14, 2016). BIA
stated it “no longer agrees with statements it made in
1979 suggesting that it lacks the authority to issue
binding regulations.” Id. at 38,786. It now found binding
standards “necessary,” see § 1952, given “divergent
interpretations of ICWA provisions by State courts and
uneven implementation by State agencies.” 81 Fed. Reg.
at 38,787. In particular, the new regulations restrict what
constitutes “good cause” to depart from ICWA’s
placement preferences. See id. at 38,843–47. The “good
cause” standard, the new regulations assert, is not
determined by the “best interests of the child” but is
instead “a limited exception” to the preferences. Id. at
38,847. Accordingly, the new regulations limit “good
cause” to five factors. See 25 C.F.R. § 23.132(c).
Moreover, the party seeking departure “should” bear
the burden of proving good cause “by clear and
convincing evidence.” Id. § 23.132(b). BIA acknowledged
that the clear-and-convincing standard “is not
articulated in section 1915,” but asserted courts have
“almost universally concluded” it is the right standard.
81 Fed. Reg. at 38,843. Finally, BIA explained the Final
Rule only “advises” that the standard “‘should’ be
followed,” but “does not categorically require that

209a
outcome” and “declines to establish a uniform standard
of proof on this issue.” Id.
III. Parties
A. Plaintiffs
Plaintiffs are the states of Texas, Louisiana, and
Indiana (collectively, the “State Plaintiffs”), and seven
individual plaintiffs—Chad and Jennifer Brackeen (the
“Brackeens”), Nick and Heather Libretti (the
“Librettis”),
Altagracia
Socorro
Hernandez
(“Hernandez”), and Jason and Danielle Clifford (the
“Cliffords”) (collectively, “Individual Plaintiffs”). 5
1. A.L.M., Y.R.J., and the Brackeens
In 2015, A.L.M. was born in New Mexico to
unmarried parents. His biological mother is a member of
the Navajo Nation and his biological father is a member
of the Cherokee Nation. Soon after birth, his mother
brought A.L.M. to live in Texas with his paternal
grandmother. The Child Protective Services Division
(“CPS”) of the Texas Department of Family and
Protective Services (“DFPS”) removed A.L.M. when he
was 10 months old and placed him in foster care with the
Brackeens. In 2017, his biological parents voluntarily
terminated their rights to A.L.M. and, along with his
guardian ad litem, supported the Brackeens’ adoption
petition. At the adoption hearing, representatives of the
Navajo and Cherokee Nations agreed to designate
Navajo as A.L.M.’s tribe because the Navajo had located
an alternate placement with non-family tribal members
in New Mexico. The Texas family court denied the
References to “Plaintiffs” include both State Plaintiffs and
Individual Plaintiffs.
5

210a
Brackeens’ petition, concluding they failed to prove by
clear and convincing evidence good cause to depart from
ICWA’s placement preferences. The DFPS announced
its intention to remove A.L.M. from their care and
transfer him to the Navajo family. The Brackeens
obtained an emergency stay and filed this lawsuit. The
proposed Navajo placement then withdrew, and the
Brackeens finalized A.L.M.’s adoption.
The Brackeens are now engaged in Texas state court
proceedings to adopt A.L.M.’s half-sister, Y.R.J., who
was born in June 2018 to A.L.M.’s biological mother. The
Navajo Nation again opposes the Brackeens’ petition to
adopt Y.R.J. based on ICWA’s placement preferences.
The proceedings are ongoing. See In re Y.J., No. 02-19235-CV, 2019 WL 6904728, at *1 (Tex. App.—Fort
Worth, Dec. 19, 2019, pet. filed) (remanding for further
proceedings).
2. Baby O., Hernandez, and the Librettis
In 2016, Baby O. was born in Nevada to plaintiff
Hernandez, a non-Indian. Her biological father, E.R.G.,
is descended from members of the Ysleta del sur Pueblo
Tribe (“Pueblo”) but was not an enrolled member when
Baby O. was born. With E.R.G.’s support, Hernandez
decided to have the Librettis adopt Baby O., who
accompanied the Librettis home three days after her
birth. The Pueblo Tribe intervened in the Nevada
custody proceedings and identified numerous alternative
Indian-family placements for Baby O. under ICWA.
After the Librettis joined this lawsuit, however, the tribe
withdrew its objections and the Librettis finalized Baby
O.’s adoption in late 2018.

211a
3. Child P. and the Cliffords
Born in 2011 in Minnesota, Child P. was placed in
foster care in 2014 when her biological parents were
arrested and charged with various drug-related offenses.
For two years Child P. moved from placement to
placement until Minnesota terminated her mother’s
rights and placed her with the Cliffords in 2016, who have
since sought to adopt her. Child P.’s maternal
grandmother, R.B., is a member of the White Earth
Band of the Ojibwe Tribe (the “White Earth Band”).
After Child P. initially entered foster care in 2014, the
White Earth Band notified the court that she was
ineligible for membership. After Child P. was placed with
the Cliffords, however, the tribe changed its position,
notified the court that Child P. was eligible for
membership, and has since announced that Child P. is a
member. As a result, Minnesota removed Child P. from
the Cliffords and placed her with R.B. in 2018. The state
trial court concluded that the Cliffords had not
established “good cause” to deviate from ICWA’s
preferences by “clear and convincing evidence,” a
decision since affirmed on appeal. See In re S.B., No.
A19-225, 2019 WL 6698079, at *6 (Minn. Ct. App. Dec. 9,
2019). Child P.’s adoption, however, has not been finally
approved; until it is, the Cliffords remain eligible to
adopt her.
B. Defendants
Defendants are the United States of America and
various federal agencies and officials, referred to
collectively as the “Federal Defendants.” 6 Shortly after
Specifically, they are the United States Department of the
Interior and its Secretary Deb Haaland, in her official capacity; the
6

212a
this suit was filed, the Cherokee Nation, Oneida Nation,
Quinault Indian Nation, and Morongo Band of Mission
Indians (collectively, the “Tribal Defendants”) were
allowed to intervene as defendants. On appeal, we
granted the Navajo Nation’s motion to intervene as a
defendant. 7
IV. District Court Proceedings
Plaintiffs sued in federal district court seeking
injunctive relief and a declaration that ICWA and the
Final Rule violate various provisions of the Constitution
and the APA. Defendants moved to dismiss for lack of
standing. The district court denied the motion, finding
that at least one Plaintiff had standing to bring each
claim. Plaintiffs then moved for summary judgment on
all their claims, which the district court granted in part
and denied in part. See Brackeen v. Zinke, 338 F. Supp.
3d 514 (N.D. Tex. 2018).
First, the district court ruled that ICWA
discriminates on the basis of a racial classification that
fails to satisfy strict scrutiny and therefore violates the
Fifth Amendment’s equal protection component. Second,
the court ruled that ICWA’s provision empowering
Indian tribes to re-order placement preferences
improperly delegates federal legislative power. Third,
the court ruled that various provisions of ICWA
“commandeer” state agencies, officials, and courts in
BIA and its Acting Assistant Secretary for Indian Affairs Darryl
LaCounte, in his official capacity; and the United States
Department of Health and Human Services and its Secretary
Xavier Becerra, in his official capacity.
7
References to “Defendants” include both Federal Defendants
and Tribal Defendants.

213a
violation of Article I and the Tenth Amendment and do
not validly preempt conflicting state laws. Fourth, the
court ruled that various provisions of the Final Rule
violate the APA. Finally, the court ruled that ICWA as a
whole exceeds Congress’s power under the Indian
Commerce Clause. 8 The court’s final judgment therefore
declared certain provisions of ICWA and the Final Rule
unconstitutional. 9
On appeal, a panel of our court reversed the district
court on all grounds. Brackeen v. Bernhardt, 937 F.3d
406 (5th Cir. 2019). JUDGE OWEN dissented in part. Id. at
441–46 (OWEN, J., dissenting in part). We granted en
banc rehearing. Brackeen v. Bernhardt, 942 F.3d 287
(2019).
STANDARD OF REVIEW
“We review a grant of summary judgment de novo,
applying the same standard as the district court.” All. for
Good Gov’t v. Coal. for Better Gov’t, 901 F.3d 498, 504
(5th Cir. 2018) (citation omitted). “We review de novo the
constitutionality of federal statutes.” United States v.
McGinnis, 956 F.3d 747, 752 (5th Cir. 2020) (citation
omitted). We must set aside final agency action under the
APA if “such action was ‘arbitrary, capricious, an abuse
The court denied summary judgment on Plaintiffs’ Fifth
Amendment claim based on parents’ fundamental rights to “make
decisions concerning the care, custody, and control of their
children.” Troxel v. Granville, 530 U.S. 57 (2000). The court
reasoned those rights had never been extended to foster families,
prospective adoptive parents, or “adoptive parents whose adoption
is open to collateral attack.” Brackeen, 338 F. Supp. 3d at 546.
Plaintiffs have not appealed that ruling.
9
Specifically, it declared unconstitutional 25 U.S.C. §§ 1901–23
and 1951–52, as well as 25 C.F.R. §§ 23.106–22, 23.124–32, and
23.140–41.
8

214a
of discretion, or otherwise not in accordance with law.’”
Sw. Elec. Power Co. v. EPA, 920 F.3d 999, 1013 (5th Cir.
2019) (quoting 5 U.S.C. § 706(2)(A)).
DISCUSSION
We proceed as follows. First, we address whether
Plaintiffs have Article III standing to assert their claims,
and conclude they do (infra I). Next, we address whether
ICWA exceeds Congress’s constitutional power over
Indian affairs (infra II). Agreeing with the district court
in part, we conclude that ICWA exceeds Congress’s
power to the extent it governs state child-custody
proceedings. Alternatively (infra III), we address the
court’s holdings that parts of ICWA and the Final Rule
violate the Fifth Amendment equal protection guarantee
(III(A)); the anti-commandeering and preemption
doctrines (III(B)); the nondelegation doctrine (III(C));
and the APA (III(D)). Concluding that parts of ICWA
and the Final Rule are unconstitutional or unlawful on
those grounds, we then address the appropriate remedy
(III(E)).
I. Article III Standing
We first address whether Plaintiffs have Article III
standing. The district court ruled they did, concluding
that the State Plaintiffs had standing to assert claims
that ICWA exceeds Congress’s power, commandeers
states, and violates the nondelegation doctrine; that the
Individual Plaintiffs had standing to assert equal
protection claims; and that all Plaintiffs had standing to
challenge the Final Rule under the APA.
We review standing de novo. Stringer v. Whitley, 942
F.3d 715, 720 (5th Cir. 2019). Article III standing
requires plaintiffs to show an injury traceable to

215a
defendants’ conduct that a judicial decision would likely
redress. See Thole v. U.S. Bank N.A., 140 S. Ct. 1615,
1618 (2020) (citing Lujan v. Defs. of Wildlife, 504 U.S.
555, 560–61 (1992)); see also Texas v. United States, 945
F.3d 355, 374 (5th Cir. 2019) (standing requires “injury,
causation, and redressability”) (citation omitted). At
least one plaintiff must have standing “for each claim he
seeks to press and for each form of relief that is sought.”
Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650 (2017) (citation omitted). “[T]he presence of one
party with standing is sufficient to satisfy Article III’s
case-or-controversy requirement.” Rumsfeld v. Forum
for Acad. & Inst. Rights, Inc., 547 U.S. 47, 52 n.2 (2006).
A.
The claims that ICWA exceeds Congress’s power,
commandeers states, and improperly delegates
legislative power are, in essence, claims that ICWA
encroaches on states’ prerogatives to administer childcustody proceedings. State Plaintiffs have standing to
bring these claims, which assert injuries unique to states,
caused by the Federal Defendants’ administration of
ICWA, and redressable by a favorable decision.
We have found that states “may have standing based
on (1) federal assertions of authority to regulate matters
[states] believe they control, (2) federal preemption of
state law, and (3) federal interference with the
enforcement of state law.” Texas v. United States, 809
F.3d 134, 153 (5th Cir. 2015) (citations omitted), aff’d by
equally divided Court, 136 S. Ct. 2271 (2016) (Mem.). 10

See also Tex. Office of Pub. Util. Council v. FCC, 183 F.3d 393,
449 (5th Cir. 1999) (“States have a sovereign interest in ‘the power
10

216a
Those principles easily encompass State Plaintiffs’
claims that ICWA hijacks their child-custody machinery
and improperly supplants their child-custody standards,
either directly or by delegation to tribes. They also
explain why State Plaintiffs have standing to assert
under the APA that the Final Rule improperly issued
regulations purporting to bind state administration of
child-custody proceedings. See id. at 151–54 (holding
federal statute may afford states standing to vindicate
injury to their “quasisovereign” interests) (citing
Massachusetts v. EPA, 549 U.S. 497, 518–20 (2007));
Texas, 945 F.3d at 384 (states have standing to challenge
statute infringing sovereign interest in “applying their
own laws and policies”); see also 5 U.S.C. § 702 (affording
right of judicial review to persons “suffering legal wrong
because of agency action, or adversely affected or
aggrieved by agency action”). 11

to create and enforce a legal code.’”) (quoting Alfred L. Snapp &
Son, Inc. v. Puerto Rico ex rel. Barez, 458 U.S. 592, 601 (1982)).
11
Defendants contest State Plaintiffs’ standing to bring a
nondelegation challenge to § 1915(c), which allows tribes to vary
ICWA’s placement preferences. Defendants say any injury is
speculative because no evidence shows that a tribally-reordered
preference has affected proceedings in the plaintiff states. See
Lujan, 504 U.S. at 560 (injury must be “actual or imminent, not
conjectural or hypothetical” (internal quotation marks omitted)).
We disagree. As State Plaintiffs note, one Texas tribe, the AlabamaCoushatta, has filed its reordered preferences with the Texas
DFPS. The claimed injury from § 1915(c) is thus sufficient to
support standing. See, e.g., Susan B. Anthony List v. Driehaus, 573
U.S. 149, 158 (2014) (“An allegation of future injury may suffice if
the threatened injury is ‘certainly impending,’ or there is a
‘substantial risk that the harm will occur.’”) (cleaned up).

217a
B.
The equal protection claims assert ICWA and the
Final Rule wrongly discriminate against Indian children
and non-Indian families. The Individual Plaintiffs claim
this unequal treatment permeates the law and
regulations, beginning with the threshold definition of
“Indian child.” See 25 U.S.C. § 1903(4). They claim the
placement preferences for Indian children, § 1915(a)–(b),
“impose a naked preference for ‘Indian families’ over
families of any other race,” and make non-Indians show
“good cause” to depart from them, id. They claim the
collateral attack provisions, §§ 1913(d) and 1914, make
their adoptions of Indian children more vulnerable to
being overturned. Finally, they claim the Final Rule
implementing these provisions adds to their injuries. 12
The State Plaintiffs assert similar claims on behalf of
“children in their care,” alleging ICWA and the Final
Rule “require [their] agencies and courts” to “carry out
the racially discriminatory policy objectives of [ICWA]”
and to expend “resources and money” in doing so. All
Plaintiffs seek a declaration that §§ 1913(d), 1914, and
1915 are unconstitutional and an injunction prohibiting
the Federal Defendants from implementing those
sections “by regulations, guidelines, or otherwise.” They
also seek declaratory relief and an injunction prohibiting
the Federal Defendants from enforcing funding
mechanisms tied to states’ compliance with ICWA. See
42 U.S.C. §§ 622(b)(9), 677(b)(3)(G).
See, e.g., 25 C.F.R. §§ 23.129–32 (implementing preferences);
id. § 23.132(b) (party seeking departure from preferences must
prove “good cause” by “clear and convincing evidence”); id.
§§ 23.136–37 (implementing collateral attack provisions).
12

218a
We agree with the district court that the Individual
Plaintiffs have standing to challenge ICWA and the
Final Rule. 13 As persons seeking to adopt Indian
children, the Individual Plaintiffs are “objects” of the
contested provisions, and the “ordinary rule” is that they
have standing to challenge them. Contender Farms,
L.L.P. v. U.S. Dep’t of Agric., 779 F.3d 258, 264–266 (5th
Cir. 2015) (quoting Lujan, 504 U.S. at 561). Their
adoptions have been burdened, in various ways, by
ICWA’s unequal treatment of non-Indians.
For instance, the Brackeens’ adoption of A.L.M. was
hampered and delayed by the preferences, 14 burdens
13
We therefore need not consider whether the State Plaintiffs
have standing to bring equal protection claims on behalf of Indian
children in their care.
14
Defendants argue that, because the Brackeens’ adoption of
A.L.M. was completed in January 2018, their claims regarding
A.L.M. are moot. We disagree. The situation falls within the
“capable of repetition, yet evading review” exception to mootness
because (1) A.L.M.’s adoption was “in its duration too short to be
fully litigated prior to [its being settled]”; and (2) given the
Brackeens’ announced intent to adopt other Indian children, “there
was a reasonable expectation that [they] would be subjected to the
same action again.” Kucinich v. Tex. Democratic Party, 563 F.3d
161, 164 (5th Cir. 2009) (citation omitted). JUDGE WIENER’s partial
dissent argues neither prong applies. As to prong one, he contends
the Brackeens “could have litigated their ICWA challenges in state
court during A.L.M.’s July 2017 adoption proceedings, long before”
the district court’s October 2018 judgment. WIENER OP. at 5 n.18.
We disagree. The Brackeens were contesting the preferences
during the state proceedings, but those proceedings were settled in
December 2017 due to the fortuity that the Navajo placement “was
no longer available” and no others materialized. As to the second
prong, JUDGE WIENER contends the Brackeens’ “stated reluctance
to adopt other Indian children was too vague.” Id. We disagree. The
Brackeens needed to show only a “reasonable expectation” they
would again face ICWA’s burdens. Kucinich, 563 F.3d at 164. They

219a
they are again suffering in trying to adopt A.L.M.’s halfsister, Y.R.J. See Y.J., 2019 WL 6904728, at *5 (noting
the Navajo seek “a judgment that Y.J. be placed in
accordance with ICWA preferences”). Moreover, the
Brackeens’ adoption of A.L.M. (and Y.R.J. too, if
successful) will be open to collateral attack under
ICWA. 15 Similarly, the Cliffords’ attempt to foster Child
P. has been thwarted by the preadoptive preferences—
they failed to show good cause to depart by “clear and
convincing evidence”—and they will be hampered by the
adoptive preferences in their planned adoption of Child
P. If the Brackeens and the Cliffords were Indians, or if
the children they sought to adopt were non-Indians, none
of these obstacles would exist.
Those unequal burdens are injuries-in-fact for equal
protection purposes. An equal protection injury consists
in “[d]iscriminatory treatment at the hands of the
government.” Time Warner Cable, Inc. v. Hudson, 667
F.3d 630, 636 (5th Cir. 2012) (alteration in original). 16 If
did so by alleging they “intend[ed]” to foster and adopt other Indian
children, and then by supplementing the record to document their
effort to adopt Y.R.J., beginning with their letter to the state agency
in September 2018. See, e.g., FEC v. Wis. Right to Life, Inc., 551
U.S. 449, 463 (2007) (second prong satisfied when plaintiff “credibly
claimed that it planned” to engage in similar activity subject to prior
regulation).
15
Specifically, the Brackeens’ adoption of A.L.M. remains open
to attack under § 1914, and their prospective adoption of Y.R.J.
would be open to attack under both §§ 1913(d) and 1914. Unlike
§ 1913(d), which allows a collateral attack based on fraud or duress
only for two years after the adoption, § 1914 specifies no time frame
for a collateral attack based on a claimed violation of any provision
of §§ 1911–1913.
16
See also Moore v. Bryant, 853 F.3d 245, 250 (5th Cir. 2017)
(explaining “the gravamen of an equal protection claim is

220a
plaintiffs show such disparate treatment, then “no
further showing of suffering based on that unequal
positioning is required for purposes of standing.” Time
Warner, 667 F.3d at 636; see also Ne. Fla. Chapter of
Associated Gen. Contractors v. City of Jacksonville, 508
U.S. 656, 666 (1993) (“The ‘injury in fact’ in an equal
protection case . . . is the denial of equal treatment
resulting from the imposition of the barrier, not the
ultimate inability to obtain the benefit.”). The Individual
Plaintiffs have made that showing here. 17 And their
differential governmental treatment”); Contender Farms, 779 F.3d
at 266 (“An increased regulatory burden typically satisfies the
injury in fact requirement.”) (citation omitted).
17
The Federal Defendants argue no Plaintiff has standing to
challenge the collateral attack provisions because it is “speculative”
whether any such attack will occur. We disagree. The injury arises
from those provisions’ unequal treatment of the adoptions, not from
any collateral attack itself. That injury is concrete, “irrespective of
whether the plaintiff[s] will sustain an actual or more palpable
injury as a result of the unequal treatment.” Time Warner, 667 F.3d
at 636 (citation omitted). We disagree with JUDGE DENNIS that this
injury is not imminent under Barber v. Bryant, 860 F.3d 345 (5th
Cir. 2017). DENNIS OP. at 41–42. There, plaintiffs brought equal
protection claims against a Mississippi law that protected persons
holding traditional beliefs about marriage, sexual relations, and sex
from discriminatory state action in specified areas, such as licensing
or celebrating marriages. Barber, 860 F.3d at 351. We held plaintiffs
lacked a “certainly impending” injury because they had not alleged
they “plan[ned] to engage” in any conduct covered by the statute.
Id. at 357. Although one plaintiff did “stat[e] his intention to marry,”
he did not allege that he was seeking marriage-related services from
someone who might refuse or “even that he intended to get married
in Mississippi.” Id. The Brackeens are in a different position. Unlike
the Barber plaintiffs, the Brackeens have engaged in conduct
covered by §§ 1913 and 1914—adopting Indian children—and their
adoptions are now vulnerable to collateral attack, unlike adoptions
of non-Indian children. That “[d]iscriminatory treatment at the

221a
injuries are traceable, in part, to the Federal
Defendants’ implementing ICWA through the Final
Rule and to their inducing state officials to apply ICWA
through the leverage of child welfare funds. See K.P. v.
LeBlanc, 627 F.3d 115, 123 (5th Cir. 2010) (traceability
requires only that defendants “significantly contributed”
to injury); see also Inclusive Cmtys. Project, Inc. v. Dep’t
of Treasury, 946 F.3d 649, 655 (5th Cir. 2019) (causation
“doesn’t require a showing . . . that the defendant’s
actions are the very last step in the chain of causation”
and “isn’t precluded where the defendant’s actions
produce a determinative or coercive effect upon the
action of someone else”) (quoting Bennett v. Spear, 520
U.S. 154, 167, 169 (1997)) (internal quotation marks
omitted).
Finally, our decision would redress the Individual
Plaintiffs’ injuries. Redressability means a decision’s
“practical consequences” would “significant[ly] increase
. . . the likelihood” of relief. Utah v. Evans, 536 U.S. 452,
464 (2002). “The relief sought needn’t completely cure
the injury, however; it’s enough if the desired relief
would lessen it.” Inclusive Cmtys. Project, 946 F.3d at
655 (citation omitted); see also Dep’t of Tex., Veterans of
the Foreign Wars of U.S. v. Tex. Lottery Comm’n, 760
F.3d 427, 432 (5th Cir. 2014) (en banc) (a decision need
only relieve “a [plaintiff’s] discrete injury,” not his “every
injury”) (citation omitted). Here, the requested relief
would redress the Individual Plaintiffs’ injuries in
numerous ways. For instance, it would make overcoming
ICWA’s preferences easier, because the Individual
hands of the government” is a present injury-in-fact, regardless of
whether “an actual or more palpable injury” will later materialize in
the form of a collateral attack. Time Warner, 667 F.3d at 636.

222a
Plaintiffs would no longer have to justify departure “by
clear and convincing evidence.” 25 C.F.R. § 23.132(b)
(implementing § 1915(a)–(b)). It would also remove state
child welfare officials’ obligations to implement the
preferences, efforts “critical to the success of the . . .
preferences.” 81 Fed. Reg. at 38,839; see also infra
III(B)(1)(a)(iii) (discussing state officials’ required
assistance with finding preferred placements).
Additionally, Federal Defendants would be barred from
inducing state officials to implement ICWA, including
the preferences, by withholding funding. 18 Finally, the
requested relief would make the adoptions less
vulnerable to being overturned: it would declare
unenforceable the collateral attack provisions
themselves (§§ 1913(d), 1914), the underlying grounds
for invalidity (§§ 1911–1913), as well as the implementing
regulations (25 C.F.R. §§ 23.136–137). So, while a
favorable decision would not guarantee the success of the
Individual
Plaintiffs’
adoptions,
its
“practical
consequences” would “lessen” their “discrete injur[ies]”
caused by ICWA’s unequal treatment of Indian children
and non-Indian families. Evans, 536 U.S. at 464;
Inclusive Cmtys. Project, 946 F.3d at 655; Dep’t of Tex.,

See 42 U.S.C. § 622(b)(9) (to qualify for Title IV-B funds, a
state’s child welfare plan must describe “the specific measures
taken by the State to comply with the Indian Child Welfare Act”);
id. § 624(a) (authorizing HHS Secretary to pay child welfare funds
to a state “that has a plan developed in accordance with section
622”); see also 45 C.F.R. §§ 1355.34(b)(2)(ii)(E), 1355.36 (HHS
regulations authorizing withholding of Title IV-B and Title IV-E
funds based on, inter alia, failure to comply with ICWA).
18

223a
Veterans of Foreign Wars of the U.S., 760 F.3d at 432. 19
That is enough to satisfy redressability.
II. Challenge to Congress’s Power to Enact ICWA
We first consider whether ICWA is unconstitutional
because Congress lacks power to regulate state childcustody proceedings involving Indian children. The
district court held ICWA exceeds Congress’s power. The
panel reversed, reasoning that “the Indian Commerce
Clause grants Congress plenary power over Indian
affairs.” Brackeen, 937 F.3d at 434 (citing Lara, 541 U.S.
at 200). On en banc rehearing, Defendants continue to
defend ICWA as a valid exercise of Congress’s “plenary
and exclusive authority over Indian affairs,” derived
from the Indian Commerce Clause, U.S. CONST. art. I,

Redressability does not turn on whether our decision would
determine the outcome of the Brackeens’ adoption of Y.R.J. So, we
need not address JUDGE COSTA’s view that redressability may never
depend on the impact of a federal decision on a state court. See
COSTA OP. at 3–11. We note that JUDGE COSTA concedes the
Brackeens have standing to bring APA claims because “a
declaratory judgment against the Interior Secretary would bind her
when it comes to enforcing the department’s challenged
regulations.” Id. at 9 (citing Franklin v. Massachusetts, 505 U.S.
788, 803 (1992)). We agree. Consider, though, that one ground for
the Brackeens’ APA claims is that the Final Rule implements ICWA
provisions that violate their equal protection rights. Thus, to decide
that APA claim, we would in any event have to address whether the
relevant parts of ICWA violate equal protection. See 5
U.S.C. 706(2)(B) (courts may “hold unlawful and set aside agency
action . . . contrary to constitutional right”); see also Tex. Office of
Pub. Utility Counsel, 183 F.3d at 410 (“The intent of Congress in 5
U.S.C. § 706(2)(B) was that courts should make an independent
assessment of a citizen’s claim of constitutional right when
reviewing agency decision-making.”) (citation omitted).
19

224a
§ 8, cl. 3, and the Treaty Clause, art. II, § 2, cl. 2, as well
as “preconstitutional powers.”
We agree with Defendants that Congress has ample
power to legislate respecting Indians, and also that the
Supreme Court has described that power in broad terms
that go beyond trade. We cannot agree, however, that
Congress’s authority is broad enough to justify ICWA’s
intrusion on state child-custody proceedings. To the
contrary, the Supreme Court has warned that an
exercise of Congress’s Indian power that “interfere[s]
with the power or authority of any State” would mark a
“radical change[] in tribal status.” Lara, 541 U.S. at 205.
ICWA presents precisely such an interference with state
authority. We therefore hold that, to the extent ICWA
governs child-custody proceedings under state
jurisdiction, it exceeds Congress’s power. 20
A.
In urging us to uphold ICWA, Defendants rely
heavily on two propositions: that Congress’s Indian
affairs power goes beyond commerce with tribes and that
the power is “plenary and exclusive.” We therefore
consider at the outset whether those propositions, of
their own force, justify ICWA. They do not. Both
propositions are true as far as they go, but relying on
them to uphold ICWA would set virtually no limit on
We reject Defendants’ argument that this issue is not before
us because the district court did not rule on it. To the contrary, the
district court ruled on the issue of congressional authority as a
necessary part of Defendants’ preemption claims. See Murphy v.
NCAA, 138 S. Ct. 1461, 1479 (2018) (preemption requires
considering, first, whether the law “represent[s] the exercise of a
power conferred on Congress by the Constitution”).
20

225a
Congress’s authority to override state sovereignty and
control state government proceedings.
Defendants are correct that, under binding Supreme
Court precedent, Congress’s authority to legislate on
Indian affairs extends beyond regulating commerce with
Indian tribes. Despite their textual proximity, the Indian
Commerce Clause has a “very different application[]”
from the Interstate Commerce Clause. Cotton
Petroleum Corp., 490 U.S. at 192. “[T]he central function
of the Indian Commerce Clause,” the Court has
explained, “is to provide Congress with plenary power to
legislate in the field of Indian affairs.” Id. (citing Morton
v. Mancari, 417 U.S. 535, 551–52 (1974); COHEN’s at 207–
08 & nn.2, 3, 9–11 (1982)). Longstanding patterns of
federal legislation bear this out. For example, in addition
to commercial fields like land 21 and mineral
development, 22 Congress has enacted Indian-related
legislation in non-commercial fields like criminal law, 23

21
See, e.g., 25 U.S.C. § 177 (requiring federal approval of any
“purchase, grant, lease, or other conveyance of lands . . . from any
Indian nation or tribe of Indians”); id. § 81 (requiring Secretary of
Interior approval for contracts leasing Indian lands); Fed. Power
Comm’n v. Tuscarora Indian Nation, 362 U.S. 99, 119 (1960)
(purpose of 25 U.S.C. § 177 is to “prevent unfair, improvident or
improper disposition” of Indian lands).
22
See, e.g., 25 U.S.C. §§ 2101–2108 (development of tribal
mineral resources).
23
See, e.g., 18 U.S.C. § 1153 (placing certain crimes by “[a]ny
Indian” within Indian country under federal criminal jurisdiction);
McGirt v. Oklahoma, 140 S. Ct. 2452, 2482 (2020) (state lacked
jurisdiction to prosecute Indian defendant under Major Crimes Act
for crime committed on reservation); Lara, 541 U.S. at 199–200
(upholding statute conferring on tribes criminal jurisdiction over
nonmember Indians); United States v. Antelope, 430 U.S. 641 (1977)

226a
education, 24 probate, 25 health care, 26 and housing
assistance. 27 Consequently, we cannot agree with
Plaintiffs that ICWA is unconstitutional because it does
not regulate tribal “commerce.” Whatever the validity of
that argument as a matter of original constitutional
meaning, cf. Adoptive Couple v. Baby Girl, 570 U.S. 637,
659–65 (2013) (Thomas, J., concurring), it is foreclosed
by Supreme Court cases interpreting the Indian
Commerce Clause to extend beyond commercial
interactions with tribes.
Defendants are also correct that the Supreme Court
has often described Congress’s Indian power as “plenary
and exclusive.” See, e.g., Lara, 541 U.S. at 200 (citing
Washington v. Confederated Bands & Tribes of the
Yakima Indian Nation, 439 U.S. 463, 470–71 (1979)
(upholding Major Crimes Act); United States v. Kagama, 118 U.S.
375, 385 (1886) (same).
24
See, e.g., 25 U.S.C. § 2000 (“It is the policy of the United States
to fulfill the Federal Government’s unique and continuing trust
relationship with and responsibility to the Indian people for the
education of Indian children . . . .”). See also COHEN’s § 22.03[1][a]
(“Beginning with the 1794 Treaty with the Oneida, over 150 treaties
between tribes and the United States have included educational
provisions. For almost as long a time, Congress has legislated to
provide for Indian education generally.”) (footnotes omitted).
25
See, e.g., 25 U.S.C. § 2205 (authorizing tribes to adopt probate
codes for distribution of trust or restricted lands located on
reservations or otherwise subject to tribal jurisdiction).
26
See, e.g., 25 U.S.C. § 1601(1) (“Federal health services to
maintain and improve the health of the Indians are consonant with
and required by the Federal Government’s historical and unique
legal relationship with, and resulting responsibility to, the American
Indian people.”). See also COHEN’S § 22.04 (discussing federal
healthcare for Indian tribes).
27
See, e.g., 25 U.S.C. §§ 4101–4243 (establishing housing grant
program for tribes).

227a
(“Yakima Nation”); Negonsott v. Samuels, 507 U.S. 99,
103 (1993); United States v. Wheeler, 435 U.S. 313, 323
(1978)). The Court has used that broad phrase in various
ways—sometimes to signal “the breadth of
congressional power to legislate in the area of Indian
affairs,” sometimes to confirm “the supremacy of federal
over state law in this area,” and other times “as a
shorthand for general federal authority to legislate on
health, safety, and morals within Indian country, similar
to the states’ police powers.” COHEN’S § 5.02[1] (citing
inter alia Lara, 541 U.S. at 200; Yakima Nation, 439
U.S. at 470; Cotton Petroleum Corp., 490 U.S. at 192). 28
More recently, the Court has formulated the principle
this way: “As dependents, the [Indian] tribes are subject
to plenary control by Congress.” Michigan v. Bay Mills
Indian Cmty., 572 U.S. 782, 788 (2014) (citing Lara, 541
U.S. at 200). 29 Merely describing Congress’s authority as
“plenary,” however, does not settle ICWA’s validity.
“The power of Congress over Indian affairs,” the
Supreme Court has explained, “may be of a plenary
nature; but it is not absolute.” Del. Tribal Bus. Comm. v.
See also Gregory Ablavsky, Beyond the Indian Commerce
Clause, 124 YALE L.J. 1012, 1014 (2015) ) (“Ablavsky, Indian
Commerce”) (“Plenary power, as used by the Court, has two distinct
meanings. Sometimes the Court uses the term interchangeably with
‘exclusive,’ to describe federal power over Indian affairs to the
exclusion of states. But the Court also uses the term to describe the
doctrine that the federal government has unchecked authority over
Indian tribes, including their internal affairs.”) (footnotes omitted).
29
Cf. McGirt, 140 S. Ct. at 2462 (“This Court long ago held that
the Legislature wields significant constitutional authority when it
comes to tribal relations, possessing even the authority to breach its
own promises and treaties.”) (citing Lone Wolf v. Hitchcock, 187
U.S. 553, 566–68 (1903)).
28

228a
Weeks, 430 U.S. 73, 84 (1977) (quoting United States v.
Alcea Band of Tillamooks, 329 U.S. 40, 54 (1946)
(plurality op.)); see also COHEN’S § 5.04[1] (“Federal
power to regulate Indian affairs is ‘plenary and
exclusive,’ but not absolute.”) (footnotes omitted). In this
realm, as in any, Congress’s power is limited by other
constitutional guarantees. See New York v. United
States, 505 U.S. 144, 156 (1992) (“Congress exercises its
conferred powers subject to the limitations contained in
the Constitution.”). 30 Among the most critical is the
Constitution’s structural guarantee of state sovereignty.
See, e.g., Printz v. United States, 521 U.S. 898, 918–19
(1997) (“Although the States surrendered many of their
powers to the new Federal Government, they retained ‘a
residuary and inviolable sovereignty,’ [which] . . . is
reflected throughout the Constitution’s text”) (quoting
THE FEDERALIST No. 39, at 245 (J. Madison)). No
Supreme Court decision even hints that Congress’s
30
See, e.g., Hodel v. Irving, 481 U.S. 704, 710, 718 (1987) (holding
federal law regulating “descent and devise of Indian lands” violated
the Takings Clause); Weeks, 430 U.S. at 83–84 (“plenary”
congressional power “in matters of Indian affairs” subject to “equal
protection component of the Fifth Amendment”); Mancari, 417 U.S.
at 551–55 (same); United States v. Creek Nation, 295 U.S. 103, 109–
10 (1935) (power over Indian lands “subject to . . . pertinent
constitutional restrictions,” including Takings Clause). A different
question is to what extent the Constitution applies to the tribes
themselves. “As separate sovereigns pre-existing the Constitution,
tribes have historically been regarded as unconstrained by those
constitutional provisions framed specifically as limitations on
federal or state authority.” United States v. Bryant, 136 S. Ct. 1954,
1962 (2016) (quoting Santa Clara Pueblo v. Martinez, 436 U.S. 49,
56 (1978)). Thus, “[t]he Bill of Rights does not apply to Indian
tribes.” Plains Commerce Bank v. Long Family Land & Cattle Co.,
554 U.S. 316, 337 (2008).

229a
Indian affairs power trumps state sovereignty. To the
contrary, the Court has held that Congress’s power to
regulate Indian commerce—despite being “under the
exclusive control of the Federal Government”—cannot
“dissipate” the “background principle of state sovereign
immunity.” Seminole Tribe of Fla. v. Florida, 517 U.S.
44, 72 (1996). Similarly, the Court has recognized that
states did not surrender “their immunity against Indian
tribes when they adopted the Constitution.” Blatchford
v. Native Vill. of Noatak and Circle Vill., 501 U.S. 775,
781–82 (1991). Those decisions defy the radical notion
that Congress may deploy its “plenary” Indian power
without regard to state sovereignty or the Tenth
Amendment. See also infra II(B) (discussing additional
precedents).
To say otherwise, as Defendants do, would erase the
distinction between federal and state power—namely,
that “[t]he Constitution confers on Congress not plenary
legislative power but only certain enumerated powers,”
with “all other legislative power . . . reserved for the
States.” Murphy v. NCAA, 138 S. Ct. 1461, 1476 (2018)
(emphasis added). Nor does it follow that, because the
Constitution gives Congress power over Indian affairs,
“the Tenth Amendment expressly disclaims any
reservation of that power to the States.” New York, 505
U.S. at 156. That begs the question, then, whether the
Indian power includes authority to govern state childcustody proceedings. That “question[] of great
importance and delicacy,” id. at 155 (cleaned up), has not
been squarely resolved by the Supreme Court. But the
Court has strongly suggested the answer: it has warned
that an exercise of Congress’s Indian affairs power that
“interfere[s] with the power or authority of any State”

230a
would mark a “radical change[]” in tribal relations with
the states. Lara, 541 U.S. at 205; see also infra II(B).
And, as we explain below, no founding-era treaty,
statute, or congressional practice supports ICWA’s
unprecedented reach. See infra II(C).
We therefore cannot agree with JUDGE DENNIS that
ICWA’s intrusion on state government proceedings fails
even to implicate the Tenth Amendment. See DENNIS
OP. at 67. According to JUDGE DENNIS, when Congress
deploys its Indian power, the Tenth Amendment
vanishes. A court need ask only whether Congress “may
legislate on the particular subject matter at issue”—
here, Indian children and families “in child custody
proceedings.” Id. Because Congress has “plenary
power” over that subject, raising the Tenth Amendment
as a barrier would “impos[e] new restraints on
[Congress’s] authority.” Id.
That is a remarkable view. Imagine its applying to
hypothetical exercises of Congress’s other “plenary”
powers—say, its “plenary power to make rules for the
admission of aliens,” Kleindienst v. Mandel, 408 U.S.
753, 766 (1972), or its “plenary power over the
Territories,” District of Columbia v. Carter, 409 U.S.
418, 430 (1973), or its “plenary power to legislate for the
District of Columbia,” Palmore v. United States, 411
U.S. 389, 393 (1973), or its “plenary power . . . to regulate
foreign commerce,” Buttfield v. Stranahan, 192 U.S.
470, 496 (1904). Suppose Congress enacted rules in those
areas that purported to govern state proceedings, as
ICWA does. Imagine a federal law mandating different
comparative fault rules in state tort suits involving
Swedish visa holders. Or unique proof standards for
Guamanians in state probate proceedings. Or laxer parol

231a
evidence rules for D.C. residents embroiled in state
contract litigation. Or stricter adverse possession rules
for French merchants in state property disputes. Would
those federal laws, directly controlling state
administrative and civil proceedings, be immune from
the Tenth Amendment because Congress’s authority in
those areas is “plenary”? Of course not. Neither is
ICWA. 31
In sum, the settled proposition that “tribes are
subject to plenary control by Congress,” Bay Mills, 572
U.S. at 788, does not answer the novel question whether
Congress can control state child-custody proceedings
involving Indian children. We now turn to that question.
B.
To answer it, we consider whether any Supreme
Court precedent—or, failing that, any longstanding
founding-era congressional practice—justifies the use of
Congress’s Indian affairs power to govern state childcustody proceedings involving Indian children. See, e.g.,
Printz, 521 U.S. at 905 (explaining “contemporaneous
legislative exposition of the Constitution . . . , acquiesced
in for a long term of years, fixes the construction to be
given its provisions”) (citing Myers v. United States, 272
U.S. 52, 175 (1926)). As we explain below (infra II(B)(1)–
(2), II(C)), we find neither precedent nor historical
evidence justifying the modern use of Congress’s power
here. See Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S.
519, 549 (2012) (“NFIB”) (“Sometimes the most telling
indication of a severe constitutional problem is the lack
We agree with JUDGE DENNIS that these hypotheticals are
“far-fetched” and “ridiculous.” DENNIS OP. at 104 n.47. That is the
point of a reductio ad absurdum.
31

232a
of historical precedent for Congress’s action.”) (cleaned
up).
We pause to make a point about method. Our analysis
does not ask—as JUDGE DENNIS supposes—whether
any “Founding-era federal law . . . applie[d] within state
child welfare proceedings.” DENNIS OP. at 72. JUDGE
COSTA also tags us with a similarly absurd view. See
COSTA OP. at 16 (imagining we seek a founding-era
practice “explicitly bless[ing] federal intervention in
state domestic relations proceedings” pursuant to the
Indian affairs power) (emphasis added). But that
approach to discerning the original extent of federal
power “border[s] on the frivolous.” District of Columbia
v. Heller, 554 U.S. 570, 582 (2008). No one thinks, and we
do not claim, that states were adjudicating adoptions in
1787. Instead, we examine whether comparable
founding-era uses of the Indian power justify ICWA’s
modern intrusion into state custody proceedings. 32 See,
e.g., infra at 38 (asking whether ICWA is justified by
“comparable founding-era exercises of Congress’s
Indian affairs power”). Testing whether the old maps
onto the new is standard constitutional analysis. 33 So, we
do not ask the specific (and meaningless) question
See, e.g., Printz, 521 U.S. at 905–09 (examining whether
founding-era federal laws requiring state courts to perform various
naturalization functions justified the Brady Act’s requiring state
police to perform gun background checks).
33
See, e.g., Heller, 554 U.S. at 582 (“Just as the First
Amendment protects modern forms of communications, and the
Fourth Amendment applies to modern forms of search, the Second
Amendment extends, prima facie, to all instruments that constitute
bearable arms, even those that were not in existence at the time of
the founding.”) (citing Reno v. ACLU, 521 U.S. 844, 849 (1997);
Kyllo v. United States, 533 U.S. 27, 35–36 (2001)).
32

233a
whether founding-era Indian power was used to govern
“state domestic relations proceedings”; we do ask the
more general (and meaningful) question whether that
power was used to govern “state proceedings,” “state
governments,” “state governmental functions,” or “a
state’s own proceedings that involve Indians.” See infra
II(C). Thus, the supposed rebuttals to our analysis—that
state court “adjudication of child placements” did not
exist “until the middle of the nineteenth century,”
DENNIS OP. at 72 , and “would not exist for another eight
decades” after the founding era, COSTA OP. at 16—
incinerate a straw man.
That clarification made, we proceed to our analysis.
1.
No Supreme Court decision supports Congress’s
deploying its Indian affairs power to govern state
government proceedings. Indeed, the Court’s
precedents point in the opposite direction: such use of
the Indian power marks a “radical change[] in tribal
status” because it “interfere[s] with the power [and]
authority of [the] State[s].” Lara, 541 U.S. at 205.
The logical place to begin is Fisher v. District Court
of Sixteenth Judicial District of Montana, 424 U.S. 382
(1976), because it involves the same subject as this case:
tribal authority over adoptions. Pursuant to the Indian
Reorganization Act, 25 U.S.C. § 5123 (formerly cited as
25 U.S.C. § 476), the Northern Cheyenne Tribe vested
its tribal court with exclusive jurisdiction over adoptions
among tribe members. Fisher, 424 at 387. The Supreme
Court upheld the exclusion of state-court jurisdiction
because it would “interfere with the powers of selfgovernment conferred upon the [tribe].” Id. The Court
emphasized, however, that the tribe’s exclusive

234a
jurisdiction was limited to adoptions where the child, the
birth parents, and the adoptive parents were “each and
all members of the [tribe]” and “reside within the
exterior boundaries of the [reservation].” Id. at 384 n.6.
The Court therefore concluded the tribal ordinance
implemented an “overriding federal policy” that ousted
state-court jurisdiction “over litigation involving
reservation Indians.” Id. at 390. 34
The law at issue in Fisher is the mirror opposite of
ICWA. Fisher held Congress could keep states out of onreservation adoptions among tribe members. By
contrast, this case asks whether Congress can directly
regulate state proceedings involving off-reservation
adoptions by non-Indians. See, e.g., 25 U.S.C. § 1915(a)
(applying ICWA preferences to “any adoptive placement
of an Indian child under State law”). 35 Fisher involved
Congress’s valid attempt to promote a tribe’s “right . . .
to govern itself independently of state law.” 424 U.S. at
386. But this case asks whether Congress can legislate
standards governing a state’s own child-custody
proceedings. To be sure, Fisher does not squarely
address whether Congress has power to do so. But the
decision provides no support for the proposition that
Congress may use its Indian affairs power to regulate
state proceedings.
The Court also rejected an equal protection challenge to the
ordinance, which we discuss infra II(A)(2).
35
We note that one aspect of ICWA is similar to the law upheld
in Fisher. Section 1911(a) reserves to a tribe exclusive jurisdiction
“over any child custody proceeding involving an Indian child who
resides or is domiciled within the reservation of such tribe.” Our
decision does not affect that section because it does not regulate
state proceedings.
34

235a
Speaking directly to that question is United States v.
Lara, 541 U.S. 193 (2004), a more recent examination of
the Indian affairs power. Lara was a double jeopardy
case in which the Indian defendant, Lara, was first
prosecuted by a different tribe and then prosecuted for
a similar crime by the United States. 541 U.S. at 196–97.
Lara’s tribal prosecution was authorized by 25 U.S.C.
§ 1301(2), which allows tribes to prosecute other tribes’
members. Id. at 197–98. 36 He argued his tribal
prosecution was an exercise of “delegated federal
authority,” such that his federal prosecution constituted
double jeopardy. Id. The Supreme Court disagreed,
concluding that § 1301(2) recognized tribes’ “inherent
power” to prosecute nonmember Indians and that the
federal prosecution did not place Lara in double
jeopardy. Id. at 198, 210. The Court discussed several
“considerations” leading it to conclude the statute validly
exercised Congress’s Indian affairs power. Id. at 200–07.
First, as noted, the Court confirmed that Congress
has “broad general powers to legislate in respect to
Indian tribes,” powers typically described as “plenary
and exclusive.” Id. at 200 (quoting Yakima Nation, 439
U.S. at 470-71). Second, the Court had consistently
approved adjustments of “tribal sovereign authority”
similar to the expansion of criminal jurisdiction here. Id.
at 202–03. Third, the Court found § 1301(2) did not have
an “unusual legislative objective,” given Congress’s
history of “ma[king] adjustments to the autonomous
status of other such dependent entities,” such as the
Philippines or Puerto Rico. Id. at 203. Fourth, the Court
The Supreme Court had previously held tribes could not
prosecute members of other tribes in Duro v. Reina, 495 U.S. 676,
688 (1990), but Congress responded with § 1301(2).
36

236a
found no “explicit language in the Constitution
suggesting a limitation” on Congress’s action. Id. at 204.
Fifth, the Court found the jurisdictional change “limited”
because the tribe already had jurisdiction over its own
members as well as “authority to control events that
occur upon [its] own land.” Id. The Court cautioned,
however, that it was “not now faced with a question
dealing with potential constitutional limits on
congressional efforts to legislate far more radical
changes in tribal status. In particular, this case involves
no interference with the power or authority of any
State.” Id. at 205 (emphasis added). 37
ICWA’s encroachment on state child-custody
proceedings cannot survive scrutiny under these Lara
factors. To begin with, unlike in Lara, Defendants point
us to no Supreme Court cases approving an expansion of
“tribal sovereign authority” remotely like the one
contemplated by ICWA. Id. at 202–03. Nor—as
discussed infra—have Defendants identified any
founding-era congressional history of regulating state
proceedings, thus marking ICWA as having an “unusual
legislative objective.” Id. at 203. Indeed, ICWA is also
“unusual” in that it intrudes into the domestic relations
realm “long . . . regarded as a virtually exclusive province
of the States.” Sosna v. Iowa, 419 U.S. 393, 404 (1975).
Whereas in Lara no “explicit [constitutional] language”
barred expanding one tribe’s criminal jurisdiction over
other tribe members, 541 U.S. at 204, the Tenth
Additionally, the Court explained that its prior decisions
implicitly recognized that Congress could relax limitations on tribes’
criminal jurisdiction. Lara, 541 U.S. at 205–07 (citing, inter alia,
Oliphant v. Suquamish Tribe, 435 U.S. 191 (1978); Duro, 495 U.S.
676).
37

237a
Amendment plainly reserves to states “[t]he whole
subject of the domestic relations of . . . parent and child
. . . .” Burrus, 136 U.S. at 593–94. Unlike the “limited”
jurisdictional expansion in Lara, ICWA forces tribes into
offreservation state proceedings involving non-Indians.
541 U.S. at 204. Finally, and most obviously, ICWA seeks
the “radical change[] in tribal status” foreshadowed in
Lara: ICWA’s stated purpose is to “interfere[] with the
power [and] authority of [the] State[s].” Id. at 205. 38
Finally, Seminole Tribe, 517 U.S. 44, confirms that
Congress cannot deploy its Indian affairs power to
override state sovereignty. In that case, the Court
rejected the proposition that the Indian Gaming
Regulatory Act, enacted under the Indian Commerce
Clause, could validly abrogate state sovereign immunity.
JUDGE DENNIS contends the Lara factors “are of no
relevance” because, in ICWA, “Congress is not altering the scope of
the tribes’ retained sovereign power” but is instead “grant[ing] new
rights, protections, and safeguards” to tribes and families. DENNIS
OP. at 77. We disagree. Nowhere does Lara limit its analysis to
federal laws that “alter[] . . . tribes’ retained sovereign power,” as
JUDGE DENNIS claims. Rather, Lara deploys various
“considerations” to assess whether the Constitution “authorizes”
Congress’s use of its Indian affairs power. See Lara, 541 U.S. at 200.
Those considerations bear directly on ICWA’s validity. To be sure,
the statute in Lara passed muster because it merely “relax[ed]”
prior statutory restrictions on “the tribes’ exercise of inherent
prosecutorial power.” Id. at 200, 207. But Lara expressly reserved
the question whether there are “potential constitutional limits on
congressional efforts to legislate far more radical changes in tribal
status,” and “[i]n particular” for statutes that “interfere[] with the
power or authority of [a] State.” Id. at 205. The question that Lara
reserved is the one presented by ICWA—whether by “interfer[ing]
with the power or authority of [a] State,” id., ICWA exceeds
Congress’s authority to legislate for Indian tribes.
38

238a
Id. at 72–73. The Court squarely held that Congress’s
“exclusive” authority over Indian commerce does not
“dissipate” a state’s immunity from federal suit: “[T]he
background principle of state sovereign immunity
embodied in the Eleventh Amendment is not so
ephemeral as to dissipate when the subject of the suit is
an area, like the regulation of Indian commerce, that is
under the exclusive control of the Federal Government.”
Id. at 72. Seminole Tribe’s holding removes any basis for
Defendants’ core argument that, because Congress’s
Indian affairs authority is “plenary,” Congress can ipso
facto regulate state sovereign matters like adoption
proceedings. To the contrary, “[e]ven when the
Constitution vests in Congress complete law-making
authority over a particular area” like Indian affairs, id.,
the exercise of that power remains subject to the
Constitution’s guarantees of state sovereignty. 39
39
JUDGE DENNIS claims Seminole Tribe “has no bearing” on
this question because it “addressed only limitations on Congress’s
power to override states’ sovereign immunity from suit by private
parties.” DENNIS OP. at 75. That is incorrect. States’ immunity from
private suits is “a fundamental aspect of the sovereignty which the
States enjoyed before the ratification of the Constitution,” and
which is confirmed “by the Tenth Amendment.” Alden v. Maine, 527
U.S. 706, 713 (1999); see also Blatchford, 501 U.S. at 781–82
(rejecting notion that state surrender of immunity against tribes
was “inherent in the constitutional compact”). Thus, contrary to
JUDGE DENNIS’s view, Seminole Tribe is not cabined to the “states’
sovereign immunity from suit by private parties,” but bears directly
on whether Congress’s Indian power may ipso facto override state
sovereignty as a general matter. JUDGE DENNIS also asserts that
Seminole Tribe “carefully noted that its opinion in no way touched
upon other aspects of the Tenth Amendment.” DENNIS OP. at 75.
That misreads the decision. The footnote JUDGE DENNIS cites only
declined to decide whether the gaming law at issue violated the
Tenth Amendment by “mandat[ing] state regulation of Indian

239a
2.
Defendants cite various Supreme Court decisions as
support for ICWA, but none suffice.
Defendants cite Lara repeatedly, but only for the
general proposition that Congress’s Indian affairs power
has been described as “plenary and exclusive.” They do
not, however, discuss Lara in any detail nor analyze
ICWA’s validity under the considerations Lara sets out.
As already discussed, incanting the formula that
Congress’s power in this area is “plenary and exclusive”
begs the question whether Congress may use that power
to regulate state child-custody proceedings. The same
can be said for other broad formulations of the Indian
affairs power Defendants cite. For example, Tribal
Defendants quote the seminal opinion in Worcester v.
Georgia for the proposition that federal treaties and laws
“contemplate . . . that all intercourse with [Indians] shall
be carried on exclusively by the government of the
union.” 31 U.S. (6 Pet.) 515, 519 (1832) (emphasis added);
see also id. at 561 (op. of Marshall, C.J.) (same). It is
unclear what that proposition has to do with this case.
Worcester itself has no bearing on it: the decision held
that Georgia could not apply its criminal laws on
Cherokee territory and in contravention of a federal
treaty. See id. at 561 (explaining that “[t]he Cherokee
nation, then, is a distinct community occupying its own

gaming,” a question “not considered below.” Seminole Tribe, 517
U.S. at 61 n.10. Neither the cited footnote, nor anything else in the
decision, creates the artificial distinction JUDGE DENNIS seeks to
create here.

240a
territory . . . in which the laws of Georgia can have no
force”). 40
Federal Defendants cite Washington v. Washington
State Commercial Passenger Fishing Vessel Ass’n
(“Fishing Vessel”), 443 U.S. 658 (1979), presumably
because that decision required the state of Washington
to accommodate the treaty rights of Indians with respect
to off-reservation fishing sites. Indeed, at en banc
argument, Federal Defendants identified Fishing Vessel
as their best case. 41 Rec. of Oral Argument at 8:45–9:50.
But the treaty-based limitation on state regulation
allowed in Fishing Vessel is nothing like ICWA’s
intrusion into state child-custody proceedings. The
In a similar vein is the Supreme Court’s recent decision in
McGirt, 140 S. Ct. 2452. The Court held that certain lands in
Oklahoma remained “Indian country” for purposes of the Major
Crimes Act, 18 U.S.C. § 1153(a), and thus that Oklahoma state
courts lacked jurisdiction to try an Indian defendant for crimes he
committed on those lands. Id. at 2459. McGirt reiterates the familiar
propositions that Congress has “significant constitutional authority
when it comes to tribal relations,” id. at 2462—in that case, the
authority to establish an Indian reservation—and that “State courts
generally have no jurisdiction to try Indians for conduct committed
in ‘Indian country,’” id. at 2459 (citing Negonsott v. Samuels, 507
U.S. 99, 102–03 (1993)). The decision, however, offers no support for
the proposition that Congress’s Indian affairs power extends to
controlling state proceedings. The Court remarked only that
“States have no authority to reduce federal reservations lying
within their borders,” id. at 2462, a settled proposition harkening
back to Chief Justice Marshall’s admonition in Worcester.
41
Even so, counsel effectively admitted Fishing Vessel does not
go far enough to support ICWA. When pressed for prior authority
allowing Congress’s “plenary” power to interfere with state childcustody proceedings, counsel responded that “this”—i.e. the instant
challenge to ICWA—“is the case that presents that [issue].” Rec. of
Oral Argument at 10:30–10:55.
40

241a
1850s-era treaties in Fishing Vessel guaranteed tribes
the “right of taking fish, at all usual and accustomed
grounds and stations . . . in common with all citizens of
the Territory.” 443 U.S. at 674. The Court read those
treaties to guarantee tribes a portion of yearly fishing
runs, which could not be invalidated by state law or
regulation. Id. at 684–85. 42 Requiring state regulatory
forbearance to federal treaties, however, is worlds away
from Congress’s dictating separate standards for state
child-custody proceedings involving Indian children.
Furthermore, unlike in Fishing Vessel, here Defendants
cannot rely on over a century of federal treaties bearing
on the precise subject matter at issue. Cf. Lara, 514 U.S.
at 203–04 (finding Indian affairs power justified by
Congress’s history of similar actions); see also id. at 201
(treaties “can authorize Congress to deal with ‘matters’
with which otherwise ‘[it] could not deal’”). 43
42
Fishing Vessel is one in a long line of cases resolving conflicts
between tribal treaty rights and non-tribal interests or state
regulation. See, e.g., Herrera v. Wyoming, 139 S. Ct. 1686 (2019);
Puyallup Tribe v. Dep’t of Game of Wash., 391 U.S. 392 (1968);
Seufert Bros. Co. v. United States, 249 U.S. 194 (1919); United
States v. Winans, 198 U.S. 371 (1905).
43
Federal Defendants also cite Antoine v. Washington, 420 U.S.
194 (1975), which, similar to Fishing Vessel, recognized Congress
may ratify agreements with Indian tribes that preclude states from
applying contrary state law. In Antoine, a tribe ceded part of its
land to the United States in exchange for preserving hunting and
fishing rights. The Court held that the Supremacy Clause prevented
the State of Washington from applying its hunting and fishing laws
to Indians on the ceded lands. See id. at 203–04 (citing, inter alia,
Choate v. Trapp, 224 U.S. 665 (1912); Perrin v. United States, 232
U.S. 478 (1914); Dick v. United States, 208 U.S. 340 (1908)). Neither
Antoine, nor any decision it relied on, suggests Congress may
impose Indian-specific standards on state proceedings.

242a
Tribal Defendants cite several decisions for the
proposition that Congress may legislate with respect to
Indian activity that does not occur “on or near the
reservation.” This general principle is true, of course, but
again it begs the question whether ICWA validly
regulates state child-custody proceedings. The cited
cases themselves offer no guidance on that question. For
example, United States v. McGowan held that Congress
validly denominated as “Indian country” a tract of
federal land occupied by an Indian colony, remarking
that Congress may legislate for the “protection of the
Indians wherever they may be.” 302 U.S. 535, 539 (1938)
(citation omitted). Morton v. Ruiz invalidated under the
APA an agency policy excluding federal assistance for
tribe members living near reservations, noting “[t]he
overriding duty of our Federal Government to deal fairly
with Indians wherever located.” 415 U.S. 199, 236 (1974).
Perrin v. United States upheld a federal ban on selling
alcohol on lands ceded by the Yankton Sioux Tribe, based
on Congress’s power “to prohibit the introduction of
intoxicating liquors into an Indian reservation, . . . and to
prohibit traffic in such liquors with tribal Indians,
whether upon or off a reservation and whether within or
without the limits of a state.” 232 U.S. 478, 482 (1914). 44
Finally, United States v. Kagama upheld Congress’s
Nor does Perrin’s modern sequel, United States v. Mazurie,
419 U.S. 544 (1975), support Defendants’ position. Like Perrin,
Mazurie only concerns Congress’s Indian commerce power to
regulate alcohol sales to Indians and the “introduction of alcoholic
beverages into Indian country.” Mazurie, 419 U.S. at 554 (and
collecting cases). Mazurie upheld Congress’s use of that power to
ban alcohol sales by a non-Indian who owned land within a
reservation. Id. at 546–47, 555–56.
44

243a
power to enact a criminal code for crimes committed by
Indians on Indian reservations, observing that only the
federal government possessed that power and that “the
theater of its exercise is within the geographical limits of
the United States.” 118 U.S. 375, 384–85 (1886). As this
summary shows, these decisions say nothing about
whether Congress may exercise its Indian affairs power
to regulate a state sovereign function like child-custody
proceedings. 45 And, to the extent these decisions touch
JUDGE HIGGINSON claims our view would resurrect the
“governmental function” analysis rejected by Garcia v. San
Antonio Metropolitan Transit Authority, 469 U.S. 528, 546–47
(1985). HIGGINSON OP. at 1; see also DENNIS OP. at 68–74. We
disagree. In deciding whether federal wage standards could apply
to municipal employees, Garcia rejected the test in National
League of Cities v. Usery, 426 U.S. 833, 852 (1976), which exempted
from federal regulation “integral” or “traditional” state government
functions. Garcia, 469 U.S. at 546–47. Garcia is inapposite for
several reasons. First, Garcia addressed the Commerce Clause, not
the Indian affairs power. As discussed, whether the latter
encroaches on state authority is one key to its valid use by Congress.
See, e.g., Lara, 541 U.S. at 205 (asking whether use of the Indian
affairs power “involve[d] . . . interference with the power or
authority of any State”). Second, our view does not depend, as Usery
did, on “apprais[ing] . . . whether a particular governmental function
is ‘integral’ or ‘traditional.’” Garcia, 469 U.S. at 546–47. Instead, we
ask whether the Indian affairs power has ever been used to regulate
state government proceedings of any kind. Third, Garcia concerned
whether “incidental application” of general federal laws
“excessively interfered with the functioning of state governments.”
Printz, 521 U.S. at 932 (discussing, inter alia, Usery and Garcia).
Here, by contrast, we address a law whose “whole object . . . [is] to
direct the functioning of the state [administrative and judicial
proceedings]” in child custody cases. Id.; see also infra III(B)(1)(b)
(explaining ICWA does not “evenhandedly” regulate state and
private activity).
45

244a
on that question, they deny Congress’s power to do so.
See, e.g., Kagama, 118 U.S. at 383 (observing the federal
code “does not interfere with the process of the state
courts within the reservation . . . [but] is confined to the
acts of an Indian of some tribe, of a criminal character,
committed within the limits of the reservation”). 46
C.
Finding no Supreme Court precedent justifying
ICWA’s intrusion on state sovereignty, we next examine
whether ICWA is nonetheless supported by any
comparable founding-era exercises of Congress’s Indian
affairs power. “[E]arly congressional enactments
‘provid[e] contemporaneous and weighty evidence of the
Constitution’s meaning.’” Nev. Comm’n on Ethics v.
Carrigan, 564 U.S. 117, 122 (2011) (alteration in original)
(quoting Printz, 521 U.S. at 905). When assessing the
constitutionality of a federal law, the Supreme Court
looks to founding-era legislation for any light it may shed
on the scope of Congress’s authority. See, e.g., Printz,
521 U.S. at 905–07 (canvassing “statutes enacted by the
first Congresses” to determine whether Congress could

Defendants also suggest ICWA is authorized by
“preconstitutional powers.” But they fail to explain how that is so.
As State Plaintiffs point out, the Supreme Court’s reference to
“preconstitutional powers” in Lara referred to the United States’
early relationship with Indian tribes, which at that time resembled
“military and foreign policy [more] than a subject of domestic or
municipal law.” 541 U.S. at 201. While such authority spoke to the
issue in Lara—Congress’s power to alter the scope of tribes’
inherent sovereignty—it has no bearing on ICWA, a law having
nothing to do with military or foreign policy and everything to do
with state domestic law.
46

245a
compel state officers to implement federal law). 47
Evidence that the first Congresses used federal power
over Indian tribes to regulate state proceedings would be
“contemporaneous and weighty evidence” that the
Constitution permits ICWA’s encroachment on state
child-custody proceedings. Bowsher v. Synar, 478 U.S.
478 U.S. 714, 723–24 (1986). “Conversely,” if no such
evidence exists, “we would have reason to believe that
the power was thought not to exist.” Printz, 521 U.S. at
905. Amici Indian law experts, as well as the Navajo
Nation intervenors, have amassed considerable evidence
illuminating early use of the Indian affairs power, which
we have carefully considered. See Br. for Prof. Gregory
Ablavsky as Amicus Curiae at 5–20 (“Ablavsky Br.”);
Br. for Indian Law Scholars as Amici Curiae at 3–8
(“Indian Law Scholars Br.”); Br. For Intervenor Navajo
Nation at 11–12 & nn. 5–6 (“Navajo Nation Br.”). We
cannot agree, however, that this evidence supports
ICWA’s modern-day intrusion into state child-custody
proceedings.
Ample founding-era evidence shows that Congress’s
Indian affairs power was intended to be both broad in
subject matter and exclusive of state authority. The
framing generation understood Congress’s power to
See also Bowsher v. Synar, 478 U.S. 714, 723–24 (1986)
(relying on Congress’s “Decision of 1789” to reject congressional
role in officer removal); Marsh v. Chambers, 463 U.S. 783, 790 (1983)
(placing particular weight on “[a]n act ‘passed by the First Congress
assembled under the Constitution, many of whose members had
taken part in framing that instrument’” (quoting Wisconsin v.
Pelican Ins. Co., 127 U.S. 265, 297 (1888))); McCulloch v. Maryland,
17 U.S. (4 Wheat.) 316, 401 (1819) (reasoning “[t]he power [to
incorporate the Bank of the United States] was exercised by the
first congress elected under the present constitution”).
47

246a
include, for example, “making war and peace, purchasing
certain tracts of [Indians’] lands, fixing the boundaries
between [Indians] and our people, and preventing the
latter settling on lands left in possession of the former.”
33 JOURNALS OF THE CONTINENTAL CONGRESS, 17741789, 458 (Roscoe R. Hill ed., 1936). 48 Additionally, it was
understood that Congress’s power would displace the
prior authority of states under the Articles of
Confederation to deal directly with tribes. Defending
this centralization, James Madison wrote that
Congress’s power to regulate commerce with Indian
tribes was “very properly unfettered” from “obscure and
contradictory” limitations in the Articles that extended
national power only to Indians “not members” of States
and made it subservient to state legislation. THE
FEDERALIST No. 42, at 219 (James Madison) (George W.
Carey & James McClellan eds., 2001). 49 Confirming this
view was Anti-Federalist Abraham Yates, Jr., who
concluded, to his chagrin, that the new Constitution
would “totally surrender into the hands of Congress the
management and regulation of the Indian affairs.”
Abraham Yates, Jr. (Sydney), To the Citizens of the State
See also JOSEPH STORY, COMMENTARIES ON THE
CONSTITUTION OF THE UNITED STATES § 533, at 381 (Rotunda &
Nowak ed. 1987) (“STORY”) (describing federal Indian power as the
“right of exclusive regulation of trade and intercourse with
[Indians], and the . . . authority to protect and guarantee their
territorial possessions, immunities, and jurisdiction”).
49
See also ST. GEORGE TUCKER, VIEW OF THE CONSTITUTION
OF THE UNITED STATES 196 (Liberty Fund 1999) (1803) (discussing
Articles’ “obscure” and “contradictory” limitations on national
power over Indians) (citing THE FEDERALIST NO. 42); STORY § 533,
at 380 (observing Articles attempted to “accomplish impossibilities
[respecting power over Indians]; to reconcile a partial sovereignty
in the Union, with complete sovereignty in the states”).
48

247a
of New-York (June 13-14, 1788), reprinted in 20 THE
DOCUMENTARY HISTORY OF THE RATIFICATION OF THE
CONSTITUTION 1153, 1156–58 (John P. Kaminski et al.
eds., 2004). This view was later echoed by the
Washington administration: “[T]he United States have,
under the constitution, the sole regulation of Indian
affairs, in all matters whatsoever.” Letter from Henry
Knox to Israel Chapin (Apr. 28, 1792), reprinted in 1
AMERICAN STATE PAPERS: INDIAN AFFAIRS 231–32
(Lowrie & Clarke eds., 1832).
Especially relevant is the first Congress’s enactment
of the Trade and Intercourse Act, see Act of July 22,
1790, 1 Cong. Ch. 33, 1 Stat. 137, which, with its statutory
successors, was the primary federal statute governing
Indian affairs until the 1830s. See Ablavsky, Indian
Commerce, at 1023. The Act prohibited “any trade or
intercourse with the Indian tribes” without a federal
license; prohibited the sale of land by Indians or Indian
tribes unless executed by federal treaty; and extended
federal criminal jurisdiction to crimes committed by nonIndians against Indians. Congress later amended the Act
to require federal approval to cross into Indian country
and to authorize the United States military to arrest
violators of the Act. See Act of May 19, 1796, 4 Cong. Ch.
30, § 3, 1 Stat. 469, 470; id. §§ 5, 16.
None of this evidence speaks to the question before
us, which is whether Congress may use its Indian affairs
power to regulate a state’s own child-custody
proceedings. As already observed, the fact that
Congress’s power goes beyond regulating tribal trade
begs the question whether it allows Congress to regulate
state governments. Also beside the point is the fact that
Congress’s power was intended to exclude state

248a
authority over tribes. This prevented states from, for
instance, nullifying federal treaties securing Indian
lands. 50 That evidence would be relevant if the issue were
whether ICWA could exclude state courts from
adoptions involving tribe members. See Fisher, 424 U.S.
at 390 (upholding exclusion of state jurisdiction for
adoptions among tribe members). But ICWA presents
the opposite scenario: it seeks to force federal and tribal
standards into state proceedings. Amici point us to no
founding-era evidence even suggesting Congress
thought its Indian affairs power extended that far. 51 The
most pertinent example of Indian legislation from the
first Congress—the Trade and Intercourse Act—
addresses various aspects of the federal government’s
relationship with Indians. It says nothing about
regulating a state’s own proceedings that involve
Indians.

50
See, e.g., Worcester, 31 U.S. at 561 (explaining that “[t]he
Cherokee nation . . . is a distinct community occupying its own
territory . . . in which the laws of Georgia can have no force”); see
also Ablavsky, Indian Commerce, at 1045–50 (describing Georgia’s
ultimately unsuccessful efforts to assert its “territorial sovereignty”
against Cherokee treaty).
51
JUDGE DENNIS similarly relies on evidence of early state
resistance to federal Indian treaties, such as New York’s
undermining the Fort Stanwix Treaty with the Six Nations and
Georgia’s own conflicting treaties with Creek Indians. See DENNIS
OP. at 8 (citing COHEN’s § 1.02[3]; Robert N. Clinton, The Dormant
Indian Commerce Clause, 27 CONN. L. REV. 1055, 1147 (1995)). This
evidence has the same flaws as amici’s, however. It supports
Congress’s traditional power to bar states from subverting federal
Indian treaties. But it does not involve, and so says nothing about,
Congress’s power to impose Indian-specific standards on state
proceedings.

249a
Amici and the Navajo Nation also cite evidence that
early Congresses used their authority to protect Indian
children. But their evidence again fails to speak to the
issue before us. For example, amici point to evidence
that the federal government was “reluctantly” involved
in the “widespread trade in captured children, both
Indian and white,” such as by “paying federal monies as
ransom for children.” Ablavsky Br. at 19 (citing, inter
alia, Christina Snyder, Slavery in Indian Country: The
Changing Face of Captivity in Early America 173–74
(2010)). They also point to federal superintendence of
Indian children by “placing [them] within AngloAmerican communities” and founding a “federally-run
boarding school system.” Ablavsky Br. at 19, 20 (citing
25 U.S.C. §§ 271-304b; FREDERICK E. HOXIE, A FINAL
PROMISE: THE CAMPAIGN TO ASSIMILATE THE INDIANS,
1880-1920, 189–210 (1984)). And they cite various federal
policies vis-à-vis Indian children, such as funding
education, allotting lands to Indian orphans, and
establishing trust funds. See Indian Law Scholars Br. at
3–8. 52 Finally, the Navajo Nation cites numerous federal
treaties that make “repeated promises . . . for the welfare
of tribal children.” Navajo Nation Br. at 11–12 & nn.5–
See, e.g., Treaty with the Oneida, etc., art. III, Nov. 11, 1794,
7 Stat. 47 (providing for education of tribe’s children); Treaty with
the Kaskaskia art. III, Aug. 13, 1803, 7 Stat. 78 (providing funding
for a Catholic priest “to instruct as many of their children as
possible in the rudiments of literature”); Treaty with the Choctaw
art. XIV, Sept. 27, 1830, 7 Stat. 333 (providing lands to unmarried
children and orphans); Treaty with the Shawnee art. VIII, May 10,
1854, 10 Stat. 1053 (establishing trust fund for orphans); Treaty with
the Cherokee, art. XXV, July 19, 1866, 14 Stat. 799 (providing for
education of Cherokee orphan children in an “asylum” controlled by
Cherokee government).
52

250a
6. 53 We assume only for argument’s sake that all this
evidence concerns founding-era practices relevant to the
original understanding of the Indian affairs power. But
see infra II(D) (explaining the federal boarding-school
system dates from the late nineteenth century). Even
then, the evidence shows only that the federal
government has long shouldered responsibility for
protecting Indian children. None of it, however, speaks
to whether Congress may regulate state government
proceedings involving Indian children. 54
D.
Relying on much of the same historical evidence we
have examined, JUDGE DENNIS mounts an elaborate
originalist defense of ICWA. See DENNIS OP. at 5–25, 52–
66. We agree with JUDGE DENNIS that ICWA’s validity
53
See, e.g., Treaty with the Nez Percés art. V, June 11, 1855, 12
Stat. 957 (providing two schools supplied with books, furniture,
stationery, and teachers for free to the tribe’s children); Treaty with
the Seminoles art. III, May 9, 1832, 7 Stat. 368 (promising “a blanket
and a homespun frock” to each Seminole child); Treaty with the
Delawares, Supp. Art., Sept. 24, 1829, 7 Stat. 327 (requiring “thirtysix sections of the best land” be sold for “the support of schools for
the education of Delaware children”); Articles of Agreement with
the Creeks, Nov. 15, 1827, 7 Stat. 307 (providing $5,000 for
“education and support of Creek children at the school in
Kentucky”).
54
JUDGE DENNIS relies heavily on this kind of evidence to
support his argument that the “trust relationship” between the
Federal Government and Indian tribes justifies ICWA. DENNIS OP.
at 16–17, 20–21, 59; see, e.g., COHEN’s § 5.04[3][a] (“One of the basic
principles of Indian law is that the federal government has a trust
or special relationship with Indian tribes.”). As explained below, the
trust relationship fails to support the notion that Congress may
impose federal standards on state child-custody proceedings. See
infra II(D).

251a
hinges on Congress’s founding-era exercise of its Indian
affairs power. See id. at 5 (citing N.L.R.B. v. Noel
Canning, 573 U.S. 513, 524 (2014); Heller, 554 U.S. at
605–10). But we sharply disagree with his analysis. As
explained, no founding-era treaty, statute, or practice
features anything like ICWA’s foisting federal standards
on state governments. See supra II(C). ICWA’s goal of
managing tribal-state relations may harken back to the
late eighteenth century, but its methods were first born
in the late 1970s. The leading Indian law treatise puts it
accurately: “While reaffirming basic principles of tribal
authority over tribal members, ICWA also inserts
federal and tribal law into family matters long within the
domain of the states.” COHEN’S § 11.01[1]. By enacting
rules for state officials and for state proceedings, ICWA
outstrips the historical record and so cannot be
supported by any original understanding of the Indian
affairs power.
We offer these additional responses to JUDGE
DENNIS.
First, JUDGE DENNIS invokes the exclusivity of
Congress’s Indian power to support ICWA. Because the
power “is exclusive to the federal government,” it
“totally displaced the states from having any role in
[Indian] affairs.” DENNIS OP. at 58, 53; see id. at 53
(comparing Indian affairs power to “field preemption”);
see also COSTA OP. at 13–14 (relying on “exclusive” and
“undivided” nature of federal Indian power). JUDGE
DENNIS contends that ICWA deploys this exclusive
authority against states. “Just as the Constitution was
meant to preclude the states from undertaking their own
wars or making their own treaties with the Indian
tribes,” he argues, “so too does it empower the federal

252a
government to ensure states do not spoil relations with
the Indian tribes” by placing Indian children with nonIndian families. Id. at 58 (citation omitted). We disagree.
The exclusivity of Congress’s Indian power does not
help justify ICWA. Quite the contrary. ICWA does the
opposite of “excluding” states from Indian adoptions: it
leaves many adoptions under state jurisdiction, see 25
U.S.C. § 1911(b), while imposing “Federal standards” on
those state proceedings. Id. § 1902. If ICWA were akin
to the founding-era practice of reserving war-making
and treaty powers to the United States, then ICWA
would “totally displace[] the states from having any role”
in Indian adoptions. DENNIS OP. at 53. 55 As discussed,
that is what Congress did in Fisher when it excluded
tribal adoptions from state jurisdiction. See supra
II(B)(1) (discussing Fisher, 424 U.S. 382). ICWA is not
that. It does not bar state jurisdiction but co-opts it,
The same follows from JUDGE DENNIS’s examples of “[s]tate
officials . . . [who] acknowledged the federal government’s plenary
authority over Indian affairs under the new constitution.” DENNIS
OP. at 13. Those examples involved war- and treaty-making
authority that the state officials conceded was entrusted to the
federal government under the new Constitution. For instance, in a
December 1789 letter, South Carolina Governor Charles Pinckney
implored President Washington to conclude a treaty with “hostile
Indian tribes” leagued with the Spanish. See DENNIS OP. at 13
(quoting Letter from Charles Pinckney to George Washington (Dec.
14, 1789), 4 PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL
SERIES 401, 404 (Dorothy Twohig ed., 1993)). The “similar
acknowledgments” by the Georgia and Virginia legislatures, id.
(citing Ablavsky, Indian Commerce, at 1043), also involved treaties
and war: Georgia’s request that the federal government negotiate a
peace treaty with the Creek, and Virginia’s inquiry about the
propriety of supplying tribes with ammunition. See Ablavsky,
Indian Commerce, at 1043.
55

253a
thereby imposing federal yardsticks on state officials
and state proceedings. The exclusivity of federal Indian
power argues for invalidating ICWA, not upholding it. 56
Second, JUDGE DENNIS invokes the federal
government’s “trust relationship” with Indian tribes to
support ICWA. DENNIS OP. at 59. This “unique”
relationship creates federal obligations “to preserve
tribal self-governance, promote tribal welfare, and . . .
manag[e] tribal assets.” Id. at 16–17 (citing MATTHEW
L.M. FLETCHER, PRINCIPLES OF FEDERAL INDIAN LAW
§ 5.2 (1st ed. 2017) [hereinafter FLETCHER]); see also
COHEN’S § 5.04[3][a]. In this relationship, JUDGE
DENNIS finds “a specific obligation to protect the tribes
from the states,” which he claims ICWA furthers.
DENNIS OP. at 59. Principally, he evokes the federal
government’s
late-nineteenth-century
policy
of
“Christianizing” Indian children in boarding schools, id.
at 22–25, 59–60, arguing that ICWA remedies similarly
“abusive Indian child custody practices continued at the
state level.” Id. at 59. ICWA thus fulfills the federal
government’s trust obligation by “protect[ing] the tribes
from the states.” Id. at 61. Again, we disagree.
Even assuming there is a federal duty to (as JUDGE
DENNIS phrases it) “protect the tribes from the states,”
We do not imply that Congress may never delegate to states
authority over Indian matters. See, e.g., Bryant, 136 S. Ct. at 1960
(observing that, “[i]n 1953, Congress . . . g[ave] six States [criminal]
‘jurisdiction over specified areas of Indian country within the States
and provid[ed] for the [voluntary] assumption of jurisdiction by
other States’”) (first three brackets added; internal quotation marks
omitted)). But no one defends ICWA on that basis, presumably
because ICWA does the opposite: it imposes federal and tribal
standards on proceedings within state jurisdiction. See 25 U.S.C.
§§ 1901(5), 1903(1), 1911(b).
56

254a
it would not authorize ICWA’s imposition on state
proceedings. No founding-era example shows the United
States fulfilling its trust obligations that way. History
tells a different story. The trust doctrine arose out of
early treaties, statutes—principally, the Trade and
Intercourse Act and its successors, supra II(C)—and the
Supreme Court decisions in Johnson v. M’Intosh, 21
U.S. (8 Wheat.) 543 (1823), Cherokee Nation, and
Worcester. See COHEN’S § 5.04[3][a]; FLETCHER § 5.2;
WILLIAM C. CANBY, JR., AMERICAN INDIAN LAW IN A
NUTSHELL 16–17 (7th ed. 2020) [hereinafter CANBY]. 57

The key passages undergirding the trust doctrine are from
Chief Justice Marshall’s Cherokee Nation opinion:
57

[I]t may well be doubted whether those tribes which reside
within the acknowledged boundaries of the United States
can, with strict accuracy, be denominated foreign nations.
They may, more correctly, perhaps, be denominated
domestic dependent nations. They occupy a territory to which
we assert a title independent of their will, which must take
effect in point of possession when their right of possession
ceases. Meanwhile they are in a state of pupilage. Their
relation to the United States resembles that of a ward to his
guardian.
They look to our government for protection; rely upon its
kindness and its power; appeal to it for relief to their wants;
and address the president as their great father. They and
their country are considered by foreign nations, as well as by
ourselves, as being so completely under the sovereignty and
dominion of the United States, that any attempt to acquire
their lands, or to form a political connexion with them, would
be considered by all as an invasion of our territory, and an act
of hostility.
30 U.S. (5 Pet.) at 17–18; see also COHEN’S § 5.04[3][a] (explaining
Marshall’s Cherokee Nation opinion “provided the basis for

255a
Those sources do show the federal government
sometimes acted to restrain states on behalf of tribes,
but only in the sense of preventing states from
unauthorized trading, encroaching on tribal land, or
subverting treaties. 58 Never did the United States
purport to “protect tribes” by enacting federal standards
for state proceedings. See also supra II(C) (discussing
absence of such evidence from founding-era sources).
The same is true for early federal laws regarding crimes
against Indians. See, e.g., CANBY at 17 (noting
“[d]epredations by non-Indians against Indians were
made a federal crime”). These laws provided federal
compensation for victims, id., and later for prosecution
under federal jurisdiction. 59 While such laws excluded
state jurisdiction, they did not pretend to enact
standards for state courts or officials. Indeed, in
analogizing the government-to-government relationship between
tribes and the federal government as a trust relationship”).
58
See COHEN’s § 5.04[3][a] (explaining Trade and Intercourse
Acts “imposed a statutory restraint on alienation on all tribal land
for the purpose of ensuring federal rather than state or individual
control over acquisition of Indian land”); CANBY at 17 (under the
same Acts, “[n]on-Indians were prohibited from acquiring Indian
lands by purchase or treaty . . . , or from settling on those lands or
entering them for hunting or grazing”); see also Worcester, 31 U.S.
at 557 (the Acts “manifestly consider the several Indian nations as
distinct political communities, having territorial boundaries, within
which their authority is exclusive, and having a right to all the lands
within those boundaries, which is not only acknowledged, but
guarantied [sic] by the United States”).
59
See, e.g., Mary Christina Wood, Indian Land and the Promise
of Native Sovereignty: The Trust Doctrine Revisited, 1994 UTAH L.
REV. 1471, 1497 n.122 (discussing so-called “bad men” clauses in, for
example, the Treaty with the Northern Cheyenne and Northern
Arapahoe art I, May 10, 1868, 15 Stat. 655).

256a
upholding a later federal law punishing on-reservation
Indian crimes, the Supreme Court stressed that the law
“does not interfere with the process of the state courts
within the reservation, nor with the operation of state
laws.” Kagama, 118 U.S. at 383. 60
That brings us to JUDGE DENNIS’s main historical
example—the era of federal “assimilation” of Indian
children in boarding schools. DENNIS OP. at 22–25, 59. As
we grasp his argument, JUDGE DENNIS contends that,
because the federal government once engaged in this
widespread removal and re-education of Indian children,
it must also have power to prevent states from engaging
in similar “abusive Indian child custody practices.” Id. at
59. 61
We reject this argument.
To begin with, JUDGE DENNIS’s key evidence dates
from the late nineteenth century, not the founding era.
See, e.g., COHEN’s § 1.04 (“In 1879, Indian education
began to shift to federal boarding schools so that Indian
JUDGE DENNIS emphasizes Kagama’s statement that Indian
tribes “owe no allegiance to the states, and receive from them no
protection,” and that “[b]ecause of the local ill feeling, the people of
the states where they are found are often their deadliest enemies.”
DENNIS OP. at 67 (quoting Kagama, 118 U.S. at 384). That colorful
dicta has no bearing on the issue before us. As discussed, Kagama
decided only that the United States could punish as a federal crime
the murder of an Indian by an Indian on a reservation, even though
situated within a state. See 118 U.S. at 377–78; see also id. at 383
(noting the law was “confined to the acts of an Indian of some tribe,
of a criminal character, committed within the limits of the
reservation”); see also supra II(B)(2) (discussing Kagama).
61
The Federal Defendants similarly defend ICWA on the
grounds that “Congress plainly has authority to address the
massive removal of children from tribal communities.”
60

257a
students could be removed completely from family and
tribal life.”). 62 It therefore provides less insight into
Congress’s Indian power as conceived by the founding
generation. See Printz, 521 U.S. at 905 (explaining that
“contemporaneous legislative exposition of the
Constitution . . . , acquiesced in for a long term of years,
fixes the construction to be given its provisions” (citing
Myers, 272 U.S. at 175) (emphasis added)); 63 cf. Heller,
554 U.S. at 614 (observing that “discussions [that] took
place 75 years after the ratification of the Second
Amendment . . . do not provide as much insight into its
original meaning as earlier sources”).
But even if this evidence concerned founding-era
practice, it would not prove what JUDGE DENNIS claims.
As we have said again and again, none of the history
shows the United States using its Indian power to
legislate for state governments. The boarding-school era
makes the same point from a different angle. It shows
the federal government adopting a policy towards Indian
See also COHEN’s § 1.04 (during this period “[t]he full brunt
of reeducation was directed toward Indian children, who were
shipped away from the reservation or brought together at
reservation schools”); Ablavsky Br. at 20 (discussing the “federallyrun boarding school system, which took Indian children, often
without their parents’ consent, as part of its efforts to civilize them”)
(citing 25 U.S.C. §§ 271–304b; FREDERICK E. HOXIE, A FINAL
PROMISE: THE CAMPAIGN TO ASSIMILATE THE INDIANS, 1880–1920,
189–210 (1984)).
63
See also Marsh, 463 U.S. at 790 (observing that “[a]n act
passed by the first Congress assembled under the Constitution,
many of whose members had taken part in framing that instrument,
. . . is contemporaneous and weighty evidence of its true meaning”
(citation omitted) (cleaned up)); McCulloch, 17 U.S. at 401 (relying
on fact that the contested power “was exercised by the first
congress elected under the present constitution”).
62

258a
children—one roundly condemned today—and then
changing its own policy in a more enlightened direction.
See COHEN’S § 1.05 (recounting “[a] marked change in
attitude toward Indian policy [that] began in the mid1920s . . . away from assimilation policies and toward
more tolerance and respect for traditional aspects of
Indian culture”). It is a mystery how an era of misguided
federal policy proves Congress can dictate rules for
states. None of this is to say there have been no abuses
in how states have handled Indian adoptions. It is only to
say that, in seeking a remedy, Congress cannot turn
state governments into federal adoption agencies. The
Tenth Amendment and the Constitution’s structure
forbid it.
One final point. According to JUDGE COSTA’S
separate opinion, there is nothing “novel” about ICWA’s
“interfer[ing] with state domestic relations proceedings”
because “the federal government has been a constant,
often deleterious presence in the life of the Indian family
from the beginning.” COSTA OP. at 15. But relying on the
same evidence as JUDGE DENNIS, including the
boarding-school era, see id. at 12–17, JUDGE COSTA also
fails to identify a single example of Congress’s deploying
its Indian power to regulate a state’s administrative or
judicial machinery. 64 Thus, his denial that ICWA is a
JUDGE COSTA does dial the volume up to eleven, however.
“[T]he most tragic irony” of our opinion, he claims, is that after two
centuries of federal power “often used to destroy tribal life,” we
would “reject[] that power when it is being used to sustain tribal
life.” Id. at 12. “It would be news to Native Americans,” he
continues, that the same federal power used to wage war against
them, steal their lands, displace them, and “‘civiliz[e]’” their children
“does not [also] reach the Indian family.” Id. Where to begin? First,
nothing prevents the federal government from mending its ways
64

259a
“novel” use of that power is baffling. Id. at 15. That view
would likely surprise the leading Indian law
commentator, Felix Cohen, who wrote that
“ICWA…inserts federal and tribal law into family
matters long within the domain of the states.” COHEN’s
§ 11.01[1]. It would also surprise then-Assistant
Attorney General Patricia Wald, who testified to
Congress about ICWA (and who would later serve as
Chief Judge of the D.C. Circuit). Flagging the “serious
constitutional question” raised by ICWA, Wald warned
“that the federal interest in the off-reservation context is
so attenuated that the 10th Amendment and general
principles of federalism preclude[] the wholesale
invasion of state power contemplated by [ICWA].” H.R.
REP. No. 95-1386, at 39–40 (1978), as reprinted in 1978
U.S.C.C.A.N. 7530, 7562–63. Of course, Wald’s views—
or Felix Cohen’s, for that matter—do not settle ICWA’s
constitutionality. But at least those commentators
recognized, unlike JUDGE COSTA, that ICWA’s intrusion
on state power was unprecedented.
***

and using its power “to sustain tribal life.” It has tried to do that for
nearly a century. See COHEN’s § 1.05 (era of “Indian
Reorganization,” beginning in 1928, “shift[ed] . . . toward more
tolerance and respect for traditional aspects of Indian culture”). The
issue before us, however, is whether the federal government’s
benevolence may include conscripting state governments as
adoption agencies. If the Indian affairs power is a blank check, as
JUDGES DENNIS and COSTA appear to think, the answer is yes.
Second, no one denies that federal power “reach[es] the Indian
family.” COSTA OP. at 12. The issue here is whether it also reaches
the state administrative and judicial proceedings that ICWA
purports to govern.

260a
We sum up this part. Neither judicial nor
congressional precedent supports ICWA’s trespass on
state child-custody proceedings. While offering evidence
that Congress has deployed its Indian affairs power
broadly, exclusive of state authority, and in aid of Indian
children, neither Defendants nor their amici nor JUDGE
DENNIS offer founding-era examples of Congress’s using
this power to intrude on state governmental functions as
ICWA does. “Legislative novelty is not necessarily fatal;
there is a first time for everything. But sometimes the
most telling indication of a severe constitutional problem
is the lack of historical precedent for Congress’s action.”
NFIB, 567 U.S. at 549 (Roberts, C.J.) (cleaned up)
(quoting Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd., 561 U.S. 477, 505 (2010)). The founding
generation launched the Constitution in an atmosphere
of intense suspicion about federal encroachment on state
sovereignty. See Centinel Letter I (Oct. 5, 1787) (warning
power of the proposed government would “necessarily
absorb the state legislatures and judicatories” and
“melt[] [the United States] down into one empire”),
reprinted in THE ESSENTIAL ANTIFEDERALIST 102
(W.B. Allen & Gordon Lloyd eds., 2002). If Congress had
deployed its Indian affairs power to govern state
governments, some evidence would remain. Finding
none, we have “reason to believe that the power was
thought not to exist.” Printz, 521 U.S. at 905.
The Constitution gives Congress sweeping powers
over Indians. But the power Congress claims in ICWA
finds no support in any Supreme Court decision or
founding-era practice. To permit Congress to regulate
state child-custody proceedings, whenever they involve
Indian children, is incompatible with “our federal

261a
system, [in which] the National Government possesses
only limited powers [and] the States and the people
retain the remainder.” Bond, 572 U.S. at 854. To the
extent ICWA governs child-custody proceedings under
state jurisdiction, it exceeds Congress’s power.
III. Challenges to Specific ICWA Provisions
Alternatively, we address Plaintiffs’ claims that parts
of ICWA violate the Fifth Amendment (III(A)); the
commandeering doctrine (III(B)); the nondelegation
doctrine (III(C)); and the APA (III(D)). We then
consider the appropriate remedy (III(E)).
A. Fifth Amendment Equal Protection
We first address whether ICWA violates the equal
protection component of the Fifth Amendment. See
Adarand Constructors, Inc. v. Pena, 515 U.S. 200, 215–
27, 235 (1995); Bolling v. Sharpe, 347 U.S. 497, 499
(1954). “Fifth Amendment equal protection claims
against federal actors are analyzed under the same
standards as Fourteenth Amendment equal protection
claims against state actors.” Butts v. Martin, 877 F.3d
571, 590 (5th Cir. 2017) (citing Weinberger v. Wiesenfeld,
420 U.S. 636, 638 n.2 (1975)). Laws that classify citizens
by race or ancestry trigger “the ‘most rigid scrutiny.’”
Fisher v. Univ. of Tex., 570 U.S. 297, 309–10 (2013)
(citing, inter alia, Rice v. Cayetano, 528 U.S. 495, 517
(2000); Bolling, 347 U.S. at 499; quoting Loving v.
Virginia, 388 U.S. 1, 11 (1967)). Laws that do not classify
in those ways, however, must still be “rationally related
to a legitimate governmental purpose.” Clark v. Jeter,
486 U.S. 456, 461 (1988) (citing San Antonio Indep. Sch.
Dist. v. Rodriguez, 411 U.S. 1, 17 (1973)).

262a
Plaintiffs claim ICWA violates equal protection: (1)
by treating “Indian children” differently from nonIndian children; and (2) by preferring “Indian families”
over non-Indian families. Both classifications, they
argue, are racial and fail strict scrutiny. Alternatively,
Plaintiffs say neither classification rationally links
children with their tribes. Relying heavily on Mancari,
Defendants counter that ICWA adopts “political”
classifications subject to rational basis review. They say
ICWA turns on a child’s actual or potential tribal
affiliation, not race, and so rationally furthers
“Congress’s ‘unique obligation toward the Indians.’”
They also defend ICWA’s preference for Indian over
non-Indian families because “many tribes have deep
historic and cultural connections with other tribes, and
. . . many Indian children may be eligible for membership
in more than one tribe.”
Siding with Plaintiffs, the district court concluded
ICWA classifies by race and fails strict scrutiny. The
court stressed that ICWA covers children “simply
eligible for [tribal] membership who have a biological
Indian parent.” 65 Brackeen, 338 F. Supp. 3d at 533.
Surveying membership criteria, the court reasoned that
ICWA applies if a child is “related to a tribal ancestor by
blood.” Id. The court also found that ICWA fails strict
scrutiny because it is not narrowly tailored to
maintaining tribal ties. ICWA applies to “eligible”
children who may “never be members of their ancestral
tribe.” Id. at 533, 536 ICWA also “priorit[izes] a child’s
See § 1903(4) (defining Indian child as an unmarried minor
who is either a tribal member or “eligible for membership in an
Indian tribe and . . . the biological child of a member of an Indian
tribe”).
65

263a
placement with any Indian,” regardless of tribe, thus
“impermissibly . . . treat[ing] ‘all Indian tribes as an
undifferentiated mass.’” Id. at 535 (cleaned up) (quoting
United States v. Bryant, 136 S. Ct. 1954, 1968 (2016)
(Thomas, J., concurring)).
1. Even assuming ICWA classifies by tribe, not race,
it still must rationally link children to tribes.
The parties dispute whether ICWA classifies by race
or tribe. Under Supreme Court precedent, which we
examine below, that is a close question. Whatever the
answer, though, the cases teach that the classifications
still must rationally further ICWA’s goal of linking
children with tribes. Because we resolve the equal
protection challenges on that basis (infra III(A)(2)–(3)),
we need not decide whether ICWA classifies by race.
Here we provide necessary context for our analysis by
surveying the Court’s Indian-classification cases from
Mancari (1974) to Adoptive Couple (2013).
The seminal case is Mancari, which upheld a federal
preference for hiring “Indians” at the Bureau of Indian
Affairs (“BIA”). 417 U.S. at 551–55. “Indian” meant a
tribe member with “one-fourth or more degree Indian
blood.” Id. at 553 n.24. The Court found this a “political
rather than racial” preference because it excluded many
“racial[]” Indians and was granted to Indians only “as
members of quasi-sovereign tribal entities.” Id. at 553
n.24, 554. Separately, the Court required the preference
to be “reasonable and rationally designed to further
Indian self-government.” Id. at 555. 66 Importantly, the
As the Court explained, the preference: (1) was “an
employment criterion reasonably designed to further the cause of
Indian self-government,” Mancari, 417 U.S. at 554; (2) insured
66

264a
preference “d[id] not cover any other Government
agency or activity,” and so did not raise “the obviously
more difficult question that would be presented by a
blanket exemption for Indians from all civil service
examinations.” Id. at 554. 67
From 1974 to 1979, the Court applied Mancari to
turn back similar equal protection challenges. It upheld
laws: (1) granting a tribe sole jurisdiction over onreservation adoptions; 68 (2) barring states from taxing
“participation by the governed in the governing agency,” id.; (3) was
akin to requiring officials to reside in the jurisdictions they govern,
id.; (4) applied only to the BIA, whose “legal status [w]as truly sui
generis” because it “governed . . . [tribal entities] in a unique
fashion,” id.
67
Given our discussion of Mancari, we are puzzled by JUDGE
COSTA’s insistence that we harbor “the notion that the Constitution
prohibits the federal government from granting preferences to tribe
members.” COSTA OP. at 18. JUDGE COSTA quotes nothing from our
opinion to prove that claim. To the contrary, we recognize that
Mancari permits certain federal preferences for tribe members.
See 417 U.S. at 538, 541 (upholding BIA hiring preference for
Indians and noting “[t]he federal policy of according some hiring
preference to Indians in the Indian service dates at least as far back
as 1834”) (citations omitted). But the issue here—one Mancari itself
recognized—is the permissible extent of those preferences. See id.
at 554 (observing that “the BIA is truly sui generis,” that “the
preference does not cover any other Government agency or
activity,” and consequently that “we need not consider the obviously
more difficult question that would be presented by a blanket
exemption for Indians from all civil service examinations”). JUDGE
COSTA pivots from this baseless claim to accuse us of “activis[m],”
COSTA OP. at 20, and to propose a debate—one far afield from the
issues in this case—over whether “[o]riginalism usually goes AWOL
when the issue is whether the government may grant preferences
to historically disadvantaged groups,” id. at 18. We decline the
invitation.
68
Fisher, 424 U.S. at 384 n.5, 387, 389–91.

265a
on-reservation sales; 69 (3) disbursing treaty funds based
on tribe membership; 70 (4) creating a criminal code for
Indian lands; 71 (5) authorizing states to exercise
jurisdiction over in-state Indian lands; 72 and (6) securing
fishing rights to certain tribes. 73 These cases emphasized
two things about permissible Indian classifications.
First, they turn on tribal status, not race. Second, they
reasonably further tribal interests—for instance, in selfgovernment, economic development, and protecting
Indian lands. 74

69
Moe v. Confederated Salish & Kootenai Tribes of the Flathead
Reservation, 425 U.S. 463, 475–80 (1976).
70
Weeks, 430 U.S. at 79–85.
71
Antelope, 430 U.S. at 646–47 & n.7.
72
Yakima Nation, 439 U.S. at 471–76, 484.
73
Fishing Vessel, 443 U.S. at 684–85f.
74
See, e.g., Fisher, 424 U.S. at 387–91 (noting the law classified
not by race but by the tribe’s “quasi-sovereign status,” and
“further[ed] . . . Indian self-government” by excluding state
jurisdiction); Moe, 425 U.S. at 475–80 (“special [tax] treatment”
turned on treaty and furthered “Congress’ unique obligation toward
the Indians” (quoting Mancari, 417 U.S. at 555) (cleaned up));
Weeks, 430 U.S. at 79–85 (distribution turned on whether recipients
were descendants of Delawares who maintained tribal
membership); Antelope, 430 U.S. at 646 & n.7 (criminal code applied
based on whether defendants were “enrolled [tribe] members” and
acted “within . . . Indian country” (citing Mancari, 417 U.S. at 553
n.24)); Yakima Nation, 439 U.S. at 471–76, 500–02 (state
jurisdiction turned only on “tribal status and land tenure,” and was
“fairly calculated” to balance non-Indian rights with “tribal selfgovernment”); Fishing Vessel, 443 U.S. at 673 & n.20 (fishing rights
turned on tribal status, not race).

266a
Moving ahead several years, two decisions have
clarified how equal protection applies to Indian
classifications. Those are Rice and Adoptive Couple. 75
Rice asked whether the Hawaii Constitution could
allow only “Hawaiians” to elect trustees of a state
“Hawaiian Affairs” agency. 528 U.S. at 499. The Court
held that the classification violated the Fifteenth
Amendment. Id. The definition of “Hawaiian”—“any
descendant of the aboriginal peoples” inhabiting the
islands since 1778—was “a proxy for race” because it
traced a person’s genetic relationship to aboriginal
“races.” Id. at 514–16. Relevant here, Rice held the
Plaintiffs argue that a more radical limit on Mancari arises
from the Supreme Court’s 1995 decision in Adarand. That decision
addressed a federal program that paid highway contractors to hire
subcontractors controlled by “socially and economically
disadvantaged individuals.” 515 U.S. at 204. The program presumed
social disadvantage if individuals were “black, Hispanic, Asian
Pacific, Subcontinent Asian, [or] Native Americans.” Id. at 207
(citation omitted) (emphasis added). Without discussing Mancari,
the Court treated these as “race-based presumptions,” id. at 208,
subject to strict scrutiny. Although Adarand did not specifically
address the Native American category, more than one federal judge
has cautioned that Adarand may undercut Mancari. See id. at 244–
45 & n.3 (Stevens, J., dissenting) (warning the majority’s reasoning
“would view the special preferences that the National Government
has provided to Native Americans since 1834 as comparable to” race
discrimination (citing Mancari, 417 U.S. at 541, 551–52, 553–54 &
n.24)); Williams v. Babbitt, 115 F.3d 657, 665 (9th Cir. 1997) (“If
Justice Stevens is right about the logical implications of Adarand,
Mancari’s days are numbered.”); but see Am. Fed’n of Gov’t Emps.,
AFL-CIO v. United States, 330 F.3d 513, 520–23 (D.C. Cir. 2003)
(rejecting argument that Adarand impacts scrutiny for
appropriations preference “promoting the economic development of
federally recognized Indian tribes”). Because we do not decide
whether ICWA’s classifications are race-based, however, we need
not address whether Adarand undercuts Mancari.
75

267a
voting restriction was not justified by Mancari. Id. at
518–22.
Even assuming native Hawaiians were like Indian
tribes, the Court refused to “extend the limited
exception of Mancari to [this] new and larger
dimension.” Id. at 518, 520. Mancari’s hiring preference
was “rationally designed to further Indian selfgovernment” in a “sui generis” context. Id. At 520
(quoting Mancari, 417 U.S. at 554, 555). But the decision
could not support limiting voting for state offices to “a
class of tribal Indians.” Id. This was because Mancari
concerned only “the internal affair of a quasi sovereign”
(a tribe), while the election in Rice concerned the entire
“State of Hawaii.” Id. “To extend Mancari to this
context,” the Court held, “would be to permit a State, by
racial classification, to fence out whole classes of its
citizens from decisionmaking in critical state affairs.” Id.
at 522. Thus, in deciding Rice, the Court clarified that
Mancari’s “limited” hiring preference for Indians could
not support preferring Indians in “critical state affairs”
like an election. Id. at 520, 522. 76
The second key decision is Adoptive Couple, which
interpreted ICWA in a dispute between an Indian child’s
adoptive parents and her biological father. 570 U.S. at
643–46. The Court held that certain ICWA provisions—
its termination standard (§ 1912(f)), active-efforts
requirement (§ 1912(d)), and placement preferences
(§ 1915(a))—do not apply where the child’s biological
father never had custody because he had abandoned the
See, e.g., Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th Cir.
2004) (explaining Rice stands for the proposition that “Congress
may not authorize special treatment for a class of tribal Indians in a
state election”).
76

268a
child. Id. at 648, 651–56. 77 Relevant here, the Court
warned that certain applications of ICWA may deny a
child equal protection.
Specifically, the Court warned against applying
ICWA to “put certain vulnerable children at a great
disadvantage solely because an ancestor—even a remote
one—was an Indian.” Id. at 655. It observed that “a
biological Indian father could abandon his child in utero
and refuse any support for the birth mother . . . and could
then play his ICWA trump card at the eleventh hour to
override the mother’s decision and the child’s best
interests.” Id. at 656. If ICWA required that result,
“many prospective adoptive parents would surely pause
before adopting any child who might possibly qualify as
an Indian under the ICWA.” Id. “Such an
interpretation,” the Court stated, “would raise equal
protection concerns.” Id.
In sum, in equal protection challenges the Supreme
Court has permitted Indian classifications based on
tribal status (not race), if they rationally further federal
obligations to tribes. This is logical, given the
Constitution itself includes the category of “Indian
Tribes.” See U.S. CONST. art. I, § 8, cl. 3 (vesting
Congress with power to “regulate Commerce . . . with the
The Court explained that the termination standard—
requiring a showing that the parent’s “continued custody” may
seriously harm the child, § 1912(f)—would not apply where a parent
never had custody. Adoptive Couple, 570 U.S. at 648. Similarly, the
active-efforts requirement—requiring “active efforts” to “prevent
the breakup of the Indian family,” § 1912(d)—would not apply where
the parent had abandoned the child (there being no Indian family to
“break up”). Id. at 651–53. Finally, the placement preferences would
not apply “if no alternative party that is eligible to be preferred . . .
has come forward.” Id. at 654.
77

269a
Indian Tribes”). 78 At the same time, the Court has
warned that Indian classifications may raise equal
protection concerns when deployed outside the tribal
context. A classification may go beyond internal tribal
matters and interfere with state affairs (as in Rice), or it
may disadvantage a child with tenuous links to a tribe (as
in Adoptive Couple).
ICWA’s classifications exist in the twilight between
tribe and race. As Defendants point out, ICWA links its
“Indian child” definition to tribes: a child must be a tribe
member or at least “eligible” for membership and the
offspring of a member. See § 1903(4). As Plaintiffs
respond, however, whether a child is “eligible” for
membership often turns on a child’s quantum of Indian
blood. For instance, one child in this case, Y.L.M., is
eligible for membership in the Navajo Tribe because she
is one-half “Navajo Indian Blood.” As Plaintiffs
forcefully argue, the fact that ICWA may apply
depending on the degree of “Indian blood” in a child’s
veins comes queasily close to a racial classification. 79

See also, e.g., United States v. Zepeda, 792 F.3d 1103, 1117
(9th Cir. 2015) (Kozinski, J., concurring in the judgment) (“The
Supreme Court has stressed time and time again that federal
regulation of Indian tribes does not equate to federal regulation of
the Indian race.” (citing Fisher, 424 U.S. at 390), Antelope, 430 U.S.
at 646, and Mancari, 417 U.S. at 553 n.24)).
79
See, e.g., Zepeda, 792 F.3d at 1117 (Kozinski, J., concurring in
the judgment) (making applicability of Indian Major Crimes Act
turn, even partially, on “proof of some quantum of Indian blood”
creates an “overt racial classification”); id. at 1119–20 (Ikuta, J.,
concurring in the judgment) (use of “blood quantum test” in same
law is foreclosed by Rice’s “opposition to ‘ancestral tracing of this
sort’”(cleaned up) (quoting Rice, 528 U.S. at 510)).
78

270a
For present purposes, we need not decide whether
ICWA classifies by race or tribe. Regardless, the
Supreme Court still requires the law’s classifications be
“reasonable and rationally designed” to further federal
obligations toward tribes. Rice, 528 U.S. at 520 (quoting
Mancari, 417 U.S. at 555). As explained below, ICWA’s
separate standards for Indian children—standards
which govern state proceedings, apply to children with
tenuous connections to a tribe, and allow birth parents’
wishes to be overridden—fail to rationally further tribal
interests. That is even more evident with respect to
ICWA’s preference for Indian over non-Indian families,
which is divorced from Congress’s goal of keeping
children linked to their tribe. 80
2. The “Indian child” classification fails to
rationally further ICWA’s goal of linking
children to tribes.
For three related reasons, ICWA’s disparate
standards for “Indian children” fail to rationally further
federal obligations toward Indian tribes.
First, ICWA creates separate standards for Indian
children that extend beyond internal tribal affairs and
JUDGE DENNIS takes issue with our tailoring analysis on two
related grounds. First, he chides us for not “truly” arguing that
ICWA fails rational basis review but instead only arguing that
“ICWA uses impermissible means” to further Congress’s tribal
obligations. DENNIS OP. at 120. Second, he contends we “apply a far
more searching standard of scrutiny” than rational basis. Id. at 120–
21. The simple answer to both contentions is that we are faithfully
following the tailoring analysis for Indian classifications laid out by
Mancari, Rice, and Adoptive Couple. JUDGE DENNIS’s analysis, by
contrast, proceeds as if those precedents had no bearing on
80

this question at all, which is incorrect. See infra III(A)(2)–(3).

271a
intrude into state proceedings. Mancari long ago
cautioned that a “blanket exemption” for Indians in the
civil service system would raise “obviously . . . difficult”
equal protection problems. 417 U.S. at 554. Rice
amplified this warning, holding an Indian classification
could not “extend” beyond a tribe’s “internal affair[s]”
into an “affair of the State,” like an election. 528 U.S. at
520–22. ICWA does just what Mancari foretold and Rice
forbade: it creates disparate standards for Indian
children in state proceedings. By exporting a blanket
Indian exception into state proceedings, ICWA violates
Rice and severs any connection to internal tribal
concerns.
Compare this intrusion on state jurisdiction with the
law upheld in Fisher. Supra II(B)(1). Fisher approved
exclusive tribal jurisdiction for adoptions where the
child, birth parents, and adoptive parents were “each and
all members of the [tribe] and . . . reside[d] within the
exterior boundaries of the [reservation].” 424 U.S. at 384
n.6. That limited measure was “justified” because it
“further[ed] the congressional policy of Indian selfgovernment.” Id. at 391. By contrast, ICWA dictates
different standards for Indian children within “the
States[’] . . . recognized jurisdiction.” § 1901(5). By
imposing “Indian child” standards on state proceedings,
ICWA severs the link to tribal self-government or any
other tribal interest identified by the Supreme Court.
In disagreeing with this analysis, Defendants and
JUDGE DENNIS misread Rice. First, they claim Rice
merely reaffirmed Mancari and nothing more. DENNIS
OP. at 117. Not so: Rice specified that Mancari’s
“limited” and “sui generis” Indian classification could
not apply outside the tribal context to a state-wide

272a
election. 528 U.S. at 520–22. Thus, JUDGE DENNIS is
wrong to argue that “the degree to which [ICWA]
intrudes on state proceedings has no bearing on whether
[ICWA] is rationally linked to protecting Indian tribes.”
DENNIS OP. at 120. To the contrary, Rice said this is a
critical factor: an Indian classification cannot be
transplanted from the “internal affair[s]” of tribes into
external matters concerning all state citizens. 508 U.S. at
520; see, e.g., Kahawaiolaa v. Norton, 386 F.3d 1271,
1279 (9th Cir. 2004) (explaining that, after Rice,
“Congress may not authorize special treatment for a
class of tribal Indians in a state election”). Next,
Defendants and JUDGE DENNIS say Rice, unlike this
case, concerned the Fifteenth Amendment. DENNIS OP.
at 121. That is true but misses the point. Rice said an
Indian class could not be used “in critical state affairs.”
528 U.S. at 522. Child-custody proceedings are no less
critical to states than was the agency election in Rice.
See, e.g., Palmore v. Sidoti, 466 U.S. 429, 433 (1984)
(“The State . . . has a duty of the highest order to protect
the interests of minor children, particularly those of
tender years.”). Finally, Defendants argue that, unlike in
Rice, ICWA does not “bar any person . . . from
participating in child-custody proceedings” (emphasis
added). That is beside the point. Rice did not turn on
whether people’s rights were “barred” or only limited.
Its point was that a tribal classification—which could
limit participation in a tribe’s “internal affair[s]”—
cannot do so in “affair of the [s]tate,” like the state
election in Rice or the state custody proceedings here.
Id. at 520. 81
JUDGE DENNIS goes so far as to say that state child-custody
proceedings involving Indian children are somehow no longer
81

273a
Second, ICWA covers children only “eligible” for
tribal membership. Enacting ICWA, Congress declared
“there is no resource that is more vital to the continued
existence and integrity of Indian tribes than their
children.” § 1901(3) (emphasis added). But ICWA applies
not only to child tribe members, but also to a child only
“eligible for membership in an Indian tribe and . . . the
biological child of a member of an Indian tribe.” § 1903(4)
(emphasis added). As Defendants tell us, “[m]embership
in an Indian tribe is generally not conferred
automatically upon birth,” but requires “affirmative
steps” by parents or guardians. See 81 Fed. Reg. at
38,783 (explaining “Tribal membership . . . is voluntary
and typically requires an affirmative act by the enrollee
or her parent”). This means ICWA applies to a child who
is not, and may never become, a tribe member.
Federal Defendants respond that, because a child’s
“formal enrollment” in a tribe depends on parents or
guardians, eligibility is a “proxy” for the child’s “not-yetformalized tribal affiliation.” This is just a complicated
way of saying that a child only eligible for membership
may never become a member, and may have no other
tangible connection to a tribe. The cases before us

purely state affairs. Relying on Congress’s finding that Indian
children are tribes’ “vital” “resource[s],” 25 U.S.C. § 1901(3), he
claims: “[E]ven when ICWA reaches into state court adoption
proceedings, those proceedings are simultaneously affairs of states,
tribes, and Congress.” DENNIS OP. at 122. No authority supports
that remarkable claim. ICWA’s own findings recognize that “the
States” have “their recognized jurisdiction over Indian child
custody proceedings through administrative and judicial bodies,” 25
U.S.C. § 1901(5), and its provisions maintain the distinction between
state and tribal jurisdiction, id. § 1911(a), (b).

274a
illustrate the point better than any abstract discussion
could.
Take A.L.M., whom the Brackeens eventually
adopted, with his birth parents’ approval, over objections
by the Navajo Nation. A.L.M.’s only tie to the Navajo is
that his mother is a member (his father is Cherokee). But
neither A.L.M. nor his birth parents have ever lived on
the Navajo reservation during A.L.M.’s life, except for
the “day he was born and the next day.” The Navajo
never tried to participate in A.L.M.’s adoption
proceedings. And the only reason A.L.M. is considered
Navajo (and not Cherokee) is that “representatives of
the Cherokee and Navajo Nations . . . reached an
agreement in the hallway outside the hearing room that
A.L.M. would become a member of the Navajo Nation
because only the Navajo had identified a potential foster
placement.” Or take Child P., whom the Cliffords are
trying to adopt over objections by the White Earth Band
of Ojibwe Indians. Child P. is linked to the White Earth
Band through her maternal grandmother, R.B. Before
Child P. was placed with the Cliffords, the tribe wrote
the state court that Child P. was ineligible for
membership. After placement, however, the tribe
changed its position and declared Child P. eligible. This
triggered ICWA’s placement preferences: Child P. was
taken from the Cliffords and placed with R.B., whose
foster license had been previously revoked by the state.
As these cases illustrate, ICWA permits a child’s
inchoate tribal membership to override her placement in
state proceedings. 82 ICWA thereby “put[s] certain
JUDGE DENNIS waves away this (and the next) tailoring flaw
in ICWA because he claims they only make the law “under- and
over-inclusive.” DENNIS OP. at 122–23. We disagree. First, JUDGE
82

275a
vulnerable children at a great disadvantage solely
because an ancestor—even a remote one—was an
Indian.” Adoptive Couple, 570 U.S. at 655. This squarely
raises the “equal protection concerns” forecast by the
Supreme Court in Adoptive Couple. 83
Third, ICWA overrides the wishes of biological
parents who support their child’s adoption outside the
tribe. When enacting ICWA, Congress proclaimed that
too many Indian families were being “broken up” when
nontribal agencies engaged in the “often unwarranted”
“removal” of children and placed them with “non-Indian”
families. § 1901(4). But ICWA applies even when an
DENNIS again disregards what Mancari, Rice, and Adoptive Couple
teach about tailoring: overbroad Indian classifications divorced
from tribal interests create equal protection problems. See
Mancari, 417 U.S. at 554; Rice, 528 U.S. at 520–22; Adoptive Couple,
570 U.S. at 655. Second, the “eligibility” criterion does not merely
make ICWA “over-inclusive.” Eligibility—one of only two ways to
trigger ICWA—makes the law cover children (like the ones here)
with no actual connection to a tribe. Third, as discussed below,
allowing ICWA to override birth parents’ wishes to place their
children with non-Indians does not mean ICWA only has “imperfect
means-ends fit[].” DENNIS OP. at 123 (citation omitted). Instead, it
makes nonsense of ICWA’s key goal of preventing the break-up of
Indian families. See 25 U.S.C. § 1901(4). Finally, JUDGE DENNIS
discounts ICWA’s first tailoring flaw—namely, its intrusion into
state proceedings in defiance of Mancari and Rice. Taken together,
these three flaws show ICWA fails to rationally further its goals.
83
Few provisions in Title 25 define “Indian” to include persons
“eligible” for tribal membership. See, e.g., 25 U.S.C. § 2511(3)
(defining “Indian” this way for purposes of tribal school grants).
None of these provisions, however, has any impact on state
proceedings as ICWA does. Cf., e.g., § 2502(a)(1) (authorizing
federal grants to tribes that operate certain schools). Consequently,
none is affected by our holding that ICWA’s inclusion of “eligible”
members is one factor that severs its connection to tribal interests.

276a
Indian child’s parents do not oppose adoption outside the
tribe. In other words, ICWA applies in circumstances
entirely unlike those that gave rise to the law—situations
where no Indian family is being “broken up” by state
authorities and where parents themselves acquiesce in
children’s being placed in “non-Indian foster [or]
adoptive homes.” Id.
Again, the cases before us illustrate the point. Take
Baby O., the child of Altagracia Hernandez (a nonIndian) and E.R.G. (descended from members of the
Ysleta del sur Pueblo Tribe). Both parents supported
Baby O.’s adoption by the non-Indian Librettis—indeed,
Hernandez is a plaintiff in this case alongside the
Librettis. Yet the Pueblo, asserting E.R.G. was a
member, intervened and proposed numerous Indianfamily placements under ICWA. Or again take A.L.M.,
whose Navajo mother and Cherokee father both testified
they support A.L.M.’s adoption by the non-Indian
Brackeens. Nonetheless, the Navajo sought to block the
Brackeens’ adoption of A.L.M. in favor of placing the
child with unrelated tribe members, and is now doing the
same with the Brackeens’ attempt to adopt A.L.M.’s halfsister, Y.R.J. See In re Y.J., 2019 WL 6904728, at *3–5.
As Plaintiffs point out, allowing ICWA to override
birth parents’ wishes in this way again raises the “equal
protection concerns” foreshadowed by Adoptive Couple.
In that case, the Court warned ICWA was open to equal
protection challenge if it allowed a tribe member “to
override the mother’s decision and the child’s best
interests” and thus “put certain vulnerable children at a
great disadvantage solely because an ancestor—even a
remote one—was an Indian.” 570 U.S. at 655–56. What
the Court foretold there is what has happened here to

277a
A.L.M, Y.R.J., and Baby O.: their parents’ wishes were
potentially or actually overridden by a non-custodial
tribe member’s invocation of ICWA. Applying ICWA in
this way does nothing to further Congress’s original aim
of preventing Indian families’ being “broken up” by the
“unwarranted removal” of their children and placement
with non-Indian families. § 1901(4).
In sum, we conclude that ICWA’s “Indian child”
classification violates the equal protection component of
the Fifth Amendment. 84
3. The “Indian family” classification fails to
rationally further ICWA’s goal of linking
children to tribes.
We next consider Plaintiffs’ claim that ICWA
impermissibly discriminates against non-Indian families.
While Plaintiffs challenge ICWA’s placement
preferences as a whole on this basis, the logical focus of
the claim is on the adoptive preference for “other Indian
families” in § 1915(a), as well as the preference for a
licensed “Indian foster home” in § 1915(b). See
§§ 1915(a)(3), 1915(b)(iii). In these provisions, ICWA’s
preference for “Indian” over “non-Indian” families is
most evident. Plaintiffs argue this privileging of Indian
over non-Indian families is a racial classification that
fails strict scrutiny. As with the Indian child
classification, however, we assume arguendo that
“Indian family” is a tribal, not a racial, category. We do
so because we agree with Plaintiffs’ alternative
As the district court found, this conclusion directly impacts
the placement preferences in § 1915(a) and (b), the collateral attack
provisions in §§ 1913 and 1914, and the Final Rule provisions in 25
C.F.R. §§ 23.129–132.
84

278a
argument that the preference fails to rationally further
Congress’s goal of keeping Indian children linked to
their own tribe. As Plaintiffs correctly point out, “placing
a tribal child with a different Indian tribe does not even
conceivably advance the continued existence and
integrity of the child’s tribe.”
ICWA’s overriding purpose was to safeguard the
continued “existence and integrity of Indian tribes” by
protecting “their children” from unwarranted removal.
§ 1901(3). Congress invoked the United States’ interest
“in protecting Indian children who are members or
eligible for membership in an Indian tribe.” Id. Congress
also faulted states for “often fail[ing] to recognize the
essential tribal relations of Indian people.” § 1901(5).
Many of ICWA’s provisions seek to further this tribefocused goal. For instance, a tribe has exclusive
jurisdiction of adoptions involving an Indian child
domiciled “within the reservation of such tribe.”
§ 1911(a) (emphasis added). Right to intervene is given
to “the Indian child’s tribe.” § 1911(c). And some of
ICWA’s placement preferences are tribe-based—
obviously the preference for “other members of the
Indian child’s tribe” (§ 1915(a)(2)), but also the
preference for “a member of the child’s extended family”
(§ 1915(a)(1), 1915(b)(i)), who is presumably of the same
tribe.
ICWA, however, also has provisions broadly
preferring “Indian families” over non-Indian families. A
non-Indian family seeking to adopt or foster an Indian
child, absent “good cause to the contrary,” will fail if
“other Indian families” or “Indian foster home[s]” are
available. §§ 1915(a)(3), 1915(b)(iii). Nothing requires
these Indian families or homes to be of a child’s tribe. See

279a
§ 1903(3) (relevantly defining “Indian” as “any person
who is a member of an Indian tribe”). In fact, they are
virtually assured not to be: otherwise, they would qualify
as “other members of the Indian child’s tribe.”
§ 1915(a)(2).
We agree with Plaintiffs that a naked preference for
Indian over non-Indian families does nothing to further
ICWA’s stated aim of ensuring that Indian children are
linked to their tribe. This conclusion follows a fortiori
from our conclusion that ICWA’s Indian child category
is insufficiently linked to federal tribal interests. The
Indian child category encompassed children who were
not, and may never be, members of a tribe. Even more,
ICWA’s preference for “Indian families” lacks any
connection to a child’s tribe: as explained, the Indian
families preferred over non-Indian families are, by
definition, not members of the child’s tribe. Thus, the
preference has no rational link to maintaining a child’s
links with his tribe. Similarly, the Indian child category
ran afoul of Mancari, Fisher, and Rice by creating a
blanket exception for Indian children in state childcustody proceedings. The Indian family category does
the same: by definition, Indian families have a
statutorily-conferred advantage over non-Indian
families with respect to state adoptions and foster
placements. Even assuming the Indian family category
is tribal and not racial, ICWA extends the category far
beyond Mancari and Fisher, and infiltrates the kind of
“critical state affairs” that Rice forbade. See Rice, 528
U.S. at 522.
In response, Federal Defendants argue that this
“Indian family” preference is not merely a “preference
for ‘generic “Indianness.” ’ ” They assert it instead

280a
“reflects the reality that many tribes have deep historic
and cultural connections with other tribes, and that many
Indian children may be eligible for membership in more
than one tribe.” We are unpersuaded. Even accepting
that some tribes are interrelated, ICWA’s Indian family
preference is not limited in that way. Rather, the
preference privileges Indian families of any tribe,
regardless of their connection to the child’s tribe, over all
non-Indian families. ICWA’s classification therefore
does not rationally further linking children to their
tribes.
In sum, we conclude ICWA’s preferring Indian over
non-Indian families violates the equal protection
component of the Fifth Amendment.
B. Commandeering and Preemption
The district court concluded numerous provisions of
ICWA “commandeer” state agencies and courts in
violation of Article I and the Tenth Amendment. 85 See
Brackeen, 338 F. Supp. 3d at 538–41. The court also ruled
that the preemption doctrine does not save these
provisions because they “directly command states.” Id.
at 541. On appeal, Defendants argue ICWA does not
commandeer states because it evenhandedly regulates
an activity in which both states and private parties
engage. They also claim the challenged provisions
merely create federal rights enforceable in state courts
under the Supremacy Clause.

Specifically, the court found invalid §§ 1901–23 and 1951–52,
which “include the congressional findings and declaration of policy,
definitions, child custody proceedings, record keeping, information
availability, and timetables.”
85

281a
The anti-commandeering doctrine recognizes the
“fundamental
structural”
principal
that
“the
Constitution . . . withhold[s] from Congress the power to
issue orders directly to the States.” Murphy, 138 S. Ct.
at 1475; see generally Printz, 521 U.S. 898; New York,
505 U.S. 144; FERC v. Mississippi, 456 U.S. 742 (1982);
Hodel v. Va. Surface Mining & Reclamation Ass’n.,
Inc., 452 U.S. 264 (1981). To be sure, Congress may
encourage states to regulate as it wishes. For instance,
Congress may “attach conditions on the receipt of
federal funds” under the Spending Clause. New York,
505 U.S. at 167 (quoting South Dakota v. Dole, 483 U.S.
203, 206 (1987)). Or it may offer states the option of
regulating “private activity . . . according to federal
standards or having state law pre-empted by federal
regulation.” Id. (citing Hodel, 452 U.S. at 288). What
Congress cannot do, however, is issue “a simple
command to state governments to implement legislation
enacted by Congress.” Id. at 176. Nor may it “compel the
States to enact or administer a federal regulatory
program.” Id. at 188. This anti-commandeering doctrine
reflects a basic principle: “[t]he Constitution confers on
Congress not plenary legislative power but only certain
enumerated powers,” and “conspicuously absent” from
those is “the power to issue direct orders to the
governments of the States.” Murphy, 138 S. Ct. at 1476.
The Supreme Court has deployed this doctrine to
declare unconstitutional federal legislation commanding
state legislatures, officers, and agencies. For instance,
Congress could not make state legislatures “take title”
to radioactive waste, nor make state executive agencies
“regulat[e] [waste] according to the instructions of
Congress.” New York, 550 U.S. at 175–76; see also

282a
Murphy, 138 S. Ct. at 1476 (the law in New York “issued
orders to either the legislative or executive branch of
state government”). Congress also could not compel
state or local officers to conduct background checks
under a federal firearms law. Printz, 521 U.S. at 903–04,
933. Such a requirement—even if it involved only
“discrete, ministerial tasks,” id. at 929—would amount
to “the forced participation of the States’ executive in the
actual administration of a federal program.” Id. at 918.
Finally, Congress could not prohibit states from
“author[izing]” sports gambling because that would
“unequivocally dictate[] what a state legislature may and
may not do.” Murphy, 138 S. Ct. at 1470, 1478.
Different dynamics come into play when asking—as
the district court did here—whether federal law
commandeers state courts. This is due to the Supremacy
Clause, which binds “the Judges in every State” to follow
validly enacted federal law. U.S. CONST. art. VI, cl. 2; see
Kansas v. Garcia, 140 S. Ct. 791, 801 (2020) (Supremacy
Clause “provides ‘a rule of decision’ for determining
whether federal or state law applies in a particular
situation” (quoting Armstrong v. Exceptional Child Ctr.,
Inc., 575 U.S. 320, 324 (2015))). Thus, Congress may, “in
a sense, direct state judges” by enacting federal law
state courts must apply. New York, 505 U.S. at 178–79. 86
Similarly, state judges must apply federal law that
validly preempts applicable state law. Murphy, 138 S. Ct.
at 1479. So, if federal law is enforceable in state courts or
See also id. at 179 (explaining “this sort of federal ‘direction’
of state judges is mandated by the text of the Supremacy Clause”);
Printz, 521 U.S. at 907 (suggesting “the Constitution was originally
understood to permit imposition of an obligation on state judges to
enforce federal prescriptions”).
86

283a
preempts state law, no “commandeering” arises from the
fact that state courts must apply the federal
enactment—rather, this is what the Supremacy Clause
demands. New York, 505 U.S. at 179; see also Printz, 521
U.S. at 907 (state courts “have been viewed distinctively
in this regard” because “unlike legislatures and
executives, they applied the law of other sovereigns all
the time”). The Supremacy Clause, however, assumes
the same limit on Congress’s power that the anticommandeering doctrine does—that Congress may
regulate only individuals, not state governments. 87 In
that regard, then, the operation of the Supremacy Clause
overlaps with anti-commandeering.
Finally, we should not lose sight of why anticommandeering is critical. First, the doctrine protects
the division of power between federal and state
governments, which “secures to citizens the liberties that
derive from the diffusion of sovereign power” and
“reduce[s] the risk of tyranny and abuse from either
front.” New York, 505 U.S. at 181–82 (citations omitted).
Second, the doctrine “promotes political accountability”
by letting voters know “who to credit or blame” for good
or bad policies. Murphy, 138 S. Ct. at 1477. 88 Third, the
See New York, 505 U.S. at 178 (federal laws enforceable in
state courts “involve congressional regulation of individuals, not
congressional requirements that States regulate”); Murphy, 138 S.
Ct. at 1481 (explaining “every form of preemption is based on a
federal law that regulates the conduct of private actors, not the
States”).
88
See also New York, 505 U.S. at 169 (“[W]here the Federal
Government directs the States to regulate, it may be state officials
who will bear the brunt of public disapproval, while the federal
officials who devised the regulatory program may remain insulated
from the electoral ramifications of their decision.”).
87

284a
doctrine “prevents Congress from shifting the costs of
regulation to the States.” Murphy, 138 S. Ct. at 1477. 89
With that background in mind, we proceed to our
analysis.
We
first
address
Plaintiffs’
anticommandeering challenges (infra III(B)(1)). We next
address whether the preemption doctrine saves any of
the challenged provisions (infra III(B)(2)). As the
Supreme Court has done in this area, we analyze the
challenged provisions separately. 90 ICWA touches many
aspects of state child-custody proceedings. It would not
be implausible to find constitutionally problematic
provisions alongside permissible ones. 91
1. Commandeering
As discussed, the anti-commandeering doctrine
typically asks whether federal law conscripts state
See also Printz, 521 U.S. at 930 (“By forcing state
governments to absorb the financial burden of implementing a
federal regulatory program, Members of Congress can take credit
for ‘solving’ problems without having to ask their constituents to pay
for the solutions with higher federal taxes.”).
90
See, e.g., Murphy, 138 S. Ct. at 1470 (analyzing only the
component of the Professional and Amateur Sports Protection Act,
28 U.S.C. § 3702(1), that prohibits states from “authoriz[ing] by law”
sports betting); Printz, 521 U.S. at 902–03 (analyzing only those
Brady Act sections, 18 U.S.C. § 922(s)(2), 922(s)(6)(C), 922(s)(6)(B),
applicable to a “chief law enforcement officer”); New York, 505 U.S.
at 152–54, 174–77 (analyzing separately the “take title” provision of
the Low-Level Radioactive Waste Policy Amendments Act, 42
U.S.C. § 2021e(d)(2)(C)).
91
See, e.g., Murphy, 138 S. Ct. at 1481 (analyzing regulation of
state legislatures in PASPA § 3702(1) separately from the “closely
related provision” in § 3702(2) regulating “private conduct”); New
York, 505 U.S. at 173–75 (two of the Act’s “incentives” were valid
under Spending Clause and preemption, whereas “take-title”
provision commandeered states).
89

285a
agencies or officials. This part therefore focuses on
Plaintiffs’ claims that ICWA compels action by state
child welfare agencies. Where Plaintiffs instead
challenge provisions compelling state courts, we
consider those claims under preemption analysis, infra.
a. ICWA’s active-efforts, expert-witness, placement-

preference, placement-record, and notice provisions
commandeer state agencies.

No Defendant denies that ICWA requires action by
state child welfare agencies. This is unsurprising. What
prompted ICWA, after all, were concerns about Indian
families’ treatment by “State[ ] . . . administrative and
judicial bodies.” § 1901(5) (emphasis added). ICWA
obviously covers matters—child-custody proceedings—
lying within the purview of state agencies. 92 ICWA’s
regulations, moreover, describe actions that must be
taken
by
“State
agencies,”
“governmental
organizations,” and “State actors.” 93 For instance,
92
See, e.g., TEX. HUM. RES. CODE § 40.002(b)(1), (2) (providing
Texas Department of Family and Protective Services
“shall…provide protective services for children” as well as “family
support and family preservation services”); TEX. FAM. CODE
§ 262.001(a) (authorizing “governmental entity with an interest in
the child” to take actions to protect child).
93
See, e.g., 81 Fed. Reg. at 38,779 (ICWA sought to remedy
failures by “State agencies and courts”); id. at 38,780 (noting
“[s]everal ICWA provisions do apply, either directly or indirectly,
to State and private agencies”); id. at 38,790 (“active efforts”
require “substantial and meaningful actions by agencies,” meaning
“agencies of government”); id. at 38,791 (agreeing “active efforts”
“require States to affirmatively provide Indian families with
substantive services”); id. at 38,792 (definition of “agency” includes
“governmental organizations”); id. at 38,814 (“active efforts”
requirement “ensure[s] that State actors . . . provide necessary
services to parents of Indian children”). See also, e.g., Miss. Band

286a
ICWA’s placement preferences “create[ ] an obligation
on State agencies and courts to implement the policy
outlined in the statute.” 81 Fed. Reg. at 38,839 (emphasis
added). Thus, the idea that ICWA compels state agencies
seems incontestable. As the district court concluded,
Texas “indisputably demonstrated that the ICWA
requires [Texas’s] executive agencies to carry out its
provisions.” Brackeen, 338 F. Supp. 3d at 540. It
specifically found that the relevant agency, the DFPS,
must, among other things[:] serve notice of suit on
Indian tribes, verify a child’s tribal status, make a
diligent effort to find a suitable placement
according to the ICWA preferences and show
good cause if the preference are not followed,
ensure a child is enrolled in his tribe before
referring him for adoption, and keep a written
record of the placement decision.
Id. at 540 & n.18. Defendants dispute none of this. 94
Turning to the specific challenges before us, we
conclude the following ICWA provisions commandeer
state agencies.
i. Active efforts (§ 1912(d)). We begin with the
“active efforts” requirement in § 1912(d). Any “party”
of Choctaw Indians v. Holyfield, 490 U.S. 30, 45 n.18 (1989)
(observing ICWA sought to address “the failure of State officials
[and] agencies” to consider “the special problems and circumstances
of Indian families”) (internal quotation omitted).
94
JUDGE DENNIS’s opinion does not squarely address whether
ICWA commands state agencies. We understand his view to be that
the point is immaterial because ICWA “evenhandedly regulates an
activity in which both States and private actors engage.” DENNIS
OP. at 89 (quoting Murphy, 138 S. Ct. at 1478). We disagree and
respond below.

287a
seeking to place an Indian child in foster care, or to
terminate parental rights, must “satisfy the court that
active efforts have been made to provide remedial
services . . . designed to prevent the breakup of the
Indian family and that these efforts have proved
unsuccessful.” Id. State agencies are “parties” that seek
placement or termination with respect to Indian
Consequently,
ICWA’s
active-efforts
children. 95
requirement demands extensive action by state and local
agencies as a condition to fulfilling their obligations to
Indian children. 96 For example, in Doty-Jabbaar v.
Dallas County Child Protective Services, a state
appellate court concluded a county agency failed ICWA’s
active-efforts requirement before terminating a birth
mother’s rights. 19 S.W.3d 870, 875–76 (Tex. App.—
Dallas 2000, pet. denied). Although the agency had given
the mother a seven-point plan including “drug
treatment, parenting classes, and psychological
evaluations,” the court found insufficient evidence that
See, e.g., N.M. v. Tex. Dep’t of Fam. & Prot. Servs., No. 03-1900240-CV, 2019 WL 4678420, at *1 (Tex. App. —Austin Sept. 26,
2019, no pet.) (ICWA case involving Texas DFPS’s efforts “to
terminate the parent-child relationship of N.M. and the children’s
father”); TEX. FAM. CODE §§ 153.371(10), 101.0133 (as child’s
managing conservator, DFPS has “the right to designate the
[child’s] primary residence,” including foster placement); see also 81
Fed. Reg. at 38,792 (“any party” in § 1912 includes “governmental
organizations”).
96
See 25 C.F.R. § 23.2 (defining “active efforts” to mean
“affirmative, active, thorough, and timely efforts” to “maintain or
reunite an Indian child with his or her family”); see also, e.g., In re
D.E.D.I., 568 S.W.3d 261, 262–63 (Tex. App.—Eastland 2019, no
pet.) (trial court “specifically found” that DFPS “made active efforts
to provide remedial services and rehabilitation programs” under
ICWA).
95

288a
“these remedial services and rehabilitation programs
had proven unsuccessful.” Id. at 875. 97
ICWA’s regulations confirm that active-efforts
demands action by state agencies. Through the “‘active
efforts’ provision . . . Congress intended to require States
to affirmatively provide Indian families with substantive
services.” 81 Fed. Reg. at 38,791. The “active-efforts
requirement,” they emphasize, “is one critical tool to
ensure that State actors . . . provide necessary services
to parents of Indian children.” Id. at 38,814 (emphasis
added). 98 The Final Rule even specifies the efforts
required by § 1912(d)—including eleven categories of
remedial services—“[w]here an agency is involved in the
child-custody proceeding.” 25 C.F.R. § 23.2. 99
We therefore conclude that the active-efforts
requirement in § 1912(d) commandeers states in
violation of Article I and the Tenth Amendment. See also
Brackeen, 937 F.3d at 443 (OWEN, J., dissenting in part)
(concluding § 1912(d) “means that a State cannot place
an Indian child in foster care, regardless of the
Cf., e.g., In re J.L.C., 582 S.W.3d 421, 433–34 (Tex. App.—
Amarillo 2018, pet. ref’d) (finding ICWA active-efforts burden
satisfied because “the [DFPS] had appropriately engaged [the
parent] with services but the Department’s efforts had failed”)
98
See also id. at 38,814 (active-efforts requirement sought to
remedy failures by “agencies of government”); id. at 38,790 (the
“active efforts requirement” is one of ICWA’s “primary tools” to
address failures by “agencies of government” and should therefore
be “interpreted in a way that requires substantial and meaningful
actions by agencies to reunite Indian children with their families”).
99
The term “agency” includes “governmental organizations.” 81
Fed. Reg. at 38,792; see also 80 Fed. Reg. 10,146, 10,151 (“[a]gency”
includes a “public agency and their employees, agents or officials
involved in and/or seeking to place a child in a child custody
proceeding”).
97

289a
exigencies of the circumstances, unless it first provides
the federally specified services and programs without
success”).
ii. Expert witnesses (§ 1912(e), (f)). We reach the
same conclusion as to the “expert witness” requirements
in § 1912(e) and (f). These provisions prohibit placement
or termination absent “evidence, including testimony of
qualified expert witnesses, that the continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.” § 1912(e) (foster placement); § 1912(f)
(termination). ICWA thus “requires the testimony of
qualified expert witnesses for foster-care placement and
for adoptive placements.” 81 Fed. Reg. at 38,829 (citing
§ 1912(e), (f)); see also 25 C.F.R. § 23.122(a) (specifying
expert qualifications). As a result, state agencies must
present the testimony of expert witnesses, with specific
qualifications, when they seek to place an Indian child in
foster care or terminate parental rights. See also
Brackeen, 937 F.3d at 443–44 (OWEN, J., dissenting in
part) (concluding § 1912(e) “places the burden on a State,
not a court, to present expert witness testimony in order
to effectuate foster care for Indian children”).
For instance, a Texas appellate court recently found
that the DFPS failed to justify terminating parental
rights under ICWA because “the Department failed to
produce testimony of a ‘qualified expert witness’ as
required under the Act.” S.P. v. Tex. Dep’t of Fam. &
Prot. Servs., No. 03-17-00698-CV, 2018 WL 1220895, at
*3 (Tex. App.—Austin Mar. 9, 2018, no pet.). Although
DFPS offered testimony by the child’s caseworker that
termination was in the child’s best interest, the court
concluded the caseworker did not have “the requisite

290a
expertise to satisfy the federal requirement.” Id. at *4.
For instance, the caseworker was not “recognized by the
Muscogee tribe,” nor did she have “substantial
experience in the delivery of child and family services to
Indians or knowledge of [the tribe’s] prevailing social
and cultural standards and childrearing practices.” Id. 100
The court therefore concluded the state agency failed to
meet the “qualified expert witness” requirement in
§ 1912(f) and reversed the termination of parental rights.
Id. at *4–5. 101
We conclude that § 1912(e) and (f) require state
agencies and officials to bear the cost and burden of
adducing expert testimony to justify placement of Indian
children in foster care, or to terminate parental rights.
The expert-witness requirements in § 1912(e) and (f)
therefore commandeer states.
iii. Placement preferences (§ 1915(a)–(d)). We also
conclude that the placement preferences in § 1915(a)–(d)
violate the anti-commandeering doctrine to the extent
they direct action by state agencies and officials. These
provisions require that, absent good cause, “preference
shall be given” to specific adoptive and foster placements
for an Indian child. 102 Insofar as these preferences
See 80 Fed. Reg. at 10,157 (ICWA guidelines providing, inter
alia, that a qualified expert “should have specific knowledge of the
Indian tribe’s culture and customs”).
101
See also, e.g., In re K.S., 448 S.W.3d 521, 539, 544–45 (Tex.
App.—Tyler 2014, pet. denied) (affirming state agency’s
termination of parental rights under ICWA based on testimony of a
“Cherokee Nation representative” who “was qualified as an expert
witness” under § 1912(f)).
102
See § 1915(a) (requiring adoptive preference in favor of (1)
extended family, (2) other tribe members; or (3) other Indian
families); § 1915(b) (requiring different foster-care preferences);
100

291a
constrain state courts, we examine below whether they
are valid preemption provisions. Quite apart from state
courts, however, the preferences appear to
independently demand efforts by state agencies and
officials.
ICWA’s regulations support this reading. The
placement preferences, they state, “create[ ] an
obligation on State agencies and courts to implement the
policy outlined in the statute” and “require that State
agencies and courts make efforts to identify and assist
extended family and Tribal members with preferred
placements.” 81 Fed. Reg. at 38,839 (emphases added).
These “State efforts to identify and assist preferred
placements are critical to the success of the statutory
placement preferences.” Id. at 38,839–40 (emphasis
added) (collecting decisions). Further confirming this
view, ICWA’s guidelines, see 80 Fed. Reg. 10,146, specify
duties that “[t]he agency seeking a preadoptive, adoptive
or foster care placement of an Indian child must always
follow.” 80 Fed. Reg. at 10,157 (emphases added). For
example, to justify deviating from the preferences, the
agency must prove that “a diligent search has been
conducted to seek out and identify placement options”—
including detailed notices to the parents or custodian,
“known, or reasonably identifiable” extended family, the
child’s tribe, and—for foster or preadoptive
placements—ICWA-specified institutions. Id. And, as
discussed, ICWA guidelines specify that the “agency”
that must undertake these efforts includes a “public

§ 1915(c) (tribes may re-order preferences); § 1915(d) (preference
decisions must accord with “prevailing social and cultural
standards” of pertinent Indian community).

292a
agency and their employees, agents or officials.” Id. at
10,151. 103
State decisions confirm that ICWA’s placement
preferences may result in demanding extensive actions
by state child welfare agencies. For example, in Native
Village of Tununak v. State, the Alaska Supreme Court
addressed the duties of the Alaska Office of Child
Services (“OCS”) to implement the placement
preferences. 334 P.3d 165, 177–78 (Alaska 2014). To
safeguard ICWA’s preferences, courts “must
searchingly inquire about . . . OCS’s efforts to comply
with achieving[] suitable § 1915(a) placement
preferences” and, in turn, OCS must “identify[] early in
a [child welfare proceeding] all potential preferred
adoptive placements.” Id. at 178. 104
In sum, to the extent the placement preferences in
§ 1915(a)–(d) require implementation efforts by state
103
Surprisingly, Tribal Defendants contend the preferences
apply “exclusively to state courts” and “are not mandates requiring
that state executive branch employees enforce federal law.” ICWA’s
regulations show the opposite is true.
104
See also, e.g., Alexandra K. v. Dep’t of Child Safety, No. 1
CA-JV 19-0081, 2019 WL 5258095, at *1 (Ariz. Ct. App. Oct. 17,
2019) (observing “[t]he [Arizona Department of Child Safety] case
manager testified DCS had not located any ICWA-compliant
placement and that the Navajo Nation had not suggested any”);
People in Interest of M.D., 920 N.W.2d 496, 503 (S.D. 2018) (noting
“[South Dakota Department of Social Services] workers also
testified during the dispositional hearing to their familiarity with
ICWA placement preferences, [and] their efforts to find a suitable
placement for all the children”); id. at 504 (concluding that “because
DSS explored the availability of a suitable placement for child with
a diligent search, but was unsuccessful, there was good cause for
departure from the placement preferences”) (quoting David S. v.
State, Dep’t of Health & Social Servs., 270 P.3d 767, 782 (Alaska
2012)) (cleaned up).

293a
agencies and officials, that violates the anticommandeering doctrine.
iv. Placement record (§ 1915(e); 25 C.F.R. §23.141).
We also conclude that the related placement-record
requirements in § 1915(e) commandeer states (along
with its implementing regulation in 25 C.F.R. § 23.141).
This provision requires “the State” to “maintain[ ] . . . [a]
record” of any Indian child placements under state law.
§ 1915(e). The record must “evidenc[e] the efforts to
comply with the order of preference specified in [§ 1915]”
and “shall be made available at any time upon the
request of the Secretary or the Indian child’s tribe.” Id.
In turn, the Final Rule specifies: (1) the record’s
minimum contents, 25 C.F.R. § 23.141(b); (2) that “[a]
State agency or agencies may be designated to be the
repositories for this information,” id. § 23.141(c), and (3)
that “[t]he State court or agency should notify the
[Bureau of Indian Affairs] whether these records are
maintained within the court system or by a State
agency,” id.
As then-JUDGE OWEN reasoned in her panel dissent,
these requirements commandeer states because they are
“direct orders to the States.” 937 F.3d at 444, 446 (OWEN,
J., dissenting in part). The statute and regulation each
command “the State” to create, compile, and maintain
the required record and furnish it upon request to the
child’s tribe or the Secretary. § 1915(e); 25 C.F.R.
§ 23.141(a). Furthermore, the regulations explain that
§ 1915(e) “work[s] in concert” with the placement
preferences to “require that State agencies and courts
make efforts to identify and assist extended family and
Tribal members with preferred placements.” 81 Fed.

294a
Reg. at 38,839. 105 Consequently, as JUDGE OWEN
correctly concluded, the placement-record requirements
offend “the very principle of separate state sovereignty”
because their “whole object . . . [is] to direct the
functioning of the state executive” in service of a federal
regulatory program. 937 F.3d at 445 (OWEN, J.,
dissenting in part) (quoting Printz, 521 U.S. at 932).
Tribal Defendants attempt to justify these
requirements as merely making states perform
administrative actions, such as “provid[ing] the federal
government with information.” See also Printz, 521 U.S.
at 918 (declining to address constitutionality of laws
“requir[ing] only the provision of information to the
Federal Government” by state officials). 106 But the
challenged provisions demand more than “provid[ing]
information.” The required record must not only compile
documents but also “evidenc[e]” the state’s “efforts to
comply” with ICWA’s placement preferences.
§ 1915(e). 107 The whole point is to help implement the

105
See also id. (explaining Congress intended “reading Sections
1915(a) and 1915(e) together” to “demand[ ] documentable ‘efforts
to comply’ with the ICWA placement preferences”).
106
JUDGE DENNIS also cites Printz, 521 U.S. at 905–06, for the
proposition that early federal laws required state courts to record
citizenship applications and transmit naturalization records.
DENNIS OP. at 86. But Printz did not decide whether those laws set
a constitutional precedent. See 521 U.S. at 918. And, even assuming
the recordkeeping obligations in § 1915(e) may be fulfilled by state
courts, those obligations go well beyond the early examples in
Printz. See also infra III(B)(2)(c) (discussing similar obligations
imposed on state courts by § 1951(a)).
107
See also 25 C.F.R. § 23.141(a), (b) (to justify departing from
preferences, record “must contain . . . detailed documentation of the
efforts to comply with the placement the State must maintain

295a
placement preferences”); 81 Fed. Reg. at 38,839
(“Section 1915(e) requires that, for each placement,
preferences, which, as explained, demand action by state
agencies. See also 81 Fed. Reg. at 38,839 (preferences
“create[] an obligation on State agencies and courts”).
More than an obligation to “provide information,” then,
§ 1915(e) demands states document the “forced
participation of the States’ executive in the actual
administration of a federal program.” Printz, 521 U.S. at
918. 108
v. Notice (§ 1912(a)). Finally, we find § 1912(a)
unconstitutional because it commandeers state agencies.
Under this section, any “party” seeking to place an
Indian child in foster care, or to terminate parental
rights, “shall notify the parent or Indian custodian and
the Indian child’s tribe, by registered mail with return
receipt requested, of the pending proceedings and of
records evidencing the efforts to comply with the order of
preference specified in section 1915.”).
108
JUDGE DENNIS sees no commandeering because the
regulation implementing § 1915(e) “permits states to designate
either their courts or agencies . . . as the entities charged with
complying with” the requirement. DENNIS OP. at 87; see 25 C.F.R.
§ 23.141(c) (allowing designation of “[a] State agency or agencies”
as “repository for this information”); id. (requiring “State court or
agency” to notify BIA whether records are kept “within the court
system or by a State agency”). We disagree. Whatever option the
state chooses, either its agencies or its courts are co-opted into
administering a federal program. JUDGE DENNIS’s premise seems
to be that requiring state courts to implement § 1915(e) would not
be commandeering. That is mistaken. As explained below, forcing
state courts to administer a federal recordkeeping regime violates
anti-commandeering just as much as forcing agencies to do it. See
infra III(B)(2)(c) (addressing recordkeeping requirement in
§ 1951(a)).

296a
their right of intervention.” Id. 109 The regulations
describe this as “one of ICWA’s core procedural
requirements in involuntary child-custody proceedings.”
81 Fed. Reg. at 38,809. It applies to state agencies. See
id. at 38,792 (“any party” in § 1912(a) includes
“governmental organizations”). 110 The provision thereby
imposes detailed 111 obligations on state agencies, which
the Final Rule concedes will consume significant time
and money. 112
As explained, the anti-commandeering doctrine
forbids Congress from imposing administrative duties on
If the identity or location of the parent, custodian, or tribe
cannot be determined, “such notice shall be given to the Secretary
in like manner, who shall have fifteen days after receipt to provide
the requisite notice.” Id. The proceeding may not commence until
ten days after receipt of notice by the parent, custodian, tribe, or
the Secretary. Id.
110
See also, e.g., In re Morris, 815 N.W.2d 62, 72–76, 83 (Mich.
2012) (discussing § 1912(a) notice requirement and conditionally
reversing order based on failure of court to ensure that state
Department of Human Services notified child’s tribe); In re Desiree
F., 99 Cal. Rptr. 2d 668, 696 (Cal. Ct. App. 2000) (finding it was “the
duty of the Fresno County Department of Social Services to notify
the Tribe or the Secretary” and invalidating court orders due to “the
failure of the respective county welfare agencies and juvenile courts
to comply with the clear provisions of the ICWA”).
111
See, e.g., 25 C.F.R. § 23.111(a)(1), (c) (court must ensure
“party seeking placement” sends notice “by registered or certified
mail with return receipt requested”); id. § 23.111(d)(1)–(6) (14
different statements that must appear in notice); id. § 23.111(e) (if
parent, custodian, or tribe not ascertainable, requiring notice to
BIA, including “as much information as is known regarding the
child’s direct lineal ancestors”).
112
81 Fed. Reg. at 38,863 (estimating at 81,900 the “[t]otal
annual burden hours” for “State court[s] and/or agenc[ies]” to
provide notices); id. at 38,864 (estimating at $260,442 the “annual
cost burden” of providing required notices).
109

297a
state agencies and officials. See, e.g., New York, 550 U.S.
at 176, 188 (Congress cannot issue “a simple command to
state governments to implement legislation enacted by
Congress,” nor “compel the States to enact or administer
a federal regulatory program”). Because that is what
§ 1912(a) does, it is unconstitutional.
b. ICWA does not “evenhandedly

regulate” state and private activity.
Defendants’
principal
response
on
anticommandeering is to invoke the principle that the
doctrine “does not apply when Congress evenhandedly
regulates an activity in which both States and private
actors engage.” Murphy, 138 S. Ct. at 1478. For instance,
they point out that private parties, as well as state
agencies, may seek to be appointed as a child’s guardian
or conservator or to terminate parental rights. Similarly,
JUDGE DENNIS observes that some of the challenged
provisions (notice and active efforts) refer to “any party”
seeking placement or termination, and thus apply
“regardless of whether that party is a state agent or
private individual.” See § 1912(a), (d); DENNIS OP. at 94.
In advancing this argument, both Tribal Defendants and
JUDGE DENNIS rely heavily on South Carolina v. Baker,
485 U.S. 505 (1988), and Reno v. Condon, 528 U.S. 141
(2000). DENNIS OP. at 92–93. They are right to do so,
because those decisions undergird the “evenhanded
regulation” principle. See Murphy, 138 S. Ct. at 1478–79
(discussing Baker and Condon). But examining those
decisions shows the principle does not apply to ICWA.
Baker involved a federal law denying a tax exemption
to interest earned on state and local bonds issued in
unregistered (“bearer”) form. 485 U.S. at 510. The law
treated private bonds similarly. Id. The Supreme Court

298a
rejected South Carolina’s argument that the law
commandeered states by coercing them to enact and
administer a registered bond scheme. Id. at 513–14. At
most, the law “effectively prohibit[ed]” states from
issuing bearer bonds pursuant to a “‘generally
applicable’” law treating state and private bonds equally.
Id. at 514 (citation omitted). The Court emphasized that
the challenged law “d[id] not . . . seek to control or
influence the manner in which States regulate private
parties.” Id. Relying on Baker, Condon rejected South
Carolina’s commandeering challenge to a federal law
restricting state DMVs from disclosing drivers’ personal
information. 528 U.S. at 144. The law also restricted
private disclosure and resale of such information. Id. at
146. Distinguishing its commandeering decisions in New
York and Printz, the Court explained that, here, the
challenged law “d[id] not require the States in their
sovereign capacity to regulate their own citizens,” did
not require state legislatures to enact any laws, and
“d[id] not require state officials to assist in the
enforcement of federal statutes regulating private
individuals.” Id. at 151. Additionally, the law regulated
states only as “the owners of data bases,” and as part of
“the universe of entities that participate as suppliers to
the market for motor vehicle information.” Id.
For two main reasons, the “evenhanded regulation”
principle from Baker and Condon has no application
here. First, the laws challenged in those cases, unlike
ICWA, did not compel states “to regulate their own
citizens.” Condon, 528 U.S. at 151; see also Murphy, 138
S. Ct. at 1479. ICWA emphatically does. As explained,
ICWA requires state agencies to provide remedial
services to Indian families (§ 1912(d); 25 C.F.R. § 23.2;

299a
81 Fed. Reg. at 38,814); to adduce expert witness
testimony (§ 1912(e), (f); 25 C.F.R. § 23.122(a); 81 Fed.
Reg. at 38,829); to assist Indian families and tribes with
preferred placements (§ 1915(a)–(d); 81 Fed. Reg. at
38,839–40); to compile records evidencing efforts to
comply with placement preferences (§ 1915(e); 25 C.F.R.
§ 23.141); and to provide detailed notices to parents,
custodians, and tribes (§ 1912(a); 25 C.F.R. § 23.111).
This is especially evident as to the placement
preferences: ICWA “creates an obligation on State
agencies and courts to implement” the preferences by
“mak[ing] efforts to identify and assist extended family
and Tribal members.” 81 Fed. Reg. at 38,839 (emphasis
added). These efforts are “critical to the success of the
statutory placement preferences.” Id. at 38,839–40. The
fact that ICWA imposes “critical” duties on state actors
concerning private persons sets it worlds apart from the
tax law in Baker (which, at most, effectively prohibited
states from issuing bearer bonds) and the privacy law in
Condon (which restricted agency disclosure of drivers’
information). Instead, ICWA fits Condon’s description of
laws that commandeer states by “requir[ing] state
officials to assist in the enforcement of federal statutes
regulating private individuals.” Condon, 528 U.S. at 151.
Second, unlike the laws in Baker and Condon, ICWA
regulates states “in their sovereign capacity.” Condon,
528 U.S. at 151; see also Murphy, 138 S. Ct. at 1478. In
Baker and Condon, Congress regulated states as
participants in the bond market (Baker, 485 U.S. at 510)
and the “market for motor vehicle information” (Condon,
528 U.S. at 151). Because private parties also
participated in those markets, and were treated
similarly, those decisions could speak of Congress

300a
“evenhandedly regulat[ing] an activity in which both
States and private parties engage.” Murphy, 138 S. Ct.
at 1479. ICWA is a different animal. It regulates states,
not as market participants, but as sovereigns fulfilling
their “duty of the highest order to protect the interests
of minor children, particularly those of tender years.”
Palmore, 466 U.S. at 433. The contrast with regulating
state participation in bond or data markets could hardly
be greater. As State Plaintiffs correctly observe, “child
welfare is not a market regulated by Congress in which
public and private actors participate,” but is instead “the
sovereign obligation of the States.” Once again, ICWA’s
regulations clinch the point: they assert that ICWA
balances federal interests in Indian families and tribes
“with the States’ sovereign interest in child-welfare
matters.” 81 Fed. Reg. at 38,789 (emphasis added).
JUDGE DENNIS responds that, because certain ICWA
provisions may apply to private parties as well as state
agencies, this triggers the Baker/Condon “evenhanded
regulation” principle. DENNIS OP. at 93–101. We
disagree. First, this view overlooks that Baker and
Condon do not apply to a federal law that regulates
states as sovereigns 113 and compels them to regulate

JUDGE DENNIS suggests that Condon addressed a law
regulating states as sovereigns, and not as market participants,
because “regulation of motor vehicles . . . is a quintessential state
function.” DENNIS OP. at 98. We disagree. Congress enacted the
privacy law in Condon because it “found that many States . . . sell
[drivers’] personal information to individuals and businesses,” 528
U.S. at 143, just as “private persons” do, id. at 146. The law thus
“regulate[d] the States as the owners of data bases,” not as
sovereigns. Id. at 151.
113

301a
private parties. 114 Baker, 485 U.S. at 514; Condon, 528
U.S. at 151; see also Murphy, 138 S. Ct. at 1479. ICWA
does both. Second, JUDGE DENNIS’s view mistakes the
“activity” ICWA regulates. Cf. Murphy, 138 S. Ct. at
1478 (considering “an activity in which both States and
private actors engage”). ICWA directly regulates state
“child custody proceeding[s].” § 1903(1). This is not
regulation of an “activity” states engage in alongside
private actors, like bond issuance or data sharing.
Instead, this is regulation of state administrative and
judicial “proceedings” in service of a federal regulatory
goal. The anti-commandeering doctrine forbids that. 115
We disagree with JUDGE DENNIS that the duties imposed on
state employees by the federal law in Condon are anything like
ICWA’s commandeering of state agencies. See DENNIS OP. at 98. In
Condon, state DMV employees had to spend “time and effort” to
“learn and apply” the patchwork of federal restrictions on disclosing
driver information. 528 U.S. at 144–45, 150. But the employees were
“not require[d] . . . to assist in the enforcement of [the] federal
statute[].” Id. at 151. ICWA, by contrast, requires state agencies to
“implement” the heart of the law—placement preferences—by
“identify[ing] and assist[ing]” potential placements. 81 Fed. Reg. at
38,839–40; see also id. at 38,839 (stating the preferences “create[ ]
an obligation on State agencies and courts to implement the policy
outlined in the statute”) (emphasis added). JUDGE DENNIS also
misunderstands our point that state agencies’ role here is “critical.”
See DENNIS OP. at 97 n.43. The point is not that commandeering
depends on whether the state actor’s forced action is “critical” or
“trivial.” Rather, the point is that ICWA’s regulations describe state
agencies as playing a “critical” role in “implement[ing]” the law, see
81 Fed. Reg. at 38,839–40, a telltale sign that the agencies are being
“compel[led] . . . to . . . administer a federal regulatory program,”
New York, 505 U.S. at 188.
115
See New York, 505 U.S. at 178 (explaining “Congress . . . may
not conscript state governments as its agents”); Murphy, 138 S. Ct.
at 1479 (Congress cannot “regulate the States’ sovereign authority
to ‘regulate their own citizens’”) (quoting Condon, 528 U.S. at 151)).
114

302a
Third, under JUDGE DENNIS’s view, Congress could
conscript state officials into a federal program, provided
it requires private actors to participate too. The anticommandeering cases do not support that view. The
salient question, rather, is whether a federal law
requires state officials to act “in their official capacity” to
implement a federal program. See Printz, 521 U.S. at 932
n.17 (Brady Act did not “merely require [state officers]
to report information in their private possession” but
instead to do so “in their official capacity”). ICWA does
so. That parts of ICWA may also compel private parties
does not dilute the fact that ICWA “compel[s] the States
to . . . administer a federal regulatory program.” New
York, 505 U.S. at 188. 116
2. Preemption
We now consider whether the challenged ICWA
provisions do not commandeer states but are, instead,
valid preemption provisions. See Murphy, 138 S. Ct. at
1479 (considering whether PASPA § 3702(1) was “a valid
preemption provision”). The district court ruled
As part of his argument that certain sections of ICWA are
“evenhanded” (and therefore do not commandeer states), JUDGE
DENNIS also finds that these sections are “necessarily ‘best read’ as
pertaining to private actors.” DENNIS OP. at 99. But this argument
grafts onto commandeering a preemption principle—namely, that a
federal law preempts only if it is “best read as one that regulates
private actors.” Murphy, 138 S. Ct. at 1479. JUDGE DENNIS cites no
authority for the proposition that the two analyses may be blended
into one. Moreover, the most recent Supreme Court decision
addressing commandeering and preemption—Murphy—treats the
two analyses separately. See 138 S. Ct. at 1478–79
(commandeering); id. at 1479–81 (preemption). We will therefore
follow the Supreme Court and address the “best read” issue under
preemption, not commandeering.
116

303a
preemption could not save any of those provisions
because they “directly command states” and not
“‘private actors.’” Brackeen, 338 F. Supp. 3d at 541
(quoting Murphy, 138 S. Ct. at 1481). On appeal,
Defendants argue the challenged provisions confer
federal rights on Indian children, families, and tribes
that preempt conflicting state laws.
“Preemption doctrine reflects the basic concept,
grounded in the Supremacy Clause, that federal law can
trump contrary state law.” Butler v. Coast Elec. Power
Ass’n, 926 F.3d 190, 195 (5th Cir. 2019) (citing Arizona
v. United States, 567 U.S. 387, 398–99 (2012)). This
occurs when federal law conflicts with state law,
expressly preempts state law, or excludes state
legislation by occupying an entire field. See Murphy, 138
S. Ct. at 1480 (identifying “three different types of
preemption—‘conflict,’ ‘express,’ and ‘field’”) (citation
omitted). 117 To have any kind of preemptive effect,
however, a federal law must meet two conditions: it (1)
“must represent the exercise of a power conferred on
Congress by the Constitution,” and (2) must be “best
read” as a law that “regulates the conduct of private
actors, not the States.” Murphy, 138 S. Ct. at 1479,
1481. 118
At the outset, we note that ICWA implicates
“conflict” preemption only. ICWA lacks an express
See also generally City of El Cenizo, Tex. v. Texas, 890 F.3d
164, 176–81 (5th Cir. 2018) (field and conflict preemption); Franks
Inv. Co., LLC v. Union Pac. R. Co., 593 F.3d 404, 407–08 (5th Cir.
2010) (express preemption).
118
See also Alden, 527 U.S. at 731 (explaining “the Supremacy
Clause enshrines as ‘the supreme Law of the Land’ only those
Federal Acts that accord with the constitutional design”) (citing
Printz, 521 U.S. at 924).
117

304a
preemption clause and no one contends ICWA occupies
the field of Indian child-custody proceedings. 119 We also
note that various ICWA provisions potentially conflict
with state laws. 120 For instance, ICWA grants an
indigent parent the right to appointed counsel, § 1912(b),
which may exceed some state guarantees. ICWA also
grants a child’s tribe the right to intervene, § 1911(c), a
right not automatically granted by some state laws.
Substantively, ICWA imposes an onerous standard for
terminating parental rights—proof “beyond a
reasonable doubt” that continued custody “is likely to
result in serious emotional or physical damage to the
child.” § 1912(f). States, by contrast, generally allow
termination based on “clear and convincing evidence”
that a parent has committed certain offenses and that
termination is in “the best interest of the child.” See, e.g.,
TEX. FAM. CODE § 161.001(b)(1), (2). 121 ICWA’s
placement preferences may also conflict with state
standards, under which placements depend on the child’s

See, e.g., In re A.B., 245 P.3d 711, 718–19 (Utah 2010) (ICWA
does not implicate express or field preemption); In re W.D.H., 43
S.W.3d 30, 35–36 (Tex. App.—Houston [14th Dist.] 2001, pet.
denied) (ICWA implicates only conflict preemption).
120
See generally New Mexico v. Mescalero Apache Tribe, 462
U.S. 324, 333–34 (1983) (discussing special considerations governing
preemption of state law by “federal and tribal interests”) (and
collecting decisions).
121
See also, e.g., In re W.D.H., 43 S.W.3d at 37, 36 (explaining
Texas law “is based on the ‘Anglo’ standard for determining the best
interest of the child,” which is “‘notably different’” from ICWA’s
termination standard) (first quoting Doty-Jabbaar, 19 S.W.3d at
877); and then citing Yavapai-Apache Tribe, 906 S.W.2d at 168).
119

305a
best interests. 122 Such conflicts, while not inevitable, 123
should come as no surprise. Whereas states seek only to
promote a child’s best interests, ICWA also seeks to
“promote the stability and security of Indian tribes and
families.” § 1902.
With that background in mind, we proceed to the
preemption analysis. We assume for purposes of this
part only that ICWA is a valid exercise of Congress’s
power. See Murphy, 138 S. Ct. at 1479. We therefore
focus on whether the challenged provisions are “best
read” as regulating private instead of state actors. Id.
a. The provisions that regulate private
actors are valid preemption provisions.
Contrary to the district court’s ruling, see Brackeen,
338 F. Supp. 3d at 541, we conclude that several
provisions of ICWA are valid preemption provisions
because they are best read as regulating private actors.
For example, ICWA gives a child’s Indian custodian and
tribe the “right to intervene at any point” in a state court
foster care or termination proceeding. § 1911(c). An
indigent parent or Indian custodian has “the right to
court-appointed counsel” in certain proceedings.

Compare 81 Fed. Reg. at 38,840 (explaining “[ICWA]
requires that States apply a preference for the listed placement
categories” in § 1915), with TEX. FAM. CODE § 162.016(b) (court
shall grant adoption if “the adoption is in the best interest of the
child”); LA. CHILD. CODE arts. 1217(B), 1255(B) (the court’s “basic
consideration” in adoption decree “shall be the best interests of the
child”).
123
See, e.g., In re A.B., 245 P.3d at 720–21 (tribe’s right to seek
invalidation under § 1914 does not conflict with state notice-ofappeal requirements).
122

306a
§ 1912(b). 124 Any party has “the right to examine all
reports or other documents” filed in proceedings.
§ 1912(c). ICWA also confers various parental rights in
voluntary termination proceedings, such as the right to
have the terms of consent “fully explained in detail” and
in comprehensible language (§ 1913(a)); the right to
withdraw consent to a placement at any time or to a
termination or adoption prior to final decree (§ 1913(b),
(c)); and the right to withdraw consent based on “fraud
or duress” up to two years after an adoption decree
(§ 1913(d)). An Indian child, parent, custodian, or tribe
may seek invalidation of a placement or termination
action based on a violation of sections 1911, 1912, and
1913. § 1914. Additionally, a “biological parent” or prior
Indian custodian may petition for return of custody when
an adoption is set aside or the adoptive parents consent.
§ 1916(a). Finally, upon reaching age 18, an adopted
Indian may obtain from the court information about his
birth parents’ “tribal affiliation,” along with other
information “necessary to protect any rights flowing
from [his] tribal membership.” § 1917.
The district court held none of the challenged
provisions—including these—could validly preempt
state law because they “directly command states.”
Brackeen, 338 F. Supp. 3d at 541. We disagree as to the
provisions discussed above, which are best read to
address private actors, not states. We therefore conclude
those provisions (§§ 1911(c); 1912(b); 1913, 1914, 1916(a),

JUDGE JONES does not agree that § 1912(b) is a valid
preemption provision and so does not join this part to the extent it
concludes otherwise.
124

307a
and 1917 125) are valid preemption provisions. 126 See
Haywood v. Drown, 556 U.S. 729, 736 (2009) (explaining
states “lack authority to nullify a federal right or cause
of action”).
b. The provisions that command state agency

action are not valid preemption provisions.

Conversely, we conclude that the provisions of ICWA
discussed in the commandeering part are not valid
preemption provisions. They are best read as regulating
states, not private actors. Murphy, 138 S. Ct. at 1479.

State Plaintiffs suggest that, by requiring an adult adoptee
be informed of his birth parents’ tribal affiliation, § 1917 improperly
imposes on courts a “non-judicial obligation[].” We disagree. The
right granted by § 1917 resembles rights recognized in various state
laws providing courts may unseal adoption records upon request of
adoptees. See generally Shannon Clark Kief, Annotation,
Restricting Access to Judicial Records of Concluded Adoption
Proceedings, 103 A.L.R. 5th 255 (2002) (collecting and analyzing
cases). JUDGE DENNIS argues that, if § 1917 creates a preemptive
right (as we conclude), then so does the placement-record provision
in § 1915(e). DENNIS OP. at 89 n.39. We disagree. Unlike § 1917,
§ 1915(e) imposes a detailed recordkeeping regime on states
designed to implement the placement preferences. See supra
III(B)(1)(a)(iv).
126
See, e.g., In re J.L.T., 544 S.W.3d 874, 879 (Tex. App.—El
Paso 2017, no pet.) (§ 1911(c) preempts state rule requiring tribe to
file written pleading to intervene); Dep’t of Human Servs. v. J.G.,
317 P.3d 936, 944 (Or. Ct. App. 2014) (§ 1914 preempts Oregon
“preservation rule”); In re K.B., 682 N.W.2d 81, 2004 WL 573793, at
*3 (Iowa Ct. App. 2004) (table) (concluding “when a tribe has a
statutory right of intervention under ICWA, state-law doctrines of
estoppel may not be applied to deprive it of that right”); State ex rel.
Juvenile Dept. of Lane Cnty. v. Shuey, 850 P.2d 378, 379–81 (Or. Ct.
App. 1993) (tribe’s right of intervention in § 1911(c) preempts state
laws requiring tribe be represented by attorney).
125

308a
In our commandeering discussion, supra III(B)(1),
we considered ICWA’s provisions requiring active
efforts (§ 1912(d)), expert witnesses (§ 1912(e), (f)),
placement preferences (§ 1915(a)–(d)), placement
records (§ 1915(e)), and notice (§ 1912(a)). We found
these provisions impose duties on state agencies to
provide remedial services to Indian families (§ 1912(d);
25 C.F.R. § 23.2; 81 Fed. Reg. at 38,814); to adduce
expert witness testimony (§ 1912(e), (f); 25 C.F.R.
§ 23.122(a); 81 Fed. Reg. at 38,829); to assist Indian
families and tribes with preferred placements (§ 1915(a)–
(d); 81 Fed. Reg. at 38,839–40); to compile records
evidencing efforts to comply with placement preferences
(§ 1915(e); 25 C.F.R. § 23.141); and to furnish notice to
parents, custodians, and tribes (§ 1912(a)). We therefore
concluded
these
provisions
transgress
the
commandeering rule.
That also means they are not valid preemption
provisions. “[E]very form of preemption is based on a
federal law that regulates the conduct of private actors,
not the States.” Murphy, 138 S. Ct. at 1481. These
provisions regulate, not private persons, but the conduct
of state agencies and officials. They therefore cannot
validly preempt conflicting state law. See, e.g., Printz,
521 U.S. at 935 (explaining a federal “command [to] the
States’ officers . . . to administer or enforce a federal
regulatory program” is “fundamentally incompatible
with our constitutional system of dual sovereignty”).
Federal Defendants respond that these provisions
merely grant Indian children and parents “federally
conferred rights,” which “may constrain state childprotection agencies” but do not “directly regulate[ ]
States.” We disagree. As we have explained at length,

309a
these provisions do not merely “constrain” state
agencies but, instead, require state agencies to
undertake extensive actions. See supra III(A)(1). Thus,
it is immaterial whether they can somehow be
characterized, through verbal legerdemain, as securing
“federally conferred rights.” 127 The salient point is that
“[t]here is no way in which th[ese] provision[s] can be
understood as a regulation of private actors.”
Murphy, 138 S. Ct. at 1481 (emphasis added). They
instead regulate state agencies, which means they
commandeer states and cannot have valid preemptive
effect. See, e.g., New York, 505 U.S. at 178 (“Where a
federal interest is sufficiently strong to cause Congress
to legislate, it must do so directly; it may not conscript
state governments as its agents.”).
c. The placement preferences, placement standards,

and termination standards are valid preemption
provisions for state courts. The recordkeeping
requirement is not.

The district court ruled that certain ICWA provisions
were not valid preemption provisions because they
require state courts to “incorporat[e] federal standards
that modify state created causes of action.” Brackeen,
338 F.Supp.3d at 539, 542. The court focused on ICWA’s
requirement that courts apply the § 1915 placement
preferences, which it characterized as “a direct
For instance, Federal Defendants awkwardly re-cast
§ 1912(d) as securing to Indian children “the right not to be placed
in foster care . . . without proof that ‘active efforts have been made
to provide remedial services and rehabilitative programs.’” This
overlooks the key point that the provision “require[s] States to
affirmatively provide Indian families with substantive services.” 81
Fed. Reg. at 38,791.
127

310a
command from Congress to the states.” Id. at 540. More
broadly, the court concluded that whenever ICWA
commands courts to apply “federal standards” in state
causes of action, it commandeers states and does not
validly preempt state law. Id. at 541. On appeal,
Defendants argue that the district court’s rationale
failed to account for the “well established power of
Congress to pass laws enforceable in state courts,” which
those courts must apply under the Supremacy Clause.
See, e.g., New York, 505 U.S. at 178.
To resolve this question, we first review some
background principles. The Supremacy Clause binds
state courts of competent jurisdiction, save in narrow
circumstances, to adjudicate federal causes of action.
See, e.g., Haywood, 556 U.S. at 734–36; Howlett v. Rose,
496 U.S. 356, 367–75 (1990); Testa v. Katt, 330 U.S. 386,
394–95 (1947). 128 This obligation sometimes includes
applying federal procedural rules connected with the
federal action. See, e.g., Dice v. Akron, Canton &
Youngstown R.R., 342 U.S. 359, 363 (1952) (state court
required to apply FELA jury-trial right despite state
rule requiring court to make certain findings); Cent. Vt.
Ry. Co. v. White, 238 U.S. 507, 512 (1915) (state court
required to apply FELA burden of proof despite
contrary state rule). Additionally, a state procedural rule
may be preempted if it interferes with a federal cause of
action. See, e.g., Felder v. Casey, 487 U.S. 131, 147-150
This rule does not apply “only in two narrowly defined
circumstances: first when Congress expressly ousts state courts of
jurisdiction; and second, when a state court refuses jurisdiction
because of a neutral state rule regarding the administration of the
courts.” Haywood, 556 U.S. at 735 (internal quotation marks and
citations omitted).
128

311a
(1988) (state notice-of-injury prerequisite preempted in
§ 1983 actions); Brown v. W. Ry. of Ala., 338 U.S. 294,
298–99 (1949) (state pleading rule barred because it
interfered with federal rights). By contrast, however, no
authority supports the proposition that Congress may
prescribe procedural rules for state-law claims in state
courts. See, e.g., Felder, 487 U.S. at 138 (recognizing the
“unassailable proposition . . . that States may establish
the rules of procedure governing litigation in their own
courts”); Suesz v. Med-1 Solutions, LLC, 757 F.3d 636,
651 (7th Cir. 2014) (Sykes, J., concurring) (“[I]t’s
doubtful that Congress has the power to prescribe
procedural rules for state-law claims in state courts.”)
(citing, inter alia, Anthony Bellia, Jr., Federal
Regulation of State Court Procedures, 110 YALE L. J.
947 (2001)).
The question we address here fits neatly into none of
these categories. ICWA creates no federal cause of
action state courts must enforce. Nor does ICWA enact
federal procedural rules that state courts must prefer
over their own procedures. Nor does ICWA impose
procedural rules for state-law claims in state courts. 129
That, as noted, would likely be a bridge too far. Instead,
Jinks v. Richland County, 538 U.S. 456 (2003), does not
support the proposition that Congress may impose procedural rules
on state claims in state courts. Jinks upheld Congress’s authority to
toll state limitations periods for state-law claims while removed to
federal court under supplemental jurisdiction. Id. at 459, 462–63; see
28 U.S.C. § 1367(d). The Court rejected the argument that this rule
violated state sovereignty by regulating state-court “procedure,”
because “tolling of limitations periods falls on the ‘substantive’ side
of the line.” 538 U.S. at 464–65. The Court disclaimed any holding
that “Congress has unlimited power to regulate practice and
procedure in state courts.” Id. at 465.
129

312a
ICWA enacts substantive child-custody standards
applicable in state child-custody proceedings. For
instance, ICWA requires courts to place Indian children
with certain persons (§ 1915), and also requires courts to
make specific findings under a heightened standard of
proof before an Indian child may be placed in a foster
home or his parents’ rights terminated (§ 1912(e) and
(f)).
To the extent those substantive standards compel
state courts (as opposed to state agencies), we conclude
they are valid preemption provisions. As already
discussed, the Supremacy Clause requires state courts
to apply validly enacted federal law. See Printz, 521 U.S.
at 907; New York, 505 U.S. at 178–79. The Supreme
Court has ruled that federal standards may supersede
state standards even in realms of traditional state
authority such as family and community property law.
See, e.g., Boggs v. Boggs, 520 U.S. 833 (1997); McCarty v.
McCarty, 453 U.S. 210 (1981); Hisquierdo v. Hisquierdo,
439 U.S. 572 (1979); see also Egelhoff v. Egelhoff ex rel.
Briener, 532 U.S. 141, 151–52 (2001) (observing “we have
not hesitated to find state family law pre-empted when it
conflicts with ERISA”) (citing Boggs, 520 U.S. at 833).
For instance, Egelhoff held ERISA preempted a state
probate rule and so dictated, contrary to state law, the
beneficiaries of pension and insurance proceeds. 532 U.S.
at 147–50. Similarly, McCarty held a federal military
benefits law preempted state community property rules,
thus altering the property division upon divorce. 453 U.S.
at 223–35. And, more recently, Hillman v. Maretta held
that a federal law setting the “order of precedence” for
paying federal life-insurance benefits preempted a state

313a
cause of action that directed the benefits to another
person. 569 U.S. 483, 491–94 (2013).
This preemption rule embraces some of the ICWA
provisions challenged here. Specifically, ICWA’s
substantive standards requiring state courts to observe
placement preferences (§ 1915) and make placement or
termination findings (§ 1912(e) and (f)) are valid
preemption provisions. The district court’s view that
these standards “modify state created causes of action,”
Brackeen, 338 F.Supp.3d at 539, is a matter of
terminology not legal analysis: whenever a federal
standard supersedes a state standard, the federal
standard can be said to “modify a state created cause of
action.” In McCarty, for instance, the federal benefits
law could be said to “modify” a state cause of action for
dividing marital property. McCarty, 453 U.S. at 223–35.
The same for Hillman, where the preempted state law
“interfere[d]” with the federal scheme “by creating a
[state] cause of action” directing proceeds to
beneficiaries other than those specified by federal law.
569 U.S. at 494.
In any event, instead of casting preemption in terms
of whether federal law “modifies” a state cause of action,
the Supreme Court has put the analysis more
straightforwardly: “[S]tate law is naturally preempted to
the extent of any conflict with a federal statute.” Crosby
v. Nat’l Foreign Trade Council, 530 U.S. 363, 373 (2000);
see also, e.g., Arizona, 567 U.S. at 399 (“[S]tate laws are
preempted when they conflict with federal law.”). If
ICWA’s placement preferences apply in a state
proceeding, preemption means a state court must prefer

314a
them to conflicting state standards. 130 But “this sort of
federal ‘direction’ of state judges is mandated by the text
of the Supremacy Clause,” and so is not commandeering.
New York, 505 U.S. at 178–79. 131
We reach a different conclusion, however, as to
§ 1951(a), which requires state courts to provide the
Secretary with a copy of an Indian child’s final adoption
decree, “together with . . . other information.” The
district court held this provision unconstitutional,
casting it as part of ICWA’s command to states to
“administer” a federal regulatory program. Brackeen,
338 F.Supp.3d at 541-42. On appeal, Defendants argue
the provision is merely an “information-sharing”
requirement the Supreme Court all but approved in
Printz. We disagree. Printz left open whether requiring
“the provision of information to the Federal
Government” amounts to commandeering. See 521 U.S.
at 918 (noting “we . . . do not address” that issue because
it is “not before us”). As State Plaintiffs point out,
however, § 1951(a) makes state courts do more than
share information. The provision spearheads a
Elsewhere in this opinion, we conclude the § 1915 placement
preferences violate the equal protection component of the Fifth
Amendment. See supra III(A)(2), (3). Our discussion in this Part of
the preemptive effect of those preferences is separate from and
independent of our holding that the preferences violate the Fifth
Amendment.
131
State Plaintiffs worry that this principle would permit
Congress “to prescribe sentences for state-law drug offenses, or to
require imposition of strict liability in auto-accident cases.” We
think not. We cannot fathom where Congress would get the power
to do those things. Here, we have assumed—for this part only—that
Congress has the power to enact ICWA. But see supra II
(separately concluding Congress lacks power to enact ICWA to
extent it governs state proceedings).
130

315a
“recordkeeping” regime that demands state courts (1)
transmit to the Secretary a variety of information, see 25
C.F.R. § 23.140; 132 (2) maintain a specified “record” of
every Indian child placement, see id. § 23.141(a), (b); 133
and (3) “make the record available within 14 days of a
request” by the tribe or Secretary, id. § 23.141(a). States
have the option of designating either their courts or
agencies as the “repository” for this information. Id.
§ 23.141(c). The regulations estimate complying with this
regime will consume large amounts of state court and
agency resources every year. See 81 Fed. Reg. at 38,863.
Unlike the other provisions discussed in this part,
§ 1951(a) is not a substantive child-custody standard
state courts must apply under the Supremacy Clause.
Rather, the provision imposes an extensive
recordkeeping obligation directly on state courts and
agencies. This is not a valid preemption provision
because it regulates the conduct of states, not private
actors. Cf. Murphy, 138 S. Ct. at 1481 (explaining “every
form of preemption is based on a federal law that
regulates the conduct of private actors, not the States”).
By conscripting state courts and agencies into
The information pertains to the child’s tribal affiliation, the
names and addresses of the child’s birth and adoptive parents, and
“the identity of any agency having files or information relating to
such adoptive placement.” § 1951(a)(1)–(4); see also 25 C.F.R.
§ 23.140(a)(1)–(6) (detailing additional requirements).
133
“The record must contain, at a minimum, the petition or
complaint, all substantive orders entered in the child-custody
proceeding, the complete record of the placement determination
(including, but not limited to, the findings in the court record and
the social worker’s statement), and, if the placement departs from
the placement preferences, detailed documentation of the efforts to
comply with the placement preferences.” Id. § 23.141(b).
132

316a
administering this system, § 1951(a) violates the
principle that “Congress cannot compel the States to
enact or enforce a federal regulatory program.” Printz,
521 U.S. at 935. We therefore hold that § 1951(a) violates
the commandeering doctrine and is not a valid
preemption provision.
***
Summing up part III, we find the following provisions
unconstitutional to the extent they command state
agencies (supra III(B)(1)(a), (B)(2)(c)):
• The active-efforts requirement in § 1912(d)
• The expert-witness requirement in § 1912(e) and (f)
• The placement preferences in § 1915(a) and (b)
• The placement-record requirement in § 1915(e)
• The notice requirement in § 1912(a)
• The recordkeeping requirement in § 1951(a).
We also conclude that none of these are valid
preemption provisions (supra III(B)(2)(b)).
On the other hand, we find the following are valid
preemption provisions (supra III(B)(2)(a), (c)):
• The right to intervene in § 1911(c)
• The right to appointed counsel in § 1912(b)
• The right to examine reports and documents in
§ 1912(c)
• The right to withdraw consent in § 1913(b) and (c)
• The right to collaterally attack a decree in
§ 1913(d)
• The right to petition to invalidate a decree in
§ 1914
• The right to petition for return of custody in
§ 1916(a)
• The right to obtain tribal affiliation information in
§ 1917

317a
• Courts’ obligation to apply the placement
preferences in § 1915
• Courts’ obligation to apply the placement and
termination standards in § 1912(e) and (f).
C. Nondelegation
We now consider whether ICWA § 1915(c)
unconstitutionally delegates legislative power to Indian
tribes. As discussed, ICWA establishes preferences for
placements of Indian children. See § 1915(a), (b). Section
1915(c) empowers tribes to reorder those preferences:
In the case of a placement under subsection (a)
or (b) of this section, if the Indian child’s tribe
shall establish a different order of preference by
resolution, the agency or court effecting the
placement shall follow such order so long as the
placement is the least restrictive setting
appropriate to the particular needs of the child,
as provided in subsection (b) of this section.
§ 1915(c). ICWA’s regulations confirm that a tribe’s
rewritten preferences trump the order established by
Congress. 134
The district court ruled § 1915(c) and its
implementing regulations violate the nondelegation
doctrine for two reasons. First, the court held that
See 25 C.F.R. § 23.130(b) (“If the Indian child’s Tribe has
established by resolution a different order of preference than that
specified in ICWA, the Tribe’s placement preferences apply.”); id.
§ 23.131(c) (“If the Indian child’s Tribe has established by resolution
a different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply, so long as the placement is the
least-restrictive setting appropriate to the particular needs of the
Indian child, as provided in paragraph (a) of this section.”).
134

318a
§ 1915(c) invalidly attempts to delegate Congress’s
“inherent legislative power to create law.” Brackeen, 338
F. Supp. 3d at 536. Second, even if § 1915(c) delegates
only regulatory power, that power cannot be delegated
outside the federal government to an Indian tribe. The
panel reversed, reasoning that the provision merely
exercised Congress’s longstanding authority to
“incorporate the laws of another sovereign into federal
law” and that tribes have “inherent authority” to
regulate their members and domestic relations.
Brackeen, 937 F.3d at 436–37. We agree with the district
court that § 1915(c) impermissibly delegates legislative
power to Indian tribes.
1.
“The nondelegation doctrine is rooted in the principle
of separation of powers that underlies our tripartite
system of Government.” Mistretta v. United States, 488
U.S. 361, 371 (1989). Typically, a nondelegation claim
challenges Congress’s “transferring its legislative power
to another branch of Government.” Gundy v. United
States, 139 S. Ct. 2116, 2121 (2019) (plurality op.); see
also, e.g., Whitman v. Am. Trucking Ass’ns, 531 U.S.
457, 472 (2001) (a delegation challenge asks “whether the
statute has delegated legislative power to [an] agency”).
Such challenges are usually unsuccessful because the
Supreme Court requires Congress to provide only an
“intelligible principle” guiding execution of the delegated
authority. See Touby v. United States, 500 U.S. 160, 165
(1991); see also, e.g., United States v. Whaley, 577 F.3d
254, 263 (5th Cir. 2009) (the “modern [nondelegation]
test is whether Congress has provided an ‘intelligible
principle’ to guide the agency’s regulations,” which “can
be broad”) (citations omitted). But § 1915(c), as the

319a
district court correctly recognized, presents an atypical
nondelegation issue for two main reasons: the statute
delegates
lawmaking—not
merely
regulatory—
authority, and it does so to an entity outside the federal
government.
“The fundamental precept of the delegation doctrine
is that the lawmaking function belongs to Congress, and
may not be conveyed to another branch or entity.”
Loving v. United States, 517 U.S. 748, 758 (1996) (citing
U.S. CONST., art. I, § 1; Field v. Clark, 143 U.S. 649, 692
(1892)). That forbidden conveyance is what § 1915(c)
purports to do. It does not delegate to tribes authority
merely to regulate under Congress’s general guidelines.
Cf., e.g., Touby, 500 U.S. at 165 (nondelegation not
implicated “merely because [Congress] legislates in
broad terms, leaving a certain degree of discretion to
executive or judicial actors”) (citing J.W. Hampton, Jr.,
& Co. v. United States, 276 U.S. 394, 409 (1928)). Rather,
it empowers tribes to change the substantive
preferences Congress enacted in § 1915(a) and (b) and to
bind courts, agencies, and private persons to follow
them. As the district court correctly reasoned, “[t]he
power to change specifically enacted Congressional
priorities and impose them on third parties can only be
described as legislative.” Brackeen, 338 F. Supp. 3d at
537; see also INS v. Chadha, 462 U.S. 919, 952 (1983)
(explaining “action that had the purpose and effect of
altering the legal rights, duties and relations of persons”
is “essentially legislative in purpose and effect”). This
“delegation of power to make the law,” Chief Justice
Marshall explained long ago, “cannot be done.” Loving,
517 U.S. at 759 (quoting Wayman v. Southard, 23 U.S.
(10 Wheat.) 1, 42 (1825) (Marshall,C.J.)); see also A.L.A.

320a
Schechter Poultry Corp. v. United States, 295 U.S. 495,
529 (1935) (“The Congress is not permitted to abdicate
or to transfer to others the essential legislative functions
with which it is vested.”).
If Congress wants to enact a new order of
preferences, it must follow the constitutional demands of
presentment and bicameralism. See U.S. CONST. art. I,
§ 1; id. § 7, cl. 2, 3; see also, e.g., Chadha, 462 U.S. at 951
(“[T]he Framers were acutely conscious that the
bicameral requirement and the Presentment Clauses
would serve essential constitutional functions.”). But
§ 1915(c) orchestrates their evasion. Just as Congress
cannot authorize laws to be amended by a single
chamber, see Chadha, 462 U.S. at 959, or by the
President, see Clinton v. City of New York, 524 U.S. 417,
447–48 (1998), it may not empower laws to be rewritten
by an outside entity. For instance, in Metropolitan
Washington Airports Authority v. Citizens for the
Abatement of Aircraft Noise, Inc., 501 U.S. 252, 276
(1991), Congress established a Board of Review,
composed of nine members of Congress, that exercised
veto power over a regional airport authority. The Court
held the Board’s authority was an unconstitutional
delegation of federal power: Congress may “act with
conclusive effect” only “through enactment by both
Houses and presentment to the President.” Id. at 275
n.19 (quoting Bowsher, 478 U.S. at 759 (Stevens, J.,
concurring in the judgment)). If Congress could delegate
such authority to another entity, “it would be able to
evade the carefully crafted restraints spelled out in the

321a
Constitution.” Id. at 275 n.20 (quoting Bowsher, 478 U.S.
at 755 (Stevens, J., concurring in the judgment)). 135
These principles bar the delegated authority
exercised by a tribe under § 1915(c). In § 1915(a) and (b),
Congress set forth a statutory order of preferences for
placing Indian children, but § 1915(c) gives tribes the
authority by “resolution” to overrule this order. The
tribe can thereby “amend[] the standards” Congress
enacted, Chadha, 462 U.S. at 954, sapping them of “legal
force or effect,” Clinton, 524 U.S. at 438. As a result, a
state court or agency must no longer follow the priorities
voted on by Congress and signed by the President in
adjudicating an Indian child’s placement. Instead they
“shall follow” the tribe’s priorities. § 1915(c). Whether
Congress “intended such a result” is “of no moment.”
Clinton, 524 U.S. at 445-46. Congress cannot validly
enact something called “Public Law [95-608] as modified
by [an Indian child’s tribe].” Id. at 448. The Constitution
bars Congress from authorizing action that “alter[s] the
legal rights, duties, and relations of persons . . . outside
the Legislative Branch.” Metro. Wash. Airports, 501
U.S. at 276 (quoting Chadha, 462 U.S. at 951). 136
JUDGE DENNIS suggests that, by discussing the
Constitution’s presentment and bicameralism requirements, we
have sua sponte raised an issue not addressed by the district court
or the parties. DENNIS OP. at 132. Not so. Nondelegation,
presentment, and bicameralism are interrelated doctrines, as
JUDGE DENNIS himself recognizes. See id. (stating that the
nondelegation inquiry “already accounts for bicameralism and
presentment”) (citing, inter alia, John F. Manning, The
Nondelegation Doctrine as a Canon of Avoidance, 2000 SUP. CT.
REV. 223, 240 (2000)).
136
JUDGE DENNIS tries to compare § 1915(c) to federal laws that
“set a default standard that applies unless another party chooses to
act.” DENNIS OP. at 134. The cited laws, however, empower agencies
135

322a
Finally, even assuming § 1915(c) delegates only
regulatory—as opposed to legislative—authority, it is
still unconstitutional because it delegates that authority
outside the federal government. “By any measure,
handing off regulatory power to a private entity is
‘legislative delegation in its most obnoxious form.’” Dep’t
of Transp. v. Ass’n of Am. R.R., 575 U.S. 43, 62 (2015)
(Alito, J., concurring) (quoting Carter v. Carter Coal Co.,
298 U.S. 238, 311 (1936)); see also, e.g., Gary Lawson,
Delegation and Original Meaning, 88 VA. L. REV. 327,
351–53 (2002) (explaining that delegating executive
power to non-federal actors violates Article II
Appointments and Take-Care Clauses). An Indian tribe
is “not part of the Government at all,” which “would
necessarily mean that it cannot exercise… governmental
power.” Ass’n of Am. R.R., 575 U.S. at 1253 (Thomas, J.,
concurring). To be sure, Indian tribes are often
described as “possessing attributes of sovereignty,”
United States v. Mazurie, 419 U.S. 544, 557 (1975) (citing
Worcester, 31 U.S. at 557), but this sovereignty has “‘a
or other government actors only to grant waivers from otherwise
applicable requirements, not to re-write enacted statutes. See id. at
134–35 (citing, inter alia, 16 U.S.C. § 1536(h)(1), allowing a
committee to “grant an exemption” from certain requirements of
the Endangered Species Act). Indeed, one of the cases JUDGE
DENNIS cites upheld a similar waiver provision against a
nondelegation challenge in part because “the Secretary ha[d] no
authority to alter the text of any statute, repeal any law, or cancel
any statutory provision, in whole or in part.” Def. of Wildlife v.
Chertoff, 527 F. Supp. 2d 119, 124 (D.D.C. 2007) (addressing
Secretary of Homeland Security’s authority to waive federal
environmental law under the REAL ID Act of 2005) (emphasis
added). Unlike the waiver provisions JUDGE DENNIS cites, § 1915(c)
empowers tribes to “alter the text” of the placement preferences
Congress enacted in § 1915(a) and (b).

323a
unique and limited character’ . . . center[ed] on the land
held by the tribe and on tribal members within the
reservation.” Plains Commerce Bank v. Long Family
Land & Cattle Co., 554 U.S. 316, 327 (2008) (quoting
United States v. Wheeler, 435 U.S. 313, 323 (1978) and
citing Mazurie, 419 U.S. at 557). As relevant here,
Indians have no sovereignty over non-Indians and no
sovereignty over state proceedings. See, e.g., Plains
Commerce Bank, 554 U.S. at 330 (“[E]fforts by a tribe to
regulate nonmembers, especially on non-Indian fee land,
are ‘presumptively invalid.’”) (quoting Atkinson Trading
Co. v. Shirley, 532 U.S. 645, 659 (2001)); see also infra
(discussing this proposition in greater detail). 137
In sum, § 1915(c) violates the nondelegation doctrine,
either because it delegates Congress’s lawmaking

137
JUDGE DENNIS counters that § 1915(c) is like “long
approved” federal laws “that permit another sovereign to supply
key aspects of the law”—for instance, when 42 U.S.C. § 1983
incorporates a state limitations period. DENNIS OP. at 136. We
disagree. Section 1915(c) permits tribes, not merely to “supply key
aspects of the law,” but to change the order of preferences Congress
enacted. Supplementing § 1983 actions with state limitations
periods is a different animal. Congress “endorse[d] the borrowing
of state-law limitations provisions” in § 1988, but only “where doing
so is consistent with federal law.” Owens v. Okure, 488 U.S. 235, 239
(1989). It is one thing for a state statute to supplement an otherwisesilent federal provision; it is quite another for a state (or a tribe) to
alter the provisions of enacted federal law. In a similar vein, JUDGE
DENNIS also cites federal laws supposedly delegating to “separate
sovereign[s]” authority to change “the federal standard in matters
related to the sovereign’s jurisdiction.” DENNIS OP. at 134–35
(emphasis omitted) (citing, e.g., 20 U.S.C. § 1415(b)(6)(B), allowing
state law to set time limitation for bringing an IDEA administrative
claim). This again misses the point. None of these laws allows a
different sovereign to alter the text of enacted federal law.

324a
function or because it delegates authority to entities
outside the federal government altogether.
2.
Defendants’ arguments to the contrary are
unavailing.
Defendants first argue that § 1915(c) is not a
delegation at all but only another example of Congress’s
adopting the laws of another sovereign. For example,
they rely on United States v. Sharpnack, 355 U.S. 286
(1958), which upheld the Assimilative Crimes Act
(“ACA”) against a nondelegation challenge. Applying to
federal enclaves, the ACA criminalizes actions that
“would be punishable . . . within the jurisdiction of the
State, Territory, Possession, or District in which such
place is situated.” Id. at 287–88; see 18 U.S.C. § 13(a).
“Rather than being a delegation by Congress of its
legislative authority to the States,” Sharpnack held this
practice is “a deliberate continuing adoption by
Congress for federal enclaves” of crimes that “have been
already put in effect by the respective States.” 355 U.S.
at 294.
Defendants contend ICWA § 1915(c) merely follows
the pattern of the ACA by incorporating another
sovereign’s law. We disagree. The ACA’s strategy is to
“borrow[] state law to fill gaps in the federal criminal law
on enclaves.” Parker Drilling Mgmt. Servs., Ltd. v.
Newton, 139 S. Ct. 1881, 1891 (2019) (cleaned up). Section
1915(c) of ICWA does not “fill gaps” in federal law; it
empowers tribes to change federal law. Cf., e.g., Lewis,
523 U.S. at 160 (explaining the ACA fills gaps only
“where Congress has not defined the missing offenses”)
( cleaned up). Moreover, the Supreme Court has clarified
that the ACA cannot adopt state laws that “effectively

325a
rewrite an offense definition that Congress carefully
considered.” Id. at 164 (citing Williams v. United States,
327 U.S. 711, 718 (1946)). As a result, the ACA’s
“continuing adoption” of state law does not evade the
Constitution’s lawmaking requirements. ICWA does:
§ 1915(c) contemplates that tribal “resolution[s]” will
supersede law already enacted in §§ 1915(a) and (b). 138
Defendants next rely on United States v. Mazurie.
That decision addressed whether, pursuant to a federal
statute, a tribe could regulate alcohol sales on non-Indian
fee lands within the boundaries of its reservation. 419
U.S. at 546–48. The Supreme Court held the tribe could
do so on two grounds. First, limitations on delegating
legislative power are “less stringent in cases where the
entity exercising the delegated authority itself possesses
independent authority over the subject matter.” Id. at
556 (citing United States v. Curtiss-Wright Export
Corp., 299 U.S. 304, 319–22 (1936)). Second, “tribes are
unique
aggregations
possessing
attributes
of
sovereignty over both their members and their
territory,” which empowers them to “regulate[] their
internal and social relations.” Mazurie, 419 U.S. at 557
(citing Worcester, 31 U.S. at 557; Kagama, 118 U.S. at
381–82; McClanahan v. Ariz. State Tax Comm’n, 411
U.S. 164, 173 (1973)). Mazurie does not apply to § 1915(c)
for three reasons.

The same may be said for the Federal Tort Claims Act
(“FTCA”), on which Defendants also rely. The FTCA makes the
United States liable in tort “in accordance with the [state] law of the
place where the act or omission occurred.” 28 U.S.C. § 1346(b)(1).
Like the ACA, the FTCA completes the federal framework by
adopting state law.
138

326a
First, Indian tribes lack “independent authority”
over off-reservation matters. The Supreme Court—
citing Mazurie—has held that tribes’ “unique and
limited” sovereignty “centers on the land held by the
tribe and on tribal members within the reservation.”
Plains Commerce Bank, 554 U.S. at 330 (citing Mazurie,
419 U.S. at 557). Section 1915(c), however, empowers
tribes to alter placement preferences with respect to offreservation activities. Second, tribes have only sharply
limited authority over nonmembers. See, e.g., Montana
v. United States, 450 U.S. 544, 565 (1981) (holding a
tribe’s “inherent sovereign powers . . . do not extend to
the activities of nonmembers of the tribe”). Section
1915(c), however, empowers tribes to affect the rights of
non-Indian foster and adoptive parents. Third, and most
importantly, Mazurie does not even hint that tribes have
authority to bind state courts and agencies. To the
contrary, the statute in Mazurie explicitly provided that
tribal ordinances could be promulgated only “so long as
state law was not violated.” 419 U.S. at 547 (citing 18
U.S.C. § 1161). Thus, Mazurie could not support the
proposition that Congress can delegate to a tribe
authority to bind state courts or agencies. Defendants
cite no other authority for that unheard-of proposition. 139
JUDGE DENNIS suggests that, regardless of a tribe’s inherent
sovereignty, Congress can extend a tribe’s jurisdiction over state
proceedings through “express authorization” in a federal statute or
treaty. DENNIS OP. at 128 (quoting Strate v. A-1 Contractors, 520
U.S. 438, 445 (1997)). No authority supports that proposition. The
case JUDGE DENNIS cites addresses, like Mazurie, only whether
Congress may authorize tribes to exercise authority over
nonmembers within their reservations. See Bugenig v. Hoopa
Valley Tribe, 266 F.3d 1201, 1223 (9th Cir. 2001) (en banc)
(upholding federal statute that “ratified” tribe’s governing
139

327a
***
For these reasons, we hold that § 1915(c) and its
implementing regulations unconstitutionally delegate
federal legislative power.
D. Administrative Procedure Act
We now consider whether the Final Rule violates the
APA. The district court held it did for three reasons.
First, the court set aside the parts of the Final Rule that
implement the statutory provisions the court found
unconstitutional. Brackeen, 338 F.Supp.3d at 541-41.
Second, in the alternative the court found the BIA
exceeded its authority by issuing regulations binding on
state courts. Id. at 542-44. See 81 Fed. Reg. at 38,785–86.
Third, the court separately found invalid 25 C.F.R.
§ 23.132(b), which requires that “good cause” to depart
from the placement preferences be proved by clear and
convincing evidence. Id. at 544-46. The panel reversed.
Brackeen, 937 F.3d at 437–41. It found ICWA
constitutional, id. at 437, and the BIA’s interpretive
views entitled to Chevron deference, id. at 438–41.
We review the agency’s interpretation of ICWA
under the two-step framework from Chevron, USA, Inc.
v. Natural Resources Defense Council, Inc., 467 U.S. 837
(1984); see generally, e.g., Sw. Elec. Power Co., 920 F.3d
at 1014 (discussing Chevron). At step one, we ask
“whether Congress has directly spoken to the precise
question at issue.” Chevron, 467 U.S. at 842. We answer
that question by “exhaust[ing] all the ‘traditional tools’
of construction,” including “text, structure, history, and

documents giving it power to regulate reservation property,
including nonmembers’ property).

328a
purpose.” Kisor v. Wilkie, 139 S. Ct. 2400, 2415 (2019)
(quoting Chevron, 467 U.S. at 843 n.9;
Pauley v. BethEnergy Mines, Inc., 501 U.S. 680, 707
(1991) (Scalia, J., dissenting)). If that holistic reading of
the statute settles the matter, Chevron ends: we “must
give effect to the unambiguously expressed intent of
Congress.” Chevron, 467 U.S. at 842–43. On the other
hand, if the statute is “truly ambiguous” on the question,
Kisor, 139 S. Ct. at 2414, we proceed to step two, “asking
whether the agency’s construction of the statute is
‘permissible.’” Sw. Elec. Power Co., 920 F.3d at 1014
(quoting Chevron, 467 U.S. at 843). A permissible
construction
is
one
that
“reasonabl[y]
accommodat[es]…conflicting
policies
that
were
committed to the agency’s care by the statute.” Chevron,
467 U.S. at 845 (quoting United States v. Shimer, 367
U.S. 374, 382 (1961)).
1.
Having found parts of ICWA unconstitutional (supra
III(A)–(C)), we agree with the district court that the
Final Rule is invalid to the extent it implements those
unconstitutional statutory provisions. See Brackeen, 338
F.Supp.3d at 541–42; see also 5 U.S.C. § 706(2)(A)
(authorizing courts to set aside “unlawful” agency
action); see also F.C.C. v. Fox Television Stations, Inc.,
556 U.S. 502, 516 (2009) (explaining “unlawful” agency
action “includes unconstitutional action”); Texas v.
United States, 497 F.3d 491, 500–01 (5th Cir. 2007)
(observing “[t]he authority of administrative agencies is
constrained by the language of the statutes they
administer”) (citing Massachusetts v. EPA, 549 U.S. 497,
532 (2007)). In the alternative, we address below the

329a
more specific grounds on which the district court
concluded the Final Rule was unlawful.
2.
The district court found the Final Rule invalid
because it purports to bind state courts’ implementation
of ICWA. Its ruling appears to rely on both Chevron step
one and two. See Brackeen, 338 F.Supp.3d at 542–44.
Defending the ruling on appeal, Individual Plaintiffs
focus on step two, arguing the BIA’s “novel
interpretation” of its authority in the Final Rule—which
reverses BIA’s position in the 1979 guidelines—does not
merit Chevron deference. See Chamber of Commerce v.
U.S. Dep’t of Labor, 885 F.3d 360, 380–81 (5th Cir. 2018)
(treating this “novel interpretation” argument under
Chevron step two). We resolve this question under step
two. Therefore, we assume ICWA is “silent or
ambiguous” on whether the BIA has authority to bind
state courts. Chevron, 467 U.S. at 843. We ask only
whether the BIA’s 2016 stance is a “permissible
construction of the statute.” Id.
In 1979, mere months after enactment, the BIA
emphatically concluded that ICWA did not authorize the
agency to bind state courts’ implementation of the
statute. 44 Fed. Reg. at 67,584. It would be “an
extraordinary step,” the BIA wrote, “[f]or Congress to
assign to an administrative agency such supervisory
control over courts.” Id. The agency recognized that
§ 1952 authorized it to issue rules “necessary to carry out
[ICWA].” Id. But § 1952, the BIA explained, allowed it to
make binding rules only for those parts of ICWA
delegating interpretive responsibility to the Secretary of

330a
the Interior. Id. 140 “Nothing” in the section’s text or
history, however, suggested Congress wanted the
agency to “exercise supervisory control over state or
tribal courts or to legislate for them with respect to
Indian child custody matters.” Id. The agency declined
to attribute to Congress “a measure so at odds with
concepts of both federalism and separation of powers . . .
in the absence of an express declaration of Congressional
intent to that effect.” Id. After operating with this
understanding for 37 years, however, the agency
reversed course in 2016, determining that § 1952
authorizes it to “set binding standards for Indian childcustody proceedings in State courts.” 81 Fed. Reg. at
38,785.
When an agency abruptly departs from a
longstanding position, its “‘current interpretation . . . is
entitled to considerably less deference.’” Chamber of
Commerce, 885 F.3d at 381 (quoting Watt v. Alaska, 451
U.S. 259, 272–73 (1981)). Here, the agency “claims to
discover in a long-extant statute an unheralded power”
of binding state courts’ implementation of ICWA, and so
we “greet its announcement with a measure of
skepticism.” Util. Air Regul. Grp. v. EPA, 573 U.S. 302,
324 (2014) (“UARG”). Indeed, BIA’s “turnaround” from
its previous stance “alone gives us reason to withhold
approval or at least deference for the Rule.” Chamber of
As an example, the agency cited § 1918, under which “the
Secretary is directed to determine whether a plan for reassumption
of jurisdiction is ‘feasible’ as that term is used in the statute.” 44
Fed. Reg. at 67,584. The agency noted it had already promulgated
regulations covering this section as well as “other areas where
primary responsibility for implementing portions of the Act rest
with this Department.” Id. (citing 44 Fed. Reg. 45,092 (July 31,
1979)).
140

331a
Commerce, 885 F.3d at 381 (citing Gen. Elec. Co. v.
Gilbert, 429 U.S. 125, 142 (1976)). This principle is
especially prescient where, as here, the agency’s new
position is “not a contemporaneous interpretation of
[ICWA]” and “flatly contradicts the position which the
agency had enunciated at an earlier date, closer to the
enactment of the governing statute.” Id. (quoting
Gilbert, 429 U.S. at 142); see also Udall v. Tallman, 380
U.S. 1, 16 (1965) (giving “particular[] . . . respect” to the
“contemporaneous construction of a statute by the men
charged with the responsibility of setting its machinery
in motion”) (cleaned up). To be sure, an agency’s
changing its mind does not alone defeat Chevron
deference. See, e.g., Gonzalez-Veliz v. Barr, 938 F.3d 219,
234 (5th Cir. 2019) (“An agency is not permanently bound
to the first reasoned decision that it makes.”). But the
agency must “show that there are good reasons for the
new policy” by providing a “reasoned explanation” for
departing from its previous position. Encino Motorcars,
LLC v. Navarro, 136 S. Ct. 2117, 2126 (2016) (quoting
Fox Television Stations, 556 U.S. at 515–16). 141 The BIA
has failed to do so here.
JUDGE DENNIS criticizes us for including the agency’s
reversal “as a component of Chevron step two.” DENNIS OP. at 143.
As our discussion shows, however, both our court and the Supreme
Court have considered under Chevron step two an agency’s
reversal-of-position, as well as its belated discovery of novel
authority in statutes it has long administered. See Encino
Motorcars, 136 S. Ct. at 2125–26; UARG, 573 U.S. at 324; Chamber
of Commerce, 885 F.3d at 380–81, 387; see also, e.g., Environmental
Integrity Project v. EPA, 969 F.3d 529, 544 (5th Cir. 2020)
(explaining “we take the agency’s change of position into account”
in deciding whether to apply Skidmore deference). JUDGE DENNIS
himself concedes that, when assessing an agency’s reading of a
statute, “Chevron deference may be withheld if the agency failed to
141

332a
The 1979 BIA explained that empowering a federal
agency to control state courts would be an
“extraordinary” subversion of federalism and separation
of powers. 44 Fed. Reg. at 67,584. BIA’s 2016 response
to this point can charitably be described as anemic. The
agency now says it “reconsidered” its 1979 view because
“Congress enacted ICWA to curtail State authority in
some respects,” including state court authority. 81 Fed.
Reg. at 38,788–89. But that fails to address the serious
question central to the agency’s 1979 position—namely,
whether Congress intended the BIA to control state
courts. The agency also now points out that Congress can
“pass laws enforceable in state courts.” Id. at 38,789
(citing, inter alia, Testa, 330 U.S. at 394). But that
settled principle long pre-dates the 1979 guidelines and,
again, says nothing about whether a federal agency can
control state courts. Moreover, as discussed, the Final
Rule also purports to control state agencies, supra
III(B)(1), which raises anti-commandeering problems
the BIA ignores. The BIA also invokes Congress’s
“plenary power over Indian affairs,” 81 Fed. Reg. at
38,789, but we have explained that mouthing that
shibboleth is not enough to override state sovereignty.
Supra II(A). Finally, purportedly addressing the
“Federalism concerns it noted in 1979,” the BIA now
cites the Supreme Court’s Brand X decision. 81 Fed.
Reg. at 38,789 (citing Nat’l Cable & Telecomm. Ass’n v.
Brand X Internet Servs., 545 U.S. 967, 983 (2005)). But
adequately explain why it shifted to its current interpretation.”
DENNIS OP. at 142 (citing Encino Motorcars, 136 S. Ct. at 2125).
That is the question we confront here—whether the BIA failed to
justify its discovery in § 1952 of authority whose existence it had
denied for the prior forty years.

333a
Brand X has nothing to do with federalism; rather, it
addresses when a federal court’s interpretation of a
statute may deny Chevron deference to a federal
agency’s later interpretation. See id. at 982 (holding
federal court trumps if “its construction follows from the
[statute’s] unambiguous terms”).
The 1979 BIA also concluded that neither § 1952’s
language or history showed Congress gave the agency
supervisory power over state courts. 44 Fed. Reg. at
67,584. The agency reasoned that, by authorizing rules
“necessary to carry out” ICWA, § 1952 only empowered
the BIA to issue regulations “to carry out the
responsibilities Congress had assigned to [the
Department] under [ICWA].” Id. BIA’s 2016 response
fails to engage this reasoning. It merely says that § 1952
is a “broad and general grant of rulemaking authority”
and that courts have held that similar provisions
“presumptively authorize agencies to issue rules and
regulations addressing matters covered by the statute.”
81 Fed. Reg. at 38,786. That ducks the point entirely. No
one doubts the language in § 1952 authorizes agency
rulemaking. See, e.g., Mourning v. Family Pub. Serv.,
411 U.S. 356, 369 (1973). The 1979 BIA asked a different
question: whether § 1952 authorizes regulations that
bind state courts in state proceedings. See 44 Fed. Reg.
at 67,584 (“Nothing in the language or legislative history
of § 1952 compels the conclusion that Congress intended
to vest this Department with such extraordinary
power.”). No case cited by the 2016 BIA confronts that
question. 142 Only one—AT&T Corp. v. Iowa Utilities
See 81 Fed. Reg. at 38,785 (citing AT&T Corp. v. Iowa Utils.
Bd., 525 U.S. 366, 378 (1999); Am. Hosp. Ass’n v. Nat’l Labor
Relations Bd., 499 U.S. 606, 609–10 (1991); Mourning, 411 U.S. at
142

334a
Board—even comes close, but it holds only that a federal
agency can control a state commission’s participation in
a federal telecommunications regime. See 525 U.S. 366,
378 n.6 (1999) (asking whether “the state commissions’
participation in the administration of the new federal
regime is to be guided by federal-agency regulations”).
Here we have the opposite question: whether a federal
agency can control state courts and agencies acting
under state jurisdiction. The 1979 BIA concluded ICWA
did not intend that “extraordinary step,” 44 Fed. Reg. at
67,584, and the 2016 BIA offers no reason whatsoever for
thinking otherwise.
Finally, the BIA defends its new approach as needed
to harmonize “sometimes conflicting” state court
interpretations of ICWA over past decades. 81 Fed. Reg.
at 38,782. Merely because state courts have sometimes
disagreed about ICWA, however, says nothing about
whether Congress empowered the BIA to control how
state courts interpret it. Cf. 44 Fed. Reg. at 67,584
(stating 1979 BIA’s view that state courts “are fully
capable of carrying out the[ir] responsibilities [under
ICWA] without being under the direct supervision of this
Department”). Regardless, the BIA’s 2016 examples
hardly show the “necessity” for such authority. Its prime
example is that some courts created an “existing Indian
369; City of Arlington v. FCC, 133 S. Ct. 1863, 1874 (2013); Qwest
Comm’ns Int’l Inc. v. FCC, 229 F.3d 1172, 1179 (D.C. Cir. 2000)). Of
these cases, JUDGE DENNIS focuses on Mourning because the
agency-empowering language there was “nearly identical” to § 1952.
DENNIS OP. at 141 & n.65. That is irrelevant, however, because
Mourning did not address a federal agency’s power over state
courts or agencies; instead, it addressed the scope of the Federal
Reserve Board’s power to prevent merchants from evading certain
Truth in Lending Act disclosure requirements. 411 U.S. at 361–62.

335a
family” exception to ICWA. 143 But, as the agency admits,
the exception was repudiated by the court that created
it, is now recognized by “[o]nly a handful” of courts, and
has been rejected by a “swelling chorus” of others. 81
Fed. Reg. at 38,801–02.
Also unpersuasive is the BIA’s reliance on Holyfield.
Id. at 38,786. Holyfield held that Congress did not intend
state law to define the term “domicile” in ICWA § 1911,
which gives tribes sole jurisdiction over on-reservation
children. 490 U.S. at 44–47. The BIA claims that, in 1979,
it lacked “the benefit of the Holyfield Court’s carefully
reasoned decision” showing how ICWA could be
undermined by “a lack of uniformity” among state
courts. 81 Fed. Reg. at 38,787. That does not hold water.
Holyfield pitted one state court’s errant interpretation
of ICWA against correct interpretations by “several
other state courts”—hardly an interpretive crisis. 490
U.S. at 41 & n.14. Moreover, the case involved ICWA’s
“key jurisdictional provision” dividing tribal from state
authority, id. at 45, not any provision governing how
state courts apply ICWA. Cf. 44 Fed. Reg. at 67,584 (1979
BIA disclaiming authority over provisions concerning
“the responsibilities of state or tribal courts under the
Act”). And Holyfield was on the books for 27 years
before BIA claimed the decision inspired its 2016 policy
change. 81 Fed. Reg. at 38,787. We treat that latebreaking revelation “with a measure of skepticism.”
UARG, 573 U.S. at 324.

See 81 Fed. Reg. 38782 (citing, e.g., Thompson v. Fairfax Cty.
Dep’t of Family Servs., 747 S.E.2d 838, 847–48 (Va. Ct. App. 2013)).
143

336a
We therefore conclude the 2016 Rule fails to provide
a “reasoned explanation” 144 for reversing the agency’s
nearly forty-year-old interpretation of § 1952 and
discovering novel authority to bind state courts. Encino
Motorcars, 136 S. Ct. at 2126 (quoting Fox Television
Stations, 556 U.S. at 515–16). “An arbitrary and
capricious regulation of this sort is itself unlawful and
receives no Chevron deference.” Id. (citing United States
v. Mead Corp., 533 U.S. 218, 227 (2001)).
3.
The district court separately invalidated 25 C.F.R.
§ 23.132(b), part of the Final Rule that interprets the
“good cause” standard in § 1915. That provision
mandates specific placements for Indian children “in the
absence of good cause to the contrary.” See § 1915(a), (b).
In turn, the Final Rule states: “The party seeking
departure from the placement preferences should bear
the burden of proving by clear and convincing evidence
that there is ‘good cause’ to depart from the placement
preferences.” 25 C.F.R. § 23.132(b) (emphasis added);
see also 81 Fed. Reg. at 38,844. The district court
invalidated this part of the rule under Chevron step one,
concluding it imposes a heightened burden of proof on
JUDGE DENNIS disagrees, arguing the BIA needed to provide
only a “minimal level of analysis” for its new position. DENNIS OP.
at 146 (quoting Encino Motorcars, 136 S. Ct. at 2125). But that is
not the standard. When agencies “change their existing policies,”
they must “provide a reasoned explanation for the change.” Encino
Motorcars, 136 S. Ct. at 2125; see also id. (explaining “a reasoned
explanation is needed for disregarding facts and circumstances that
underlay or were engendered by the prior policy”) (quoting Fox
Television Stations, 556 U.S. at 515–16). As explained, the 2016 BIA
has not provided a “reasoned explanation” for its about-face. It has
provided a series of non sequiturs.
144

337a
§ 1915 without statutory warrant. Brackeen, 338
F.Supp.3d at 545-46. We agree.
The step one inquiry is whether the statute
unambiguously forecloses the agency’s interpretation—
here, specifying a heightened burden for proving “good
cause” under § 1915. That section says nothing about a
burden of proof, as the BIA admits. See 81 Fed. Reg. at
38,843 (noting the clear-and-convincing standard “is not
articulated in section 1915”). The presumption, then, is
that the section incorporates, not a heightened standard
of proof, but the normal preponderance standard. See,
e.g., Grogan v. Garner, 498 U.S. 279, 286 (1991)
(statutory “silence” is “inconsistent with the view that
Congress intended to require a special, heightened
standard of proof”). But we need not rely solely on that
presumption: at step one, we look beyond the “particular
statutory provision in isolation” and read the statute “as
a symmetrical and coherent regulatory scheme.” Sw.
Elec. Power Co., 920 F.3d at 1023 (cleaned up). Doing so,
we find that Congress imposed a “clear and convincing
evidence” standard in a nearby provision: § 1912(e)
forbids foster placement unless “clear and convincing
evidence” shows likely harm from the parent’s continued
custody. The next subsection, § 1912(f), demands an even
higher showing—“beyond a reasonable doubt”—before
terminating the parent’s rights. Congress thus
deliberately included heightened standards for proving
certain matters in § 1912(e) and (f), but not for proving
“good cause” in § 1915. 145 We thus conclude Congress
See Keene Corp. v. United States, 508 U.S. 200, 208 (1993)
(“‘[W]here Congress includes particular language in one section of
a statute but omits it in another . . ., it is generally presumed that
Congress acts intentionally and purposely in the disparate inclusion
145

338a
elected not to impose a heightened standard in § 1915,
foreclosing the agency’s interpretation at Chevron step
one. See Chamber of Commerce, 885 F.3d at 369 (when
statute
“unambiguously
forecloses”
agency
interpretation, “that is the end of the matter”) (quoting
Chevron, 467 U.S. at 842–43) (cleaned up).
JUDGE DENNIS suggests this “negative-implication”
canon of statutory construction does not apply when
assessing the permissible scope of agency action.
DENNIS OP. at 148–49. See generally Jennings v.
Rodriguez, 138 S. Ct. 830, 844 (2018) (discussing
negative-implication or expressio unius est exclusio
alterius canon) (citing SCALIA & GARNER, READING LAW
107 (2012)). We disagree. Courts are to use “all the
‘traditional tools’ of construction” at Chevron step one.
Kisor, 139 S. Ct. at 2415 (quoting Chevron, 467 U.S. at
843 n.9). And both the Supreme Court and our court have
deployed the negative-implication canon in the step one
analysis. 146 The Chevron cases JUDGE DENNIS cites—
which in any event are all out-of-circuit—merely show
that the canon sometimes does not resolve step one. For
instance, by including an agency mandate in one section
but not another, Congress “may simply not have been
focusing on the point in the second context” and so left
“the choice . . . up to the agency.” Clinchfield Coal Co. v.
Fed. Mine Safety & Health Rev. Comm’n, 895 F.2d 773,
or exclusion.’”) (quoting Russello v. United States, 464 U.S. 16, 23
(1983)).
146
See, e.g., Barnhart v. Sigmon Coal Co., Inc., 534 U.S. 438, 452
(2002); Brown v. Gardner, 513 U.S. 115, 120 (1994); Acosta v. Hensel
Phelps Constr. Co., 909 F.3d 723, 732 (5th Cir. 2018); Chamber of
Commerce, 885 F.3d at 373; Luminant Generation Co., LLC v.
EPA, 675 F.3d 917, 929 (5th Cir. 2012); Miss. Poultry Ass’n, Inc. v.
Madigan, 992 F.2d 1359, 1363–64 & n.29 (5th Cir. 1993).

339a
779 (D.C. Cir. 1990); see also, e.g., Catawba County v.
EPA, 571 F.3d 20, 36 (D.C. Cir. 2009). There is no
evidence of that here, however. To the contrary,
Congress explicitly mandated heightened standards-ofproof in sections addressing foster and adoptive
placements (§ 1912(e) and (f)), but not in a nearby section
(§ 1915) addressing departures from placement
preferences. Far from suggesting Congress left the
standard-of-proof up to the agency, this pattern “signals
the intentional omission” of a heightened standard from
§ 1915, a decision the agency cannot second-guess.
Chamber of Commerce, 885 F.3d at 373 (citing Russello,
464 U.S. at 23).
Sitting this debate out, the Federal Defendants’ sole
response is that the Final Rule suggests but does not
require the clear-and-convincing-evidence standard.
They argue that § 23.132(b) says only that courts
“should” impose that standard, and also point out that
the regulations state the rule “does not categorically
require [it]” and “declines to establish a uniform
standard of proof.” 81 Fed. Reg. 38,843. We are unsure
what to make of this strange argument. The Final Rule’s
whole purpose was to impose “uniformity” on state
courts, id. at 38,779, and the term “should” often
“create[s] mandatory standards.” Should, GARNER’S
DICTIONARY OF LEGAL USAGE (3d ed. 2011). Moreover,
the state courts hearing Plaintiffs’ cases have not read
the rule as a mere suggestion. Thus, whatever credence
we might give to the Federal Defendants’ view, we would
still find the rule invalid at step one because it seeks to
create (and has in fact created) a heightened standardof-proof in contravention of § 1915.

340a
Alternatively, we would find this part of the rule
invalid at Chevron step two. As discussed above, we view
with “skepticism” an agency’s departure from
longstanding practices, especially those adopted
contemporaneously with the statute’s enactment.
Chamber of Commerce, 885 F.3d at 381 (quoting UARG,
573 U.S. at 324); supra III(D)(1). The BIA’s 2016
treatment of the § 1915 “good cause” determination is
strikingly at odds with its 1979 position. In 1979, the BIA
wrote that ICWA’s “use of the term ‘good cause’ was
designed to provide state courts with flexibility in
determining the disposition of a placement proceeding
involving an Indian child.” 44 Fed. Reg. at 67,484. This
supported BIA’s position that “[p]rimary responsibility
for interpreting” ICWA’s language “rests with the
courts that decide Indian child custody cases.” Id. In
2016, BIA did a 180-degree reversal—seeking to impose
a one-size-fits-all standard on what it previously stated
was a “flexible” inquiry—without giving the “reasoned
explanation” needed to justify discarding a longstanding
agency view. Gonzalez-Veliz, 938 F.3d at 234 (quoting
Encino Motorcars, 136 S. Ct. at 2126). The agency’s sole
justification was that state courts have “almost
universally” adopted this standard. 81 Fed. Reg. at
38,843. But that undermines the agency’s position. A
near-consensus by state courts in applying the statute—
one they have “primary responsibility” for
administering, 44 Fed. Reg. at 67,487—hardly justifies
the BIA’s newfound view that it must impose uniformity
on those same courts.

341a
E. Remedy
We now address the question of remedy. Plaintiffs’
second amended complaint, the one operative here,
sought a declaration that specific sections of ICWA are
unconstitutional and an injunction prohibiting the
Federal
Defendants
from
implementing
or
administering those sections. It also sought vacatur of
the Final Rule. The district court, however, granted only
declaratory relief as to specific provisions of ICWA and
the Final Rule, and Plaintiffs have not cross-appealed
seeking to modify the district court’s judgment. See, e.g.,
Cooper Indus., Ltd. v. Nat’l Union Fire Ins. Co. of
Pittsburgh, Pa., 876 F.3d 119, 127 (5th Cir. 2017)
(explaining that “even a prevailing party must file a
cross-appeal to seek a modification of a judgment”)
(citing Ward v. Santa Fe Indep. Sch. Dist., 393 F.3d 599,
604 (5th Cir. 2004)). Having found discrete parts of
ICWA and the Final Rule unconstitutional and unlawful,
we would therefore affirm the district court’s judgment
to that extent. Specifically: (1) we would declare that the
noted sections of ICWA are unconstitutional; 147 and (2)
we would declare that the noted provisions of the Final
Rule are unlawful under § 706 of the APA. 148

147
Those are: (1) 25 U.S.C. §§ 1915(a), 1915(b), 1913(d), 1914
(equal protection); (2) 25 U.S.C. §§ 1912(a), 1912(d), 1912(e), 1912(f),
1915(a), 1915(b), 1915(e), 1951(a) (anti-commandeering); and (3) 25
U.S.C. § 1915(c) (nondelegation).
148
Those are: (1) all parts of the Final Rule that implement the
ICWA provisions declared unconstitutional; (2) all parts of the Final
Rule that purport to bind state courts; and (3) the requirement in
25 C.F.R. § 23.132(b) that good cause to depart from the placement
preferences be proved “by clear and convincing evidence.”

342a
Finally, a word about severability. The modern
Supreme Court applies a “severability doctrine” to
determine whether invalid parts of a statute may be
excised from the rest. See, e.g., Free Enter. Fund, 561
U.S. at 508 (“‘Generally speaking, when confronting a
constitutional flaw in a statute, we try to limit the
solution to the problem,’ severing any ‘problematic
portions while leaving the remainder intact.’”) (quoting
Ayotte v. Planned Parenthood of Northern New Eng.,
546 U.S. 320, 328–29 (2006)). For at least two reasons,
however, we need not perform that analysis here.
First, Plaintiffs do not challenge all of ICWA but only
particular provisions. We can therefore grant Plaintiffs
appropriate relief without delving into severability. 149 In
that way, this case differs from cases where deciding
severability was necessary to fashion appropriate relief.
Cf., e.g., Barr v. Am. Ass’n of Pol. Consultants, 140 S. Ct.
2335, 2349 (2020) (plaintiffs invoked “ordinary
severability principles” to argue for complete relief on
their First Amendment claim); Seila Law LLC v.
Consumer Fin. Prot. Bureau, 140 S. Ct. 2183, 2208
(2020) (observing “[t]here is a live controversy between
the parties on th[e] question [of severability], and
resolving it is a necessary step in determining
petitioner’s entitlement to its requested relief”). Second,
the parties’ briefing contains little substantive analysis
on this point. We decline to perform a severability

See, e.g., 28 U.S.C. § 2201(a) (authorizing courts to “declare
the rights and other legal relations of any interested party” in “a
case of actual controversy within its jurisdiction”); 5 U.S.C. § 706(2)
(authorizing courts to “hold unlawful and set aside agency action,
findings, and conclusions” under various circumstances).
149

343a
analysis of a complex statute like ICWA when the parties
have not deeply engaged with the issue. 150

Even were we so inclined, we note that ICWA contains a
severability clause. See 25 U.S.C. § 1963. In that event, “[a]t least
absent extraordinary circumstances, the Court should adhere to the
text of the severability or nonseverability clause” because the clause
“leaves no doubt about what the enacting Congress wanted if one
provision of the law were later declared unconstitutional.”
American Ass’n, 140 S. Ct. at 2349.
150

